<html>
<title> - NOMINATION TO THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION, THE CONSUMER PRODUCT SAFETY COMMISSION, AND THE U.S. DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 115-643]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-643

                       NOMINATION TO THE NATIONAL
                 AERONAUTICS AND SPACE ADMINISTRATION,
                THE CONSUMER PRODUCT SAFETY COMMISSION,
                  AND THE U.S. DEPARTMENT OF COMMERCE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 1, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                Available online: http://www.govinfo.gov
                
                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-226 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail,<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6007100f200315131408050c104e030f0d4e">[email&#160;protected]</a>                          
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 1, 2017.................................     1
Statement of Senator Thune.......................................     1
    Prepared statement of Hon. Richard Burr, U.S. Senator from 
      North Carolina.............................................    35
        Letters and articles of support for Hon. James 
          Bridenstine 


Statement of Senator Nelson......................................     3
    Prepared statement...........................................     5
    National Review op-ed dated February 16, 2016 entitled ``Ted 
      Cruz's True Record on Military Funding and National 
      Security Is Unassailable'' by Jim Bridenstine..............    62
Statement of Senator Inhofe......................................     7
Statement of Senator Wicker......................................    50
Statement of Senator Schatz......................................   121
Statement of Senator Udall.......................................   123
Statement of Senator Lee.........................................   125
Statement of Senator Peters......................................   128
Statement of Senator Hassan......................................   133
Statement of Senator Cortez Masto................................   135
Statement of Senator Moran.......................................   137
Statement of Senator Markey......................................   139
Statement of Senator Blumenthal..................................   140
Statement of Senator Gardner.....................................   142
Statement of Senator Booker......................................   144
    Letter dated June 20, 2012 from Gregory T. Colpitts, Esq., 
      The Colpitts Law Firm......................................   144
    Copies of Form 990--Return of Organization Exempt From Income 
      Tax regarding Jim Bridenstine from 2008 through 2015.......   146
    Article dated February 5, 2012 written by Jim Bridenstine on 
      the subject of marriage....................................   155
    Statement in the Congressional Record dated May 20, 2012 by 
      Jim Bridenstine regarding the Boy Scouts of America........   155
Statement of Senator Duckworth...................................   156
Statement of Senator Klobuchar...................................   158
Statement of Senator Cruz........................................   159

                               Witnesses

Hon. James Bridenstine, Nominee to be Administrator, National 
  Aeronautics and Space Administration...........................     7
    Prepared statement...........................................     9
    Biographical information.....................................    11
Dana Baiocco, Nomine to be Commissioner, Consumer Product Safety 
  Commission.....................................................    25
    Prepared statement...........................................    27
    Biographical information.....................................    28
Neil Jacobs, Jr., Ph.D., Nominee to be Assistant Secretary of 
  Commerce, Environmental Observation and Prediction.............    35
    Prepared statement...........................................    37
    Biographical information.....................................    38
Nazakhtar (``Nazak'') Nikakhtar, Nominee to be Assistant 
  Secretary, Industry and Analysis, U.S. Department of Commerce..    51
    Prepared statement...........................................    53
    Biographical information.....................................    54

                                Appendix

Letter of opposition dated October 26, 2017 from Patty Murray, 
  United States Senator..........................................   165
Letter of opposition dated October 31, 2017 from the following: 
  Climate Hawks Vote, Hip Hop Caucus, League of Conservation 
  Voters, Natural Resources Defense Council, NextGen America, 
  Public Citizen, Sierra Clue, and Students for a Just and Stable 
  Future.........................................................   167
Response to written questions submitted to Hon. James Bridenstine 
  by:
    Hon. Roger F. Wicker.........................................   167
    Hon. Deb Fischer.............................................   168
    Hon. Dean Heller.............................................   169
    Hon. Jim Inhofe..............................................   169
    Hon. Mike Lee................................................   171
    Hon. Shelley Moore Capito....................................   172
    Hon. Todd Young..............................................   173
    Hon. Bill Nelson.............................................   173
    Hon. Maria Cantwell..........................................   175
    Hon. Richard Blumenthal......................................   175
    Hon. Amy Klobuchar...........................................   179
    Hon. Tom Udall...............................................   180
    Hon. Gary Peters.............................................   181
    Hon. Cory Booker.............................................   182
    Hon. Tammy Duckworth.........................................   183
    Hon. Maggie Hassan...........................................   183
    Hon. Catherine Cortez Masto..................................   185
Response to written questions submitted to Dana Baiocco by:
    Hon. Bill Nelson.............................................   186
    Hon. Maria Cantwell..........................................   187
    Hon. Amy Klobuchar...........................................   188
    Hon. Richard Blumenthal......................................   189
    Hon. Edward Markey...........................................   194
    Hon. Tom Udall...............................................   198
    Hon. Catherine Cortez Masto..................................   199
Response to written questions submitted to Neil Jacobs, Jr. by:
    Hon. Bill Nelson.............................................   200
    Hon. Maria Cantwell..........................................   203
    Hon. Richard Blumenthal......................................   204
    Hon. Brian Schatz............................................   204
    Hon. Edward Markey...........................................   205
    Hon. Tom Udall...............................................   205
    Hon. Gary Peters.............................................   206
    Hon. Cory Booker.............................................   208
    Hon. Maggie Hassan...........................................   209
    Hon. Catherine Cortez Masto..................................   210
Response to written questions submitted to Nazakhtar Nikakhtar 
  by:
    Hon. Todd Young..............................................   211
    Hon. Bill Nelson.............................................   212
    Hon. Maria Cantwell..........................................   213
    Hon. Amy Klobuchar...........................................   215
    Hon. Richard Blumenthal......................................   216
    Hon. Tom Udall...............................................   216
    Hon. Gary Peters.............................................   217
    Hon. Catherine Cortez Masto..................................   218

 
                       NOMINATION TO THE NATIONAL
                 AERONAUTICS AND SPACE ADMINISTRATION,
                      THE CONSUMER PRODUCT SAFETY
            COMMISSION, AND THE U.S. DEPARTMENT OF COMMERCE

                              ----------                              


                      WEDNESDAY, NOVEMBER 1, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:33 a.m. in 
Room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Cruz, Fischer, 
Moran, Sullivan, Inhofe, Lee, Moore Capito, Gardner, Young, 
Nelson, Udall, Peters, Duckworth, Hassan, and Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning.
    I want to say thank you to Congressman Bridenstine, to Ms. 
Baiocco, to Dr. Jacobs, and to Ms. Nikakhtar for being here, 
and for your willingness to serve in the important positions to 
which you have been nominated.
    We have four well-qualified nominees before our Committee 
today. Congressman James Bridenstine has been nominated to 
serve as the next NASA Administrator. He was elected in 2012 to 
represent Oklahoma's First Congressional District, and 
currently serves on the House Armed Services Committee, and the 
Science, Space, and Technology Committee.
    Congressman Bridenstine also has a distinguished military 
career, beginning in the Navy flying the E-2C Hawkeye off the 
USS Abraham Lincoln aircraft carrier, from which he flew combat 
missions in Iraq and Afghanistan. While on active duty, he 
transitioned to the F-18 Hornet and flew as an ``aggressor'' at 
the Naval Strike and Air Warfare Center.
    After leaving active duty, Congressman Bridenstine flew 
counterdrug missions in Central and South America in the Navy 
Reserve, and currently is a member of the 137th Special 
Operations Wing of the Oklahoma Air National Guard.
    During his tenure in Congress, Representative Bridenstine 
has established a reputation as a leader on space policy. In 
fact, one of his most well known supporters is the former 
astronaut, and the second human to step foot on the moon, 
Colonel Buzz Aldrin.
    Another supporter, John Hamre, former Deputy Secretary of 
Defense under President Clinton, and current President and CEO 
of the Center for Strategic and International Studies, said of 
him, ``I have worked with Members of Congress for 40 years. 
Only very rarely have I seen a Member of Congress with such 
intensity and sophistication on an urgent national priority.''
    I know that many on this Committee, particularly the 
Ranking Member, are passionate about the space program and the 
inspiring work of NASA. Congressman Bridenstine, we look 
forward to hearing more about your vision for the agency.
    We are also joined today by Dana Baiocco, who has been 
nominated to serve as a Commissioner of the Consumer Product 
Safety Commission. Born and raised in Yorkville, Ohio, Ms. 
Baiocco joined the law firm of Jones Day in 1998 and became a 
partner in 2007. She was one of the founding partners of Jones 
Day's Boston office, which opened in 2011.
    Ms. Baiocco has dedicated her legal career to product 
safety and liability issues that will serve her well at the 
CPSC.
    Currently, the CPSC is led by a Chairman who does not have 
a functioning majority. Earlier this month, we reported 
favorably Ann Marie Buerkle to be Chairman and to an additional 
term on the Commission.
    It is my hope that the Senate will prioritize the Buerkle 
and Baiocco nominations soon, so we can move swiftly toward 
establishing a Chairman with a functioning majority at the 
CPSC.
    Neil Jacobs has been nominated to serve as the Assistant 
Secretary of Commerce for Environmental Observation and 
Prediction. If confirmed, he will serve as one of the Deputy 
Administrators of the National Oceanic and Atmospheric 
Administration.
    Dr. Jacobs is currently the Chief Atmospheric Scientist at 
Panasonic Avionics Corporation, where he directs the research 
and development of the aviation weather observing program, as 
well as the company's numerical forecast models.
    He is the Chair of the American Meteorological Society's 
Forecast Improvement Group, and also serves on the World 
Meteorological Organization's aircraft-based observing systems 
expert team.
    Prior to joining Panasonic in 2005, Dr. Jacobs worked on 
various analyses and modeling projects including NASA's Earth 
Systems Science Program, NOAA's satellite program, and the 
Department of Energy's Ocean Margins Program.
    Dr. Jacobs' experience makes him well-tailored to serve in 
a leadership role at NOAA.
    Nazakhtar Nikakhtar has been nominated to serve as 
Assistant Secretary of Commerce for Industry and Analysis. Ms. 
Nikakhtar is currently a partner at Cassidy Levy Kent, a 
leading international trade law firm.
    For over a decade, Ms. Nikakhtar has successfully 
represented U.S. businesses--particularly those in the 
industrial, agricultural, chemical, and steel sectors--in 
international trade law matters, including trade remedy 
matters, customs matters, and World Trade Organization dispute 
settlement.
    Prior to private practice, she served at the Department of 
Commerce advising on legal and regulatory matters related to 
the enforcement of U.S. trade laws and bilateral trade 
negotiations, where she received several awards for her work.
    Her technical expertise makes Ms. Nikakhtar a well 
qualified candidate to run the Industry and Analysis unit at 
the International Trade Administration.
    As I have noted, all of these nominees are well qualified 
for the positions to which they have been nominated and I look 
forward to their swift confirmation.
    Once again, I want to thank all of you for appearing today, 
for testifying, and for your willingness to fill these critical 
posts.
    At this point, I will turn to Ranking Member Nelson for any 
opening remarks he would like to make.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    And I want to welcome our nominees, and I want to thank you 
for your public service, and also thank you for offering 
yourselves for public service.
    In the interest of time, my opening focus will be on the 
NASA nomination, and I will include a statement in the record 
with regard to the other witnesses.
    The Chairman has already said it that, of course, I am 
passionate about NASA having a qualified and elected leader, 
and it comes from the deep respect that I have for NASA.
    Indeed, NASA is a family in many ways and for everything 
that the space program does to advance our national security, 
our economy, our understanding of the cosmos and of ourselves, 
and for the hope and inspiration that NASA provides to all.
    It also comes--this deep respect for NASA--comes from 
having witnessed, very directly, the tragic consequences when 
NASA leadership has failed us.
    We have 3 new human spaceflight vehicles right now that are 
at the most critical phase of their development. We have over 
70 ambitious science missions in operation and 50 more under 
development.
    Now, as much as ever, NASA needs and deserves an 
Administrator who is up to the challenge of leading the agency 
through this critical juncture. We are about to embark on 
putting Americans back into space on American rockets within a 
year and a half, 2 years.
    And we are about to embark within 2 years on the start of 
sending humans all the way to Mars and to bring them back 
safely. And that big rocket will launch within two years, the 
largest rocket ever.
    And so, failure at this particular juncture could 
jeopardize the lives of brave astronauts and setback the search 
for life beyond Earth for decades. Failure is not an option.
    The NASA Administrator should be a consummate space 
professional who is technically and scientifically competent, 
and is a skilled executive. More importantly, the Administrator 
must be a leader who has the ability to unite scientists, 
engineers, commercial space interests, policymakers, the 
Congress, and the public on a shared vision for future space 
exploration.
    Now, Congressman Bridenstine, you have been nominated. I 
respect that and respect the process, and we want to get into 
the process of understanding how you would meet these criteria.
    As I have said, NASA is a family. This committee has heard 
me say many times NASA is not political. The leader of NASA 
should not be political. The leader of NASA should not be 
bipartisan. The leader of NASA should be nonpartisan. And when 
that has occurred that it has been partisan in the past, we 
have had a disaster, and I have shared with you one of those 
disasters in our conversation earlier this morning.
    While your time as a pilot and your service to our country 
in the military is certainly commendable, it does not make you 
qualified to make the complex and nuanced engineering, safety, 
and budgetary decisions for which the head of NASA must be 
accountable.
    What is troubling to members of this Committee is your past 
statements on climate change are troubling as compared to your 
most recent statements on climate change. And from a scientific 
perspective, it has sparked great concern from climate experts 
as to your statements in the past.
    But that brings me to my greatest concern about your 
nomination. Your recent public service career does not instill 
the confidence about your leadership or ability to bring people 
together. Unity is so important in NASA instead of division. 
What your record is--and you will have a chance to discuss it--
your record and your behavior in Congress has been divisive and 
it has been extreme as any that we have seen in Washington.
    And this Senator is wondering, how does that fit with the 
leader of a technical agency where unity is often right on the 
line as to what is going to happen in success or failure of a 
mission or a program?
    You have advocated for discriminatory policies toward the 
LGBT community. That runs contrary to the civil rights of 
Americans.
    On the House floor, you had called President Obama 
dishonest, incompetent, and vengeful, and you followed up by 
calling Vice President Biden, ``Equally unfit and even more 
embarrassing.'' But the divisive behavior and remarks does not 
stop there and it has not been reserved just for Democrats.
    You attacked Speaker John Boehner for reaching across the 
aisle. You later tweeted your opposition to Paul Ryan because 
he was critical of the vile remarks that candidate Donald Trump 
had made about sexually assaulting women.
    You made television commercials--and thus has evoked the 
comments that have been made publically by our colleague, 
Senator Rubio--you made television commercials deriding his 
work to find common ground on immigration and claiming that he 
was working to make America less safe. And that is in the 
transcript of those television commercials that you cut.
    Later in Arizona, the GOP challenger to Senator McCain in 
his reelection in 2016, you accused--the GOP challenger had 
accused Senator McCain of being directly responsible for the 
rise of ISIS. And then you endorsed that challenger in her 
Republican primary against Senator McCain.
    I think most of us here would believe that Senator McCain 
is an American hero. And I can tell you also as a bipartisan 
member of the Armed Services Committee, where he chairs, I can 
tell you that those who would do our country harm have no 
greater enemy than John McCain.
    And you have supported the Senate Conservatives Fund, a 
Political Action Committee that opposed Senator McConnell, 
opposed him in his primary, and any number of other Republican 
senators who did not meet the Committee's ideals.
    So Congressman, you have gone to great lengths to try to 
convince folks--and I enjoyed our visit this morning--that you 
want to keep NASA a bipartisan and nonpartisan place and to 
work across party lines. But that is not what you said in 
January 2014 at a convention in South Carolina, and I am going 
to quote your words.
    ``You have collusion between Republicans and Democrats in 
Washington, D.C. They are coming together, and they are making 
deals . . . You have Republicans and Democrats trying to come 
together . . . But what we need is fighters. We need people who 
will stand up and say, `No, we are not going to do this 
anymore.' ''
    So Congressman, on behalf of every Member who has devoted 
their career to reaching across the aisle to build consensus 
and to find working solutions for the American people, I want 
you to know that this senator is quite skeptical, and I take 
offense at that kind of quote. That we need fighters, not 
people coming together, not you have Republicans and Democrats 
trying to come together. That line of thinking is why 
Washington is broken.
    NASA represents the best of what we can do as a people, and 
NASA is one of the last refuges of partisan politics. And when 
it has got partisan in the past, we have gotten in trouble. 
NASA needs a leader who will unite us, not divide us.
    Respectfully, Congressman Bridenstine, I think you have a 
long way to go to prove to be that leader.
    Mr. Chairman, that is my comment.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Mr. Chairman, I'd like to extend a welcome to our nominees this 
morning. In the interest of time, my opening will focus on our NASA 
nominee. I'll include a statement in the record on our other witnesses.
    It is certainly no secret how passionate I am about NASA having 
qualified and effective leadership. This passion comes from a deep 
respect I have for NASA and for everything the space program does to 
advance our national security, our economy, our understanding of cosmos 
and of ourselves, and for the hope and inspiration that NASA provides 
to all. It also comes from having witnessed, very directly, the tragic 
consequences when NASA leadership has failed us.
    We have three new human spaceflight vehicles that are all at the 
most critical phase of their development. We have over 70 ambitious 
science missions in operation and 50 more under development. Now, more 
than ever, NASA needs--and deserves an administrator who is up to the 
challenge of leading the agency through this critical juncture. Because 
at this juncture, success will mean our triumphant return to deep space 
and rapidly expanding economic activity in Earth orbit. Failure, on the 
other hand, could jeopardize the lives of brave astronauts and set back 
the search for life beyond Earth for decades. Failure is not an option.
    The NASA administrator should be a consummate space professional 
who is technically and scientifically competent and a skilled 
executive. More importantly, the administrator must be a leader who has 
the ability to unite scientists, engineers, commercial space interests, 
policymakers and the public on a shared vision for future space 
exploration.
    Frankly, Congressman Bridenstine, I cannot see how you meet these 
criteria.
    While your time as a pilot and your service to our country in the 
military is certainly commendable, it does not qualify you make the 
complex and nuanced engineering, safety and budgetary decisions for 
which the head of NASA must be accountable. Moreover, your past 
statements on climate change are troubling from a scientific 
perspective and have sparked great concern from climate experts around 
the nation, which brings me to my greatest concern regarding your 
nomination.
    Your recent public service career does not instill great confidence 
about your leadership skills or ability to bring people together. In 
fact, your record and behavior in Congress is as divisive and extreme 
as any in Washington.
    You have advocated for discriminatory policies toward the LGBT 
community, which runs contrary to the civil rights of these Americans 
and poisons our national discourse.
    On the House floor, you called President Obama dishonest, 
incompetent and vengeful and followed it up by calling Vice President 
Biden ``equally unfit and even more embarrassing.'' But your divisive 
behavior and remarks don't stop there and haven't been reserved just 
for Democrats.
    You attacked Speaker John Boehner for reaching across the aisle. 
You later tweeted your opposition to Paul Ryan because he was critical 
of the vile remarks candidate Donald Trump made about sexually 
assaulting women.
    You made television commercials attacking my friend and fellow 
Senator from Florida, Marco Rubio, deriding his work to find common 
ground on immigration and claiming he was working to make America less 
safe.
    Later in Arizona, the GOP challenger to Senator McCain accused him 
of being directly responsible for the rise of ISIS. You then endorsed 
her in her Republican primary challenge to Senator McCain. Most of us 
believe John McCain is an American hero. As a bipartisan member of the 
Armed Services Committee, I can tell you that those who would do our 
country harm have no greater enemy than Chairman McCain.
    And you've supported the Senate Conservatives Fund, a political 
action committee that opposed Senator McConnell in his primary and any 
number of other Republican senators who did not meet the committee's 
extremist ideals.
    Mr. Bridenstine, you've gone to great lengths to try to convince 
folks that you want to keep NASA bipartisan and work across party 
lines, but that is not what you said in January 2014 at a convention in 
South Carolina.
    These are your words not mine:

        ``You've got collusion between Republicans and Democrats in 
        Washington, D.C.. They're coming together and they're making 
        deals . . . You've got Republicans and Democrats trying to come 
        together . . . But what we need is fighters. We need people who 
        will stand up and say 'no, we're not going to do this anymore . 
        . .``

    Congressman Bridenstine, on behalf of every member who has devoted 
their career to reaching across the aisle to build consensus and to 
find working solutions for the American people, I take offense to that. 
That line of thinking is why Washington is broken.
    NASA represents the best of what we can do as a people. NASA is one 
of the last refuges from partisan politics. NASA needs a leader who 
will unite us, not divide us. Respectfully, Congressman Bridenstine, I 
don't think you're that leader.

    The Chairman. Thank you, Senator Nelson.
    We are going to turn to our panel. Before we do that, and 
we are going to start on my left and your right with 
Congressman Bridenstine, with your opening statements.
    I would ask you, if you can, to confine your remarks to 
about 5 minutes, and obviously, we will include your entire 
written statements in the record.
    And so, that is how we are going to proceed. The statements 
will be in the record. Obviously, we want to give our members 
as many opportunities to ask questions as we possibly can.
    Before we allow Congressman Bridenstine to proceed though, 
however, his home State senator and a member of this Committee, 
Senator Inhofe, is here to make his introduction.
    So Senator Inhofe is recognized.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    I am pleased to introduce the real Jim Bridenstine, a 
friend, a colleague, a fellow pilot, and a resident of our city 
of Tulsa. We have a couple of things in common.
    One is, we are both pilots and have extensive aviation 
background and the other is, we both served the First 
Congressional District of Oklahoma. He actually is serving 
today in the district that I was first elected to in the House.
    I believe his background as an aviator, a lifelong passion 
for space, and efforts in Congress to modernize our Nation's 
space program will serve him well as the next NASA 
Administrator.
    Jim has dedicated much of his adult life to serving his 
country, first as an active duty Navy pilot in Iraq and 
Afghanistan, serving as an Instructor in the Naval Strike and 
Air Warfare Center, and as a Naval reservist combating drug 
trafficking in Central and South America.
    Jim currently serves as a Major in the Oklahoma Air 
National Guard. He is a recognized leader on space and weather 
issues.
    In 2015, SpaceNews named him one of five space leaders 
making a difference, citing his efforts to ensure the more 
effective use of satellite-based weather data, promoted 
responsible opportunities for commercial space launches, and 
recognized the intersection of space and national security of 
the United States.
    Jim's interest in aviation and space was obvious when he 
served as the Director of the Tulsa Air and Space Museum and 
organized the Quick Trip Air and Rocket Racing Show in 2010, 
which I happened to fly in.
    NASA is poised to unleash the economic and potential of 
coordinated public and private investment in space activities, 
and I look forward to that leadership.
    I would comment--since it was brought up as to what are the 
qualifications--that two very well respected people, Buzz 
Aldrin and Greg Autry, made the joint statement, ``It does not 
take a rocket scientist to run NASA,'' and they go into the 
details as to the job that James Webb had done at one time.
    I am quoting them, now, in a joint statement. ``Finding 
another Webb is no easy task. The President considered several 
excellent candidates, some of whom we personally admire. But in 
the spirit of Webb's leadership, U.S. Representative Jim 
Bridenstine is the President's nominee and we heartily endorse 
him.''
    So it is my pleasure to introduce my House member, Jim 
Bridenstine.
    The Chairman. Thank you, Senator Inhofe.
    Congressmen Bridenstine, please proceed with your opening 
statement.

              STATEMENT OF HON. JAMES BRIDENSTINE,

                  NOMINEE TO BE ADMINISTRATOR,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Representative Bridenstine. Thank you, Senator Inhofe, for 
that very kind introduction mentioning my pilot experience. I 
recognize I am the junior pilot from the State of Oklahoma in 
the Oklahoma delegation, and I appreciate your help, and 
support, and your service to the same constituents I now serve.
    Thank you to Chairman Thune, and Ranking Member Nelson, 
members of the Senate Committee on Commerce, Space, and 
Transportation.
    It is an honor to appear before you today as the nominee 
for NASA Administrator.
    I want to recognize my family who is here with me. My wife 
Michelle, and my children Walker, Sarah, and Grant. Without 
their love and support, I would not be here in front of you 
today.
    NASA is an extraordinary agency with an extremely talented 
and diverse workforce. It has brought about civilization-
changing events and scientific discoveries. It has inspired 
billions of people and it represents what is exceptional about 
the United States of America, a spirit of adventure, a spirit 
of exploration, and a thirst for greater understanding of the 
Earth and the cosmos.
    I am truly humbled by the prospect of leading this agency. 
I grew up reading about the heroes of the Apollo era, heroes 
like Gene Cernan, a Naval aviator and the last man, so far, to 
walk on the Moon. Stories like his inspired me to be a pilot 
and to serve my country in uniform.
    NASA is at a critical time in history. Humanity is ready to 
go to Deep Space for the first time in 45 years. To do this 
sustainably, we must develop a consensus agenda, driven by 
science, and based on national interests.
    Should I be confirmed, it will be my intention to build off 
the work accomplished by the great people at NASA during the 
last administration, and to move forward by following the 
guidance of the NASA Transition Authorization Act, 
appropriations legislation, and the science decadal surveys. We 
must all do this together.
    No agency can match NASA's return on investment for 
taxpayer dollars, not just in inspiration, exploration, and 
science, but also in its direct impact to the U.S. economy.
    For example, NASA's contributions to aeronautics have made 
air travel significantly cleaner, safer, and quieter. As a 
pilot myself, I hope to lead NASA through the next era of X-
planes or experimental planes.
    There are many near-term opportunities for NASA, none more 
than to once again launch American astronauts on American 
rockets from American soil and to safely return them home.
    The first combined launch of the space launch system and 
the Orion multipurpose crew vehicle is drawing near. These two 
vehicles will be the backbone for returning humans to Deep 
Space and fulfilling the NASA Transition Authorization Act's 
goal of getting humans to Mars.
    I believe in this Administration's vision of getting to 
Mars by using the Moon as a proving ground, and through a grand 
unity of effort by NASA, the Administration, Congress, 
industry, and our international partners.
    In addition, NASA's Commercial Crew partners are drawing 
closer to reestablishing a capability we have not had since the 
retirement of the Space Shuttles, to regularly launch Americans 
to the International Space Station on American rockets.
    Of course, the most important part of every human space 
flight mission is making sure that our astronauts return home 
safely.
    I know what it means for lives to be on the line when 
making difficult decisions, including my own life. And if 
confirmed, I will work to promote a NASA culture where safety, 
transparency, and independent oversight are celebrated.
    In order to move humans into Deep Space, we must have a 
vibrant, commercial, Low Earth Orbit economy. The future of 
LEO, including the International Space Station, will be a 
priority if I am confirmed.
    I also plan to lead a focused, space technology program, 
which will form the foundation of a future expansion of 
economic activity in LEO and beyond.
    NASA has inspired generations of scientists, engineers, and 
explorers, and it continues to do so with incredible 
discoveries across NASA's science divisions.
    These include the search for ancient and extant life with 
the upcoming Mars 2020 and Europa missions, the launch of the 
James Webb Space Telescope, Parker Solar Probe, and Earth 
science missions like NISAR, IceSat-2, and so much more that 
will help us better understand our changing planet.
    It is an honor of a lifetime to be nominated by the 
President and to be considered by the Senate for NASA 
Administrator. Working together, America can lead the way 
forward in space, inspiring the world, unlocking the mysteries 
of our universe, and motivating a new generation of young women 
and young men.
    Thank you for allowing me to appear before you and I look 
forward to your questions.
    [The prepared statement and biographical information of 
Rep. Bridenstine follow:]

       Prepared Statement of Hon. James Bridenstine, Nominee For 
      Administrator, National Aeronautics and Space Administration
    Thank you, Senator Inhofe, for the kind introduction. Chairman 
Thune, Ranking Member Nelson, members of the Senate Committee on 
Commerce, Science, and Transportation, it is an honor to appear before 
you as the nominee for Administrator of the National Aeronautics and 
Space Administration.
    I want to recognize my family here with me: my wife, Michelle, and 
my children Walker, Sarah, and Grant. Without their love and support, I 
would not be here today in front of you.
    NASA is an extraordinary agency with an extremely talented and 
diverse workforce. It has brought about civilization-changing events 
and scientific discoveries, has inspired billions, and represents what 
is exceptional about the United States of America--a spirit of 
adventure, of exploration, and the thirst for a greater understanding 
of the Earth and our universe.
    I am truly humbled by the prospect of leading this agency. I grew 
up reading about the heroes of the Apollo era, like Gene Cernan, a 
Naval aviator and the last man to walk on the Moon. Stories like his 
inspired me to be a pilot and to serve my country in uniform.
    I piloted the E-2C Hawkeye off the USS Abraham Lincoln in both Iraq 
and Afghanistan, where I had responsibility for command and control of 
theaters of battle. I then later became an instructor at the highest 
levels of Naval aviation, weapons and tactics, which required a high 
capacity for grasping technical issues and systems. I also had the 
honor of flying F-18 Hornets at the Naval Strike and Air Warfare 
Center.
    In 2012, I ran for Congress and have served here since January of 
2013. I continued as a Navy Reservist until transitioning to the 
Oklahoma Air National Guard in 2015, joining a Special Ops Wing.
    In the House of Representatives, I serve on the Armed Services 
Committee and the Committee on Science, Space and Technology. I have 
had the great pleasure of working with many of you on this Committee on 
a bipartisan basis.
    NASA is at a crucial time in its history, preparing to explore Deep 
Space again for the first time in forty-five years. To do this 
sustainably, we must develop a consensus-driven agenda, based on 
national interests. Should I be confirmed, it will be my intention to 
build off the work done by the great people at NASA during the last 
administration, and to move forward by following the guidance of the 
NASA Transition Authorization Act, appropriations legislation, and 
science decadal surveys. We must all do this together.
    There are many great near-term opportunities for NASA, none more 
than the opportunity to once again launch American astronauts on 
American rockets from American soil, and safely return them home. In 
addition, the first combined launch of the Space Launch System and 
Orion Multi-Purpose Crew Vehicle is drawing near. EM-1 will be a huge 
test for Deep Space exploration and a crucial test for ultimately 
sending humans beyond Earth orbit for the first time since 1972. NASA 
will need healthy resources and full support from the Administration 
and Congress to keep this program on schedule, and I intend to be the 
agency's biggest advocate for this goal.
    NASA's Commercial Crew partners are drawing closer to bringing us a 
capability we have not had since the retirement of the Space Shuttle. 
NASA is a great tool of American foreign policy, and our partnerships 
in space are shining examples of diplomacy. However, without our own 
domestic access to space, partnerships turn into dependencies, and this 
is not sustainable.
    Getting new vehicles to launch will enhance our leadership, 
strengthen our partnerships, and bring about capabilities that will not 
only serve NASA and the International Space Station, but could one day 
serve other nations and other LEO platforms. Seeing the Commercial Crew 
program through to success will be a top priority of mine, should I be 
confirmed.
    The success of these programs means our astronauts come home 
safely. This fact is not lost on me and I do not take this lightly. I 
know what it means for lives to be on the line when
    making decisions. If confirmed as Administrator, I will work to 
promote a NASA culture where safety, transparency, and independent 
oversight are celebrated.
    No agency can match NASA's return on investment for taxpayer 
dollars, not just in inspiration, exploration, and science, but also in 
its direct impact on the economy. NASA technological development drives 
innovation within the industrial base, generating spin-off technologies 
in every economic sector. For example, NASA's contributions to 
aeronautics have made air travel significantly cleaner, safer, and 
quieter, and have driven a multi trillion dollar-per-year industry. As 
a pilot myself, I hope to lead NASA through its next era of X-planes, 
including the Low Boom Supersonic aircraft and the X-57 Maxwell.
    If confirmed as Administrator, I also intend to drive the 
commercial space economy further out beyond Earth. In order to move 
humans sustainably into Deep Space we must have a vibrant commercial 
LEO economy, and ISS transition will be a focus if I am confirmed. I 
also plan to lead a focused space technology program which will develop 
improved solar electric propulsion, in-space robotic assembly, and 
closed-loop environmental control and life support systems, all of 
which will form the foundation of a future expansion of economic 
activity in LEO and beyond.
    Another critical opportunity will be the development of future 
architectures for exploration and science. The NASA Transition 
Authorization Act of 2017 directs NASA to continue its efforts to get 
humans to Mars. The Administration has expressed that it would like 
NASA to return to the Moon. These goals are not mutually exclusive and 
in fact work together; I have long been a proponent of returning to the 
Moon, particularly as a proving ground for missions deeper into space.
    We must also recognize that NASA currently has more mission than it 
has budget. The days of Apollo when NASA's budget represented 3 to 4 
percent of the Federal budget are not likely to return. Nor would we 
want to necessarily replicate that model, as it proved to ultimately be 
unsustainable. Fortunately, times have changed and great advancements 
have been made. The American and international space industries are 
more capable than ever before. A lot of this is
    due to investments in research and technology development made by 
NASA decades ago that entrepreneurial Americans have taken and advanced 
further. So rather than pitting various sectors of this industry 
against one another, or fitting certain capabilities into pre-
determined boxes, should I be confirmed, NASA will develop exploration 
and science architectures that leverage everything the United States 
and its international partners have to offer. This way, we will 
maximize resources and ensure NASA can carry out not only exploration 
missions back to the Moon and on to Mars, but Earth Science, Planetary 
Science, Heliophysics, Astrophysics, and Aeronautics research.
    NASA has inspired generations of scientists, engineers, and 
explorers and it continues to do so with incredible discoveries across 
NASA's science divisions that are unlocking the fundamental mysteries 
of the universe. If confirmed, I look forward to promoting the 
scientific community's priorities as embodied by the science decadal 
survey recommendations that further advance the boundaries of human 
knowledge and American leadership in the Earth and space sciences. 
These include the search for ancient and extant life with the upcoming 
Mars 2020 and Europa missions, the launch of the James Webb Space 
Telescope and the awe-inspiring images it is anticipated to produce, 
Parker Solar Probe--a heliophysics mission that will provide a greater 
understanding of the relationship between the sun and Earth, and Earth 
Science missions like NISAR and IceSat-2 that increase our 
understanding of the Earth as a system and can enable solutions to the 
most pressing issues we face on our home planet.
    Finally, when it comes to space programs we are discussing 
timelines of decades, not months. We are also discussing critical data 
sources and information gathering efforts. There must be consistency 
and constancy. Without it, NASA experiences shifting priorities and 
funding, which prevent progress and discovery, waste taxpayer dollars, 
and erode morale at the agency. This is detrimental to our space 
program and our Nation. Should I be confirmed, it will be my intention 
to build off the work done by the great people at NASA during the last 
administration, and move forward following the guidance of the NASA 
Transition Authorization Act, appropriations legislation, and science 
decadal surveys. It would be my goal to leave in place programs that 
can be continued by the next administration regardless of political 
party.
    Doing this will require consensus. The only way to get that is to 
work together as a community--Congress, the Administration, industry, 
scientists, academia, non-profits, everybody. It is my commitment to 
strive every day to ensure we are meeting the national interest in a 
sustainable, maintainable, and supportable way.
    These are exciting times, and it is an honor of a lifetime to even 
be considered for this position. I have dedicated much of my adult life 
to serving my country, and should the Senate confirm me I look forward 
to doing so in a new position. Working together, we can maintain 
American leadership in space. We can continue to accomplish stunning 
achievements that inspire the world and encourage other nations to 
partner with us. We can continue providing valuable data and 
information about our planet and our universe. We can motivate a new 
generation of girls and boys to enter the fields of science, 
technology, engineering and math.
    Thank you again for allowing me to appear before you. I look 
forward to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):
        James Frederick Bridenstine ``Jim''.
    2. Position to which nominated: NASA Administrator.
    3. Date of Nomination: 15 September 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 216 Cannon House Office Building, Washington, D.C. 
        20515.

        Office: 2448 E. 81st St, Suite 5150, Tulsa, OK 74137.

    5. Date and Place of Birth: 15 June 1975; Ann Arbor, MI.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Spouse: Michelle Ivory Bridenstine, N/A.
    7. List all college and graduate degrees. Provide year and school 
attended.

        B.A., Rice University, 1998.
        M.B.A., Cornell University, 2009.

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        01/2013-Present, Member of Congress.

        04/2015-Present, Oklahoma Air National Guard.

        03/2010-04/2015, United States Navy Reserve, E-2C Hawkeye 
        Aircraft Pilot.

        06/2011-09/2012, Wyle Laboratories, E-2C Hawkeye Aircraft 
        Subject Matter Expert.

        01/2012-07/2012, Zoellner Enterprises, Business Development.

        11/2010-04/2011, Deloitte, E-2C Hawkeye Aircraft Subject Matter 
        Expert.

        12/2008-08/2010, Tulsa Air and Space Museum & Planetarium, 
        Executive Director.

        05/2007-12/2008, Wyle Laboratories, E-2C Hawkeye Aircraft 
        Subject Matter Expert.

        05/1998-05/2007, United States Navy, E-2C Hawkeye and F-18C 
        Pilot.

    9. Attach a copy of your resume.
    See attached resume.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. N/A
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

        04/2015 to Present, Oklahoma Air National Guard.

        03/2010-04/2015, United States Navy Reserve, E-2C Hawkeye 
        Aircraft Pilot.

        06/2011-09/2012, Wyle Laboratories, E-2C Hawkeye Aircraft 
        Subject Matter Expert.

        01/2012-07/2012, Zoellner Enterprises, Business Development.

        11/2010-04/2011, Deloitte, E-2C Hawkeye Aircraft Subject Matter 
        Expert.

        12/2008-08/2010, Tulsa Air and Space Museum & Planetarium, 
        Executive Director.

        05/2007-12/2008, Wyle Laboratories, E-2C Hawkeye Aircraft 
        Subject Matter Expert.

        05/1998-05/2007, United States Navy, E-2C Hawkeye and F-18C 
        Pilot.

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, South Tulsa Baptist Church (2009 to Present).

        Member, National Republican Club of Capitol Hill (2013 to 
        Present).

        Member, National Rifle Association (2012 to Present).

        Member, Association of the United States Navy (2011-2012).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        Candidate for U.S. House of Representatives 2012, 2014, 2016

        Member of Congress, 1st District of Oklahoma, Jan 2013 to 
        Present

        No campaign debt

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

------------------------------------------------------------------------
          Date                        Payable To                Amount
------------------------------------------------------------------------
                  From Friends of Jim Bridenstine, Inc.
9/5/2012                 Tulsa County Republican Party          1,500.00
10/3/2012                Mullin for Congress                    1,000.00
1/16/2013                Congressional Institute, Inc.          1,051.00
9/13/2013                Tulsa GOP                              1,500.00
1/1/2014                 Oklahoma Republican Party              5,000.00
1/15/2014                Oklahoma Republican Party             15,000.00
6/25/2014                Mullin for Congress                    2,000.00
7/21/2014                Daines for Montana                     2,000.00
9/24/2014                Republican Party of Tulsa County       1,500.00
10/23/2014               Defenders of Liberty                     500.00
11/21/2014               Oklahoma Republican Party             20,000.00
11/21/2014               Alliance for Vigilance                 1,000.00
4/23/2015                Oklahoma Republican Party              5,000.00
5/22/2015                Oklahoma GOP                           2,000.00
6/28/2015                Tulsa County GOP                       1,000.00
6/30/2015                DeSantis for Florida                   2,000.00
9/1/2015                 Defenders of Liberty                   1,000.00
10/22/2015               Oklahoma Federation of Republican      1,000.00
                          Women
3/15/2016                Oklahoma Republican Party              5,200.00
7/25/2016                Kansans for Huelskamp                  2,000.00
8/8/2016                 Ward for Senate                        2,000.00
8/18/2016                Mary Thomas for Congress               2,000.00
9/14/2016                Republican Party of Tulsa County       1,362.50
9/20/2016                Defenders of Liberty                   1,000.00
11/7/2016                Republican Party of Tulsa County       1,000.00
12/12/2016               Senate Conservatives Fund              5,000.00
6/21/2017                Labrador For Governor                  5,000.00
6/21/2017                Labrador For Governor                  5,000.00
                     From Jim Bridenstine Personally
6/18/2017                Brian O'Hara (for State Senate)        1,000.00
------------------------------------------------------------------------

    I have held no office for a political party, nor have I been 
employed by any campaign.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Eagle Scout, Boy Scouts of America

        Rice University Athletic Scholarship (Swimming)

        Phillip Morris Academic Scholarship

        Navy Commendation Medal with Combat ``V''

        Navy Commendation Medal

        Air Medal

        Navy and Marine Corps Achievement Medal

        Global War on Terrorism Expeditionary Medal

        Global War on Terrorism Service Medal

        National Defense Service Medal

        Armed Forces Expeditionary Service Medal

        Expert Pistol Medal

        Battle Efficiency Ribbon

        Navy Unit Commendation Ribbon

        Sea Service Deployment Ribbon

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Speeches on Space
        Space Budget Forum-Air Force Association & Jacques & Associates
        Topic: Federal budget outlook
        16 Jun 2017

        Zero G Summit--Space Trust
        Topic: Importance of space for international partnerships
        25 May 2017

        Address fly In--Colorado Springs business group
        Topic: Role of space in the economy
        17 May 2017

        Space Classified session--Space Symposium
        Topic: Classified space threats
        5 Apr 2017

        Corporate Partnership Dinner--Space Symposium
        Topic: Policy ideas for the National Space Council
        4 Apr 2017

        Fusion Forum--Space Generation Advisory Council
        Topic: Necessity for policymakers and technical experts to 
        collaborate
        2 Apr 2017

        Space Security forum--Center for Strategic and International 
        Studies
        Topic: Space threats and policies needed to counter
        22 Mar 2017

        Keynote--Satellite Industry Association Leadership Dinner
        Topic: Space situational awareness, SATCOM priorities, spectrum 
        protection
        6 Mar 2017

        Reception--SLS/Orion Suppliers conference
        Topic: Support for and importance of SLS/Orion 1
        5 Feb 2017

        Business Meeting--Satellite Industry Association
        Topic: Space situational awareness policy provisions
        13 Feb 2017

        Keynote--Commercial Space Transportation Conference
        Topic: Regulatory and policy environment of commercial space
        8 Feb 2017

        Galloway Symposium--International Institute of Space Law
        Topic: Need for legislation to comply with Article VI of the 
        Outer Space Treaty
        7 Dec 2016

        Space-Based Environmental Intelligence--American Astronomical 
        Society
        Topic: Importance of earth science and overview of policies 
        affecting NOAA satellites
        1 Dec 2016

        Keynote--Air Force Association Schriever Space Future Forum
        Topic: Space threats and policies to counter them
        18 Nov 2016

        Annual Meeting--Lunar Exploration Analysis Group
        Topic: Reasons to go back to the Moon
        2 Nov 2016

        Keynote--Future Space Leaders
        Topic: Encourage the next generation to stay active in space 
        policy and industry
        14 Jul 2016

        Address fly in--Accelerate Colorado
        Topic: General role of space in the economy
        14 Jun 2016

        Keynote--Mitchell Institute Space Breakfast Series
        Topic: American Space Renaissance Act provisions included in 
        NDAA
        19 May 2016

        Keynote--Commercial Space Transportation Advisory Committee
        Topic: American Space Renaissance Act provisions relating to 
        commercial space
        28 Apr 2016

        Address class--Georgetown Law
        Topic: American Space Renaissance Act relating to international 
        law
        18 Apr 2016

        Keynote--Space Symposium
        Topic: Introduce American Space Renaissance Act
        13 Apr 2016

        Government Affairs Breakfast--Space Symposium
        Topic: Introduce American Space Renaissance Act
        13 Apr 2016

        Executive Breakfast Series--Commercial Spaceflight Federation
        Topic: Need for legislation on space situational awareness and 
        to comply with Article VI of the Outer Space Treaty
        9 Feb 2016

        Space Budget Forum-Air Force Association & Jacques & Associates
        Topic: Federal budget outlook
        8 Feb 2016

        Keynote--Embry Riddle Space Traffic Management Conference
        Topic: Space Traffic Management and Space Situational Awareness 
        policies
        12 Nov 2015

        Keynote--Commercial Space Transportation Advisory Committee
        Topic: Need for greater funding in FAA/AST
        20 Oct 2015

        Address dinner--Inmarsat Board of Directors
        Topic: General Q&A on SATCOM policy
        16 Sep 2015

        Address conference--Satellite Industries Association
        Topic: SATCOM policies
        8 Jul 2015

        Keynote--Mitchell Institute Space Breakfast Series
        Topic: SATCOM priorities in the NDAA
        12 Jun 2015

        Panel Discussion--Satellite 2015
        Topic: Commercially Hosted Government Payloads
        16 Mar 2015

        Keynote--Commercial Space Transportation Conference
        Topic: Partnerships between commercial and government agencies 
        such as NASA, DoD, NOAA
        4 Feb 2015

        Keynote--SATCON
        Topic: Next Generation Space Architectures
        12 Nov 2014

        State of the Aerospace Defense Industry--OK Chamber of Commerce
        Topic: Role of space in the aerospace defense industry
        27 Oct 2014

        Keynote--Washington Space Business Roundtable
        Topic: The need to incorporate commercial satellite weather 
        data into NOAA's models
        16 Sep 2014
Published Writings
        Increasing the visibility of the Commercial Space 
        Transportation Office (with Rep. Derek Kilmer)
        The Hill
        28 Mar 2017

        Shoot the Next One Down, Mr. President
        breitbart.com
        16 Feb 2017

        Oklahoma's congressional delegation: `Obamacare' fails Oklahoma 
        (with Reps. Cole, Lucas, Mullin, and Russell)
        Tulsa World
        17 Jan 2017

        Transforming U.S. Space Policy
        Room: The Space Journal
        Fall/Winter 2016

        U.S. Rep. Jim Bridenstine: Trust Trump . . . to be the better 
        president
        Tulsa World
        6 Nov 2016

        Real Culprit/Capital View
        NATIONAL GUARD magazine
        April 2016

        Make FAA/AST the ``FAA for Space''
        SpaceNews
        18 Jan 2016

        U.S. Rep. Jim Bridenstine: Omnibus bill cedes power to 
        `lawless' administration
        Tulsa World
        17 Jan 2016

        Ted Cruz's True Record on Military Funding and National 
        Security Is Unassailable
        National Review
        17 Feb 2016

        Tulsa Leaders' Essays
        Tulsa Beacon
        7 Jan 2016

        The `Read the Bill Act'
        breitbart.com
        6 Jan 2016

        Congress Can and Should Still Defund Planned Parenthood
        breitbart.com
        3 Dec 2015

        Time for Action on Commercial Weather Data
        SpaceNews
        26 Oct 2015

        Representing You in Washington
        Sand Springs News
        3 Sept 2015

        How to Ignore Obama's Straw Men and Override the Terrible Iran 
        Deal
        National Review
        21 Jul 2015

        U.S. Rep. Jim Bridenstine: Iran nuclear deal is a failure
        Tulsa World
        19 Jul 2015

        `Proven Fundraiser' Ted Cruz Can Defeat the Clinton Machine in 
        2016
        breitbart.com
        18 Jul 2015

        Rep. Jim Bridenstine: `I will not be complicit in paving Iran's 
        way to a nuclear weapon'
        Tulsa World
        14 Jul 2015

        U.S. Rep. Jim Bridenstine: Necessary conditions for an Iran 
        deal
        Tulsa World
        30 Jun 2015

        NOAA's Commercial Data Policy
        SpaceNews
        24 Jun 2015

        U.S. Rep. Jim Bridenstine and Sen. Ted Cruz: Unleash the 
        American energy renaissance now
        Tulsa World
        13 Jun 2015

        Maintaining U.S. Military Preeminence Globally
        breitbart.com
        18 Jun 2015

        U.S. Rep. Jim Bridenstine: Federal courts are `last hope' to 
        overturn President Barack Obama's `lawlessness on immigration'
        Tulsa World
        4 Mar 2015

        U.S. Rep. Jim Bridenstine: Senate should reject attorney 
        general candidate because of Obama administration's 
        `persistent, lawless conduct'
        Tulsa World
        26 Feb 2015

        U.S. Rep. Jim Bridenstine: Forecast for U.S. weather 
        forecasting is getting cloudy
        Tulsa World
        12 Feb 2015

        The Moral Case for Keeping Guantanamo Open
        National Review
        13 Jan 2015

        Why I Will Not Vote for John Boehner to Be House Speaker
        The Daily Signal
        2 Jan 2015

        Private Sector Can Boost U.S. Weather Forecasting
        SpaceNews
        8 Dec 2014

        We Can't Trust the IAEA on Iran
        National Review
        21 Nov 2014

        U.S. Rep. Jim Bridenstine: The speaker vote
        Tulsa World
        14 Nov 2014

        Winds of Change for Weather Data
        SpaceNews
        20 Oct 2014

        Ebola: Obama's Latest Failure
        breitbart.com
        16 Oct 2014

        It's Time to End This War on Youth
        RedAlertPolitics.com
        30 July 2014

        Single Purchasing Agent May Be Best Option for DoD Satcom
        SpaceNews
        16 Jun 2014

        Imminent Sale of French Warships to Russia Lets `Evil Triumph'
        breitbart.com
        16 Jun 2014

        Nation Needs More AWACS Planes, Not Fewer (with Rep. Tom Cole)
        NewsOK.com
        27 May 2014

        Men, Women in Uniform Should Always Be Priority (with Rep. Tom 
        Cole)
        The Oklahoman
        25 May 2014

        U.S. Rep. Jim Bridenstine: American energy impacts global 
        stability
        Tulsa World
        12 Apr 2014

        Common Core Will Federalize Education
        breitbart.com
        13 Mar 2014

        Tax Reform Is Insufficient
        breitbart.com
        26 Feb 2014

        Disabled Veterans Are Not a Bargaining Chip
        breitbart.com
        14 Jan 2014

        Obama's Politics of War Cannot Continue in Afghanistan
        breitbart.com
        9 Jan 2014

        Bridenstine: Obama should treat friends better
        The Hill
        4 Nov 2013

        Bridenstine Asks Senators to Stand Strong: Obamacare
        Tulsa World
        26 Sep 2013

        Defunding `Obamacare' is right strategy
        Tulsa World
        3 Aug 2013

        Checking the power of incumbency (with Rep. Beto O'Rourke)
        Politico
        15 May 2013

        Now It's Time To Deliver
        RedState.com
        6 May 2013

        Drugs vs. American virtue
        Tulsa World
        14 Mar 2011

        Letter to the editor: Space (shuttle) race intensifies
        Tulsa World
        6 Jun 2010

        Letter to the editor: Air show exceeds expectations
        Tulsa World
        2 May 2010

        Aviation Industry Requires Education
        Tulsa Business Journal
        21 Dec 2009

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
Testimony in front of Congress
        Transportation, Housing and Urban Development Appropriations 
        Subcommittee
        Topic: FAA Office of Commercial Space Transportation
        9 Mar 2017

        Defense Appropriations Subcommittee
        Topic: National Security Space
        9 Mar 2017

        Defense Appropriations Subcommittee
        Topic: National Security Space
        15 Mar 2016

        Rules Committee
        Topic: Student Success Act
        25 Feb 2015

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    For three terms in Congress, I have led comprehensive, bipartisan, 
space reforms with the objective of preserving America's preeminence 
and global leadership in space. My legislative accomplishments were 
recognized by Space News when it named me as one of ``Five Space 
Leaders Making a Difference'' in the world (http://spacenews.com/5-
space-leaders-making-a-difference/). These efforts have led me to a 
deep understanding of the complex challenges NASA will face bringing 
together traditional space companies and new space entrepreneurs into a 
comprehensive NASA vision for both exploration and science. Traditional 
and new space companies are both critical to accelerating America's 
space renaissance.
    My committee assignments and subcommittee chairmanship placed me in 
a position of responsibility for oversight of America's civil, 
commercial, and national security space. NASA is an incredible 
leadership and soft power tool for the United States of America. With 
NASA's global leadership, we will pioneer the solar system, sending 
humans back to the Moon, to Mars, and beyond. This requires a 
consistent, sustainable strategy for deep space exploration.
    I am fully familiar with NASA's role as a purchasing agent for NOAA 
and how critical this partnership is to protect lives and property. As 
a United States Representative from Oklahoma, I have led efforts to 
improve severe weather prediction and I have come to appreciate how 
complex Earth is as a system. NASA must continue studying our home 
planet. Unfortunately, Earth Science sometimes gets pitted against 
planetary science for resources. This is not in the best interest of 
NASA, the United States, or the world. Mars once had a magnetic field, 
rivers, lakes, and an ocean on its north pole. At some point, Mars 
changed dramatically and we should strive to understand why. Studying 
other planets can inform our understanding of Earth. NASA must continue 
to advance both Earth Science and planetary science for the benefit of 
mankind.
    As the Executive Director of the Tulsa Air and Space Museum & 
Planetarium, I saw children of all backgrounds benefit from NASA's STEM 
education programs. NASA's stunning achievements make it uniquely 
situated to educate, inspire and motivate future generations of 
Americans.
    As a Naval Aviator, I was entrusted by the U.S. Government to fly 
aircraft worth over $80 million off aircraft carriers and to conduct 
battlefield command and control of hardware worth billions of dollars 
while protecting and enabling thousands of warfighters. I have flown 
combat missions in Afghanistan and Iraq and instructed at the highest 
levels of Naval Aviation. As a Navy Reservist, I have conducted 
counter-drug missions in Central and South America. I understand the 
importance of team cohesion for mission accomplishment. Military 
aviation has given me first-hand experience with national security 
space-based capabilities including navigation, communication, weather, 
imagery, and associated networks and waveforms.
    I have participated in simulation experiments with future 
warfighting technologies and determined requirements necessary to 
support and initiate acquisition programs. On behalf of the armed 
forces, I have developed requests for proposal and evaluated the 
corporate responses. I understand the complexity of large acquisitions 
and the legal necessity of managing them properly.
    Serving as NASA Administrator would challenge me to utilize the sum 
total of my experiences and knowledge to lead one of America's most 
trusted and esteemed agencies. NASA has an unsurpassed track record of 
achievement enabled by brilliant scientists and engineers, fearless 
astronauts, and exceptionally capable technology companies. Given that 
record, contemplating the possibility of contributing to NASA's future 
success is both humbling and energizing. I can think of no higher honor 
in the service of my country than to lead NASA.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Agency heads are required by law to evaluate and report on internal 
controls and financial systems (Federal Managers Financial Integrity 
Act, Federal Financial Management Improvement Act, and 0MB Circular A-
123). I intend to conduct internal reviews of current controls and 
consider recommendations from external reviewers such as the OIG and 
GAO. If confirmed as NASA Administrator, it will be my responsibility 
to lead and oversee NASA's Mission Support Council, the organization 
responsible for oversight of NASA's internal control program.
    As a Member of Congress, I make decisions concerning the laws and 
budget of the United States. I must wisely exercise this responsibility 
to the benefit of the United States and my constituents. My committee 
assignments and subcommittee chairmanship have placed me in a position 
to oversee agencies responsible for America's civil, commercial, and 
national security space policy and programs. OIG and GAO reports often 
inform the direction of oversight by congressional committees. Should I 
be confirmed, I will work diligently to ensure NASA complies in a 
timely manner with Congressional oversight requests. I would like to 
work hand in hand with Congress to benefit the Agency.
    As a Naval Aviator, I was entrusted by the U.S. Government to fly 
aircraft worth over $80 million off aircraft carriers and to conduct 
battlefield command and control of hardware worth billions of dollars 
while protecting and enabling thousands of warfighters. I have flown 
combat missions in Afghanistan and Iraq, counter-drug missions in 
Central and South America, and instructed at the highest levels of 
Naval Aviation.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe NASA's top three challenges are:

  <bullet> Maintaining consistency and constancy of purpose while 
        establishing a consensus agenda that can bridge multiple 
        administrations regardless of party. This is essential to avoid 
        resource-wasting program cancellations and maintain high morale 
        both within the Agency and its contractor workforce;

  <bullet> Maintaining and building international partnerships while 
        ending dependency on unfriendly nations to avoid exploitable 
        vulnerabilities;

  <bullet> Bringing together traditional space companies and new space 
        entrepreneurs into a comprehensive NASA vision to maximize 
        resources and create efficiencies.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Not Applicable.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I currently serve in the Oklahoma Air National Guard. Should I be 
confirmed, I will transfer to the Air Force Standby Reserve (from Tide 
32 to Title 10 of the U.S. Code).
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I have been a Member of Congress since 2013.
    In 2009, as the Executive Director of the Tulsa Air and Space 
Museum & Planetarium, I responded to a NASA request for information on 
the final placement and display of retired space shuttle orbiters. I 
requested letters of support from the Oklahoma congressional 
delegation.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I do not foresee any conflicts of interest, but will follow the 
guidance of the Office of Government Ethics and NASA Legal Counsel.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

    a. Provide the name of agency, association, committee, or group:
    House Ethics Committee and Office of Congressional Ethics (OCE)

    b. Provide the date the citation, disciplinary action, complaint, 
or personnel action was issued or initiated:
    I was notified of initiation of an OCE preliminary review on 01/29/
2015. On 03/19/2015 the House Committee on Ethics notified me that it 
was initiating an information review of the same issue.
    A report adopted by the House Committee on Ethics on July 29, 2015 
(U.S. House of Representatives, Committee on Ethics, Report Adopted 
July 29, 2015: In the Matter of Officially-Connected Travel by House 
Members to Azerbaijan in 2013; dated July 31, 2015) declared that I and 
other House Members acted in good faith and that the Committee would 
take no further action with respect to any House Member or employee 
concerning the issue reviewed.

    c. Describe the citation, disciplinary action, complaint, or 
personnel action:
    In March 2013, I was invited to participate in privately sponsored 
travel to a conference in Baku, Azerbaijan. My travel was sponsored by 
an organization that represented to the House Committee on Ethics 
(``the Committee'') that it was eligible to sponsor the travel. I 
submitted the required travel pre-approval forms to the Committee and 
received written approval from the Committee on May 8, 2013. I departed 
on May 25 and returned on May 30. Nine other Members of Congress 
participated in the Azerbaijan Trip. Over a year after my return, an 
anonymous complaint was filed with the Office of Congressional Ethics 
(OCE) alleging that the travel expenses for the Member trips were paid 
by entities ineligible to sponsor such travel.

    d. Provide the results of the citation, disciplinary action, 
complaint, or personnel action.
    Extensive reviews by both the OCE and the House Committee on Ethics 
led the Committee to conclude in its final report on the matter that I 
(and other Members of Congress) acted in good faith in accepting 
privately sponsored travel.
    Additionally, I and other Members of Congress received unsolicited 
gifts while visiting Azerbaijan in May 2013, including hand-crafted 
rugs. Upon return to the U.S., I had the two rugs that I received 
immediately appraised. Their individual values exceeded the allowable 
limit set by the Foreign Gifts and Decorations Act, so I proactively 
filed a report with the House Committee on Ethics. I then sought the 
Committee's guidance and returned the rugs. According the Office of 
Congressional Ethics, I was the only Member to do so prior to the 
Office of Congressional Ethics and House Committee on Ethics reviews of 
the Azerbaijan trips. I received other small gifts including music CDs 
that were discarded when I returned home and a porcelain tea set that I 
turned over to the Clerk of the House. I also gave a coffee table book, 
which may have been a personal purchase, to the Library of Congress 
Surplus Books Program.
    Quoting from the Committee's final report adopted July 29, 2015:

        The evidence demonstrates that the House travelers submitted 
        their [travel pre-approval] forms in good faith, and there is 
        no evidence the House travelers knew, or should have known, if 
        the sponsors' false statements regarding the true source of 
        funding for the travel. Because the House travelers acted in 
        good faith, and the evidence was inconclusive as to the true 
        source of funds for the travel, the Committee concluded that 
        the Trips did not constitute an impermissible gift of travel, 
        and decided no further action is required regarding the House 
        travelers' acceptance of any trip expenses.

        Separate and apart from the travel expenses that were the 
        subject of the Committee's preapproval process, evidence 
        indicates that many House travelers received various tangible 
        gifts during the Trips. In general, Committee approval to 
        accept privately sponsored, officially connected travel is 
        limited to accepting costs related to the trip, not to tangible 
        gifts that may be offered to the traveler.

        The tangible gifts received by House travelers on the Trips in 
        this matter may have been permissible under the House Gift 
        Rule. However, the various provisions of the Gift Rule that may 
        have permitted acceptance of these gifts require knowledge of 
        the donor to assess whether a particular provision of the Gift 
        Rule applies.

        The Committee could not determine the source of these gifts. 
        Since the donor was unknown, it is unlikely that many of the 
        tangible gifts could be accepted under any provision of the 
        House Gift Rule. However, either under their own initiative or 
        at the Committee's recommendation, all Members have voluntarily 
        remedied, or committed to remedy, any impermissible gifts 
        received in connection with the Trips. In addition, the 
        Committee has contacted House staff who participated in the 
        trips and provided guidance to them about tangible gifts they 
        may have received. Therefore, the Committee will take no 
        further action with respect to any House Member or employee in 
        this issue.

        Source: U.S. House of Representatives, Committee on Ethics, 
        Report Adopted July 29, 2015: In the Matter of Officially-
        Connected Travel by House Members to Azerbaijan in 2013; dated 
        July 31, 2015, pp. 2-3.

    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                 Resume of James Frederick Bridenstine
Objective
To serve the United States of America as NASA Administrator
Summary
  <bullet> Eagle Scout Boy Scouts of America

  <bullet> Member of Congress representing Oklahoma's First District

  <bullet> Champion for bipartisan space reform (national security. 
        civil, commercial)

  <bullet> Military pilot with combat experience in Iraq and 
        Afghanistan

  <bullet> Commanded and controlled theaters of battle as a pilot in 
        the E-2C Hawkeye

  <bullet> Flew F-18 Hornets as an adversary for TOPGUN Instructors

  <bullet> Highest level tactical instructor Within Naval Aviation 
        (Level 5 Instructor)

  <bullet> Trusted by the U.S. government with a Top Secret/SCI 
        clearance
Experience
Member of the United States House of Representatives (Jan 2013-present)

  <bullet> Member of the House Armed Services Committee

  <bullet> Subcommittee on Strategic Forces

  <bullet> Subcommittee on Seapower and Project ion Forces

  <bullet> Member of the House Science, Space and Technology Committee

  <bullet> Subcommittee on Space

  <bullet> Subcommittee on Energy

  <bullet> Former Chairman of the Environment Subcommittee

  <bullet> Effective Champion for Comprehensive Space Policy Reform

  <bullet> Named by SpaceNews as one of 5 space leaders in the world 
        making a difference in space (SpaceNews, 2015)

  <bullet> Authored Numerous 2017 NASA Transition Authorization Act 
        Provisions

  <bullet> Allowed the NASA Administrator to determine a maximum 
        probable loss for commercially provided launches and set the 
        insurance requirements to that determination to reduce costs 
        and increase flexibility

  <bullet> Called for a review of concepts and technologies for 
        removing orbital debris

  <bullet> Required NASA to develop a post-ISS plan to avoid a gap in 
        low Earth orbit platforms

  <bullet> Expressed Congress' support for the Venture Class Launch 
        Services pro gram to enhance the domestic launch industry

  <bullet> Co-Authored the Bipartisan Weather Research and Forecasting 
        Innovation Act

  <bullet> Authorized a space-based Commercial Weather Data Pilot 
        Program within NOAA

  <bullet> Incorporated oversight mechanisms on future NOAA flagship 
        satellite programs

  <bullet> Authored Numerous 2017 Omnibus Space Provisions

  <bullet> Encouraged NASA to develop plans to return to the Moon to 
        test capabilities that will be needed to go to Mars including 
        developing in situ resource utilization

  <bullet> Funded a space-based Commercial Weather Data Pilot Program 
        within NOAA and DoD

  <bullet> Required NOAA to evaluate competitively purchased weather 
        data as a potential follow on to the first tranche of COSMIC-2 
        satellites

  <bullet> Increased funding for FAA Office of Commercial Space 
        Transportation

  <bullet> Authored Numerous 2017 NOAA Space Provisions

  <bullet> Authorized funding for Operationally Responsive Space to 
        establish a program based on NASA's Venture Class Launch 
        Services

  <bullet> Encouraged Air Force to make greater use of commercially 
        hosted payloads

  <bullet> Required a true apples-to-apples comparison of MILSATCOM and 
        COMSATCOM in the wideband Analysis of Alternatives

  <bullet> Authorized the Protected Tactical Service SATCOM program

  <bullet> Authorized the SMC SATCOM Pathfinder program

  <bullet> Authorized and required implementation of commercial SATCOM 
        pilot program within DoD

  <bullet> Authorized a space-based Commercial Weather Data Pilot 
        Program

  <bullet> Required analysis on leveraging commercial facilities for 
        the Air Force Satellite Control Network

  <bullet> Authored Numerous 2018 NOAA Space Provisions (Pending 
        Senate/House Conference)

  <bullet> Extends space-based Commercial Weather Data Pilot Program by 
        one year

  <bullet> Encourages Other Transaction Authorities (OTAs) for the SMC 
        Pathfinder program

  <bullet> Creates capstone training event for space operators (Space 
        Flag)

  <bullet> Directs development of space-based sensors for missile 
        launch tracking and targeting

  <bullet> Establishes pilot program for space-based mapping of 
        electromagnetic spectrum

  <bullet> Supports National Geospatial Intelligence Agency (NGA) 
        acquiring non-traditional sources of geospatial intelligence

  <bullet> Increases resources for a military operational capability 
        for responsive launch, specifically for commercial small launch

  <bullet> Supports continued investment in the use of commercial 
        capabilities to enhance resilience and lower costs of the Air 
        Force Satellite Control Network

  <bullet> Encourages SecAF to operationalize extant commercial SSA 
        capabilities to rapidly meet war-fighter requirements

  <bullet> Co-authored the bipartisan American Space Commerce and Free 
        Enterprise Act (passed Committee)

  <bullet> Provides a mechanism for the U.S. Government to approve 
        commercial remote sensing and private non-traditional space 
        activities (human habitats, robotic servicing, lunar missions, 
        and more) while meeting treaty obligations

  <bullet> Authored Numerous 2018 CJS Appropriations Space Provisions 
        (passed Committee)

  <bullet> Funds a demonstration for commercial lunar landers within 
        NASA

  <bullet> Requires NASA to prioritize partnerships with American 
        companies that can provide capabilities for deep space

  <bullet> Includes specific funding for Venture Class Launch Services

  <bullet> Encourages NASA to procure Earth Science data from 
        commercial providers

  <bullet> Continues funding for NOAA's space-based Commercial Weather 
        Data Pilot Program

  <bullet> Requires NOAA to comply with statutory deadlines for remote 
        sensing licensing

  <bullet> Authored 2018 THUD Appropriations Provision to increase 
        funding for the FAA Office of Commercial Space Transportation 
        (Passed Committee)

Oklahoma Air National Guard--Air Force Pilot (Apr 2015-Present)

  <bullet> Member of the first Guard wing attached to Air Force Special 
        Operations Command

  <bullet> Training to fly an MC-12 intelligence, surveillance, 
        reconnaissance aircraft in support of special operations

U.S. Navy Reserve--Navy Pilot (Mar 2010-Apr 2015)

  <bullet> Flew E-2C Hawkeyes in support of counter-narcotics 
        operations in South America, Central America, the Caribbean 
        Sea, and the eastern Pacific

  <bullet> Detected, monitored, and interdicted drug trafficking air 
        and surface vehicles

  <bullet> Commanded and controlled U.S. air and surface assets 
        employed in the drug war from an airborne platform

Wyle Laboratories--Subject Matter Expert (Jun 2011-Sep 2012)

  <bullet> Part-time support reviewing and editing training materials 
        for foreign sales of E-2C Hawkeye aircraft

Zoellner Enterprises--Marketing and Business Development (Jan 2012-Jul 
2012)

  <bullet> Created and implemented marketing campaign for Zoellner 
        Optometric

Deloitte Consulting--Subject Matter Expert (Nov 2010-Apr 2011)

  <bullet> Consulted on modifications and enhancements for legacy E-2C 
        Hawkeye Aircraft

Tulsa Air and Space Museum and Planetarium--Executive Director (Dec 
2008-Aug 2010)

  <bullet> Created comprehensive strategy for promotion, expansion and 
        growth of the museum

  <bullet> Led Tulsa's effort to acquire a retiring space shuttle

  <bullet> Created the QuickTrip Air and Rocket Racing Show, Tulsa's 
        largest air show, attended by astronauts Buzz Aldrin, John 
        Herrington, and Richard Garriott

Wyle Laboratories--Subject Matter Expert (May 2007-Dec 2008)

  <bullet> Served as the E-2D aircraft subject matter expert on an E-2D 
        simulator source selection team

  <bullet> Generated simulator requirements and request for proposal 
        for the E-2D simulator

  <bullet> Evaluated proposals from industry and selected contractor 
        for production

  <bullet> Supported the U.S. Navy in contract administration of flight 
        simulators and weapon system simulators to ensure programs 
        stayed on budget and on time

U.S. Navy--Active Duty Pilot (May 1998-May 2007)

  <bullet> Dual qualified pilot in F-18C Hornet and E-2C Hawkeye 333 
        aircraft carrier landings

  <bullet> 41 combat missions in Afghanistan and Iraq

  <bullet> Weapons and Tactics Instructor WTI at the Naval Strike and 
        Air Warfare Center NSAWC

  <bullet> Highest level instructor in U.S. Navy--Level 5 Instructor

  <bullet> Trained Advanced Mission Commanders from all E-2C squadrons 
        in the classroom, in simulators, and in the air

  <bullet> Developed and managed a standardized curriculum for Advanced 
        Mission Commanders to use to train their respective squadrons

  <bullet> Taught instructional techniques and methods to instructors

  <bullet> Charged With standardizing procedures, weapons, and tactics 
        training fleet wide

  <bullet> Flew the F-18C on enemy profiles to provide training for 
        TOPGUN instructors

  <bullet> Evaluated Carrier Strike Group Large Force Exercises (LFEs) 
        and briefed carrier air wings on points of strength and areas 
        for improvement

  <bullet> Monitored enemy threats and tactics to revise training 
        materials to maintain course integrity

  <bullet> Hawkeye Tactical Analysis Team (HETAT)

  <bullet> Conducted flight simulation in a virtual warfare center to 
        collect data on future weapon systems and tactics

  <bullet> Briefed U.S. Navy senior staff on operational requirements 
        for the E-20 aircraft
  <bullet> Provided operator feedback to government contractors during 
        the development of the new E-20 aircraft and simulator

  <bullet> Carrier Airborne Early Warning Squadron 113 (VAW-113)

  <bullet> Flew combat missions in Iraq and Afghanistan

  <bullet> Flew counter drug operations in the Caribbean

  <bullet> Naval Air Training and Operations Procedures (NATOPS) 
        Instructor--Responsible for ensuring every squadron pilot 
        operated under standardized flight and instrument procedures. 
        Reported squadron readiness directly to the squadron Commanding 
        Officer

  <bullet> Instructor Carrier Aircraft Plane Commander (ICAPC)--
        Responsible for training squadron in enemy threats and tactics

  <bullet> Airframes and Corrosion Control Division Officer--led a crew 
        of 20 airframe maintenance personnel

  <bullet> Schedules Officer--wrote daily flight schedule for 25 
        aircrew
Athletic Honors
    Captain of the Rice University Men's Varsity Swim Team, Rice record 
holder in 100 butterfly, 200 butterfly, and 400 medley relay, Rice 
men's swimming MVP, Rice University athletic scholarship, Oklahoma 
state champion in 100 butterfly, 200 medley relay, 400 freestyle relay, 
Oklahoma swimmer of the year, water polo All American

    The Chairman. Thank you, Congressman.
    Ms. Baiocco.

STATEMENT OF DANA BAIOCCO, NOMINEE TO BE COMMISSIONER, CONSUMER 
                   PRODUCT SAFETY COMMISSION

    Ms. Baiocco. Good morning, Chairman Thune, Ranking Member 
Nelson, and members of the Senate Committee on Commerce, 
Science, and Transportation.
    I am humbled and honored to be before you today as a 
nominee for a vital, independent agency, the Consumer Product 
Safety Commission.
    I would like to thank President Donald Trump for nominating 
me and for his confidence.
    If I am confirmed by the Senate, I will strive every day to 
carry out my duties to the American people with focus, clarity, 
and compassion. I will do so in a manner that is expected by 
this Committee.
    Please allow me the indulgence of introducing my family and 
friends, who are here with me today. Directly behind me is my 
husband, Andy Susko. Although we have only been married a very 
short time, he is a constant source of comfort and support.
    My daughter, Ava Bruening, is also here today directly 
behind me. She is a sophomore at the Brimmer and May School in 
Boston, Massachusetts and she is missing school to be here 
today, but I think this is a wonderful opportunity and a rare 
opportunity for her to see our Government in action. And I hope 
this experience for her is a profound one.
    My parents, Joyce and Jerry Baiocco, are here from Ohio. My 
sister, Stacey Williams, and my niece, Morgan Williams, are 
also here. My stepson and daughter-in-law, Matt and Nicole 
Susko, are watching online from their home in New Hampshire. My 
other stepson John, and his brand new wife of 3 days, are in 
Illinois.
    I am also lucky to have several of my colleagues and 
friends here today.
    But I would also like to take the time to thank all of the 
good, hardworking people of my hometown of Yorkville, Ohio, for 
the hundreds of notes of support that they have extended to my 
family. They remind me of what an enormous responsibility I 
will have, if confirmed, as they are just a small sample of the 
American people who I, and the agency as a whole, will work 
for.
    I was born in West Virginia, raised in Ohio. I attended 
Ohio University, where I received a degree in journalism. I was 
accepted into the four-year night school program at Duquesne 
University School of Law in Pittsburgh, Pennsylvania. During my 
last year of night school, and for one year of post-graduation, 
I was the law clerk for the Honorable Gustave Diamond in 
district court for the Western District of Pennsylvania.
    I joined Jones Day an associate in 1998. I became a partner 
of the firm in 2007. And in 2011, the firm asked me to go to 
Boston and open our Boston office.
    In my opinion, Jones Day and the lawyers and staff at this 
global law firm, are second to none, not only in terms of 
intellectual and legal acumen, but also in terms of mentorship, 
collegiality, and client service. I have learned something from 
each and every one of them. Over the last 19 years at Jones 
Day, I would like to thank them all for their contributions, as 
my successes have come, not on my own, but always as a part of 
a team.
    The Consumer Product Safety Commission plays an important 
role in the safety of our Nation's consumers. If confirmed, I 
will bring to the Commission all of the skills I have developed 
and built over my career.
    I will be guided by the rule of law. I will promote 
transparency between the Commission and all of its 
stakeholders. And I will encourage an open door policy between 
the Commission and all advocacy groups. Rigorous debate and an 
open mind to all points of view are essential to any good 
decision-making process.
    I will work in a collaborative way with my fellow 
Commissioners, if confirmed, and with this Committee because 
collaboration matters. Safety and the protection of the 
American people are not bipartisan. They are all inclusive.
    The CPSC is charged with a mission that touches on every 
single person in this room and beyond: my family, your 
families, and the families across America. The issues that come 
before the CPSC are often complicated and require the study and 
analysis of laws, regulations, science, and the application of 
common sense.
    If confirmed, there are substantive areas that I would like 
to focus on as a Commissioner. First, the Commission must have 
a plan to stay as current as possible on the technology, and 
the new and unique types of products coming onto the market 
every day.
    We need to understand the data, the science, the processes 
underlying every product to stay abreast of marketplace 
dynamics, changing consumer preferences, and to maintain 
vigilance over emerging hazards.
    If confirmed, I will draw upon my experiences and I will 
meet with all stakeholders, continuing my philosophy of 
touching, seeing, and learning the products to help the 
Commission stay well informed.
    Second, I think the Commission must always work to protect 
consumers from unreasonable risks while balancing the American 
public's right to have access to a range of affordable product 
choices and recreational activities. We are all very different 
people and our choices and interests are many.
    Finally, I know the Commission is currently looking at the 
issue of recall effectiveness, and I look forward to 
contributing my own ideas and make sure that consumers are 
being reached across a variety of platforms.
    Thank you for the opportunity to testify and thank you for 
the opportunity to appear before this Committee.
    I look forward to your questions.
    [The prepared statement and biographical information of Ms. 
Baiocco follow:]

   Prepared Statement of Dana Baiocco, Nominee to be a Commissioner, 
                   Consumer Product Safety Commission
    Good morning Chairman Thune, Ranking Member Nelson, and members of 
the Committee on Commerce, Science, and Transportation. I am honored to 
be before you today as a nominee to a vital, independent agency, the 
Consumer Product Safety Commission.
    I would like to thank President Donald Trump for nominating me. I 
am humbled by his confidence and, if confirmed by the Senate, I will 
strive every day to carry out my duties to the American people with 
focus, clarity, and compassion. I will do so in a manner consistent 
with the high expectations of this Committee.
    Please allow me the indulgence of introducing to you my family and 
friends, who are here today. My husband, Andy Susko, is here with me. 
Although we have only been married a short time, he is a constant 
source of comfort and support. My daughter, Ava Bruening, is also here 
today. She is a sophomore at Brimmer and May School in Boston, 
Massachusetts. She is missing school to be here but, I think today she 
will have a rare opportunity to see our system of government in action. 
My parents, Joyce and Jerry Baiocco, are here from Ohio, my sister 
Stacey Williams and my niece, Morgan Williams, are also here from Ohio. 
My stepson and daughter-in-law, Matt and Nicole Susko, are watching 
online from their home in New Hampshire. I am also lucky to have 
several of my colleagues and friends here today. I would like to thank 
all of the good, hard-working people in my hometown of Yorkville, Ohio, 
for the hundreds of notes of support that my family has received. They 
remind me of what an enormous responsibility I will have, if confirmed, 
as they are just a small sample of the American people, who I and the 
agency as a whole, will work for.
    I was born in West Virginia, raised in Ohio, and attended Ohio 
University, where I received a degree in Journalism. I was accepted 
into the 4-year night school program at Duquesne University School of 
Law in Pittsburgh, Pennsylvania. During my last year of night school, 
and for one year after graduation, I served as a federal law clerk to 
the Honorable Gustave Diamond in the District Court of the Western 
District of Pennsylvania. I became an associate at Jones Day in 1998 
and a partner of the firm in 2007. I moved to Boston to help open the 
firm's Boston office in 2011. In my opinion, Jones Day and the lawyers 
and staff at this global law firm, are second to none, not only in 
terms of intellectual and legal acumen, but also in terms of 
mentorship, collegiality, and client service. I have learned something 
from each and every person I have met over the last 19 years at Jones 
Day and I thank them all. My successes have come, not on my own, but 
always as a part of a team.
    The Consumer Product Safety Commission plays an important role in 
the safety of our Nation's consumers. If confirmed, I will bring to the 
Commission, all of the skills I have developed and built over my 
career. I will be guided by the rule of law, I will promote 
transparency between the Commission and all of its stakeholders, and I 
will encourage an open door policy between the Commission and all 
advocacy groups. Rigorous debate and an open mind to all points of view 
are essential to any good decision-making process.
    I will work in a collaborative way with my fellow Commissioners and 
with this Committee because collaboration matters. Safety and 
protection of the American people are not partisan issues. They are all 
inclusive. The CPSC is charged with a mission that touches on every 
single person in this room and beyond, including my family, your 
families, and the families across America. The issues that come before 
the CPSC are often complicated and require the study and analysis of 
laws, regulations, science, and the application of common sense.
    If confirmed, there are substantive areas that I would like to 
focus on as a Commissioner. First, the Commission must have a plan to 
stay as current as possible with technology and the new and unique 
types of consumer products coming onto the market every day. We need to 
understand the data, science, and process underlying a product to stay 
abreast of marketplace dynamics, changing consumer preferences, and to 
maintain vigilance over emerging hazards. If confirmed, I will draw 
upon my experiences and I will meet with all stakeholders, continuing 
my philosophy of seeing, touching, and learning the products to help 
the Commission stay well informed.
    Second, I think the Commission must always work to protect 
consumers from unreasonable risks while balancing the American public's 
right to have access to a range of affordable product choices and 
recreational activities. We are all very different people and our 
choices and interests are many. Finally, I know the Commission is 
currently looking at the issue of recall effectiveness, and I look 
forward to contributing my own ideas to make sure consumers are being 
reached across a variety of platforms.
    Thank you for the opportunity to testify and to appear before the 
Committee today. I look forward to answering your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Dana Baiocco 
(Dana Baiocco Dudek).
    2. Position to which nominated: Commissioner, CPSC.
    3. Date of Nomination: September 28, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 100 High Street, 21st Floor, Boston, MA 02110.

    5. Date and Place of Birth: Aug. 9, 1966; Wheeling, WV.
    6. Provide the name; position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Andrew F. Susko, Partner, White & Williams, LLP (spouse); 
        Matthew Susko (stepson, 30 yrs); Jonathan Susko (stepson, 28 
        yrs).

    7. List all college and graduate degrees. Provide year and school 
attended.

        Duquesne University School of Law (Juris Doctor, cum laude, 
        1997)
        Ohio University, E.W. Scripps School of Journalism (B.S., 
        Journalism, 1988)

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

Professional Firms
2007-present              Partner, Jones Day
                          500 Grant St., Pittsburgh, PA 15219 (2007-
                           2010)
                          100 High St., 21st Floor, Boston, MA. 02110
                           (2011-present)
1998-2006                 Associate, Jones Day, 500 Grant St.,
                           Pittsburgh, PA 15219
 
Government
1996-1998                 Judicial Law Clerk to The Honorable Gustave
                           Diamond United States District Court for the
                           Western District of Pennsylvania, Joseph F.
                           Weis, Jr. U.S. Courthouse, 700 Grant Street,
                           Pittsburgh, PA 15219
 

    9. Attach a copy of your resume. (Attached)
    10. List any advisory consultative, honorary; or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years. See 
Resume.
    12. Please list each membership you have had during the past ten 
years or contently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. (See list below). Please note whether any such club or 
organization restricts membership on the basis of sex, race, color, 
religion, national origin, age, or handicap. No.
Professional
        Pennsylvania Bar Association, Current Member; Chair, House of 
        Delegates (2009-2011); Board of Governors (2009-2012); Zone 12 
        Representative to the House of Delegates (2005 to present); Co-
        Chair, Commission on Women in the Profession (2006-2008); 
        Federal Rules Committee (2006)

        Massachusetts Bar Association, Current Member

        Boston Bar Association, Current Member; MDUL Committee Member 
        (2016) Member, International Aviation Women's Association 
        (2008-2013)
Civic
        Member, Beacon Hill Civic Association and its Zoning and 
        Licensing Committee (Boston, MA 2015-2016)
Charitable
        Children's Hospital of Philadelphia, Carousel Ball Fundraising 
        Committee (2012-2017)

        Emerald Necklace Conservancy, Liff Committee, Fundraising 
        (2013-2016) (To support the care and maintenance of Boston City 
        Parks)

        Magee Women's Institute Cabinet Member (2015) (The Institute is 
        a collaboration of scientists and world-class researchers 
        across institutions and disciplines focused on reproductive 
        sciences and women's health research.)

        Brimmer and May School, Annual Fund Committee (2014 to present)

        The United Way, Young Leaders Audit Committee Volunteer (2009-
        2010)
Not for Profit
        Board Member, Commonwealth Institute (Mission: To assist women 
        CEO's, entrepreneurs, and senior corporate executives by 
        helping them grow their businesses and careers in the Boston 
        area) (2011-2015)
Other
        International Wine and Food Society, Boston Chapter (2013-2017)

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? No. If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    N/A
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    To the best of my recollection, over the past ten years, I 
personally contributed $500 to Martha Coakley for Governor in 2014 and 
$1,000 to the Governor Charlie Baker Committee in 2017. I have not held 
any offices with any state or national political party, political 
action committee, or campaign committee in the past ten years.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Legal 500--leading lawyer or recommended in litigation for product 
liability and mass tort defense: consumer products (including tobacco) 
(2013-2014), toxic tort (2014-2016), automotive/transport (2015-2016), 
and aerospace/aviation (2007, 2009-2011, and 2014); Selected by 
American Lawyer Media as one of 35 Pennsylvania lawyers as a ``2005 
Lawyer on the Fast Track;'' Named a ''Pennsylvania Super Lawyer, Rising 
Star'' by Philadelphia Magazine and Law & Politics (2005-2007); 
Duquesne University School of Law Awards: Justice Louis Mandarino Honor 
Society for Achievement in Trial and Appellate Advocacy; Trial and 
Appellate Moot Court Honor Societies, Officer and Member; Order of 
Barristers; McGinley Scholarship Recipient.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Written Works
        No Summer Vacation for Device Regulators: An Overview of Recent 
        Legislation and FDA Activity, Part I (November 2012)
        [PDF available at: www.jonesday.com/dbaiocco/]

        No Summer Vacation for Device Regulators: An Overview of Recent 
        Legislation and FDA Activity, Part II (November 2012)
        [PDF available at: www.jonesday.com/dbaiocco/]

        Aviation Crisis Management: Are You Really Ready? Jones Day 
        Practice Perspectives: Product Liability & Tort Litigation 
        (Winter 2012) [PDF available at: www.jonesday.com/dbaiocco/]

        The Americanization of Aviation Claims, Jones Day Practice 
        Perspectives: Product Liability & Tort Litigation (Summer 2007)
        [PDF available at www.jonesday.com/dbaiocco/]

        Runway Safety and Airport Operations: Are You Responsible, The 
        Public Record (December 2006) [PDF available at: 
        www.ionesday.com/dbaiocco/]

        Implementing the Montreal Accord: Practical Implications of the 
        Aviation Liability Treaty, Airline Business Report White Paper 
        2004: Charting a Course to Meet Today's Market Challenges [PDF 
        available at: www.jonesday.com/dbaiocco/]

        The Significance of Other Accidents in Aviation Trials, 
        Aviation Litigation Quarterly (July 2004) [PDF available at: 
        www.jonesday.com/dbaiocco/]

        Excluding NTSB Final Aircraft Accident Reports and FAA 
        Airworthiness Directives at Trial, Air and Space Lawyer (Spring 
        2003) [PDF available at www.jonesday.com/dbaiocco/]
Relevant Speaking Roles
        Pennsylvania Bar Institute Presents: The Preparation and Trial 
        of the Products Liability Case: A Course for the Experienced 
        Practitioner Pittsburgh (May 11, 2011), Philadelphia (May 20, 
        2011) (Instructor/Panel Member)

        Boston Bar Association CLE Presenter, ``Preparing Expert 
        Witnesses for Deposition'' (with written materials) (March, 
        2011)

        PBI Fundamentals of Products Liability Law, Pittsburgh 
        (November 11, 2010) (Speaker)

        Proven Strategies For Successfully Managing the Demands of a 
        Law Practice and Personal Life, Pennsylvania Bar Institute CLE 
        Program, Pittsburgh (January 31, 2007) (Speaker)

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Over the past 19 years, I developed a diverse litigation practice, 
which involved, in part, consumer and other products. I assisted 
clients who chose to participate in the CPSC's voluntary recall 
program, and have participated in other Federal agency enforcement 
proceedings and safety related programs. I also obtained various 
administrative and staffing experiences at my firm. For example, I 
assisted the firm in opening its Boston office, and I served as the 
hiring partner for two years in that office. I oversaw the Pittsburgh 
office Speaker Series and served on the Firm's web committee. In 
addition, during my tenure as Chair of the Pennsylvania Bar Association 
House of Delegates, (2009-2011), I presided over all discussions, 
debates, votes, and the adoption of resolutions by this policy making 
mm of the Association. I anticipate that all of these experiences, 
coupled with my commitment to the Rule of Law, the applicable statutes 
and relevant case law, will allow me to contribute to the overall 
vitally of the Agency.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As one of five Commissioners, I believe my responsibilities will 
include working collaboratively to advance the mission of the 
Commission. This necessarily will include working with Staff, 
testifying before Congress on the progression and status of Agency 
initiatives and directives, overseeing and participating in hearings 
and meetings with stakeholders, and applying all applicable laws and 
regulations governing the Commission's authority and chummiest.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe that three challenges facing the CPSC are: (1) keeping up 
with technology and the new and unique types of consumer products 
coming onto the market; (2) protecting the American public from 
unreasonable risks of harms while balancing the American public's right 
to have access to a range of affordable product choices and 
recreational activities; and (3) facilitating programs that promptly 
and effectively address all stakeholder issues.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    If confirmed, I will withdraw from the Jones Day's partnership. 
Pursuant to my partnership agreement, following my withdrawal, I will 
receive reimbursement of my capital contribution paid to me in a lump 
sum within 30 days of withdrawal. However, the firm may withhold a 
portion of my capital account as a reserve for account reconciliation 
and tax payments the film makes on behalf it its partners. I will also 
receive my final partnership share distribution, less any payments 
necessary to satisfy open personal lines of credit, in a lump sum 
within 30 days of withdrawal from the firm. I will continue to 
participate in the firm's qualified defined benefit plan and the 
defined contribution plan. The plan sponsor will not make further 
contributions after my separation from the firm. My retirement funds 
are invested in the following types of accounts: American Funds Growth 
Fund of America, Dodge & Cox Stock and Income Fund, Hotchkis & Wiley 
Mid Cap Value I, Vanguard Institutional Index Instl Pl. PIMCO All Asset 
Institutional Fund, Wells Fargo Stable Value E, Morgan Stanley Inst. 
International Equity Fund, T. Rowe Price Instl. High Yield and Mid-Cap 
Growth funds, Putnam Dynamic Risk Allocation, U.S. Treasury Bonds, and 
various Jones Day Funds (Jones Day Real Estate Fund, Jones Day 2020, 
2025, 2035, 2040 Funds, Jones Day Fixed Income Fund, Jones Day Income 
Research TIPS Fund, Jones Day Emerging Markets Fund). All parent and 
child funds are listed in detail on my Executive Branch Personnel 
Public Financial Disclosure Report.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? No. If so, 
please explain. N/A
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None known at this time.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    During the nomination process, I consulted with the Office of 
Government Ethics and the CPSC's Designated Agency Ethics Official to 
identify potential conflicts of interest. Any conflicts will be 
resolved in accordance with the terms of the Ethics Agreement that I 
have entered into with the CPSC's Ethics Official (a copy of which has 
been provided to the Committee). I am not aware of any other conflicts 
of interest at this time.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    During my tenure as Chair of the Pennsylvania Bar Association House 
of Delegates, (2009-2011), an elected position, I presided over all 
discussions, debates, votes, and the adoption of resolutions by this 
policy making aim of the Association. The Minutes of those meetings 
(October 19, 2009, December 4, 2009, November 19, 2010, May 14, 2010, 
May 6, 2011) are available at the Pennsylvania Bar Association, 100 
South St., Harrisburg, PA 17101.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts will be resolved in accordance with the 
terms of the Ethics Agreement that I have entered into with the 
Commission's Designated Ethics Official (a copy of which has been 
provided to the Committee). If any other potential conflict arises, I 
will seek the advice and counsel of the CPSC's Designated Ethics 
Official and, if faced with a legitimate conflict of interest, I will 
recuse myself and/or divest as necessary.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? No. If yes:
    a. Provide the name of agency, association, committee, or group;
    b. Provide the date the citation, disciplinary action, complaint, 
or persom1el action was issued or initiated;
    c. Describe the citation, disciplinary action, complaint, or 
personnel action;
    d. Provide the results of the citation, disciplinary action, 
complaint, or personnel action.
    N/A
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No. If so, please explain. N/A
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? Yes. If so, 
please explain. N/A

        Dana Baiocco Dudek v. Joseph A. Dudek (Case No. FD-96-9837) is 
        a civil divorce action filed in the Court of Common Pleas of 
        Allegheny County, Pennsylvania (Family Division). In 
        conjunction with this action, I also filed and was granted an 
        Election to Resume Prior Name (i.e., Dana Baiocco Dudek to Dana 
        Baiocco).

        David C. Bruening v. Dana Baiocco (Case No. FD11-006582-016) is 
        a civil divorce and custody action filed in the Court of Common 
        Pleas of Allegheny County, Pennsylvania (Family Division).

        Members of the Board of Trustees of 33 Brimmer Street 
        Condominium Trust, Dana Baiocco and Katherine Wright v. 
        Geoffrey O. Hills and Elise Hills a/k/a Elise Larner (Case No. 
        15-CV-03200) is a civil action for declaratory, injunctive and 
        other relief filed in the Massachusetts Superior Court by me 
        and Katherine Wright, in our capacities as trustees, on behalf 
        of the board of trustees of a three-unit condo building to 
        enforce compliance with the documents governing the 
        administration of the condominium.

    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No. If so, please explain. N/A
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? No. If so, please explain. N/A
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. Please see resume for any additional 
information.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                         Resume of Dana Baiocco
Legal Career
Jones Day
Partner
Boston Office: 100 High St., 21st Floor, Boston, MA 02110, 2010-Present

  <bullet> Boston Office Hiring and Recruiting Partner (2011-2013)

  <bullet> Boston Office Business Development Partner (2011-2013)

Pittsburgh Office: 500 Grant St., Pittsburgh, PA 15219, 1998-2010

United States District Court for the Western District of Pennsylvania 
1996-1998
Judicial Law Clerk to The Honorable Gustave Diamond

------------------------------------------------------------------------
                   Court Admissions                      Admission Date
------------------------------------------------------------------------
U.S. Court of Appeals for the Third Circuit                   June, 1998
U.S. Court of Appeals for the Ninth Circuit               December, 2006
U.S. Court of Appeals for the First Circuit                  March, 2015
U.S. District Court for the Western District of           December, 1997
 Pennsylvania
U.S. District Court for the District of Massachusetts        April, 2012
U.S. District Court for the Eastern District of            October, 2014
 Pennsylvania
Courts of the Commonwealth of Pennsylvania                 January, 1998
Courts of the State of Massachusetts                      February, 2012
------------------------------------------------------------------------

Education
Duquesne University School of Law J.D., cum laude 1997

  <bullet> Justice Louis L. Manderino Honor Society for Achievement in 
        Appellate & Trial Advocacy

  <bullet> McGinley Scholarship Recipient

  <bullet> National Order of Barristers-Excellence in Courtroom 
        Advocacy

  <bullet> Appellate Moot Court Honor Society, Co-Chair

  <bullet> Trial Moot Court Honor Society, Vice-Chair

  <bullet> ATLA Trial Moot Court Competition Finalist

  <bullet> Law Faculty (Professor Kellen McClendon) Research Assistant 
        for Duty of Care in Managed I1ealth Care and Restatement 
        (Second) Sec. 402A

Cambridge University Summer Law Program (via Valparaiso University 
School of Law)

  <bullet> The United States Supreme Court with Chief Justice William 
        H. Rehnquist (Summer, 1995)

  <bullet> Gender Discrimination with Justice Ruth Bader Ginsburg 
        (Summer, 1994)

Ohio University,. E.W.. Scripps School of Journalism, B.S., Journalism 
1988
Legal Honors and Awards
  <bullet> Legal 500: Leading lawyer in litigation for products 
        liability and mass tort defense: consumer products (including 
        tobacco) (2013-2014), toxic tort (2014-2016), automotive/
        transport (2015-2016), and aerospace/aviation (2007, 2009-2011, 
        2014)

  <bullet> American Lawyer Media: Pennsylvania Lawyer on the Fast Track 
        (2005)

  <bullet> Philadelpltia Magazine/Law & Politics: Pennsylvania Super 
        Lawyer, Rising Star (2005-2007)
Bar Association Service and Memberships
  <bullet> Boston Bar Association, MDL Committee Member (2016)

  <bullet> Pennsylvania Bar Association, Chair, House of Delegates 
        (2009-2011); Board of Governors (2009-2011); Zone 
        Representative to the House of Delegates (2005-2011), Co-Chair 
        of tl1e Commission on Women in the Profession (2007-2009)

  <bullet> Pennsylvania Bar Institute, Faculty Member--Continuing Legal 
        Education

        --The Preparation and Trial of the Products Liability Case 
        (Pittsburgh/Philadelphia, 2010)

        --PBI Fundamentals of Products Liability Law (Pittsburgh, 2010)

        --Proven Strategies for Successfully Managing the Demands of a 
        Law Practice and Personal Life (Pittsburgh, 2007)

        --Keys to Effective Motions Practice in the Civil Case And 
        Preparing/or and Taking Depositions (2001)

  <bullet> American Inns of Court (Pittsburgh Chapter), Program 
        Committee Co-Chair, Executive Board Member (2002-2004), Program 
        Committee Member (2004-2005), Group Leader for ``Tripped Up: 
        Electronic Surveillance in the Workplace'' *Awarded Fifth Place 
        at the American Inns of Court National Conference (1999-2001)
Boards and Committees
  <bullet> Commonwealth Institute Board Member (Boston, 2011-2015)

  <bullet> Beacon Hill Civic Association Zoning and Licensing Committee 
        (Boston, 2015-2016)

  <bullet> The Executive Women's Council of Pittsburgh (2000-2006)

  <bullet> Wagner Family Charities Board Member (1998-2002)
Charities and Fundraising
  <bullet> Children's Hospital of Philadelphia, Carousel Ball 
        Fundraising Committee (2014 to present)

  <bullet> Emerald Necklace Conservancy, Liff Committee (Boston, 2013-
        2016)

  <bullet> Magee Women's Institute Cabinet Member (Pittsburgh/Boston, 
        2015)

  <bullet> Brimmer and May School, Annual Fund Committee (2014 to 
        present)

  <bullet> International Wine and Food Society, Boston Chapter (2013 to 
        present)

  <bullet> The United Way, Young Leaders Audit Committee Volunteer 
        (2009-2010)
Certifications and Related Memberships
  <bullet> Private pilot certificate, VFR rating

  <bullet> Member, International Aviation Women's Association (2008-
        2013)
Publications
  <bullet> American Bar Association Litigation Section, Mass Torts 
        Committee Treatise--Mass Torts In The United States: Strategy 
        and Practice: Recalls: Automobiles, Medical Devices, Consumer 
        Products (not yet published, in editing stage)

  <bullet> No Summer Vacation for Device Regulators: An Overview of 
        Recent Legislation and FDA Activity, Parts I and II (November, 
        2012)

  <bullet> Jones Day Practice Perspectives: Product Liability & Tort 
        Litigation: Avialion Crisis Management: Are You Really Ready? 
        (Winter, 2012)

  <bullet> Jones Day Practice Perspectives: Product Liability & Tort 
        Litigation: The Americanization of Aviation Claims (Summer, 
        2007)

  <bullet> The Public Record: Runway Safety and Airport Operations: Are 
        You Responsible? (November, 2006)

  <bullet> Implementing the Montreal Accord: Practical Implications of 
        the Aviation Liability Treaty, Airline Business Report White 
        Paper 2004: Charting a Course to Meet Today's Market Challenges

  <bullet> Aviation Litigation Quarterly: The Significance of Other 
        Accidents in Aviation Trials (July, 2004)

  <bullet> Air and Space Lawyer: Excluding NTSB Final Aircraft Accident 
        Reports and FAA Airworthiness Directives at Trial (Spring, 
        2003)
Speaking Engagements
  <bullet> The Commonwealth Institute Strategies for Success (Keynote 
        Speaker, 2012)

  <bullet> American Conference Institute's 3rd Annual Forum on 
        Defending and Managing Aviation Litigation (Boston, 2011)

  <bullet> The Changing Legal Climate Surrounding Ownership 
        Structuring, Use, and Operation of Corporate Jets (Cleveland 
        and Columbus, 2007)

  <bullet> IATA Legal Symposium: The Americanization of Aviation Claims 
        (Istanbul, Turkey, 2007)

    Chairman Thune. Thank you, Ms. Baiocco.
    Dr. Jacobs, we have an introductory statement from Senator 
Burr. He is chairing an Intelligence Committee hearing that is 
underway right now. He wishes he could be here in person, but 
we will submit that for the record.
    [The information referred to follows:]

               Prepared Statement of Hon. Richard Burr, 
                    U.S. Senator from North Carolina
    Chairman Thune, Ranking Member Nelson, members of the Senate 
Committee on Commerce, Science, and Transportation, and other 
distinguished guests, I'm pleased to appear before this committee to 
voice my strong support for and introduce my fellow North Carolinian 
Dr. Neil Jacobs as the nominee to be Assistant Secretary of Commerce 
for Environmental Observation and Prediction. I believe that after 
careful examination that this Committee will come to the same 
conclusion as I have that he is an exceptional nominee.
    Dr. Jacobs has had a distinguished career in atmospheric science. 
Prior to starting his professional career he received a dual bachelors 
of science degree in mathematics and physics from the University of 
South Carolina. Following completion of his undergraduate work he 
received a Master's of Science in air-sea interaction and a PhD in 
numerical modeling from North Carolina State University.
    Dr. Jacobs is currently the Chief Atmospheric Scientist at 
Panasonic Avionics Corporation where he is charged with directing the 
research and development of both the aviation weather observing 
program, as well as numerical forecast modeling. Prior to joining 
Panasonic in 2005, Dr. Jacobs worked at AirDat on various analysis and 
modeling projects including NASA's Earth Systems Science Program, GOES 
satellite imagery, Department of Energy's Ocean Margins Program, and 
the National Weather Service's Atlantic Surface Cyclone Intensification 
Index. Dr. Jacobs's private sector career coupled by his lengthy 
academic resume makes him well suited to take responsibility for all of 
NOAA's observing systems and converting that information into useable 
prediction products.
    Let me again reiterate my support for Dr. Neil Jacobs and thank him 
for being here today and his willingness to serve his country in this 
important role. I hope the Committee will agree with me that this is a 
well-qualified nominee and he will be confirmed swiftly as the 
Assistant Secretary of Commerce for Environmental Observation and 
Prediction.
    Thank you.

    The Chairman. So please proceed with your remarks.
    Dr. Jacobs. Thank you.

             STATEMENT OF NEIL JACOBS, JR., Ph.D.,

         NOMINEE TO BE ASSISTANT SECRETARY OF COMMERCE,

            ENVIRONMENTAL OBSERVATION AND PREDICTION

    Dr. Jacobs. Thank you, Chairman Thune, Ranking Member 
Nelson, and members of the Committee.
    I would also like to thank the President and Secretary Ross 
for their trust and confidence in me with this nomination to be 
Assistant Secretary of Commerce for Environmental Observation 
and Prediction.
    If I have the honor of being confirmed, I look forward to 
working with all of you on the important work performed by NOAA 
in the areas of observations, analysis, and forecasting.
    I am the son and grandson of Air Force veterans. My 
father's F-4 was shot down in Vietnam. After being rescued, he 
met my mom who was working for the American Red Cross in the 
Philippines. He returned to the Air Force Academy as a flight 
instructor in Colorado Springs, where I was born.
    I grew up in Florida at Homestead Air Force Base near 
Miami, and later moved to South Carolina partly to avoid 
repeated hurricane strikes. Not long after the move, our house 
in Charleston was nearly destroyed by hurricane Hugo. Having 
spent my entire life close to the ocean surfing, diving, and 
fishing, I was naturally drawn toward pursuing an educational 
path in air-sea interaction and numerical weather prediction.
    Upon leaving academia, I was part of a startup company that 
was later acquired by Panasonic. The technology I was involved 
with was designed to supplement the Radiosonde Weather Balloon 
program by transmitting observations collected on aircraft 
through satellite-based communication systems.
    The sensor was also installed on several manned and 
unmanned aerial platforms operated by NASA and the Naval 
Research Laboratory, as well as NOAA's own P-3.
    My team and I decided early on that we would leverage the 
peer review scientific process conducted by NOAA to promote our 
products. We provided the data free of charge for 4 years, so 
that NOAA scientists could vet the data based on their own 
quality and reliability standards.
    Part of this program led to a decade-long, public-private-
academic global modeling effort that rivaled the best in the 
world. In addition to supporting research at several 
universities and the National Center for Atmospheric Research, 
Panasonic also has major facilities in Washington State, New 
Jersey, Florida, Colorado, and North Carolina.
    Having witnessed industry's rapid growth across the entire 
forecast value chain from observation collection to end user 
products, I began to wonder what would happen if industry 
decided to bypass the public sector. This would be a travesty, 
and the end result would be taxpaying citizens not having 
access to the best available weather information for the 
protection of life and property.
    Two years ago, my father passed away on my birthday. I 
wanted to follow in his footsteps, but a medical condition 
prevented me from being a pilot. At his memorial service, I was 
humbled by the large turnout of Academy cadets and veterans, 
and I was compelled to find a way to give back. I knew 
instantly, when I was approached for this position, that this 
was my opportunity to use my specialized knowledge and skills 
to serve my country.
    While my formal training and expertise is in the area of 
observing systems, data assimilation, modeling, and high 
performance computing, my real world experience in structuring 
public-private-academic sustainable business models under 
constrained budgets will play a key role in improving NOAA's 
observing and predictive capabilities.
    The U.S. weather enterprise is at a turning point. If we 
navigate this paradigm shift successfully, the result will be a 
mutually beneficial outcome for all three sectors: public, 
private, and academic.
    If not addressed, the three sectors may find themselves in 
a competitive situation, to the detriment of the American 
people.
    The framework for addressing this is outlined in the 
Weather Research and Forecasting Innovation Act of 2017, and 
implementing this Act will be a top priority.
    If confirmed, it would be a tremendous honor to help lead 
such a distinguished organization of scientists, engineers, 
forecasters, and uniformed officers.
    I can assure the Committee that I will do my absolute best 
to ensure this team of 12,000 professionals have the resources 
and leadership needed to produce transparent, objective, and 
defendable science so that decisions based on this weather and 
climate information can be made with confidence.
    I would like to thank my wife Jen, who is a computational 
biologist at Duke University, for her support and 
understanding, while balancing her career with raising our two 
sons, Nicolaus and Theodore, ages 4 and 2.
    Mr. Chairman, Ranking Member Nelson, and members of the 
Committee, thank you again for the opportunity to be here.
    I would be pleased to answer any questions you may have.
    [The prepared statement and biographical information of Dr. 
Jacobs follow:]

Prepared Statement of Neil Jacobs, Jr., Ph.D., Nominee to be Assistant 
    Secretary of Commerce, Environmental Observation and Prediction
    Thank you, Chairman Thune, Ranking Member Nelson, and Members of 
the Committee. I would also like to thank the President and Secretary 
Ross for their trust and confidence in me with this nomination to be 
the Assistant Secretary of Commerce for Environmental Observation and 
Prediction. If I have the honor of being confirmed, I look forward to 
working with all of you on the important work performed by NOAA in the 
areas of observations, analysis, and forecasting.
    I am the son and grandson of Air Force veterans. My father's F-4 
was shot down in Vietnam. After being rescued, he met my mom who was 
working for the Red Cross in the Philippines. He returned to the Air 
Force Academy as a flight instructor in Colorado Springs, where I was 
born. I grew up in Florida at Homestead Air Force Base near Miami, and 
later moved to South Carolina. Not long after the move, our house in 
Charleston was nearly destroyed by hurricane Hugo. Having spent my 
entire life close to the ocean surfing, diving, and fishing, I was 
naturally drawn towards pursuing an educational path in air-sea 
interaction and numerical weather prediction.
    Upon leaving academia, I was part of a start-up company that was 
later acquired by Panasonic. The technology I was involved with was 
designed to supplement the weather balloon program by transmitting 
observations collected on aircraft through a satellite-based 
communication system. The sensor was also installed on several manned 
and unmanned platforms operated by NASA and the Naval Research 
Laboratory, as well as NOAA's own P-3.
    My team and I decided early on that we would leverage the peer 
review scientific process conducted by NOAA to promote our products. We 
provided the data free of charge for four years, so that NOAA 
scientists could vet the data based on their own quality and 
reliability standards. Part of this program led to a decade-long 
public-private-academic global modeling effort that rivaled the best in 
the world. In addition to supporting research at several universities 
and the National Center for Atmospheric Research, Panasonic also has 
major facilities in Washington state, New Jersey, Florida, Colorado, 
and North Carolina.
    Having witnessed industry's rapid growth across the entire value 
chain from observation collection to end-user products, I began to 
wonder what would happen if industry decided to bypass the public 
sector. This would be a travesty, and the end result would be tax-
paying citizens not having access to the best available weather 
information for the protection of life and property.
    Two years ago, my father passed away on my birthday. I had wanted 
to follow in his footsteps, but a medical condition prevented me from 
being a pilot. At his memorial service, I was humbled by the large 
turnout of Academy cadets and veterans, and I was compelled to find a 
way to give back. I knew instantly, when I was approached for this 
position, that this was my opportunity to use my specialized knowledge 
and skills to serve my country.
    While my formal training and expertise is in the areas of observing 
systems, data assimilation, modeling, and high performance computing, 
my real-world experience in structuring public-private-academic 
sustainable business models, most under constrained budgets, will play 
a key role in improving NOAA's observing and predictive capabilities.
    The U.S. Weather Enterprise is at a turning point. If we navigate 
this paradigm shift successfully, the result will be a mutually-
beneficial outcome for all three sectors, private, public and academic. 
If not addressed, the three sectors may find themselves in a 
competitive situation, to the detriment of the American people. The 
framework for addressing this is outlined in the Weather Research and 
Forecasting Innovation Act of 2017, and implementing this Act will be a 
top priority.
    If confirmed, it would be a tremendous honor to help lead such a 
distinguished organization of scientists, engineers, forecasters and 
uniformed officers. I can assure the Committee that I will do my 
absolute best to ensure this team of 12,000 professionals have the 
resources and leadership needed to produce transparent, objective and 
defendable science, so that decisions based on this weather and climate 
information can be made with confidence.
    I would like to thank my wife Jen, who is a computational biologist 
at Duke University, for her support and understanding, while balancing 
her career with raising our two sons Nicolaus and Theodore, ages 4 and 
2.
    Mr. Chairman, Ranking Member Nelson, and Members of the Committee, 
thank you again for the opportunity to be here. I would be pleased to 
answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Neil Andrew 
Jacobs Jr.
    2. Position to which nominated: Assistant Secretary of Commerce for 
Environmental Observation and Prediction.
    3. Date of Nomination: October 3, 2017.
    4. Address (List current place of residence and office addresses):
    5. Date and Place of Birth: December 12, 1973; Colorado Springs, 
CO.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
        Jennifer Modliszewski, Research Associate, Duke University.
    7. List all college and graduate degrees. Provide year and school 
attended.

        B.S. Physics, 1996. University of South Carolina.

        B.S. Math, 1996, University of South Carolina.

        M.S. Atmospheric Science (Air-sea interaction), 2000, North 
        Carolina State University.

        Ph.D. Atmospheric Science (Numerical modeling), 2005, North 
        Carolina State University.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        2013 to Present. Chief Atmospheric Scientist, Panasonic 
        Avionics Corporation (5,000 employees).
        2004-13, Director of Research and Business Development, AirDat, 
        LLC (80 employees).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years.
    I have never had a position in Federal, State, or local government.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

        American Meteorological Society (AMS) Forecast Improvement 
        Group (Chair 2015 to Present; Lead, NWP 2012-14)

        Federal Aviation Administration (FAA) Continuous Lower 
        Emissions, Energy, and Noise (CLEEN)

        World Meteorological Organization (WMO) Expert Team on 
        Aircraft-Based Observing Systems (ET-ABO)

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        American Meteorological Society; Forecast Improvement Group 
        (Chair 2015 to Present; Lead, NWP 2012-14)

        World Meteorological Organization; Expert Team on Aircraft-
        Based Observing Systems

        American Geophysical Union

        American Meteorological Society

        Gamma Beta Phi, National Honor Society

        Geological Society of America

        National Forensics League

        Phi Beta Kappa, Honor Society

        Pi Mu Epsilon, National Math Honor Society

        Sigma Pi Sigma, National Physics Honor Society (President: 
        1993-1996, USC Chapter)

        Sigma Xi, Honor Society

        Durham YMCA

        Greensboro Velo Club (Pro Cycling Team)

        Rotary International

        Trout Unlimited

    *None of these restrict membership on the basis of sex, race, 
color, religion, national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period. None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Pi Mu Epsilon, National Math Honor Society

        Sigma Pi Sigma, National Physics Honor Society (President: 
        1993-1996, USC Chapter)

        Gamma Beta Phi, National Honor Society

        National Forensics League Scholarship

        Phi Beta Kappa, Honor Society

        Sigma Xi, Honor Society

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Invited lectures at government meteorological centers:

        NCEP, Camp Springs, MD. PWS global ensemble system, 21 July 
        2016

        UK Met Office, Exeter, UK, PWS global model and data 
        assimilation, 13 July 2016

        ECMWF, Reading, UK, Assimilation of ABOs into a global modeling 
        system, 12 July 2016

        UK Met Office, Exeter, UK, Estimation of TAMDAR Error and 
        Assimilation Experiments, 27 Apr 2012

        ECMWF, Reading, UK, Utility of TAMDAR aircraft observations for 
        NWP, 26 Apr 2012

        NCEP EMC, Camp Springs, MD, Optimization of TAMDAR for NWP, 23 
        Aug 2011

        SMN, Mexico City, Mexico, Operational forecasting with TAMDAR, 
        23 Jun 2011

        ECMWF, Reading, UK, Unique aspects of aircraft data 
        assimilation. 10 Nov 2010
Publications
        Gao, F., X.-Y. Huang, N. Jacobs, H. Wang, 2017: Assimilation of 
        Wind Speed and Direction Observations: Results from real 
        observation experiments. Tellus A, in press.

        Zhang. X., H. Wang, X.-Y. Huang, F. Gao, and N. Jacobs, 2015: 
        Using Adjoint-Based Forecast Sensitivity Method to Evaluate 
        TAMDAR Data Impacts on Regional Forecasts, Advances in 
        Meteorology, Vol. 2015, Article ID 427616, 13 pg, 2015.

        Gao, F., P. P. Childs, X.-Y. Huang, N. A. Jacobs, and J. Z. 
        Min, 2014: A Relocation-based Initialization Scheme to Improve 
        Track-forecasting of Tropical Cyclones. Adv. Atmos. Sci., 
        31(l), 27-36.

        Jacobs, N., D. Mulally, A. Anderson, J. Braid, P. Childs, A. 
        Huffman, E. Wilson, and F. Gao, 2015: Recent Advancements in 
        the TAMDAR Sensor Network Expansion, (IOAS-AOLS). AMS, Phoenix, 
        AZ.

        Jacobs, N., F. Gao, P. Childs, X. Y. Huang, and H. Wang, 2015: 
        Optimization of In-situ Aircraft Observations for Various 
        Assimilation Techniques. (IOAS-AOLS), AMS. Phoenix, AZ.

        Liu, Y., M. Xu, L. Pan, Y. Liu, N. Jacobs, and P. Childs, 2015: 
        Implementation of a CONUS RTFDDA system with radar data 
        assimilation for convection-resolvable analysis and prediction, 
        (IOAS-AOLS), AMS, Phoenix, AZ.

        Jacobs, N. A., D. J. Mulally. and A. K. Anderson, 2014: 
        Correction of Flux Valve-Based Heading for Improvement of 
        Aircraft Wind ObservationsJ. Atmos. Oceanic Technol. 31. 1733-
        1747.

        Jacobs, N. A., and J. E. Rex, 2013: Benefits and Utility of 
        Tropospheric Airborne Meteorological Data Reporting, Air 
        Traffic Control Quarterly, January, First Quarter. 2013.

        Huang, X.-Y., F. Gao, N. A. Jacobs, and H. Wang, 2013: 
        Assimilation of wind speed and direction observations: a new 
        formulation and results from idealized experiments. Tellus A. 
        65, l9936.

        Wyszogrodzki, A. A., Y. Liu, N. A. Jacobs, P. Childs, Y. Zhang, 
        G. Roux, and T. T. Warner, 2013: Analysis of the surface 
        temperature and wind forecast bias of the NCAR-AirDat 
        operational CONUS 4km RTFDDA forecasting system, Meteorol. 
        Atmos. Phys., 121, 3-4.

        Jacobs, N. A., P. Childs, M. Croke, A. Huffman, J. Nelson, J. 
        T. Braid, Y. L. Liu, and X. Y. Huang, 2013: An update on the 
        TAMDAR global network expansion, Special Symposium on Advancing 
        Weather and Climate Forecasts: Innovative Techniques and 
        Applications, Austin, TX.

        Nelson, J., J. T. Braid, A. K. Anderson. N. A. Jacobs, P. 
        Childs, M. Croke, and A. Huffman, 2013: Alaska TAMDAR and the 
        RTFDDA WRF QC System, ARAM, AMS, Austin, TX.

        Huffman, A., P. Childs, M. Croke, N. A. Jacobs, and Y. L. Liu, 
        2013: Verification of the NCAR-AirDat operational RT-FDDA-WRF 
        for the 2011 and 2012 spring convective seasons. IOAS, AMS, 
        Austin, TX.

        Gao, F., N. A. Jacobs, X. Y. Huang, and P. Childs, 2013: Direct 
        assimilation of wind speed and direction for the WRF model, 
        Special Symposium on Advancing Weather and Climate Forecasts: 
        Innovative Techniques and Applications, AMS, Austin, TX.

        Richardson, H., N. A. Jacobs, P. Childs, P. Marinello, and X. 
        Y. Huang, 2013: UAS observations and their impact on NWP during 
        TUFT, ARAM, AMS, Austin, TX.

        Gao, F., P. Childs, X. Y. Huang, and N. A. Jacobs, 2013: A new 
        method for vortex relocation within a balanced flow field, NWP, 
        AMS, Austin, TX.

        Gao, F., X. Zhang, N. Jacobs, X.-Y. Huang, Xin Zhang, P. 
        Childs, 2012. Estimation of TAMDAR Observational Error and 
        Assimilation Experiments. Wea. Forecasting, 27, 4. 856-877.

        Gao, F., X.-Y. Huang, N. Jacobs, 2012: The Assimilation of Wind 
        Speed and Direction Based on WRFDA 3D-Var System, New Orleans, 
        LA.

        Zhang, Xiaoyan, X.-Y. Huang, T. Auligne, Xin Zhang, F. Gao, N. 
        Jacobs, P. Childs. 2012. Evaluation of TAMDAR Data Impact on 
        Forecast Error with WRFDA-FSO System, AMS, New Orleans, LA.

        Gao, F., Xiaoyan Zhang, X.-Y. Huang, Xin Zhang, N. Jacobs. P. 
        Childs. 2011: Preliminary Results of Directly Assimilating Wind 
        Speed and Direction Based on WRFDA 3D-Var System. 12th WRF 
        Users' Workshop, Boulder, Colorado, 20-24 June 2011.

        Zhang, Y. Y. Liu, N. A. Jacobs, P. Childs, T. Nipen, T. T. 
        Warner, L. D. Monache, G. Roux, A. Wyszogrodzki, W. Y. Y. 
        Cheng, W. Yu, and R.-S. Sheu, 2012: Evaluation of the impact of 
        assimilating the TAMDAR data on WRF based RTFDDA simulations 
        and the RTFDDA performance on predicting warm-season 
        precipitation over the CONUS, Wea. Forecasting. under revision.

        Liu, Y., T. Warner, S. Swerdlin, T. Betancourt, J. Knievel, 8 . 
        Mahoney, J. Pace, D. Rostkier-Edelstein, N. A. Jacobs, P. 
        Childs, and K. Parks, 2011: NCAR ensemble RTFDDA: real-time 
        operational forecasting applications and new data assimilation 
        developments. 24th Conference on Weather and Forecasting (WAF-
        NWP), AMS, Seattle, WA.

        Huffman, A., N. A. Jacobs, M. Croke, P. Childs, X. Y. Huang, 
        and Y. Liu, 2011: Verification and Sensitivity of the NCAR-
        AirDat Operational Forecasting Systems to TAMDAR Observations. 
        15th Symposium (IOAS-AOLS), AMS, Seattle, WA.

        Jacobs, N. A., F. Gao, P. Childs, X. Zhang, X. Y. Huang, X. 
        Zhang, M. Croke, and Y. Liu, 2011: Optimization of In-situ 
        Aircraft Observations for Various Assimilation Techniques. 15th 
        Symposium (IOAS-AOLS). AMS, Seattle, WA.

        Jacobs, N. A., M. Croke, P. Childs, Y. Liu, X. Y. Huang, and R. 
        Delong, 2011: The Utility of TAMDAR in the NextGen-Oriented 
        CLEEN Program. Second Aviation, Range and Aerospace Meteorology 
        Special Symposium on Weather-Air Traffic Management Integration 
        (ARAM), AMS, Seattle, WA.

        Croke, M., N. A. Jacobs, D. J. Mulally, A. K. Anderson, J. T. 
        Braid, P. Childs. A. Huffman, Y. Liu, and X. Y. Huang, 2011: 
        Recent Advancements in the TAMDAR Sensor Network Expansion. 
        15th Symposium on Integrated Observing and Assimilation Systems 
        for the Atmosphere, Oceans and Land Surface (IOAS-AOLS), AMS, 
        Seattle, WA.

        Jacobs, N. A., P. Childs. M. Croke, Y. Liu, and X. Y. Huang, 20 
        10: An Update on the TAMDAR Sensor Network Deployment, (IOAS 
        AOLS), AMS, Atlanta, GA.

        Jacobs, N. A., M. Croke, P. Childs, and Y. Liu, 2010: The 
        Potential Utility of TAMDAR Data in Air Quality Forecasting, 
        (IOAS-AOLS), AMS. Atlanta, GA.

        Childs, P., N. A. Jacobs, M. Croke , Y. Liu, W. Wu, G. Roux, 
        and M. Ge, 2010: An Introduction to the NCAR AirDat Operational 
        TAMDAR-Enhanced RTFDDA-WRF, (IOAS-AOLS), AMS, Atlanta, GA.

        Croke, M., N. A. Jacobs, P. Childs, Y. Liu, Y. Liu, and R. S. 
        Sheu, 2010: Preliminary Verification of the NCAR AirDat 
        Operational RTFDDA-WRF System, (IOAS-AOLS), AMS, Atlanta, GA.

        Croke, M., N. Jacobs, P. Childs, and Y. Liu, 2009: The Utility 
        of TAMDAR on Short-Range Forecasts over Alaska, (IOAS-AOLS), 
        AMS, Phoenix, AZ.

        Jacobs, N., P. Childs, M. Croke, Y. Liu, and X. Y. Huang, 2009: 
        The Optimization Between TAMDAR Data Assimilation Methods and 
        Model Configuration in WRF-ARW, (IOAS-AOLS). AMS, Phoenix, AZ.

        Childs, P., N. Jacobs, M. Croke, Y. Liu, and X. Y. Huang, 2009: 
        TAMDAR-Related Impacts on the AirDat Operational WRF-ARW as a 
        Function of Data Assimilation Techniques, (IOAS-AOLS), AMS, 
        Phoenix, AZ.

        Jacobs, N., P. Childs, M. Croke, and Y. Liu, 2008: The Effects 
        of Horizontal Grid Spacing and Vertical Resolution on TAMDAR 
        Data assimilation in Short-Range Mesoscale Forecasts, AMS 
        Annual Meeting, 12th Symposium on Integrated Observing and 
        Assimilation Systems for the Atmosphere, Oceans, and Land 
        Surface (IOAS-AOLS).

        Childs, P., N. Jacobs, M. Croke, and Y. Liu, 2008: TAMDAR-
        Related Impacts on the AirDat Operational WRF ARW, AMS Annual 
        Meeting. 12th Symposium on Integrated Observing and 
        Assimilation Systems for the Atmosphere, Oceans, and Land 
        Surface (IOAS-AOLS).

        Croke, M., N. Jacobs, P. Childs, and Y. Liu, 2008: PenAir-Based 
        TAMDAR-Related Impacts on Short-Range Mesoscale Forecasts over 
        Alaska, AMS Annual Meeting, 12th Symposium on Integrated 
        Observing and Assimilation Systems for the Atmosphere, Oceans, 
        and Land Surface.

        Jacobs, N. A., S. Raman, G. M. Lackmann, and P. P. Childs, Jr, 
        2007: The influence of the Gulf Stream induced SST gradients on 
        the U.S. East Coast winter storm of 24-25 January 2000. 
        International Journal of Remote Sensing, 29, 6145-6174.

        Jacobs, N. A., 2007: Potential benefits of tropospheric 
        airborne meteorological data reporting (TAMDAR), Managing the 
        Skies. 5, 3, 20-23.

        Liu, Y., T. Warner, S. Swerdlin, W. Yu, N. Jacobs, and M. 
        Anderson, 2007: Assimilation data from diverse sources for 
        mesoscale NWP: TAMDAR-data impact. Geophysical Research 
        Abstracts, 9, EGU2007-A-03109.

        Jacobs, N. A., Y. Liu, and C.-M. Druse, 2007: The effects of 
        vertical resolution on the optimization of TAMDAR data in 
        short-range mesoscale forecasts, AMS Annual Meeting, 11th 
        Symposium on Integrated Observing and Assimilation Systems for 
        the Atmosphere, Oceans, and Land Surface (IOAS-AOLS) 9.3.

        Druse, C.-M., and N. A. Jacobs, 2007: Evaluating the benefits 
        of TAMDAR data in aviation forecasting, AMS Annual Meeting, 
        11th Symposium on Integrated Observing and Assimilation Systems 
        for the Atmosphere, Oceans, and Land Surface (IOAS-AOLS) 9.5.

        Liu, Y., N. A. Jacobs, W. Yu, T. T. Warner, S. P. Swerdlin, and 
        M. Anderson, 2007: An OSSE study of TAMDAR data impact on 
        mesoscale data assimilation and prediction, AMS Annual Meeting, 
        11th Symposium on (IOAS AOLS) 5.20.

        Jacobs, N. A., 2006: The effects of lower-tropospheric data 
        resolution on short-range mesoscale model forecasts of surface 
        temperatures during the summer season, Doc. and Tech. Note 
        AirDat, LLC, 53 pp.

        Jacobs, N. A., and Y. Liu, 2006: A comprehensive quantitative 
        precipitation forecast statistical verification study, Doc. and 
        Tech. Note AirDat, LLC. 25 pp.

        Jacobs, N. A., Y. Liu, and C.-M. Druse, 2006: Evaluation of 
        temporal and spatial distribution of TAMDAR data in short-range 
        mesoscale forecasts, AMS Annual Meeting, 10th Symp. IOAS-AOLS.

        Jacobs, N. A., S. Raman, and G. M. Lackmann, 2006: Sensitivity 
        of East Coast winter storms to sea surface temperature 
        gradients, AMS Annual Meeting, 14th Conf. Sea-Atmos.

        Jacobs, N. A., G. M. Lackmann and S. Raman 2005: The combined 
        effects of Gulf Stream-induced baroclinicity and upper-level 
        vorticity on U.S. East Coast extratropical cyclogenesis. Mon. 
        Wea. Rev., 133, 2494-2501.

        Jacobs, N. A., 2004: Porting MM5 to OS X: A guide to mesoscale 
        modeling on a GS, Mac OSX Hints, 15, 97.

        Jacobs, N., 2004: The Role of the Gulf Stream on Extratropical 
        Cyclogenesis, Ph.D. Dissertation, Department of Marine, Earth, 
        and Atmospheric Science, North Carolina State University, 
        Raleigh. NC. 307pp.

        Jacobs, N. A., S. Raman, G. M. Lackmann, and P. P. Childs, Jr, 
        2004: Role of the Gulf Stream on extratropical cyclogenesis, 
        AMS Annual Meeting, 20th Conf. WAF/NWP pp. 318-322.

        Raman, S., N. Jacobs, and M. Simpson, 2003: Numerical 
        simulation of land-air-sea interactions during the 
        northeasterly monsoon over Indian Ocean. INDOEX conf. 
        Bangalore, India.

        Jacobs, N. A., 2001: Latent and sensible heat fluxes over the 
        Gulf Stream region during OMP. AGU, Boston, MA. Preprint pp 
        412-417.

        Jacobs, N., 2000: Physical Oceanographic Processes and Air-Sea 
        Interactions of extratropical cyclogenesis during the Oceans 
        Margins

        Program, Thesis, Department of Marine, Earth, and Atmospheric 
        Science, North Carolina State University, Raleigh, NC. 178pp.

        Jacobs, N., C. Petrusak, V. Connors, O. DeMaster, T. Hopkins, 
        1998: Earth System Science: Integration of Computer Modeling 
        and Laboratory Studies. 25 conf GSA/ESSE, pp. 127-131.

        Jacobs, N., V. Connors, T. Hopkins, D. DeMaster, B. Sweet, 
        1998: The Evolution of Earth System Science at North Carolina 
        State University. 25 conf GSA/ESSE, pp. 417-421.

        Jacobs. N.. 1997: Modeling e-folding time decay of super-cooled 
        semiconductor clocks, Thesis, Department of Physics. University 
        of South Carolina, Columbia, SC. 234pp.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Hearing: Leading the Way: Examining Advances in Environmental 
Technology (21 June 2017) House of Representatives, Committee on 
Science, Space, and Technology, Subcommittee on Environment: 
Tropospheric airborne meteorological data reporting, conventional 
weather observations, and their impact in numerical models.
    Hearing: Private Sector Weather Forecasting: Assessing Products and 
Technologies (8 June 2016) House of Representatives, Committee on 
Science, Space, and Technology. Subcommittee on Environment: The 
advancing capabilities of numerical weather prediction in the weather 
enterprise. Public-private-academic partnerships, which for sustainable 
business models.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    At Panasonic, I lead a group of private-sector scientists and 
software engineers that have developed a global weather model that has 
skill on par/and better than the European Centre for Medium-Range 
Weather Forecasts (ECMWF) that produces the ``Euro'' model. This was 
accomplished on a meager budget that industry analysts claimed was 
impossible to even get the program off the ground. Our U.S.-based team 
at Panasonic Weather Solutions (PWS), mostly in North Carolina, proved 
the critics wrong. I have extensive experience with public-private-
academic partnerships for weather model and observing system 
development. As a founding member of the PWS predecessor company 
AirDat, I directed the private side of the National Weather Service's 
very first atmospheric observational data acquisition as a subscription 
service. This is a great example of a successful public-private 
partnership that is still in existence today. I have past experience in 
satellite data and imagery from GOES to Radio Occultation (GPSRO), and 
understand the advantages of commercial weather data to augment our 
current data. This includes processing, quality control, and 
assimilating into forecast models. Having worked alongside NOAA and NWS 
employees and scientists as a scientific collaborator, I have earned 
their trust and respect. Additionally, I have great working 
relationships with key World Meteorological Organization member 
countries and their respective National Meteorological Service 
Directors. For the last three years, I have served as the Chair of the 
Forecast Improvement Group (FIG) for the American Meteorological 
Society. FIG members are NOAA, university, and private sector 
atmospheric scientists and meteorologists, who share the common 
interest of improving weather forecasting, modeling and prediction for 
the United States. Lastly, I want to serve my country. Growing up, I 
wanted to follow my father's career by serving in the U.S. Air Force as 
a fighter pilot but a medical condition prevented me from flying jets. 
When this opportunity presented itself, I thought that working for NOAA 
is another way to serve my country. The best way I can do that is by 
using my skills and expertise to return NOAA's National Weather Service 
to the world's most advanced weather forecasting and modeling agency.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    My responsibility, as the Assistant Secretary of Commerce for 
Environmental Observation and Prediction, will be to work closely with 
NESDlS, NOS, NWS and OAR, and provide leadership for these line offices 
to better manage their assets in their service to the American people. 
As duly confirmed by the Senate, and as political appointees, we have 
an obligation to comply with the direction and oversight provided by 
Congress to manage our agency to the best of our abilities and within 
the letter of the law. Panasonic Avionics Corporation, a division of 
Panasonic North America, provides avionics, engineering services, 
meteorological data and other technical services to numerous leading 
air carriers operating in dozens of countries and National 
Meteorological Service agencies across the world. As their Chief 
Atmospheric Scientist, the team I managed had business relationships 
across the world that handled complex transactions and weather-related 
industry challenges. Being an executive for a large entity requires the 
proper balancing and management of multiple agendas and budgets, 
working with many teams with different and sometimes opposing 
strategies, and always working closely with corporate counsel when 
their expert guidance would be required. The private sector works 
towards the bottom line; in government, the bottom line is serving the 
American people.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

  (1)  Weather Forecasting and Modeling--Return NOAA NWS to the world's 
        leader in global weather forecast modeling capability. The 
        United States led the world in weather forecasting and modeling 
        for decades, but has not kept pace with overseas competition, 
        and is struggling to maintain the status of third most accurate 
        global weather model among National Meteorological Services. As 
        a matter of national pride, we will restore American technical 
        superiority for this vital service for the country and our 
        military serving around the world.

  (2)  Increase Observational and Predictive Resource Capabilities--For 
        example, in Hurricane Harvey, NWS did a great job, but data 
        gaps still exist. One area for improvement is to increase our 
        knowledge to better manage QPE, which stands for Quantitative 
        Precipitation Estimation. It is a method of approximating the 
        amount of precipitation that has fallen at a location or across 
        a region, and is critical for everything ranging from water 
        resource management to flash flood prediction. QPE maps are 
        compiled using several different data sources including radar 
        estimates, manual and automatic field observations, and 
        satellite data. Scientists at NWS-NCEP and OAR would agree that 
        this process must be improved. A second area for improvement 
        has already been addressed by Congress in HR 353. Specifically. 
        the bill section introduced by Senator Richard Burr asked NOAA 
        to identify the existing radar data gaps in the United States. 
        That report, I understand, is being developed for Congress. 
        Ending radar gaps is critical. We cannot have whole population 
        areas underserved by geographical gaps in this basic 
        observational coverage. The challenge that I will face will be 
        to come back to Congress to discuss how much it will cost to 
        provide this vital coverage to better protect our citizens. 
        There are additional ways that we must improve our 
        Observational and Predictive Capabilities, but we need to 
        examine where costs savings might be realized within existing 
        budgets, and to discuss with Congress tradeoffs that can 
        improve operational efficiencies thereby enabling NOAA to 
        better serve the American people.

  (3)  Manage Satellite Costs--The FY 2017 President's Budget Request 
        for NESDIS was $2,303.7 million. This sum represents the 
        largest portion of NOAA's annual budget. It is my understanding 
        that NESDIS is due to release its new satellite architecture 
        study that discusses where NESDIS plans to go in the decades 
        ahead. It would be premature for me to second guess what NESDIS 
        is planning; however, keeping in line with my second answer, 
        NOAA needs to increase and improve both the data volume and 
        data utility of its earth observation satellites, as well as 
        ground stations, data storage, and dissemination capabilities. 
        As the volume of data increases exponentially, the United 
        States must invest in the proper infrastructure to manage the 
        data, and develop cutting-edge software to extract maximum 
        value from the data.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have no financial arrangements, deferred compensation agreements, 
or other continuing dealings with business associates, clients, or 
customers. I do have an IRA and 401k.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and Department of Commerce agency 
ethics officials to identify any potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of my ethics agreement. I understand that my ethics agreement has 
been provided to the Committee. I am not aware of any potential 
conflict of interest other than those that are the subject of my ethics 
agreement.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    Four years ago, Panasonic Avionics Corporation contracted with a 
DC-based lobbyist to represent their interest in the successful passage 
of HR 2413, 1561 and finally 353, The Weather Research and Forecast 
Innovation Act of 2017. Congress passed HR 353 earlier this year and 
President Trump signed the bill in April creating Public Law 115-25.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of my ethics agreement. understand that my ethics 
agreement has been provided to the Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? No.
    If yes:

  a. Provide the name of agency, association, committee, or group;

  b. Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c. Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d. Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.

    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? No.
    If so, please explain.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                Neil Andrew Jacobs Jr. Curriculum Vitae
Areas of Expertise
        Mesoscale and microscale dynamics, numerical weather 
        prediction, variational and ensemble-based data assimilation 
        methods, atmospheric transport, and mesoscale modeling. Mid-
        latitude convective systems, fronts, and small-scale 
        convection-induced flows such as the sea breeze and urban heat 
        island circulations. Surface flux relations and boundary layer 
        dynamics as a function of enhanced thermal gradient grid 
        resolution. Regional climate fluctuations as a result of 
        western boundary current variability. Forecasting of tropical 
        and extratropical long period ocean swell generation. 
        Satellite, aircraft and UAS-based observing systems, weather-
        related flight route optimization, avionics, and aviation 
        forecasting. Environmental economic policy, public-private 
        partnerships, and small-business innovation and strategy.
Education
Ph.D. in Atmospheric Science (Numerical Weather Prediction), May 2005, 
North Carolina State University
        Thesis: The Role of Marine Thermal Gradient Structure on Gulf 
        Stream-Related Extratropical Cyclogenesis. (Thesis Advisors: 
        Dr. Sethu Raman and Dr. Gary M. Lackmann; Committee Members: 
        Dr. Ping-Tung Shaw, Kermit K. Keeter, and Dr. Kiran Alapaty).
M.S. in Air-Sea Interaction, May 2000, North Carolina State University
        Thesis: Physical Oceanographic Processes and Air-Sea 
        Interactions Associated with Extratropical Cyclogenesis During 
        the Ocean Margins Program. (Thesis Advisor: Dr. Leonard J. 
        Pietrafesa; Committee: Dr. Lian Xie, Dr. Sethu Raman, and Dr. 
        John M. Morrison).
B.S. in Physics, May 1996, University of South Carolina*
B.S. in Mathematics, May 1996, University of South Carolina
        Minor in Economics, Cognate in Computer Science, Cognate in 
        Marine Science
        Graduated magna cum laude
Industry Employment
        2013-Present, Chief Atmospheric Scientist, Panasonic Avionics 
        Corporation (5,000 employees). Oversee the development and 
        deployment of weather-related data and products. Oversee the 
        development of global forecast products and advanced high-
        resolution data assimilation to enable better decision-making 
        by industry, commercial aviation, and international and 
        domestic governmental agencies.

        2004-13, Director of Research and Business Development, AirDat, 
        LLC (80 employees). Analysis of the impact of TAMDAR data on 
        numerical models such as GFS, WRF, RUC, and RT-FDDA. 
        Development of methods to optimize real-time 4D-Var data 
        assimilation. Oversee the development of new TAMDAR-based 
        products and high resolution forecasts. Contracts with DoD, 
        NCAR, NASA, NOAA, FAA, LLNL, UKMO, and ECMWF.

        1998, Co-Developer, Computer modules for NASA's Earth System 
        Science Program (ESSE), NASA Goddard.

        1997, Programmer and GOES Satellite imagery processor, Langley, 
        VA.

        1995-97, Baikal Research Group, modeling the physical 
        properties of Lake Baikal, Russia.

        1995-97, Physical Limnology of Winyah Bay: Analysis and 
        modeling of waves, salinity, temperature, and current. U. of 
        South Carolina.

        1993-97, Programmer, Oak Ridge National Lab, Nuclear Physics 
        Branch, TN. Joint with College of Charleston and U. of South 
        Carolina.
Research Experience
        2005-present, (Panasonic/AirDat/NCAR/NASA/NOAA-GSD, UKMO): 
        Analysis of the impact of TAMDAR data on numerical models such 
        as WRF, RAP, RT-FDDA, GFS, UK Met Unified, ECMWF. Development 
        of methods to optimize 4D-Var and EnKF assimilation. 
        Development and testing of advanced flight optimization 
        algorithms for safety and fuel efficiency.

        2000-06, (State Climate Office (SCO) of North Carolina/NWS-
        RDU): Research involved atmospheric modeling (WRF) of surface 
        temperature grid resolution to account for frontogenesis and 
        sensible heat fluxes into the atmosphere over the southeast 
        U.S. and coastal waters.

        1997-2003, Research Scientist, SCONC, Physical oceanography, 
        mesoscale air-sea interaction and near-shore modeling (MM5/
        WRF).
Computer Skills
        Programming Languages: Fortran, C, C++, C#, Perl, R, MySQL, 
        Python, HTML, Java, ksh, and IDL.

        Computing Environments: HPC, Linux, UNIX, IBM-AIX, Mac, MPI, 
        Slurm, Windows, Open/FreeBSD, Darwin.

        Software/Models including: GFS, GSI, MPAS, FV3, WRFDA, WW3, 
        POM, HYCOM, GrADS, NCL, IDV, ArcGIS, MATLAB, ecFlow.
Courses Taught
        2007-09, (NCSU): Atmospheric Thermodynamics (MEA 312)

        2005-07, (Meredith): Meteorology (GEO 942)

        2002-04, (Meredith): Earth Science and Lab (GEO 200, 240L)

        2003-04, (Meredith): Introduction to GIS (GEO 943)

        2000-01, (NCSU): Meteorology I, II (MEA 213, 214)

        1998-99, (NCSU): Oceanography and Lab (MEA 200, 210L)

        1997-99, (NCSU): Earth System Science (MEA 100)

        1993-97, (USC): Calculus and non-calculus based physics (PHYS 
        101, 102, 211, 212)

        1993-97, (USC): Calculus and non-calculus based physics labs 
        (PHYS 101L-212L)
Professional Organizations
        American Geophysical Union American Meteorological Society

        Gamma Beta Phi, National Honor Society Geological Society of 
        America

        National Forensics League

        Phi Beta Kappa, Honor Society

        Pi Mu Epsilon, National Math Honor Society

        Sigma Pi Sigma, National Physics Honor Society (President: 
        1993-1996, USC Chapter) Sigma Xi
Committees
        American Meteorological Society (AMS) Forecast Improvement 
        Group (Chair 2015-Present; Lead, Modeling 2012-14)

        Federal Aviation Administration (FAA) Continuous Lower 
        Emissions, Energy, and Noise (CLEEN)

        World Meteorological Organization (WMO) Expert Team on 
        Aircraft-Based Observing Systems (ET-ABO)
Invited Center Lectures
        NCEP, Camp Springs, MD (hosts: Drs. Vijay Tallapragada and Bill 
        Lapenta), PWS global ensemble system, 21 July 2016

        UK Met Office, Exeter, UK (host: Dr. Dale Barker), PWS global 
        model and data assimilation, 13 July 2016

        ECMWF, Reading, UK (host: Dr. Anna Ghelli), Assimilation of 
        ABOs into a global modeling system, 12 July 2016

        UK Met Office, Exeter, UK (host: Dr. Dale Barker), Estimation 
        of TAMDAR Error and Assimilation Experiments, 27 Apr 2012

        ECMWF, Reading, UK (host: Dr. Erik Andersson), Utility of 
        TAMDAR aircraft observations for NWP, 26 Apr 2012

        NCEP EMC, Camp Springs, MD (host: Dr. Stephen Lord), 
        Optimization of TAMDAR for NWP, 23 Aug 2011

        SMN, Mexico City, Mexico (host: Dr. Felipe Adrian Vazquez), 
        Operational forecasting with TAMDAR, 23 Jun 2011

        ECMWF, Reading, UK (hosts: Drs. Erland Kallen and Erik 
        Andersson), Unique aspects of aircraft data assimilation, 10 
        Nov 2010
Congressional Testimony
        Hearing: Leading the Way: Examining Advances in Environmental 
        Technology (21 June 2017)
                House of Representatives, Committee on Science, Space, 
                and Technology, Subcommittee on Environment

        Hearing: Private Sector Weather Forecasting: Assessing Products 
        and Technologies (8 June 2016)
                House of Representatives, Committee on Science, Space, 
                and Technology, Subcommittee on Environment

        Many additional statements co-prepared and reviewed for Hearing 
        witnesses
Publications
        Gao, F., X.-Y. Huang, N. Jacobs, H. Wang, 2017: Assimilation of 
        Wind Speed and Direction Observations: Results from real 
        observation experiments. Tellus A, in press.

        Zhang, X., H. Wang, X.-Y. Huang, F. Gao, and N. Jacobs, 2015: 
        Using Adjoint-Based Forecast Sensitivity Method to Evaluate 
        TAMDAR Data Impacts on Regional Forecasts, Advances in 
        Meteorology, Vol. 2015, Article ID 427616, 13 pg, 2015.

        Gao, F., P. P. Childs, X.-Y. Huang, N. A. Jacobs, and J. Z. 
        Min, 2014: A Relocation-based Initialization Scheme to Improve 
        Track-forecasting of Tropical Cyclones. Adv. Atmos. Sci., 
        31(1), 27-36.

        Jacobs, N., D. Mulally, A. Anderson, J. Braid, P. Childs, A. 
        Huffman, E. Wilson, and F. Gao, 2015: Recent Advancements in 
        the TAMDAR Sensor Network Expansion, (IOAS-AOLS), AMS, Phoenix, 
        AZ.

        Jacobs, N.., F. Gao, P. Childs, X. Y. Huang, and H. Wang, 2015: 
        Optimization of In-situ Aircraft Observations for Various 
        Assimilation Techniques, (IOAS-AOLS), AMS, Phoenix, AZ.

        Liu, Y., M. Xu, L. Pan, Y. Liu, N. Jacobs, and P. Childs, 2015: 
        Implementation of a CONUS RTFDDA system with radar data 
        assimilation for convection-resolvable analysis and prediction, 
        (IOAS-AOLS), AMS, Phoenix, AZ.

        Jacobs, N. A., D. J. Mulally, and A. K. Anderson, 2014: 
        Correction of Flux Valve-Based Heading for Improvement of 
        Aircraft Wind Observations. J. Atmos. Oceanic Technol., 31, 
        1733-1747.

        Jacobs, N. A., and J. E. Rex, 2013: Benefits and Utility of 
        Tropospheric Airborne Meteorological Data Reporting, Air 
        Traffic Control Quarterly, January, First Quarter, 2013.

        Huang, X.-Y., F. Gao, N. A. Jacobs, and H. Wang, 2013: 
        Assimilation of wind speed and direction observations: a new 
        formulation and results from idealized experiments. Tellus A, 
        65, 19936.

        Wyszogrodzki, A. A., Y. Liu, N. A. Jacobs, P. Childs, Y. Zhang, 
        G. Roux, and T. T. Warner, 2013: Analysis of the surface 
        temperature and wind forecast bias of the NCAR-AirDat 
        operational CONUS 4km RTFDDA forecasting system, Meteorol. 
        Atmos. Phys., 121, 3-4.

        Jacobs, N. A., P. Childs, M. Croke, A. Huffman, J. Nelson, J. 
        T. Braid, Y. L. Liu, and X. Y. Huang, 2013: An update on the 
        TAMDAR global network expansion, Special Symposium on Advancing 
        Weather and Climate Forecasts: Innovative Techniques and 
        Applications, Austin, TX.

        Nelson, J., J. T. Braid, A. K. Anderson, N. A. Jacobs, P. 
        Childs, M. Croke, and A. Huffman, 2013: Alaska TAMDAR and the 
        RTFDDA WRF QC System, ARAM, AMS, Austin, TX.

        Huffman, A., P. Childs, M. Croke, N. A. Jacobs, and Y. L. Liu, 
        2013: Verification of the NCAR-AirDat operational RT-FDDA-WRF 
        for the 2011 and 2012 spring convective seasons, IOAS, AMS, 
        Austin, TX.

        Gao, F., N. A. Jacobs, X. Y. Huang, and P. Childs, 2013: Direct 
        assimilation of wind speed and direction for the WRF model, 
        Special Symposium on Advancing Weather and Climate Forecasts: 
        Innovative Techniques and Applications, AMS, Austin, TX.

        Richardson, H., N. A. Jacobs, P. Childs, P. Marinello, and X. 
        Y. Huang, 2013: UAS observations and their impact on NWP during 
        TUFT, ARAM, AMS, Austin, TX.

        Gao, F., P. Childs, X. Y. Huang, and N. A. Jacobs, 2013: A new 
        method for vortex relocation within a balanced flow field, NWP, 
        AMS, Austin, TX.

        Gao, F., X. Zhang, N. Jacobs, X.-Y. Huang, Xin Zhang, P. 
        Childs, 2012. Estimation of TAMDAR Observational Error and 
        Assimilation Experiments. Wea. Forecasting, 27, 4, 856-877.

        Gao, F., X.-Y. Huang, N. Jacobs, 2012: The Assimilation of Wind 
        Speed and Direction Based on WRFDA 3D-Var System, New Orleans, 
        LA.

        Zhang, Xiaoyan, X.-Y. Huang, T. Auligne, Xin Zhang, F. Gao, N. 
        Jacobs, P. Childs. 2012. Evaluation of TAMDAR Data Impact on 
        Forecast Error with WRFDA-FSO System, AMS, New Orleans, LA.

        Gao, F., Xiaoyan Zhang, X.-Y. Huang, Xin Zhang, N. Jacobs, P. 
        Childs, 2011: Preliminary Results of Directly Assimilating Wind 
        Speed and Direction Based on WRFDA 3D-Var System. 12th WRF 
        Users' Workshop, Boulder, Colorado, 20-24 June 2011.

        Zhang, Y. Y. Liu, N. A. Jacobs, P. Childs, T. Nipen, T. T. 
        Warner, L. D. Monache, G. Roux, A. Wyszogrodzki, W. Y. Y. 
        Cheng, W. Yu, and R.-S. Sheu, 2012: Evaluation of the impact of 
        assimilating the TAMDAR data on WRF-based RTFDDA simulations 
        and the RTFDDA performance on predicting warm-season 
        precipitation over the CONUS, Wea. Forecasting, under revision.

        Liu, Y., T. Warner, S. Swerdlin, T. Betancourt, J. Knievel, B. 
        Mahoney, J. Pace, D. Rostkier-Edelstein, N. A. Jacobs, P. 
        Childs, and K. Parks, 2011: NCAR ensemble RTFDDA: real-time 
        operational forecasting applications and new data assimilation 
        developments. 24th Conference on Weather and Forecasting (WAF-
        NWP), AMS, Seattle, WA.

        Huffman, A., N. A. Jacobs, M. Croke, P. Childs, X. Y. Huang, 
        and Y. Liu, 2011: Verification and Sensitivity of the NCAR-
        AirDat Operational Forecasting Systems to TAMDAR Observations. 
        15th Symposium (IOAS-AOLS), AMS, Seattle, WA.

        Jacobs, N. A., F. Gao, P. Childs, X. Zhang, X. Y. Huang, X. 
        Zhang, M. Croke, and Y. Liu, 2011: Optimization of In-situ 
        Aircraft Observations for Various Assimilation Techniques. 15th 
        Symposium (IOAS-AOLS), AMS, Seattle, WA.

        Jacobs, N. A., M. Croke, P. Childs, Y. Liu, X. Y. Huang, and R. 
        DeJong, 2011: The Utility of TAMDAR in the NextGen-Oriented 
        CLEEN Program. Second Aviation, Range and Aerospace Meteorology 
        Special Symposium on Weather-Air Traffic Management Integration 
        (ARAM), AMS, Seattle, WA.

        Croke, M., N. A. Jacobs, D. J. Mulally, A. K. Anderson, J. T. 
        Braid, P. Childs, A. Huffman, Y. Liu, and X. Y. Huang, 2011: 
        Recent Advancements in the TAMDAR Sensor Network Expansion. 
        15th Symposium on Integrated Observing and Assimilation Systems 
        for the Atmosphere, Oceans and Land Surface (IOAS-AOLS), AMS, 
        Seattle, WA.

        Jacobs, N. A., P. Childs, M. Croke, Y. Liu, and X. Y. Huang, 
        2010: An Update on the TAMDAR Sensor Network Deployment, (IOAS-
        AOLS), AMS, Atlanta, GA.

        Jacobs, N. A., M. Croke, P. Childs, and Y. Liu, 2010: The 
        Potential Utility of TAMDAR Data in Air Quality Forecasting, 
        (IOAS-AOLS), AMS, Atlanta, GA.

        Childs, P., N. A. Jacobs, M. Croke, Y. Liu, W. Wu, G. Roux, and 
        M. Ge, 2010: An Introduction to the NCAR-AirDat Operational 
        TAMDAR-Enhanced RTFDDA-WRF, (IOAS-AOLS), AMS, Atlanta, GA.

        Croke, M., N. A. Jacobs, P. Childs, Y. Liu, Y. Liu, and R. S. 
        Sheu, 2010: Preliminary Verification of the NCAR-AirDat 
        Operational RTFDDA-WRF System, (IOAS-AOLS), AMS, Atlanta, GA.

        Croke, M., N. Jacobs, P. Childs, and Y. Liu, 2009: The Utility 
        of TAMDAR on Short-Range Forecasts over Alaska, (IOAS-AOLS), 
        AMS, Phoenix, AZ.

        Jacobs, N., P. Childs, M. Croke, Y. Liu, and X. Y. Huang, 2009: 
        The Optimization Between TAMDAR Data Assimilation Methods and 
        Model Configuration in WRF-ARW, (IOAS-AOLS), AMS, Phoenix, AZ.

        Childs, P., N. Jacobs, M. Croke, Y. Liu, and X. Y. Huang, 2009: 
        TAMDAR-Related Impacts on the AirDat Operational WRF-ARW as a 
        Function of Data Assimilation Techniques, (IOAS-AOLS), AMS, 
        Phoenix, AZ.

        Jacobs, N., P. Childs, M. Croke, and Y. Liu, 2008: The Effects 
        of Horizontal Grid Spacing and Vertical Resolution on TAMDAR 
        Data assimilation in Short-Range Mesoscale Forecasts, AMS 
        Annual Meeting, 12th Symposium on Integrated Observing and 
        Assimilation Systems for the Atmosphere, Oceans, and Land 
        Surface (IOAS-AOLS).

        Childs, P., N. Jacobs, M. Croke, and Y. Liu, 2008: TAMDAR-
        Related Impacts on the AirDat Operational WRF-ARW, AMS Annual 
        Meeting, 12th Symposium on Integrated Observing and 
        Assimilation Systems for the Atmosphere, Oceans, and Land 
        Surface (IOAS-AOLS).

        Croke, M., N. Jacobs, P. Childs, and Y. Liu, 2008: PenAir-Based 
        TAMDAR-Related Impacts on Short-Range Mesoscale Forecasts over 
        Alaska, AMS Annual Meeting, 12th Symposium on Integrated 
        Observing and Assimilation Systems for the Atmosphere, Oceans, 
        and Land Surface.

        Jacobs, N. A., S. Raman, G. M. Lackmann, and P. P. Childs, Jr, 
        2007: The influence of the Gulf Stream induced SST gradients on 
        the U.S. East Coast winter storm of 24-25 January 2000. 
        International Journal of Remote Sensing, 29, 6145-6174.

        Jacobs, N. A., 2007: Potential benefits of tropospheric 
        airborne meteorological data reporting (TAMDAR). Managing the 
        Skies, 5, 3, 20-23.

        Liu, Y., T. Warner, S. Swerdlin, W. Yu, N. Jacobs, and M. 
        Anderson, 2007: Assimilation data from diverse sources for 
        mesoscale NWP: TAMDAR-data impact. Geophysical Research 
        Abstracts, 9, EGU2007-A-03109.

        Jacobs, N. A., Y. Liu, and C.-M. Druse, 2007: The effects of 
        vertical resolution on the optimization of TAMDAR data in 
        short-range mesoscale forecasts, AMS Annual Meeting, 11th 
        Symposium on Integrated Observing and Assimilation Systems for 
        the Atmosphere, Oceans, and Land Surface (IOAS-AOLS) 9.3.

        Druse, C.-M., and N. A. Jacobs, 2007: Evaluating the benefits 
        of TAMDAR data in aviation forecasting, AMS Annual Meeting, 
        11th Symposium on Integrated Observing and Assimilation Systems 
        for the Atmosphere, Oceans, and Land Surface (IOAS-AOLS) 9.5.

        Liu, Y., N. A. Jacobs, W. Yu, T. T. Warner, S. P. Swerdlin, and 
        M. Anderson, 2007: An OSSE study of TAMDAR data impact on 
        mesoscale data assimilation and prediction, AMS Annual Meeting, 
        11th Symposium on (IOAS-AOLS) 5.20.

        Jacobs, N. A., 2006: The effects of lower-tropospheric data 
        resolution on short-range mesoscale model forecasts of surface 
        temperatures during the summer season, Doc. and Tech. Note 
        AirDat, LLC, 53 pp.

        Jacobs, N. A., and Y. Liu, 2006: A comprehensive quantitative 
        precipitation forecast statistical verification study, Doc. and 
        Tech. Note AirDat, LLC, 25 pp.

        Jacobs, N. A., Y. Liu, and C.-M. Druse, 2006: Evaluation of 
        temporal and spatial distribution of TAMDAR data in short-range 
        mesoscale forecasts, AMS Annual Meeting, 10th Symp. IOAS-AOLS.

        Jacobs, N. A., S. Raman, and G. M. Lackmann, 2006: Sensitivity 
        of East Coast winter storms to sea surface temperature 
        gradients, AMS Annual Meeting, 14th Conf. Sea-Atmos.

        Jacobs, N. A., G. M. Lackmann and S. Raman 2005: The combined 
        effects of Gulf Stream-induced baroclinicity and upper-level 
        vorticity on U.S. East Coast extratropical cyclogenesis. Mon. 
        Wea. Rev., 133, 2494-2501.

        Jacobs, N. A., 2004: Porting MM5 to OS X: A guide to mesoscale 
        modeling on a G5, Mac OSX Hints, 15, 97.

        Jacobs, N., 2004: The Role of the Gulf Stream on Extratropical 
        Cyclogenesis, Ph.D. Dissertation, Department of Marine, Earth, 
        and Atmospheric Science, North Carolina State University, 
        Raleigh, NC. 307pp.

        Jacobs, N. A., S. Raman, G. M. Lackmann, and P. P. Childs, Jr, 
        2004: Role of the Gulf Stream on extratropical cyclogenesis, 
        AMS Annual Meeting, 20th Conf. WAF/NWP pp. 318-322.

        Raman, S., N. Jacobs, and M. Simpson, 2003: Numerical 
        simulation of land-air-sea interactions during the 
        northeasterly monsoon over Indian Ocean. INDOEX conf. 
        Bangalore, India.

        Jacobs, N. A., 2001: Latent and sensible heat fluxes over the 
        Gulf Stream region during OMP. AGU, Boston, MA. Preprint pp 
        412-417.

        Jacobs, N., 2000: Physical Oceanographic Processes and Air-Sea 
        Interactions of extratropical cyclogenesis during the Oceans 
        Margins Program, Thesis, Department of Marine, Earth, and 
        Atmospheric Science, North Carolina State University, Raleigh, 
        NC. 178pp.

        Jacobs, N., C. Petrusak, V. Connors, D. DeMaster, T. Hopkins, 
        1998: Earth System Science: Integration of Computer Modeling 
        and Laboratory Studies. 25 conf GSA/ESSE, pp. 127-131.

        Jacobs, N., V. Connors, T. Hopkins, D. DeMaster, B. Sweet, 
        1998: The Evolution of Earth System Science at North Carolina 
        State University. 25 conf GSA/ESSE, pp. 417-421.

        Jacobs, N., 1997: Modeling e-folding time decay of super-cooled 
        semiconductor clocks, Thesis, Department of Physics, University 
        of South Carolina, Columbia, SC. 234pp.

*  Recipient of USC undergraduate debate full scholarship (1992-96); 3 
National Championships
1996-present, Collegiate policy (cx) debate programs (coaching, brief-
writing, strategy), Baylor, Stanford, Dartmouth, and USC.
Commercial Driver License NC: Class B (GVWR 26,001 lbs or more)

REFERENCES available upon request

    The Chairman. Thank you, Dr. Jacobs.
    Next up is Ms. Nikakhtar and Mississippi Senator Wicker has 
an opening statement.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman.
    It is my honor to introduce to the members of the Committee 
Ms. Nazakhtar Nikakhtar. She is a resident of Maryland. She 
graduated from UCLA and has her Master's and J.D. degrees from 
Syracuse University. She is now, among other things, an adjunct 
professor at Georgetown University.
    She is not a resident of the State of Mississippi, but we 
wish she were a resident of Mississippi. The reason I am 
introducing her is that she is so well-regarded in my home 
state for her more than a decade of service to a number of U.S. 
industries on international trade matters that are important, 
not only to our economy, but also to the economy of the entire 
country.
    Her effective advocacy for food safety, especially when it 
comes to imports, has been particularly appreciated in my home 
State of Mississippi.
    Likewise, her work on behalf of Delta Council, one of the 
most important economic development organizations in our state 
has supported critical economic development in Mississippi and 
in the entire Gulf region.
    Ms. Nikakhtar is dedicated to instituting equitable 
international trade policy. She has helped uncover unfair and 
fraudulent trading practices around the world, practices that 
were jeopardizing the future growth and prosperity of the 
United States, and our industries. Her work has facilitated 
needed trade relief while strengthening our potential for 
growth here at home.
    The Department of Commerce's efforts to strengthen the 
global competitiveness of the United States will benefit from 
Ms. Nikakhtar's extensive experience and tireless leadership on 
international trade.
    I congratulate her on her nomination and welcome her to 
today's hearing.
    The Chairman. Thank you, Senator Wicker.
    Ms. Nikakhtar.

         STATEMENT OF NAZAKHTAR (``NAZAK'') NIKAKHTAR,

          NOMINEE TO BE ASSISTANT SECRETARY, INDUSTRY

           AND ANALYSIS, U.S. DEPARTMENT OF COMMERCE

    Ms. Nikakhtar. Thank you, Senator Wicker, for the very kind 
introduction. I am grateful.
    Mr. Chairman, Ranking Member Nelson, and members of the 
Committee.
    I thank you for the opportunity to appear here today. I am 
honored to be considered for the position of Assistant 
Secretary for Industry and Analysis at the U.S. Department of 
Commerce.
    With me today are my husband, Gene Degnan, and my parents, 
Manijeh and Bijan Nikakhtar. I am proud to say that my husband 
and my parents have served our Government as Federal employees 
for many, many years.
    My husband served for over a decade at the Department of 
Commerce, and my parents served for over 40 years collectively 
as physicians at the VA hospital taking care of our Nation's 
veterans.
    My brother, Nersi Nikakhtar, also a physician at the VA 
hospital, had work obligations and is in Minneapolis today 
where he resides. I am proud to be part of a family that honors 
Government service.
    I immigrated to America with my family 37 years ago. I can 
remember from a young age how proud I was to be an American, 
and how I admired the entrepreneurial spirit of Americans, the 
innovation, the incredible work ethic, and the thriving 
industries competing on the international stage.
    I knew growing up that I wanted to be part of the American 
industrial growth, to be part of the engine that drives the 
American economy forward. So, I went to school to study law and 
economics. I obtained my Juris Doctor and Master's in Economics 
from Syracuse University in 2002. I then headed to Washington, 
D.C. with the hope of entering public service.
    I was fortunate to begin work at the Department of 
Commerce. I began my career first as an industry analyst at the 
Bureau of Industry and Security, and subsequently at the 
International Trade Administration. I worked with, and learned 
from, incredibly smart and talented civil servants there. But, 
at the agency, I learned firsthand that America's commitment to 
free and fair trade was not always reciprocated.
    I watched U.S. industries struggle to stay alive in the 
midst of unfair trade. Our industries were eroding, our output 
was declining, and good, hardworking Americans were losing 
their jobs because our trading partners were not competing 
fairly.
    I have audited these foreign companies. I have witnessed 
firsthand their business strategies of selling goods at less 
than fair value in order to capture increased market share.
    As one foreign company official confessed, underselling 
was, in essence, ``tuition'' to eventually dominate the U.S. 
market. This experience instilled in me the need for strong 
enforcement of our trade laws to level the playing field for 
American companies and American workers.
    I joined the private sector several years later as a lawyer 
representing industries in trade remedy disputes: industries in 
the steel sector, in aquaculture, agriculture commodity goods, 
chemicals, and minerals.
    I am well aware of the issues our industries face in being 
competitive both at home and abroad. I have worked hard, I have 
worked relentlessly to level the playing field to save American 
jobs. That is my commitment to U.S. industries when I return to 
the Commerce Department.
    At Industry and Analysis, my goal will be to ensure that 
U.S. companies are the most competitive in the world. We have 
to work on creating greater market access for our manufacturing 
and services sectors, for our technology companies, and for our 
small and medium-sized businesses.
    We have to take a serious look at how to re-shore jobs and 
how to revitalize job growth in our most economically depressed 
regions. We have to look at our industries one by one to 
determine what constraints they face in becoming more 
competitive domestically and globally.
    This requires robust economic analysis and careful 
evaluation of trade policy options. This requires coordination 
with other Government agencies, as well as diplomacy with our 
trading partners. It involves creative thinking and problem 
solving.
    I came to America knowing that this is the greatest country 
in the world: the driver of technological innovation, where 
opportunities are boundless, and the American dream is 
accessible to everyone. I want to make sure that my son, my 15 
month old, grows up in a country where he and every American 
can thrive and succeed; a country that continues to be the 
world leader in innovation and output.
    I want to thank my family for supporting my decision to re-
enter public service. And, if confirmed, I look forward to 
dedicating my time in service to working for American 
companies, American workers, and the U.S. Government to spur 
economic growth and to create jobs.
    I thank you again for the opportunity to be here in front 
of this Committee.
    I look forward to your questions.
    [The prepared statement and biographical information of Ms. 
Nikakhtar follow:]

  Prepared Statement of Nazakhtar (``Nazak'') Nikakhtar, Nominee for 
Assistant Secretary, Industry and Analysis, U.S. Department of Commerce
    Mr. Chairman, Ranking Member Nelson, and members of the Committee, 
I'd like to thank you for the opportunity to appear here today. I am 
honored to be considered for the position of Assistant Secretary for 
Industry & Analysis at the U.S. Department of Commerce.
    With me today are my husband, Gene Degnan, and my parents, Manijeh 
and Bijan Nikakhtar. I'm proud to say that my husband and my parents 
have served our Government as Federal employees for many, many years. 
My husband served for over a decade at the Department of Commerce, and 
my parents served for over 40 years collectively as physicians at the 
VA hospital taking care of our Nation's veterans. My brother, Nersi 
Nikakhtar, also a physician at the VA hospital, had work obligations 
and is in Minneapolis today where he resides. I'm proud to be part of a 
family that honors government service.
    I immigrated to America with my family 37 years ago. I can remember 
from a young age how proud I was to be an American, and how I admired 
the entrepreneurial spirit of Americans, the innovation, the incredible 
work ethic, and the thriving industries competing on the international 
stage. I knew growing up that I wanted to be part of the narrative of 
American industrial growth, to be part of the engine that drives the 
American economy forward.
    So, I went to school to study law and economics. I obtained my 
Juris Doctor and Master's in Economics from Syracuse University in 2002 
and then headed to Washington, D.C. with the hope of entering public 
service.
    I was fortunate to begin work at the Department of Commerce. I 
began my career first as an industry analyst at the Bureau of Industry 
and Security and subsequently at the International Trade 
Administration. I worked with, and learned from, incredibly smart and 
talented civil servants there. But, at the agency, I learned firsthand 
that America's commitment to free and fair trade was not always 
reciprocated.
    I watched U.S. industries struggle to stay alive in the midst of 
unfair trade. Our industries were eroding, our output was declining, 
and good, hard-working Americans were losing their jobs because our 
trading partners were not competing fairly. I've audited these foreign 
companies; I've witnessed firsthand their business strategies of 
selling goods at less than fair value in order to capture increased 
market share. As one foreign company official confessed, underselling 
was in essence ``tuition'' to eventually dominate the U.S. market. This 
experience instilled in me the need for strong enforcement of our trade 
laws to level the playing field for American companies and workers.
    I joined the private sector several years later as a lawyer 
representing industries in trade remedy disputes--industries in the 
steel sector, in aquaculture, commodity goods, chemicals, and minerals. 
I'm well aware of the issues our industries face in being competitive 
both at home and abroad. I've worked hard, relentlessly, to level the 
playing field and to save American jobs. That's my commitment to U.S. 
industries when I return to the Commerce Department.
    At Industry & Analysis, my goal will be to ensure that U.S. 
companies are the most competitive in the world. We have to work on 
creating greater market access for our manufacturing and services 
sectors, for our technology companies, and for our small and medium-
sized businesses. We have to take a serious look at how to re-shore 
jobs and how to revitalize job growth in our most economically 
depressed regions. We have to look at our industries--one by one--to 
determine what constraints they face in becoming more competitive 
domestically and globally.
    This requires robust economic analysis and careful evaluation of 
trade policy options. This requires coordination with other government 
agencies, as well as diplomacy with our trading partners. It involves 
creative thinking and problem solving.
    I came to America knowing that this is the greatest country in the 
world: the driver of technological innovation, where opportunities are 
boundless and the American dream is accessible to everyone. I want to 
make sure that my son--my 15 month old--grows up in a country where he 
and every American can thrive and succeed, a country that continues to 
be the world leader in innovation and output.
    I want to thank my family for supporting my decision to re-enter 
public service. And, if confirmed, I look forward to dedicating my time 
in service to working for American companies, American workers and the 
U.S. Government to spur economic growth and to create jobs.
    I thank you again for the opportunity to be here in front of this 
Committee. I look forward to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Nazakhtar 
Nikakhtar (``Nazak'' for short)
    2. Position to which nominated: U.S. Department of Commerce, 
International Trade Administration, Industry and Analysis--Assistant 
Secretary.
    3. Date of Nomination: October 2, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Cassidy Levy Kent (USA) LLP, 2000 Pennsylvania Ave., 
        NW, Ste 3000, Washington, D.C. 20006

    5. Date and Place of Birth: July 15, 1973; Tehran, Iran. Legally 
immigrated to the United States in late 1979.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Spouse: Eugene (``Gene'') Degnan, Attorney (Of Counsel) at Morris 
Manning Martin LLP.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Bachelor of Arts: University of California, Los Angeles, B.A. 
        French Literature, 1999

        Juris Doctor: Syracuse University, College of Law, 2002

        Master of Economics: Syracuse University, Maxwell School of 
        Citizenship and Public Affairs, 2002

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Research Assistant to Prof. Robin Paul Malloy at Syracuse 
        University, 2001-2002*

        Editor in Chief, Syracuse Journal of International Law and 
        Commerce, 2001-2002* **

        U.S. Department of Commerce, Bureau of Industry and Security, 
        Industrial Base Studies, Industry Analyst, 2002-2003*

        U.S. Department of Commerce, International Trade 
        Administration, Enforcement and Compliance, International Trade 
        Analyst, 2002-2004*

        U.S. Department of Commerce, International Trade 
        Administration, Enforcement and Compliance, Special Assistant 
        to Senior Enforcement Coordinator of Non-Market Economy Unit, 
        2004-2007* **

        Law Offices of Stewart and Stewart, Attorney (Associate), 2007-
        2011*

        Georgetown University Law Center, Adjunct Professor, 2009-2011* 
        **

        Akin GNP Strauss Hauer & Feld, LLP (Associate), 20011-2013*

        Akin Gump Strauss Hauer & Feld, LLP (Of Counsel), 2013-2015

        Cassidy Levy Kent (USA) LLP, Partner, 2015 to present* **

        Degnan & Degnan, LLC, Principal, 2013 to present**

  * Jobs that relate to position for which I have been nominated.
  ** Management-level jobs

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

        Cassidy Levy Kent (USA) LLP, Partner, 2015 to present
        Degnan & Degnan, LLC, Principal, 2013 to present

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Maryland State Bar (inactive), 2006 to present

        District of Columbia Bar (active), 2010 to present

        Court of International Trade (active), approx. 2008 to present

        Court of Appeals for the Federal Circuit (active), approx. 2015 
        to present

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, po1itical party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period. None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        U.S. Department of Commerce Medal, Silver (2003)

        U.S. Department of Commerce Medal, Silver (2004)

        U.S. Department of Commerce Medal, Bronze (2005)

        Super Lawyer, International Trade, Rising Star's List, 2014

        Super Lawyer, International Trade, Rising Star's List, 2015

        Super Lawyer, International Trade, Rising Star's List, 2016

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Speaker, U.S. Court of International Trade, Judicial 
        Conference, Inspection of Customs and Commerce (2016)

        Author, U.S. Department of Commerce Announces Final Tariffs on 
        Chinese and Taiwanese Solar Products (2014)

        Author, U.S. Department of Commerce Imposes Preliminary 
        Antidumping Duties on Chinese Solar Products (2014)

        Author, U.S. Department of Commerce Imposes Preliminary 
        Countervailing Duties on Chinese Solar Products (2014)

        Author, U.S. Subsidiary of SolarWorld Files New AD/CVD 
        Petitions on Chinese-Origin Solar Cells (2014)

        Withdrawal of Tolling Regulations in Antidumping Proceedings 
        (2008)

        Acknowledgement for legal and economic research in: Robin Paul 
        Malloy, Law in A Market Context: An Introduction to Market 
        Concepts in Legal Reasoning (Cambridge University Press, 2004)

        Acknowledgement for legal and economic research in: Robin Paul 
        Malloy, Framing the Market: Representations of Meaning and 
        Value in Law, Markets, and Culture, 51 Buff. L. Rev. 1 (2003)

        Contributor: U.S. Department of Commerce, A Survey of the Use 
        of Biotechnology in U.S. Industry, available at http://
        www.tecbnology.gov/reports/Biotechnology/CDl20a_0310.pdf 
        (October 2003)

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have extensive professional experience representing U.S. 
industries in international trade disputes involving billions of 
dollars in trade. Through my work, I have leveled the playing field for 
numerous U.S. industries, helped save U.S. companies from collapse, and 
saved hundreds of thousands of American jobs. I have lead large teams 
of attorneys and economists in conducting detailed economic analyses of 
U.S. industries, scrutinizing unfair trade practices of foreign 
companies and governments, and successfully advocating for appropriate 
trade relief before U.S. Government agencies. My work involves 
strategic coordination among private sector stakeholders and U.S. 
Government agencies--this is critical to effective advocacy.
    Previously, as an adjunct professor at Georgetown University Law 
Center, I designed and taught law courses on WTO Dispute Settlement and 
Negotiations. Before entering private practice, I served at the U.S. 
Department of Commerce's International Trade Administration as a 
Special Assistant to the Senior Enforcement Coordinator of the China/
Non-Market Economy Unit In that position, I led the agency's 
administration of numerous trade cases, advised on legal and regulatory 
matters related to the enforcement of U.S. trade laws, and participated 
in bilateral negotiations on trade issues between the United States and 
China. I also served at the U.S. Department of Commerce's Bureau of 
Industry and Security as an industry analyst, where I performed key 
statistical analyses for the U.S. Government's first official survey of 
the U.S. biotechnology industry. I received several award medals from 
the Department of Commerce for my work on behalf of U.S. industries. 
Additionally, I have been repeatedly recognized by Super Lawyers as a 
``Rising Star'' in International Trade Law.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    A leader in Government must be able to deliver tangible results to 
the American people with limited agency resources. Over the past 15 
years in both the U.S. Government and in the private sector, I have 
overseen the work of hundreds of personnel and have been responsible 
for billions of dollars in trade. As a U.S. Government official, I have 
led U.S. Government teams in conducting detailed audits of large 
multinational corporations, and I have developed and implemented sound 
policies to correct trade distortions for U.S. industries--all with 
limited agency resources. In private practice, I have coordinated U.S. 
industries, often comprised of fierce competitors, in successfully 
petitioning the U.S. Government for relief from unfair trade--again 
with limited client resources. I look forward to bringing my management 
experience to the Department of Commerce's Industry and Analysis 
division, where I will work every day to advance the interests of U.S. 
industries while serving as a responsible steward of U.S. taxpayer 
dollars.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

    1. Revitalization of U.S. Industries--The growth and economic 
success of U.S. industries are key objectives of the Department of 
Commerce. Comprehensive policies need to be developed to accelerate job 
gains, investment in industries, and growth in GDP.

    2. Global Competitiveness of U.S. Industries--Our trading partners' 
declining openness to U.S. exports is threatening the growth and 
prosperity of our industries. Barriers to trade must be overcome by 
innovative export promotion strategies.

    3. Leveling the Playing Field for U.S. Industries--Unfair trade 
practices of our trading partners are continuing to devastate U.S. 
industries. The Department of Commerce should continue ramping up its 
efforts to level the playing field for American workers and companies.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts. None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Any potential conflict of interest will be resolved in accordance 
with the terms of my ethics agreement, which was developed in 
consultation with ethics officials at the Department of Commerce and 
the Office of Government Ethics. I understand that my ethics agreement 
has been provided to the Committee. I am not aware of any potential 
conflict other than those addressed by my ethics agreement.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I served on the Executive Committee, and as Co-Chair of the 
Lawyer's Committee, of the Committee to Support U.S. Trade Laws 
(CSUSTL) from October 2016 through September 2017. This is a voluntary 
position for which I was not compensated. CSUSTL is comprised of 
representatives of U.S. manufacturing and agricultural producers who 
engage in trade remedy cases (principally antidumping and 
countervailing duty proceedings) before U.S. Government agencies and 
the courts, including the U.S. Department of Commerce (DOC), U.S. 
International Trade Commission (ITC), the U.S. Court of International 
Trade (CIT), and the Court of Appeals for the Federal Circuit (CAFC).
    As Co-Chair of the Lawyer's Committee, in the Spring of 2017, I met 
with the United States Trade Representative's Office and Chief 
International Trade Counsel for House Ways and Means (Democrats) to 
propose amendments to the U.S. statute and Department of Commerce 
regulations aimed at improving the U.S. Government's ability to enforce 
its trade laws and better protect American companies from unfair trade.
    I resigned from my position at CSUSTL on September 30, 2017, once 
President Trump issued his intent to nominate me for the position of 
Assistant Secretary.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I am not aware of any potential conflict of interest. Should any 
potential conflicts of interest arise, they will be resolved in 
accordance with the terms of my Ethics Agreement, and with the advice 
and recommendation of ethics officials at the Department of Commerce 
General Counsel's Office.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.
    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       Resume of Nazak Nikakhtar
Experience
Representative industry experience: Catfish, Urea, Ammonium Nitrate, 
Refrigerants, Ball Bearings, Tapered Roller Bearings, Coated Paper, 
Shrimp, Residential Washers, Power Transformers, Diamond Sawblades, 
Steel Pipe, Chlorinated Isocyanurates, Corrosion-Resistant Steel, 
Narrow Woven Ribbons, Cut-to-Length Steel Plate, Aircraft Parts.

Cassidy Levy Kent (USA) LLP Washington, District of Columbia
Partner August 2015 to present

  <bullet> Represent and advise U.S. industry clients on a wide range 
        of international trade matters including antidumping and 
        countervailing duty proceedings and customs issues relating to 
        country of origin, duty evasion, and other forms of fraud.

  <bullet> Litigate complex trade cases on behalf of U.S. industries 
        before the U.S. Department of Commerce, U.S. International 
        Trade Commission, Court of International Trade and Court of 
        Appeals for the Federal Circuit.

  <bullet> Advise clients on trade policy matters and World Trade 
        Organization (WTO) dispute settlement.

  <bullet> Advise clients on restructuring businesses and industries to 
        improve competitiveness.

  <bullet> Develop government relations strategies for clients in areas 
        of trade and customs.

Akin Gump Strauss Hauer & Feld LLP Washington, District of Columbia
Counsel January 2014-August 2015
Associate Attorney July 2011-December 2013

  <bullet> Represented U.S. companies and foreign governments and 
        companies in antidumping and countervailing duty proceedings.

  <bullet> Litigated cases before the U.S. Department of Commerce, U.S. 
        International Trade Commission, and U.S. Court of International 
        Trade.

  <bullet> Assisted clients with U.S. export control investigations and 
        compliance programs, and developed and implemented technology 
        and information strategies, controls, and corrective action 
        plans.

  <bullet> Collaborated with clients' in-house attorneys and outside 
        counsel to conduct and support risk assessments and 
        investigations.

  <bullet> Advised clients on various customs regulatory matters and 
        valuation laws.

Stewart and Stewart, Law Offices Washington, District of Columbia
Associate Attorney September 2007-July 2011

  <bullet> Represented U.S. industry and labor union clients in 
        antidumping and countervailing duty proceedings before the U.S. 
        Department of Commerce and U.S. Court of International Trade.

  <bullet> Advised clients on compliance with U.S. export control 
        requirements and ensured that client transactions conformed to 
        applicable laws and regulations.

Georgetown University Law Center Washington, District of Columbia
Adjunct Professor, Law School January 2009-May 2011

  <bullet> Instructor to LL.M. students on WTO negotiations and dispute 
        settlement in course entitled ``Multilateral Trade Negotiations 
        at the World Trade Organization.''

U.S. Department of Commerce Washington, District of Columbia
International Trade Administration August 2004-September 2007
Special Assistant to Senior Enforcement Coordinator, Non-Market Economy 
Office

  <bullet> Developed and advised on agency policies and practices 
        relating to the enforcement of U.S. trade laws.

  <bullet> Supervised the conduct of over 70 separate international 
        trade disputes.

  <bullet> Participated in bilateral trade negotiations with foreign 
        government officials.

  <bullet> Investigated and audited sales and accounting records of 
        large foreign companies for purposes of evaluating trade 
        practices and compliance with U.S. and international trade 
        laws.

  <bullet> Authored comprehensive legal and policy reviews for 
        publication by the agency.

U.S. Department of Commerce Washington, District of Columbia
International Trade Administration March 2003-August 2004
Import Administration, International Trade Analyst

  <bullet> Conducted investigations, administrative reviews, court-
        ordered remand redeterminations and suspension agreements for 
        antidumping cases involving products covering the agricultural, 
        industrial and manufacturing sectors.

  <bullet> Performed legal, economic, statistical and accounting 
        examinations of companies involved in international trade 
        disputes, and provided legal and economic recommendations to 
        senior government officials in the resolution of such disputes.

U.S. Department of Commerce Washington, District of Columbia
Bureau of Industry and Security, Analyst December 2002-March 2003

  <bullet> Conducted statistical analysis for official U.S. government 
        report on the economic and technological performance of the 
        U.S. biotechnology industry.

District Court for Central District of California Los Angeles, 
California
Judicial Extern June 2000-August 2000
Veterans Affairs Medical Center, Wadsworth Los Angeles, California
Research Assistant June-August 1994, 1995
Education
Syracuse University, College Of Law Syracuse, New York
Juris Doctor, May 2002
Certificate and Honors
  <bullet> Law and Market Economy Certificate

  <bullet> International Law Group, selected to participate in a 
        specialized course focusing on international law and 
        litigation.
Activities
  <bullet> Editor-in-Chief, Syracuse Journal of International Law and 
        Commerce (May 2001-June 2002).

  <bullet> Graduate Research Assistant to Professor Robin Paul Malloy, 
        Professor of Law and Economics (August 2001-May 2002).

  <bullet> Student Judge, College of Law Judicial Board (March 2000-May 
        2002).

  <bullet> Editor, Syracuse Journal of International Law and Commerce 
        (June 2000-May 2001).

  <bullet> Chairperson, College of Law Grant Opportunity Program (May 
        2000-May 2001).

Syracuse University, The Maxwell School of Citizenship and Public 
Affairs
Department of Economics Syracuse, New York
Master, Economics, May 2002

University of California, Los Angeles Los Angeles, California
Bachelor, French Literature and Political Science, March 1999
Professional Qualifications/Recognition
Bar Memberships

  <bullet> Maryland State Bar

  <bullet> District of Columbia Bar

  <bullet> U.S. Court of International Trade

  <bullet> U.S. Court of Appeals for the Federal Circuit

Awards/Recognitions

  <bullet> Super Lawyers 2016, Rising Star

  <bullet> Super Lawyers 2015, Rising Star

  <bullet> Super Lawyers 2014, Rising Star

  <bullet> Bronze Medal Award, U.S. Department of Commerce (2006)

  <bullet> Silver Medal Awards (2), U.S. Department of Commerce (2004 
        and 2005)

  <bullet> Other awards for professional achievements, U.S. Department 
        of Commerce (2003, 2004, 2005, 2006)

Languages

  <bullet> Oral and written proficiency in French and Farsi (Iranian 
        language)

Publications

  <bullet> U.S. Department of Commerce Announces Final Tariffs on 
        Chinese and Taiwanese Solar Products (2014).

  <bullet> U.S. Department of Commerce Imposes Preliminary Antidumping 
        Duties on Chinese Solar Products (2014).

  <bullet> U.S. Department of Commerce Imposes Preliminary 
        Countervailing Duties on Chinese Solar Products (2014).

  <bullet> U.S. Subsidiary of SolarWorld Files New AD/CVD Petitions on 
        Chinese-Origin Solar Cells (2014).

  <bullet> Acknowledgement for legal and economic research in: Robin 
        Paul Malloy, Law in A Market Context: An Introduction to Market 
        Concepts in Legal Reasoning (Cambridge University Press, 2004).

  <bullet> Acknowledgement for legal and economic research in: Robin 
        Paul Malloy, Framing the Market: Representations of Meaning and 
        Value in Law, Markets, and Culture, 51 Buff. L. Rev. 1 (2003).

  <bullet> Contributor: U.S. Department of Commerce, A Survey of the 
        Use of Biotechnology in U.S. Industry, available at http://
        www.technology.gov/reports/Biotechnology/CD120a_0310.pdf 
        (October 2003).

    The Chairman. Thank you, Ms. Nikakhtar.
    I will start by asking a question of all four of you. I 
know each of you appreciates the importance of cooperation 
between the Executive Branch and Congress. Nevertheless, these 
confirmation hearings give us an opportunity to underscore that 
point.
    The question is, if confirmed, will you pledge to work 
collaboratively with this Committee, and its members, and to 
provide thorough and timely responses to our requests for 
information?
    Rep. Bridenstine. Yes, sir.
    Ms. Baiocco. Yes, Chairman.
    Dr. Jacobs. Yes.
    Ms. Nikakhtar. Absolutely, Mr. Chairman. It is very 
important.
    The Chairman. Thank you.
    Congressman Bridenstine, tell me about your approach to 
continuing U.S. leadership in space with both the international 
and commercial partners? How do you see balancing these with, 
what are sometimes, competing interests?
    Rep. Bridenstine. Thank you for that question, sir.
    This does, oftentimes in Washington, come about as 
competing interests. Different parts of the space community may 
be competing against each other. And then trying to determine: 
what is uniquely American and where can we partner with our 
international partners.
    The way I see it, sir, is what we need to do is create 
architectures that are in the interest of the United States of 
America. And then ultimately figure out, within those 
architectures, what piece can be done with traditional 
contracts--where the United States Government purchases, owns, 
and operates capability--and other types of contracts where we 
can just buy a service. Each one of these contracts would be 
different depending on whatever the circumstance is.
    I would also say that if we are to attain our highest 
ideals and achieve our most ambitious objectives, we absolutely 
need to continue our international partnerships. We have had 
tremendous success on the International Space Station and a 
host of other capabilities.
    Certainly, it would be my objective, should I be confirmed, 
to continue those partnerships and even grow those 
partnerships; ultimately, the goal being to get to Mars and, 
again, to return to the Moon as a proving ground.
    That is going to require not just funds from the United 
States, but it is going to require partners from around the 
world.
    The Chairman. Thank you.
    Ms. Baiocco, I say this with some regret, but unnecessary 
partisanship has plagued the CPSC in recent years. And given 
that agency's important role in protecting American consumers, 
it is an issue that is of great concern to me, and one which I 
have pressed with previous nominees to the CPSC.
    It is important that we have leadership at the CPSC that is 
committed to reaching consensus and lowering the temperature of 
the partisanship. I am optimistic about your nomination as an 
outside the Beltway candidate and as a no-nonsense litigator.
    How do you feel your background will prepare you to work 
effectively with your fellow Commissioners?
    Ms. Baiocco. Thank you, Chairman, for that question.
    My background, I think, prepares me for exactly that type 
of scenario. I have never stood up on behalf of a client or in 
court with just myself. It has always been part of a team.
    Everybody brings something to the table. Everybody has a 
perspective. It needs to be heard. The most effective people in 
any situation are those who listen first and talk second.
    I believe that what I have learned in my years of 
experience as a, I will use your term, no-nonsense litigator is 
to zero in and get rid of the nonsense because our goals here 
are all the same.
    While the process may differ, depending upon your points of 
view, at the end of the day, our goal here is to protect the 
American people. That cannot be, it should not be, and it does 
not even make sense to be partisan.
    The Chairman. Thank you.
    Dr. Jacobs, there have been many discussions of which you 
have been a part within the weather community about how to 
improve the weather enterprise. So the National Weather 
Service, academia, and the private sector better coordinate 
among themselves.
    These discussions can often leave out the most important 
stakeholder, and that is the American people who rely on the 
National Weather Service's forecasts.
    Our weather legislation, which you mentioned, the Weather 
Research and Forecasting Innovation Act of 2017, which became 
law earlier this year, recognized the essential role of the 
National Weather Service in protecting life and property by 
codifying the role of Warning Coordination Meteorologist.
    In the private sector, you did not have the mission 
obligation to protect life and property. But if confirmed, 
ensuring the protection of life and property has to be a top 
priority.
    So the question is, would you commit to making the 
protection of life and property a top priority and ensuring 
that Warning Coordination Meteorologists receive the support 
that they need to do their jobs?
    Dr. Jacobs. Absolutely.
    The Chairman. If confirmed, how would you ensure that as 
NOAA increases its collaboration with the private sector, the 
priority focus remains on providing forecasts to the American 
people rather than enhancing the weather enterprise for its own 
sake?
    Dr. Jacobs. Well, the quality and reliability thresholds 
for both on-time delivery of critical forecasts, as well as 
accuracy and air timeliness of observing system data would be 
set by NOAA.
    So they would be setting the thresholds for the standards 
that the private sector would have to adhere to through public-
private partnerships.
    The Chairman. OK. Well, we hope that you will keep a clear-
eyed focus on, as I mentioned earlier, the important priority. 
And that, of course, is the American people.
    That was what we were trying to get at with the legislation 
and we hope that as you enter into this important role, that 
that will be something that is front and center in your mind as 
well.
    Senator Nelson.
    Dr. Jacobs. Thank you.
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Chairman, I would like to enter into the record an op-
ed written by Congressman Bridenstine.
    The Chairman. Without objection. So ordered.
    [The information referred to follows:]

                   National Review--February 16, 2016

              Ted Cruz's True Record on Military Funding 
                 and National Security Is Unassailable

                           By Jim Bridenstine

    As a military pilot and veteran of the Iraq and Afghanistan wars, I 
am proud that this week Ted Cruz showed us again why he is the 
candidate best qualified to be commander-in-chief. Yesterday he laid 
out a serious, detailed plan for a Reagan-style rebuild of our military 
that will enable us to utterly defeat the radical Islamic terrorists 
who have vowed to destroy us. Senator Cruz understands that the essence 
of ``peace through strength'' is having the strength to maintain peace, 
and he's ready to do this hard work. I am proud to have endorsed him 
and will be proud to serve under him.
    Ted Cruz has proven to be a leader who is not afraid to stand up to 
bullies. He is true to his word. As a combat veteran, I am convinced 
Ted Cruz is the leader who will keep us safe, support our troops, and 
defend our Nation.
    Although Marco Rubio has promised not to ``badmouth other 
Republicans,'' he and his campaign are now spreading the falsehood that 
Cruz doesn't care about our troops and are wrongly smearing a good man. 
They should know better.
    The Rubio team has criticized Cruz for voting against National 
Defense Authorization Acts, suggesting that he's weak on defense. But 
Cruz had substantive objections to some of provisions in the acts, not 
to their funding levels. In legislation, sometimes you have to vote no 
to get to a better yes. You do that because you care about the troops 
and the Constitution they are sworn to defend.
    He slams Cruz's principled stand, but Rubio didn't even show up to 
vote on final passage of the NDAA in October 2015. The next month, he 
skipped as well the defense-appropriation vote that actually funds the 
military.
    Cruz was there to do his job and voted to fund our troops. 
Moreover, in March 2015 he voted for Rubio's own amendment that would 
have raised the defense budget from $620 to $697 billion for Fiscal 
Year 2016.
    And Cruz has laid out the most detailed plan to rebuild the 
military. It includes increasing our Army to at least 525,000 trained 
and fully equipped soldiers, more than in Rubio's proposal. Cruz's plan 
increases equipment as well. It rebuilds our Navy, ensuring that we 
have at least 350 ships, and our Air Force, ensuring at least 6,000 
aircraft, including airplanes and 1,500 tactical fighter aircraft.
    Under Cruz, we can be assured that we have the strongest military 
in the world. To suggest otherwise doesn't match the record or the 
character of my friend and colleague Ted Cruz.
    Americans' real concern should be with Rubio's candidacy. He's made 
deals with Democrats at great cost to our national security. As a 
member of the Gang of Eight, not only did he support massive amnesty 
while failing to secure the border, but he also supported giving the 
president unilateral authority to admit more refugees who have not been 
properly vetted. And he's stood by that dangerous proposition. Senator 
Cruz and other leaders in the Senate have introduced legislation to ban 
the entry of not-properly-vetted refugees from terrorist-ridden 
regions. Senator Rubio has chosen not to support the measure.
    Recall that Rubio sided with the Obama-Clinton foreign policy in 
Libya, which was an utter disaster. ``It turned out fine,'' Rubio said, 
just five months before four Americans, including Ambassador J. 
Christopher Stevens, were murdered in Benghazi. Voters should ask 
whether that is the same kind of judgment that Rubio would use in other 
areas, such as Syria. He has polished his campaign rhetoric, but when 
the pressure mounts, he has been quick to abandon conservative 
principles and slow to keep his promises to voters.
    We need a leader whom we can trust. We need a commander-in-chief 
who puts our national-security interests first. And we need a leader 
who will honor the Constitution and guide America into a secure and 
prosperous future. Ted Cruz will do just that.

--Jim Bridenstine is a veteran of the wars in Iraq and Afghanistan. As 
a Navy pilot, he flew the EC-2 Hawkeye in combat missions off the USS 
Abraham Lincoln. He represents Oklahoma's first congressional district.

    Senator Nelson. Congressman, in this op-ed--and I want you 
to have an opportunity to square some of the things that you 
have said and written--in this op-ed, you attack Senator Marco 
Rubio, saying, ``He has made deals with Democrats at great cost 
to our national security.''
    And you say he supported ``Massive amnesty while failing to 
secure the border.''
    And you say about Senator Rubio, ``When the pressure 
mounts, he has been quick to abandon conservative principles 
and slow to keep his promises to voters.''
    Then you did a television video and you said, ``Marco 
Rubio's amnesty bill would have made this country less safe.''
    In another ad, you said Senator Rubio joined forces with 
President Obama to ``Provide amnesty without border security.''
    Tell us, tell the Committee, why did you say these things?
    Rep. Bridenstine. Sir, I have been involved in politics for 
four and a half years in the House of Representatives, and I 
have been involved in a number of very difficult issues, and 
represented my constituents the best I absolutely could.
    And I would say, sir, that it is very different 
representing the First District of Oklahoma from being a NASA 
Administrator. And that particular issue, I do not see as being 
something that would be necessarily relevant to the position of 
NASA Administrator, should I be confirmed.
    Senator Nelson. So saying things that the recipient of 
those remarks, Senator Rubio, says are not true, you are saying 
that that is just not relevant to you being considered as NASA 
Administrator?
    Rep. Bridenstine. Sir, that was a debate that was had, I 
think, in 2014 and it was an important debate that we had as a 
country, and we are past it now.
    Sir, it would be my highest ambition to lead NASA in a way 
where that is not an issue.
    Senator Nelson. Well, I think it is a question of how would 
you lead NASA? All right. Let me give you another example.
    Is it true, as I have said in my opening remarks, that you 
endorsed Kelli Ward in her primary challenge last year to John 
McCain?
    Is that true?
    Rep. Bridenstine. That is true. A friend of mine in the 
National Guard who, I guess, knew her asked for that support, 
and I did support her with a campaign contribution. I have not 
met her.
    Senator Nelson. Well, interestingly, you did that and prior 
to you endorsing her, let me tell you what she said of John 
McCain.
    She said, ``John McCain is directly responsible for the 
rise of ISIS.''
    She also said, again, before you endorsed her, that Hilary 
Clinton and John McCain's, ``Reckless policies and fuzzy 
utopian ideals have destabilized the Middle East and triggered 
a massive refugee crisis, which they want to import into the 
U.S. to fatten up the Welfare rolls.''
    That is what she said about John McCain.
    So you say that you endorsed her even after she had said 
all those things by virtue of someone asking you to endorse 
her?
    Rep. Bridenstine. Sir, I did not know. I do not live in 
Arizona, and I am unaware of those comments.
    Senator Nelson. A NASA Administrator has to be responsible 
for the comments that they make.
    I suppose, then, that you would testify here that you are 
not aware that after Senator McCain defeated Kelli Ward last 
year, she has now gone on to challenge Senator Flake in this 
primary before Senator Flake decided to step down.
    And then when it was announced that Senator McCain had a 
brain tumor, a cancerous brain tumor, the same lady, Kelli Ward 
said in a radio interview that she hopes McCain's family and 
advisors will advise him to step away as quickly as possible.
    And later in the interview, she said she hopes that if 
Senator McCain steps down, the Arizona Governor would consider 
appointing her to his seat.
    You both, as you have said, donated and received money. 
Well, you have not said this.
    On the Senate Conservative's Fund, you said you have been a 
member of the Senate Conservatives Fund. You have donated and 
received money to them.
    Is that correct?
    Rep. Bridenstine. That is correct.
    Senator Nelson. Are you----
    Rep. Bridenstine. I do not know about being a member. I do 
not know of a membership, sir, but they have donated and I have 
contributed to their efforts as well.
    Senator Nelson. Are you aware that that conservative fund 
seeks to unseat Republican Senators including the Senate 
Majority Leader?
    Rep. Bridenstine. I have not been tracking that, sir.
    Senator Nelson. Well, you have participated in it and, 
again, I wonder does NASA need someone that has been so 
involved in politics in these kinds of causes. You can say that 
politics is politics, which you have stated earlier.
    But these are some of the most divisive tactics that this 
Senator has ever seen in either party. And this is just you 
attacking people in your own party.
    So how do you move past all of that and keep NASA from 
being dragged down into a divisive political background?
    Rep. Bridenstine. Thank you for that question.
    Sir, the advocacy I have had for the constituents of 
Oklahoma is the same advocacy I would like to bring to NASA. 
Advocating for that agency, I think, is important especially as 
we are going through another budget iteration.
    NASA is a critical piece of the United States of America 
and when you think about all of the contributions to space that 
NASA has contributed to, the way we navigate, the way we 
communicate, the way we produce food and energy.
    Earlier, I heard Dr. Jacobs talk about the Weather Research 
and Forecasting Innovation Act. That is a piece of legislation, 
sir, that I was the author of in the House of Representatives 
back in 2013, 2014.
    And because of the efforts that I made at that time with 
the support of Representative Suzanne Bonamici from Oregon, a 
Democrat, we were able to get that bill past the finish line in 
the House.
    And sir, I would like to thank you for your support because 
without you, it would not have passed the Senate, and of 
course, Chairman Thune as well.
    So I do have a history of working with both sides of the 
aisle on important issues for our country.
    One of the thoughts that Chairman Thune had is as we think 
about the space architecture and weather forecasting, how do we 
make sure that we are doing it, not just to benefit industry, 
but to make sure we are getting the right information for our 
constituents?
    Sir, as somebody who has worked very hard on behalf of my 
constituents to move us to a day where we have zero deaths from 
tornadoes, that bill, the Weather Research and Forecasting 
Innovation Act, very important to me.
    And a piece of it was determining how do we get the best 
global initial conditions for weather forecasting? And a lot of 
that is done through technologies currently Suomi NPP and the 
COSMIC constellation, but also now we are looking at an era 
where it could be, in essence, commercialized with GPS radio 
occultation technology that is being launched.
    I was the author of a pilot program to get commercial data 
to feed the very numerical weather models that he was talking 
about.
    So, sir, I would say that when it comes to space issues, 
and when it comes to issues that are important for the national 
security of this country, I have worked across the aisle with 
great Americans to bring about, I think, legislation that will 
ultimately serve every American.
    It is also true that as a Member of the House of 
Representatives representing Oklahoma, I have advocated for 
issues that are not relevant to NASA and that is a part of my 
background.
    I do believe, sir, that ultimately that could serve me 
quite well, not because of what side of the aisle I am on, but 
because I do believe the NASA Administrator, should I be 
confirmed, will need to work with Congress daily.
    And it was my highest ambition, sir, and I mean this 
sincerely, to work directly with you to make sure that we are 
building that consensus agenda. We need a consensus agenda 
because what I want to do, should I be confirmed, is make sure 
that NASA is following through on the great work you have done 
on the NASA Transition Authorization Act and appropriations for 
NASA in the last administration, carry it through this 
administration and leave behind a legacy that the next 
administration, regardless of political party, can follow up 
on.
    And working with you, sir, that absolutely is my highest 
ambition, and I want to make sure that NASA remains, as you 
said, apolitical. And I will do that to the utmost of my 
ability, should I be confirmed.
    Senator Nelson. Mr. Chairman, I have finished these 
questions and I just want to say that, obviously, this is 
uncomfortable. Obviously, this is not fun, but it is my 
responsibility as the Ranking Member to bring out the kind of 
relationships, and acts, and words that the nominee is before 
us for the consideration of the Committee.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    And I have a couple of items to enter into the record, too.
    Congressman Bridenstine does have letters of support from 
54 prominent individuals and space-related organizations 
including Democratic Congressman Ed Perlmutter, former NASA 
Administrator Sean O'Keefe, astronaut Buzz Aldrin, and many 
others.
    And so I will enter those into the record without 
objection.
    [The information referred to follows:]

                                 ______
                                 
                               Onefire Holding Company, LLC
                                        Jenks, OK, October 24, 2017

Dear Chairman Thune and Ranking Member Nelson:

    We write today to express our support for Representative Jim 
Bridenstine's nomination to be the Administrator of the National 
Aeronautics and Space Administration.
    Onefire Holdings, a wholly owned subsidiary of the Muscogee (Creek) 
Nation, is tasked with managing and growing the commercial portfolio of 
the Tribe. We have gotten to know the Congressman during his time in 
the House of Representatives, and have found him to be a partner and 
advocate of the people of our Tribe. Bridenstine has been a leader on 
issues near and dear to the people of the Muscogee (Creek) Nation, 
including space-based capabilities for national defense and improved 
weather forecasting that will save lives.
    We know Jim Bridenstine to be a committed and dedicated public 
servant who will serve honorably as NASA Administrator. We request that 
the Senate Committee on Commerce, Science, and Transportation confirm 
his nomination.
            Thank you,
                                                Mike Payne,
                                                               CEO,
                                                 Onefire Holdings, LLC.
                                 ______
                                 
                                         Maxar Technologies
                                                   October 25, 2017
Hon. John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    On behalf of Maxar Technologies, I am writing to request your 
support for Congressman Jim Bridenstine's nomination to serve as the 
next NASA administrator. Jim Bridenstine has spent most of his life in 
public service, first as a Navy pilot and later as a Member of 
Congress. Representative Bridenstine has been a staunch advocate for 
industry and has reinvigorated the discussion about what it means to 
have U.S. leadership in space. The Congressman has consistently 
demonstrated a willingness to listen, learn, and hear all sides of an 
issue, balancing policy and resources with a strong vision for 
America's future in space. Moreover, Congressman Bridenstine has a 
history of working across the aisle and his experience in achieving 
bipartisan solutions will serve him well as NASA Administrator.
    Space has never been more important to U.S. national security, the 
domestic economy, and American scientific development. All of us at 
Maxar are excited to continue to work with Jim Bridenstine as NASA 
Administrator and, again, ask for your support during his confirmation 
hearing next week.
    Thank you for your committee's ongoing efforts to bolster American 
space exploration and development, and we appreciate your time and 
consideration.
            Sincerely,
                                             Marcy Steinke,
                                             Senior Vice President,
                                Government Relations and Public Policy,
                                                    Maxar Technologies.
                                 DigitalGlobe/SSL/MDA/Radiant Solutions
                                 ______
                                 
                                          Bigelow Aerospace
                                    Washington, DC, 25 October 2017

Hon. John Thune,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairmen Thune;

    It is with great pleasure that I convey my support for 
Representative Jim Bridenstine to be the next NASA Administrator. I 
firmly believe that he possesses the qualities that this position 
demands, and is the best candidate for the job.
    With over four decades of commercial sector business experience, I 
have interacted with leaders, directors and presidents of all kinds and 
I thoroughly understand the demands of management and leadership. 
Having met and communicated with Mr. Bridenstine on several occasions, 
I have come to believe that he fits the strength that NASA and this 
country needs.
    We are embarking on a competitive challenging time vis-a-vis China 
in human spaceflight. Good, even great leadership will be paramount. 
NASA cannot pivot like a basketball player, and unfortunately can only 
move like an aircraft carrier. This means that effective and judicious 
management with a sense of urgency in these times is key.
    Thank you for the opportunity to express my support.
            Respectfully,
                                            Robert Bigelow,
                                             Founder and President,
                                                     Bigelow Aerospace.
                                 ______
                                 
                                          Bigelow Aerospace
                                    Washington, DC, 25 October 2017

Hon. Bill Nelson,
Ranking Member,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Ranking Member Nelson,

    It is with great pleasure that I convey my support for 
Representative Jim Bridenstine to be the next NASA Administrator. I 
firmly believe that he possesses the qualities that this position 
demands, and is the best candidate for the job.
    With over four decades of commercial sector business experience, I 
have interacted with leaders, directors and presidents of all kinds and 
I thoroughly understand the demands of management and leadership. 
Having met and communicated with Mr. Bridenstine on several occasions, 
I have come to believe that he fits the strength that NASA and this 
country needs.
    We are embarking on a competitive challenging time vis-a-vis China 
in human spaceflight. Good, even great leadership will be paramount. 
NASA cannot pivot like a basketball player, and unfortunately can only 
move like an aircraft carrier. This means that effective and judicious 
management with a sense of urgency in these times is key.
    Thank you for the opportunity to express my support.
            Respectfully,
                                            Robert Bigelow,
                                             Founder and President,
                                                     Bigelow Aerospace.
                                 ______
                                 
                                          Bigelow Aerospace
                                    Washington, DC, 25 October 2017

Hon. Ted Cruz,
Chairman,
Space, Science, and Competitiveness Subcommittee,
Washington, DC.

Dear Chairman Cruz,

    It is with great pleasure that I convey my support for 
Representative Jim Bridenstine to be the next NASA Administrator. I 
firmly believe that he possesses the qualities that this position 
demands, and is the best candidate for the job.
    With over four decades of commercial sector business experience, I 
have interacted with leaders, directors and presidents of all kinds and 
I thoroughly understand the demands of management and leadership. 
Having met and communicated with Mr. Bridenstine on several occasions, 
I have come to believe that he fits the strength that NASA and this 
country needs.
    We are embarking on a competitive challenging time vis-a-vis China 
in human spaceflight. Good, even great leadership will be paramount. 
NASA cannot pivot like a basketball player, and unfortunately can only 
move like an aircraft carrier. This means that effective and judicious 
management with a sense of urgency in these times is key.
    Thank you for the opportunity to express my support.
            Respectfully,
                                            Robert Bigelow,
                                             Founder and President,
                                                     Bigelow Aerospace.
                                 ______
                                 
                                          Bigelow Aerospace
                                    Washington, DC, 25 October 2017

Hon. Edward J. Markey,
Ranking Member,
Space, Science, and Competitiveness Subcommittee,
Washington, DC.

Dear Ranking Member Markey,

    It is with great pleasure that I convey my support for 
Representative Jim Bridenstine to be the next NASA Administrator. I 
firmly believe that he possesses the qualities that this position 
demands, and is the best candidate for the job.
    With over four decades of commercial sector business experience, I 
have interacted with leaders , directors and presidents of all kinds 
and I thoroughly understand the demands of management and leadership. 
Having met and communicated with Mr. Bridenstine on several occasions, 
I have come to believe that he fits the strength that NASA and this 
country needs.
    We are embarking on a competitive challenging time vis-a-vis China 
in human spaceflight. Good, even great leadership will be paramount. 
NASA cannot pivot like a basketball player, and unfortunately can only 
move like an aircraft carrier. This means that effective and judicious 
management with a sense of urgency in these times is key.
    Thank you for the opportunity to express my support.
            Respectfully,
                                            Robert Bigelow,
                                             Founder and President,
                                                     Bigelow Aerospace.
                                 ______
                                 
                                  Sierra Nevada Corporation
                                   Louisville, CO, October 25, 2017

Hon. John Thune,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Hon. Ted Cruz,
Chairman,
Space, Science, and Competitiveness Subcommittee,
Washington, DC.

Hon. Edward J. Markey,
Ranking Member,
Space, Science, and Competitiveness Subcommittee,
Washington, DC.

RE: Nomination of Congressmen Jim Bridenstine for NASA Administrator

Dear Chairmen Thune and Cruz, and Ranking Members Nelson and Markey:

    I am writing on behalf of Sierra Nevada Corporation (SNC) to 
provide this letter of support for the nomination and appointment of 
Congressman Bridenstine to the role of NASA Administrator. SNC now has 
employment in nearly 20 States and over 50 Congressional jurisdictions 
which gives us a broad view of the needs of our country.
    SNC Space Systems, which I have had the privilege to lead from its 
foundation, has a significant involvement in all aspects of space. We 
have participated in over 450 missions to space and have built over 
4,000 systems, subsystems and components that have traveled to Earth 
orbit, the Moon, Sun and to seven planets. In our history, we have been 
involved in over 70 major missions with NASA and are currently engaged 
in the next Mars mission. Additionally, our Dream Chaser Space Vehicle 
has been chosen as one of the NASA commercial resupply vehicles to 
service the International Space Station. Through this history I have 
had the pleasure of working with five NASA Administrators and ten NASA 
Centers.
    The Congressman's background and qualifications are well known to 
the Committee and need not be repeated. Reasonable people can debate 
them. What we wish to add is our direct impressions and experience. I 
have had the opportunity to spend significant time with Congressman 
Bridenstine over the last several years as he has continued learning 
about the space industry. My experience has been through direct and 
frequent dialogue, as an observer in public conferences and sessions 
and through his interaction with the Commercial Spaceflight Federation 
for which I am a founder and now Chairman Emeritus. Being in the space 
industry teaches you that there are no shortcuts to success. There is 
equally no shortcut to understanding the complex space industry. Jim 
has methodically, and with deliberate intent, expanded his knowledge of 
the current state of space activities and where it might go. I have 
watched as he listened, learned, questioned and formed his views and I 
can say that this has created a far greater knowledge of space than 
what might appear in any bio.
    We are at a critical time in space which will require leadership, 
enthusiasm, courage and the ability to work through complex issues in 
collaboration with many different factions. It will also call for the 
Administrator to rise above the noise and act in a forward looking and 
positive manner to help the United States expand its leadership in 
space. This is imperative for our Nation, our economy, our innovation 
and science communities and for our country's future. We believe that 
Congressman Bridenstine can be this Administrator.
    Not everything about a person can be found in a resume or in 
history. It is about a person's actions, character and how one rises to 
meet broad new challenges. Jim has served with distinction in his 
military service, through his leadership in Congress, in his thoughtful 
approach to space legislation and in his acting on the belief for 
nonpartisanship in U.S. Space policy. He has a clear vision for our 
future in space and we believe would he be an effective, positive and 
progressive NASA Administrator who can connect all branches of 
government, industry and international relationships.
    Thank you for taking the time to consider our input. I welcome any 
questions you have about SNC's support for Mr. Bridenstine. We look 
forward to working with you as the confirmation process advances.
    Thank you for your leadership on this important issue.
            Sincerely,
                                         Mark N. Sirangelo,
                                             Sierra Nevada Corporation.
                                 ______
                                 
                         National Association of Spaceports
                                                   October 25, 2017
Hon. Jim Bridenstine,
United States House of Representatives,
Washington, DC.

Dear Representative Bridenstine,

    On behalf of the National Association of Spaceports, which 
represents FAA-licensed spaceports that support civil, defense and 
commercial space launch, I write to share our congratulations on your 
nomination to serve as NASA Administrator as well as our appreciation 
for your leadership in Congress on behalf of state spaceports. We 
believe you will bring this strong commitment to supporting and 
encouraging greater use of licensed U.S. spaceports as NASA 
administrator.
    As you know, spaceports in Virginia, Alaska, Oklahoma and Texas, as 
well as other states across the country, have emerged over the last 
decade as key launch sites on the East and West coasts for orbital 
launch, as well as new suborbital sites inland. Our association is 
working to highlight the contributions of these new launch sites, which 
state governments have invested hundreds of millions of dollars to 
strengthen our national launch resiliency, incubate new commercial 
technologies, create more high-value jobs in space-development 
infrastructure, and to improve opportunities for current and new launch 
providers. We lead the world in the nascent industry of commercial 
space development. But we have stiff international competition.
    As a thought leader in Congress on space issues, you have been an 
active legislator and thoughtful author of policy to strengthen 
national space efforts, improve the partnership between the FAA and 
State-run spaceports, and cultivate spaceports as key infrastructure 
for advancing private, civil and military space capabilities. We are 
particularly appreciative of provisions in your American Space 
Renaissance Act that would strengthen the partnership between state 
spaceports and FAA, as well as better integrate new spaceport 
infrastructure in national space policy planning.
    We look forward to continuing to work with you in your new 
leadership role at NASA, and are grateful for your commitment to 
America's spaceports.
                                              George Zamka,
                                             Chairman of the Board,
                                    National Association of Spaceports.

The National Association of Spaceports (NASP) is the premier trade 
association dedicated to the advancement and success of America's 
spaceports. NASP works in tandem with other trade associations, 
corporations, and government agencies to promote the positive aspects 
of spaceport operations, to increase spaceport development, and to 
provide a vocal and representative presence for the launch sites--where 
commercial space development takes off.
                                 ______
                                 
                                              Inmarsat Inc.
                                   Washington, DC, October 25, 2017
To: Senator Thune,
Senator Nelson,
United States Senate,
Commerce Committee.

Dear Senators,

    It is with great pleasure that I write to you in support of the 
nomination of Rep. Jim Bridenstine to be the next Administrator of 
NASA. For the nearly 40 years I've worked in the satellite industry, 
I've met few Members of Congress with the interest and passion for the 
satellite industry and space policy that I've seen with Rep. 
Bridenstine.
    Though his experience as a Naval Aviator and Oklahoma Congressman 
would naturally steer him to defense and weather matters in space, Rep. 
Bridenstine has gone well beyond parochial interests and taken the time 
to dive into some of the key strategic issues affecting the Nation's 
future in space, including technology development, the challenges of 
space traffic management and space debris and the proper balance of 
interests in future Federal satellite service acquisition policy. He 
ranks among the most thoughtful and articulate Members in almost all 
matters of space policy and acquisition.
    As the largest mobile satellite communications company and leading 
supplier of satellite services to governments worldwide, Inmarsat 
highly values the select few leaders that take the time to truly 
understand and promote the interests of all of those who use the domain 
of space to advance the U.S. economy, national security, scientific and 
educational aspirations.
    As someone who has personally worked on many NASA programs and 
directly for and with several prior NASA Administrators, I can 
recommend Rep Bridenstine most wholeheartedly. He has the passion and 
intellect to lead this world-class institution in its mission to 
advance science and the U.S. interests in space.
    I thank you for your continued service to the Nation.
            With appreciation,
                                            Peter Hadinger,
                                                         President,
                                                          Inmarsat Inc.
                                 ______
                                 
                           SolAero Technologies Corporation
                                  Albuquerque, NM, October 25, 2017

Hon. John Thune,
Chairman,
United States Senate Committee on Commerce, Science, and 
            Transportation.

Hon. Bill Nelson,
Ranking Member,
United States Senate Committee on Commerce, Science, and 
            Transportation.

Dear Chairman Thune and Ranking Member Nelson:

    We write today in support of Representative Jim Bridenstine's 
nomination to be the Administrator of the National Aeronautics and 
Space Administration. At this critical time in our Nation's history, it 
is important that NASA have effective and visionary leadership. We 
believe Congressman Bridenstine will provide that leadership.
    During his time in Congress, Bridenstine has proven himself to be a 
passionate advocate for America's space program, from civil space to 
national security space to commercial space. He has taken the time to 
get to know this community and its stakeholders within industry, 
government, academia and NGOs, and has shown an ability to have a keen 
understanding of the issues. Bridenstine has been extremely effective 
taking this understanding, building bipartisan coalitions, and enacting 
visionary policies to advance American leadership in space.
    Congressman Bridenstine served honorably as a pilot in the Navy, 
the Navy Reserves, and now the Oklahoma Air National Guard. He has 
demonstrated a commitment to serving his nation. Taking this commitment 
and combining it with his passion, knowledge, and understanding of 
space, we are confident he will make a great NASA Administrator.
            Sincerely,
                                            Brad Clevenger,
                                                   President & CEO,
                                      SolAero Technologies Corporation.
                                 ______
                                 
                                          Moon Express Inc.
                               Cape Canaveral, FL, October 25, 2017

Senator John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune:

    I write to you to express my strong support of Jim Bridenstine's 
nomination as NASA Administrator.
    During his five years in Congress, Rep. Bridenstine has been a 
thoughtful advocate of improvements in America's military, commercial, 
and civil space enterprises. He has championed new ideas without 
bashing traditional institutions. He has helped coalesce a new 
generation of bipartisan space supporters in Congress to promote a 
multi-mission NASA that does everything from improving aviation safety 
to monitoring the environment to leading the world in human and robotic 
space exploration. He has supported Defense Department studies on the 
effects of climate change on military installations. And as a museum 
director and space entrepreneur, he has worked to inspire young people 
in his state and investors in new rocket planes.
    Jim radiates a passion for space that that will help inspire the 
next generation of space scientists, engineers, and entrepreneurs. Of 
course, his patriotic background as a naval aviator has also given him 
a warfighter's appreciation for the space products and services that 
have been essential to American national security since the first Gulf 
War.
    I have had the pleasure of working with Mr. Bridenstine as Moon 
Express seeks to return America to the surface of the Moon next year. 
He has been a champion in addressing the policy challenges that space 
entrepreneurs face and has tirelessly advocated on the industry's 
behalf to create a pathway for companies such as ours to receive clear 
Federal authorizations to undertake private sector space missions. Moon 
Express recently received authorization to fly the first commercial 
mission to the Moon from regulators, a historic precedent that will 
provide us the opportunity to provide low-cost access to the Moon for 
NASA's exploration technology and science programs, as well as other 
potential customers.
    In short, Jim has indispensable qualities that are rarely found 
together: a personal passion and vision of America's future in space; 
the ability to lead peers as well as team members to achieve a goal; a 
proven track record of promoting regulatory reforms; and the trust and 
support of a U.S. President.
    I believe Jim could be one of the greatest leaders of the U.S. 
space program, and that the committee will come to appreciate why I and 
so many long-time experts in the U.S. space community have been 
inspired by his knowledge, passion, and vision for space over the past 
five years. I hope that you will vote to confirm him as NASA 
Administrator.
            Sincerely,
                                     Robert (Bob) Richards,
                                                   Founder and CEO.

cc: Senator Bill Nelson, Ranking Member, Senate Committee on Commerce, 
Science, and Transportation
                                 ______
                                 
                                                    26 October 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
U.S. Capitol,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    It is with great pleasure and confidence that I write to 
unconditionally support the nomination of Congressman Jim Bridenstine 
for the position of Administrator, National Aeronautics and Space 
Administration. I believe Mr. Bridenstine possesses the intellectual 
capacity, domain knowledge, political insight, and boldness of vision 
needed to steer the world's foremost ship of Earth, aeronautics and 
space science, exploration and education.
    I met Mr. Bridenstine during his first term in Congress, when he 
began work on a weather forecast improvement bill. He reached out for 
input to my institution, the University of Oklahoma, which is home to 
the National Weather Center-a pioneer in the observation and prediction 
of severe storms and tornadoes (at OU, I serve as Regents' Professor of 
Meteorology and Vice President for Research). Rising quickly to chair 
the House authorizing subcommittee for the National Oceanic and 
Atmospheric Administration and other key agencies involved in research, 
Mr. Bridenstine became a champion for science broadly, and his weather 
bill was the first in decades that sought to enhance our Nation's 
ability to forecast extreme weather events--something that was sorely 
needed.
    I was immediately impressed by Mr. Bridenstine's ability to grasp 
complex technical subjects, his understanding of the big picture as 
well as details, and his insight into the Federal budget. Most 
important, however, I found him to be teachable and open to new ideas 
and approaches that achieved his overall goals. Ultimately, his weather 
bill was passed with bi-partisan support and signed into law.
    Some in the scientific community view Mr. Bridenstine as having 
certain narrow positions, for example, in opposition to Earth Science 
or climate research. My experience has been that Mr. Bridenstine 
appreciates the importance of understanding the entire Earth-to-Sun 
system, and wishes to establish a balanced portfolio of research that 
advances knowledge and informs policymaking. He believes in using sound 
science to make decisions, and in openness and transparency as part of 
the process.
    I believe the Nation would be exceptionally well served with Mr. 
Bridenstine as NASA Administrator, and I appreciate the opportunity to 
provide input on this important decision.
            Sincerely,
                                 Dr. Kelvin K. Droegemeier,
                                                      Norman, Oklahoma.
                                 ______
                                 
                          Commercial Spaceflight Federation
                                    Washington, DC, 26 October 2017

Hon. John Thune,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.
Hon. Bill Nelson,
Ranking Member,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Chairman Thune, Ranking Member Nelson, and Senators of the Committee:

    It is a pleasure to enthusiastically endorse the nomination of 
Congressman Jim Bridenstine to lead the National Aeronautics and Space 
Administration as its next Administrator.
    I am a planetary scientist, astrophysicist, and aerospace engineer 
by training. I am also a believer in the power of space exploration to 
inspire, to catalyze our economic engine, to provide new resources and 
technology, to generate new knowledge, and to create a better future 
for all of us.
    I have written hundreds of scientific papers on subjects ranging 
from space vehicle rendezvous theory to studies of the Earth's 
atmosphere, to planetary origins, to gamma ray bursts, to detection 
techniques for planetary systems around other stars.
    I have been on 29 space mission teams, from brief suborbital 
science missions, to Space Shuttle expeditions, to Earth orbiting 
science satellites, to planetary missions across our solar system. I 
have been fortunate to lead on 14 of those missions, including the New 
Horizons mission sent to explore the Pluto system in 2015 and in so 
doing conducted the farthest exploration of planets in the history of 
space exploration.
    I was also fortunate to have former NASA Administrator Michael 
Griffin entrust me with the leadership of NASA's Science Mission 
Directorate (SMD). As Associate Administrator for SMD, I oversaw all of 
NASA's $5B planetary, astrophysical, heliospheric, and Earth Science 
efforts at NASA Headquarters here in Washington. During my tenure we 
steeply increased the rate of new mission starts while simultaneously 
bringing cost overruns down dramatically.
    Today, I am a private citizen and the Board Chair of the Commercial 
Spaceflight Federation, the largest industry association of companies 
dedicated to advancing the development of commercial spaceflight of all 
kinds. I am an advocate for both human and robotic exploration of 
space, for public outreach surrounding space exploration, for the 
development of new space technologies, and for space exploration as an 
effective tool for soft power projection across the world.
    I've had the pleasure to know some of you on this committee from my 
work and from testimony I have given. In fact, the first member of this 
committee that I met was Senator Nelson, when, in 1986, he flew on the 
same Space Shuttle mission that I first served as a Principal 
Investigator on. And I was, like Senator Nelson, shocked and saddened 
later that same month when the next space shuttle mission, Challenger 
STS-5lL, exploded, losing six friends and two experiments I was 
involved in. So in addition to understanding and being part of the U.S. 
space science enterprise for over 30 years, and advocating for Earth 
Science in the previous Republican Administration when I served at NASA 
Headquarters, I also intimately understand and have been deeply 
personally affected by the dearest costs of space exploration.
    I first came to know Congressman Bridenstine about a year ago, but 
for some time before that I was keenly aware that he shares the same 
passions I--and I know many of you--do for space exploration, and that 
he has been a highly effective space exploration and space 
commercialization policy leader.
    I am honored to support his nomination to be NASA Administrator, 
and to pledge my enthusiastic support to him as he undertakes this 
difficult and oftentimes thankless role.
    Why do I strongly support Jim Bridenstine's nomination?

  <bullet> Because of his high integrity, which is key to leading NASA.

  <bullet> Because of his dedication to hard work and to listening to 
        outside advice.

  <bullet> Because of his high energy level, which is also very much 
        needed.

  <bullet> Because of his deep passion for space exploration and how it 
        can improve our lives, our economy, and the better future we 
        all seek for our children.

  <bullet> Because he supports the Decadal Survey process and its 
        mandates that guide all the space and Earth Science enterprises 
        at NASA.

  <bullet> Because he is a forceful advocate for both expanded human 
        and robotic exploration of space.

  <bullet> Because he believes human industrial activity is the source 
        of climate change.

  <bullet> Because he is a passionate advocate for expanding the role 
        of commercial companies in space.

  <bullet> Because he has indicated he would like to see both the 
        exploration and science enterprises grow at NASA.

  <bullet> Because he believes space should be nonpartisan.

  <bullet> And because he brings a very much welcome, and needed, new 
        set of practiced policy and political skills that have often 
        been missing at NASA.

    Some people have said that despite his amazing education--four 
degrees at Rice and Cornell universities--his service to our country as 
a combat and later a reserves pilot, and his successful career as a 
representative in Congress, that Mr. Bridenstine is not qualified to 
serve as NASA Administrator, because he is neither a scientist nor an 
engineer.
    Well, I am both of those things. And in my view what NASA needs 
most today in its Administrator is neither scientific nor engineering 
acumen. NASA has a workforce of over 18,000 including thousands of the 
country's--actually the world's--top space engineers and scientists.
    I do not think one more scientist or engineer there--even at the 
Agency's helm--will measurably advance NASA as much as a skilled and 
visionary leader who believes in space science and exploration and who 
can effectively guide NASA to new heights using his political and 
policy skills, his exuberance, energy, and effectiveness. What the 
Agency needs in my estimation is a leader who can inspire, who can 
advocate, and who can guide our space efforts to again be the envy of 
the world and an engine of historic significance.
    That person is Jim Bridenstine, and I hope you will confirm his 
nomination so NASA and our country can benefit as soon as possible from 
his skills, his passion, and his dedication to NASA's mission.
            Sincerely,
                                             S. Alan Stern,
                                                       Board Chair,
                                     Commercial Spaceflight Federation,
                   Former NASA Associate Administrator for Science.
                                 ______
                                 
                                                    26 October 2017
Hon. John Thune,
Chairman,
United States Senate Committee on Commerce, Science, and 
            Transportation.

Hon. Bill Nelson,
Ranking Member,
United States Senate Committee on Commerce, Science, and 
            Transportation.

Dear Chairman Thune and Ranking Member Nelson,

    The purpose of this letter is to provide my endorsement for 
Congressman Jim Bridenstine to be the next NASA Administrator. By way 
of background, I have been the president and CEO of the Center for 
Strategic and International Studies since early 2000. Before that, I 
served as deputy secretary of defense under President Clinton. I have 
had the pleasure to work with Rep. Bridenstine these last two years in 
conjunction with a study we undertook in space policy here at CSIS. I 
have worked with members of Congress for 40 years. Only very rarely 
have I seen a member of Congress focus with such intensity and 
sophistication on an urgent national priority. I was deeply impressed 
by his leadership. I am confident he will bring that to his prospective 
role as the head of NASA.
    Rep. Bridenstine is a fine leader with a keen intellect. I have 
enjoyed the chances that I have had to work with him in my capacity at 
CSIS. I know that he is the right choice for this position.
                                             John J. Hamre,
                                                 President and CEO,
                        Center for Strategic and International Studies.
                                 ______
                                 
                                                    26 October 2017
Hon. John Thune,
Chairman,
United States Senate Committee on Commerce, Science, and 
            Transportation.

Hon. Bill Nelson,
Ranking Member,
United States Senate Committee on Commerce, Science, and 
            Transportation.

Dear Chairman Thune and Ranking Member Nelson,

    The purpose of this letter is to provide my strongest endorsement 
for Congressman Jim Bridenstine to be the next NASA Administrator. By 
way of background, I am a retired Air Force General Officer and have 
been in the Space business for 37 years. During this period, I worked 
with many great leaders in the Air Force, NASA, NOAA and the 
Intelligence Community. Over the last four years, I have had the 
privilege to meet and work with Congressmen Jim Bridenstine and I would 
rank him at the top of the space leader list. His leadership, 
intellectual energy, and ability to understand and resolve complex 
space issues set him apart from the others.
    Additionally, Congressman Bridenstine is the right leader at the 
right time to lead the NASA team for the following reasons:

  <bullet> First, he is an articulate and visionary leader that is 
        focused on creating a more resilient space architecture to 
        support United States national security and economic 
        imperatives. In April 2016, he introduced the American Space 
        Renaissance Act to jump start our commercial and national 
        security space enterprise and to address the threats to our 
        National Security and our global economy. It's a groundbreaking 
        piece of legislation and it's already guiding resource 
        decisions that will help restore the United States as the 
        preeminent nation for the peaceful use of space.

  <bullet> Second, he has excellent communication and interpersonal 
        skills. He has the unique ability to grasp complex issues and 
        distill them into smaller more manageable pieces. I've seen him 
        do this several times. It's a rare trait that takes the 
        complexity out of the equation and allows him to communicate in 
        easy to understand terms and get everyone on board.

  <bullet> Third, he is a team player and coalition builder. His 
        ability to quickly identify and characterize issues, lay out a 
        plan, and rally the team to resolve them will be essential to 
        move NASA and the Nation forward in space. His demonstrated 
        ability to work with leaders from the U.S. Government, 
        commercial industry, and the international community will be 
        key to creating more innovative and affordable space options 
        for our Nation.

    Finally, he is one of the finest leaders I have met. He is a true 
professional in every sense of the word and his knowledge of space is 
unrivaled in the Washington DC arena. This knowledge, coupled with his 
natural leadership and communication skills, make him the right choice 
for NASA Administrator.
                                            Peter F. Hoene,
                                                 Brigadier General,
                                                        USAF (Retired).
                                 ______
                                 
                                         GWACS Defense Inc.
                                  Jenks, Oklahoma, October 26, 2017

Dear Chairman Thune and Ranking Member Nelson:

    I write today to give my company's robust and enthusiastic support 
for Representative Jim Bridenstine's nomination to be the Administrator 
of the National Aeronautics and Space Administration.
    GWACS Defense, Inc., is a company that builds cutting edge acoustic 
gunshot detection systems to provide security and save lives. Our next 
generation technology will utilize space based communications for 
global situational awareness and local active shooter events for 
immediate gee-location of hostile shooters. Our company partners with 
QUALCOMM and other critical satellite technology companies. In moving 
out on providing this capability, we have worked with the Congressman 
on policies which are important to our technology which will have a 
dramatic affect in reducing and/or eliminating future active shooter 
events such as the recent massacre in Las Vegas. Jim Bridenstine has 
demonstrated extraordinary technical acumen to understand spectrum, 
encryption, space-based networks, and many other aspects affecting our 
technology.
    We believe that Congressman Bridenstine will bring this 
thoroughness arid technical capacity to NASA and with his leadership 
NASA can play a critical in helping with the security and safety of 
Americans through our great nation and around the world. It is our high 
honor to support his nomination.
            Thank you,
                                                Jud Gudgel,
                                           Chief Executive Officer,
                                                     GWACS Defense Inc.
                                 ______
                                 
                                      Airbus Americas, Inc.
                                      Herndon, VA, October 26, 2017

Senator John Thune,
Chairman, Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Senator Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    I write today in support of Representative Jim Bridenstine's 
nomination to be the Administrator of the National Aeronautics and 
Space Administration (NASA). Airbus, a global space industry leader and 
manufacturer of the Orion service module, recognizes the importance of 
selecting an experienced and passionate leader of the NASA. We believe 
Representative Bridenstine will provide strong leadership at this 
critical time in our Nation's space history.
    Congressman Bridenstine has proven to be a passionate advocate for 
America's space programs, from civil space to national security space 
to commercial space. He is a recognized leader within the space 
stakeholders community; industry, government, academia and NGOs, and 
has shown an ability to have a keen understanding of our issues. As a 
Member of Congress, Bridenstine has been extremely effective building 
bipartisan coalitions and enacting visionary policies to advance 
American leadership in space.
    Congressman Bridenstine served honorably as a pilot in the Navy, 
the Navy Reserves, and now the Oklahoma Air National Guard, further 
demonstrating his commitment to serving his nation. Taking this 
commitment and combining it with his passion, knowledge, and 
understanding of the space industry and space policies, I am confident 
he will make a great NASA Administrator.
            Respectfully yours,
                                             Allan McArtor.
                                 ______
                                 
                                               OneWeb, Ltd.
                                    Arlington, VA, October 26, 2017

Hon. John Thune,
Chairman,
United States Senate Committee on Commerce, Science, and 
            Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
United States Senate Committee on Commerce, Science, and 
            Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    As an American with a history in both space and aviation, I write 
to you today in support of Representative Jim Bridenstine's nomination 
to be the Administrator of the National Aeronautics and Space 
Administration. It is important that NASA have effective and visionary 
leadership. I believe Congressman Bridenstine will provide that 
leadership.
    During his time in Congress, Congressman Bridenstine has been a 
passionate advocate for America's space program and has actively 
engaged in the type of complex matters he will oversee in civil space, 
national security space, and commercial space as the Administrator of 
NASA.
    He has taken the time to get to know the space sector and its 
stakeholders within industry, government, academia and NGOs, and has 
shown a keen understanding of the key issues involving space. 
Congressman Bridenstine has capably used this understanding to build 
bipartisan coalitions and enact visionary policies to advance America's 
leadership in space.
    Congressman Bridenstine served honorably as a pilot in the Navy and 
the Navy Reserves, and currently serves in the Oklahoma Air National 
Guard. He has demonstrated a commitment to serving his nation. That 
commitment, combined with his passion, knowledge, and understanding of 
space, would in my opinion make him an outstanding NASA Administrator.
            Sincerely,
                                                Greg Wyler,
                                       Founder & Executive Chairman
                                 ______
                                 
                      Association of the United States Navy
                                   Alexandria, VA, October 26, 2017
To whom it may concern,

    On behalf of the Association of the United States Navy (AUSN), we 
strongly urge you to support James Bridenstine as the next 
Administrator of the National Aeronautics and Space Administration.
    Since 1954 the Association of the U.S. Navy has served as the voice 
for America's Sailors and is the premier advocate for a strong Navy and 
national defense. Since the nascent days of Alan Shepard and Wally 
Schirra, NASA has turned to the Navy to find the best and brightest to 
lead from the front. The future success of the space program rests in a 
strong commercial-government partnership. The next administrator must 
therefore be equipped to consider non-standard and asymmetric 
proposals, ideas, and concepts. James Bridenstine's background clearly 
shows he is well equipped to deliver exactly this kind of creative and 
critical thought leadership.
    A distinguished Navy and Air Force pilot, James Bridenstine has 
served his country with honor and distinction in two different 
branches. He has planned and flown combat missions from aircraft 
carriers, trained the Navy's best pilots as an instructor at the Naval 
Strike and Air Warfare Center (the parent command to TOPGUN), planned 
and conducted asymmetrical counter-narcoterrorism missions, and 
continues to fly in support of the Air Force Special Operations 
Command.
    Furthermore, James Bridenstine's strong educational background with 
a triple major at Rice and an MBA from Cornell further strengthen his 
resume. His choice to culminate his many years of experience and 
success in the Navy with a transfer to the Air National Guard so that 
he could continue actively serving in uniform while still serving in 
Congress reflects a heart surrendered to the best interests of our 
country, beyond his own interests.
    James Bridenstine's background demonstrates that he is a most 
qualified and committed candidate, and AUSN profoundly believes he is 
the candidate we can trust most to support the needs of our Nation. The 
Association of the United States Navy strongly encourages you to 
support James Bridenstine as the next Administrator of the National 
Aeronautics and Space Administration.
            Sincerely,
                                         Michael J. Little,
                                   Director of Legislative Affairs,
                                                                  AUSN.
                                 ______
                                 
                                                   October 26, 2017
Hon. John Thune,
Chairman, Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member, Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune and Nelson,

    I write to express my strongest personal recommendation, and urge 
your support for a unanimous confirmation, for Representative Jim 
Bridenstine (OK-1) for the position of Administrator, National 
Aeronautics and Space Administration (NASA).
    I have personally known Mr. Bridenstine for nearly a decade. His 
in-depth technical knowledge and passion for NASA's mission are 
unmatched. As the next leader of NASA, he will build on the impressive 
legacy of America's space agency.
    Mr. Bridenstine and I served together in the United States Navy 
where I was his Commanding Officer. He led by example and his 
professionalism, leadership and integrity were examples for all who 
served with him. Further, Mr. Bridenstine is a man of faith, family, 
and country. His personal qualities are matched only by his scientific 
intelligence and administrative acumen. Mr . Bridenstine is committed 
to serving the United States and will be an outstanding Administrator.
    I am honored and humbled to ask for your support of Mr. Bridenstine 
. He is the right person with the right skills to lead NASA. I am 
confident the Committee and Senate will agree. Thank you for your 
continued service to our great nation.
            With appreciation,
                                         Gerald Todd Heyne,
                                             Captain, USN, Retired.
                                 ______
                                 
                                Astrobotic Technology, Inc.
                                   Pittsburgh, PA, October 26, 2017

Hon. Jim Bridenstine,
U.S. House of Representatives,
Washington, DC.

Dear Rep. Bridenstine:

    On behalf of the Astrobotic team, I want to congratulate you on 
your nomination to serve as NASA Administrator and thank you for your 
leadership in Congress to support America's return to the Moon. You 
have been a leading champion of NASA's Lunar CATALYST program as well 
as an advocate for the bipartisan effort to fund NASA participation on 
robotic lunar lander demonstration missions in the House FY 2018 
Commerce-Justice-Science Appropriations bill, which would provide $30 
million in FY 2018 to support these lunar mission opportunities.
    It has been nearly 50 years since the United States last had a 
lunar lander capable of a soft landing on the Moon. American companies, 
like Astrobotic, have been hard at work over the last decade privately 
developing a robotic Lunar Lander to restore this capability for NASA 
and other government, academic and commercial users. That is why NASA's 
Lunar CATALYST program--which worked with Astrobotic and other industry 
partners to support this development--along with NASA's recent RFIs 
seeking information on lunar science and technology payloads as well as 
lunar lander services, are so instrumental in supporting Lunar Lander 
demonstration missions and services.
    As Vice President Pence noted in his October 5th speech at the 
inaugural National Space Council meeting, ``The moon will be a 
stepping-stone, a training ground, a venue to strengthen our commercial 
and international partnerships as we refocus America's space program 
toward human space exploration.'' We applaud this announcement and 
believe that NASA and its industry partners are well positioned to 
enable robust exploration missions on and around the Moon over the next 
several years.
    Astrobotic is excited to lead this return to the Moon through its 
ongoing partnership with NASA, as well as its 2019 mission that will be 
launched by United Launch Alliance's Atlas V rocket--the only lunar 
lander launching from U.S. soil. Additionally, with the Space Launch 
System (SOLS) rocket and Orion spacecraft, NASA has developed and is 
preparing to launch the exploration-class systems necessary to return 
American astronauts to lunar orbit and build the Deep Space Gateway, 
which will provide a critical platform for robotic and, eventually, 
human missions to the lunar surface. The upcoming Exploration Missions 
and Gateway will also enable new opportunities to leverage robotic 
lunar landers to access the Moon's surface for the first time since 
Apollo 17, enabling a range of affordable science, technology and 
exploration expeditions within the current budget profile.
    Again, we congratulate you on your nomination and appreciate your 
continued leadership to support NASA's work with industry to enable a 
range of U.S., international and commercial missions to ensure American 
leadership in space, especially in our return to the Moon.
            Sincerely,
                                             John Thornton,
                                                               CEO,
                                            Astrobotic Technology, Inc.
                                 ______
                                 
                           Military-Veterans Advocacy, Inc.
                                      Slidell, LA, October 26, 2017

Senator John Thune, Chairman,
Senator Bill Nelson, Ranking Member,
United States Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    I would like to take this opportunity to recommend Congressman Jim 
Bridenstine for the position of Administrator of the National 
Aeronautics and Space Administration. Congressman Bridenstine has been 
a military pilot in both the United States Navy and the Air National 
Guard. His experience in avionics and aviation will help Shinto 
continue the expansion and exploration of outer space. He is a 
proponent of space technology and the commercial potential for 
exploiting space resources on the Moon and beyond.
    I have dealt with the Congressman throughout his tenure and have 
found him receptive to new ideas. He is a proven leader who has led the 
way in Congress on space issues. This has been recognized by Space News 
who called him a game changer in the space program. I believe that 
Congressman Bridenstine has the ability to shepherd the return of the 
United States to manned space flight and that he is the best candidate 
to do so.
    I note that the Congressman's work as Chairman of the Environment 
Subcommittee of the House Science, Space, and Technology Committee has 
been exemplary. He has worked hard on deregulation and has convinced 
the National Oceanic and Atmospheric Administration to upgrade their 
weather forecasting models. I believe he will bring the same analytical 
and technical ability to the post of Administrator.
    Many say that the problem; of the world are on Earth. The 
solutions, however, are in space. We need a leader like Jim Bridenstine 
to take American back into space. He enjoys my full confidence and 
support.
            Sincerely,
                                             John B. Wells,
                                           Commander USN (Retired),
                                                Executive Director.
                                 ______
                                 
                                          Spaceport America
                                   Las Cruces, NM, October 26, 2017

Dear Chairman John Thune and Ranking Member Bill Nelson,

    I write to you on behalf of Spaceport America, the world's first 
purpose-built commercial spaceport, to express our enthusiastic support 
for Representative Jim Bridenstine's nomination as NASA Administrator. 
Through his service in Congress, on the House Committee of Science, 
Space, and Technology as well as the Committee on Armed Services, Mr. 
Bridenstine has demonstrated the leadership, temperament and resolve to 
effect bipartisan efforts to facilitate the growth of a commercial 
space sector that is globally competitive and advances United States 
leadership in a generation of new markets and innovation-driven 
entrepreneurship.
    Mr. Bridenstine's space legislation, along with his support of 
other congressional space initiatives on both sides of the aisle, 
reveals his commitment to the goals of our national space policy to 
energize a competitive domestic space industry that works in 
international cooperation to extend the benefits of space to all, while 
strengthening our Nation's stability in space and increasing its 
assurance of mission-essential functions enabled by commercial, civil, 
scientific, and national security spacecraft and infrastructure.
    Spaceport America supports Mr. Bridenstine's vision of a space 
agency that effectively combines the economic engine of American free 
enterprise with the substantial resources and expertise of the U.S. 
Government to ensure that the United States remains the leader of space 
exploration and the global space economy. The combination of his strong 
aeronautical expertise, his knowledge of space policy, and his 
visionary leadership is what our Nation needs in this new dynamic 
global space marketplace.
    Thank you for taking the time to consider our input. We look 
forward to working with you as the confirmation process advances.
                                              Daniel Hicks,
                                           Chief Executive Officer,
                                        New Mexico Spaceport Authority.
                                 ______
                                 
                                        Vienna, VA, 26 October 2017
Dear Chairman Thune and Ranking Member Nelson,

    I am writing to express my strongest personal support for the 
confirmation of Jim Bridenstine to the position of NASA Administrator.
    Jim and I flew in the same community and were both in VAW-77 where 
we conducted Counter-Narco Terrorism operations throughout Central and 
South America and the Caribbean. The operations were non-standard and 
required an immense amount of creative operational planning and 
creative tactical development. The execution of these plans then 
required us to operate the E-2C Hawkeye aircraft in non-traditional 
operating environments, flying non-traditional profiles
    All this to say the following--ducks like ducks. Standard cookie-
cutter nominees get expected standard results. In Jim Bridenstine you 
have the opportunity to confirm a man who looks at problems as 
opportunities, and challenges as training environments. You cannot 
expect transformational growth from an industry insider.
    The leadership required to be exercised by a Naval Aviator is 
unlike that found elsewhere in the military. We are not exclusively 
pilots--indeed, we are trained to be officers and leaders first, and 
pilots second. The required volume and combination of intellectual, 
emotional, and moral capacity is unequalled. A normal day for a Navy 
Pilot embarked on an aircraft carrier consists of spending most the 
daylight hours leading Sailors in the maintenance department; then 
pivoting in a moment into operational planning for the next day's 
combat strike; followed by another pivot into launching and flying a 
completely unrelated check flight; all while training and mentoring the 
younger pilots in the squadron.
    What NASA needs in this challenging time is a person with the 
ability to look at the issues which have become ubiquitous to the 
current leaders, and see the unique hidden in plain sight, the 
unexpected, the opportunities that exist everywhere but are mostly 
ignored because people do not understand them for what they are.
    What NASA needs is an Administrator like Jim Bridenstine. I 
fervently encourage you to confirm him for this position. Please feel 
free to reach out to me with any questions at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f19f908788c99e83b1969c90989ddf929e9c">[email&#160;protected]</a> or 
703.321.6994 (cell).
            Very Respectfully,
                                         CAPT Brett Korade,
                                                             USN (Ret).
                                               E-2/C-2/FA-18/C-12 pilot
                                 ______
                                 
              Oklahoma Space Industry Development Authority
                                   Burns Flat, OK, October 27, 2017

U.S. Senate Committee,
Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    The Oklahoma Space Industry Development Authority (OSIDA) 
respectfully ask for your support to empower Jim Bridenstine to become 
the next NASA Administrator. He has a dynamic vision for the future of 
the United States Space Program and has been instrumental with the 
ongoing development of Space Commerce which Oklahoma also plays a major 
role in that capacity.
    We have worked with Jim for over 10 years including his time in 
Congress. He has demonstrated an extensive technical knowledge of 
aerospace and aviation businesses echoing his broad based understanding 
of their strategic importance.
    His introduction of the American Space Renaissance Act, to 
permanently secure the United States of America as the preeminent 
spacefaring nation, reflects the benefits that can be directly tied to 
our Nation leading the way in exploring and commercializing space. The 
Act rejects a strategic vision that will involve both military and 
commercial space systems. It will provide domestic and commercial space 
launch capabilities as well as encourage commercial space innovation.
            Very Respectfully,
                                           Bill N. Khourie,
                                                Executive Director,
                         Oklahoma Space Industry Development Authority.
                                 ______
                                 
                                                   Intelsat
                                       McLean, VA, October 27, 2017
Hon. John Thune,
Chairman,
United States Senate Committee on Commerce, Science, and 
            Transportation.

Hon. Bill Nelson,
Ranking Member,
United States Senate Committee on Commerce, Science, and 
            Transportation.

Dear Chairman Thune and Ranking Member Nelson:

    We write today in support of Representative Jim Bridenstine's 
nomination to be the Administrator of the National Aeronautics and 
Space Administration. At this critical time in our Nation's history, it 
is important that NASA have effective and visionary leadership. We 
believe Congressman Bridenstine will provide that leadership.
    During his time in Congress, Bridenstine has proven himself to be a 
passionate advocate for America's space program, from civil space to 
national security space to commercial space. He has taken the time to 
get to know this community and its stakeholders within industry, 
government, academia and NGOs, and has shown an ability to have a keen 
understanding of the issues. Bridenstine has been extremely effective 
taking this understanding, building bipartisan coalitions, and enacting 
visionary policies to advance American leadership in space.
    Congressman Bridenstine served honorably as a pilot in the Navy, 
the Navy Reserves, and now the Oklahoma Air National Guard. He has 
demonstrated a commitment to serving his nation. Taking this commitment 
and combining it with his passion, knowledge, and understanding of 
space, we are confident he will make a great NASA Administrator.
            Thank you,
                                       Stephen R. Spengler,
                                           Chief Executive Officer.
                                 ______
                                 
                     National Guard Association of Oklahoma
                                Oklahoma City, OK, October 27, 2017

To Whom It May Concern:

    It is an honor and a pleasure to offer Recommendation for 
Congressman Jim Bridenstine for Administrator for NASA on behalf of the 
National Guard Association of Oklahoma (NGAOK).
    Congressman Bridenstine has served with distinction in the Oklahoma 
Air National Guard. His professional leadership as a Commissioned 
Officer of the 137th Special Operations Group and as a Naval Aviator 
makes him uniquely qualified in the area of National Security and Space 
Security. With Space Security being a new realm of a National Security 
Threat, we need a proven dedicated conscientious leader at NASA.
    We have every confidence in his ability and leadership to serve in 
this Nation well. He has demonstrated his competence, character, and 
loyalty to the utmost.
    He have stood for the men and women in the National Guard of 
Oklahoma and the Nation without hesitation or reservation, we highly 
recommend Jim Bridenstine to serve in this capacity.
    Thank you for your consideration.
            Sincerely,
                                            Joshua Odquist,
                                                         President.
                                 ______
                                 
                                       Leisnoi Incorporated
                                    Anchorage, AK, October 27, 2017

Chairman John Thune,
Ranking Member Bill Nelson,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

SUBJECT: Confirmation Hearing for NASA Administrator

Dear Senators Thune and Nelson,

    Please accept this letter recommending the confirmation of 
Representative Jim Bridenstine as our nations next Administrator for 
the National Aeronautics and Space Administration (NASA).
    As a village corporation established in 1971 by the Alaska Native 
Claims Settlement Act (ANCSA), Leisnoi supports responsible development 
of our resources and preserving our heritage. Leisnoi has lands and 
shareholders in the Chiniak area of Kodiak Island, close to the Pacific 
Spaceport Complex--Alaska (PSCA), a commercially licensed spaceport 
operated by Alaska Aerospace Corporation. We have long supported 
development of an aerospace industry in Kodiak that provides increased 
opportunities for commercial operations and jobs for local residents.
    As our Nation looks to regain leadership in space, PSCA provides an 
ideal location for both government and commercial launches that require 
affordable access to polar orbits. Representative Bridenstine's vision 
to increase efforts in commercial solutions for access to space, bodes 
well for the future of NASA and could provide opportunities for PSCA to 
become a more integral part of our Nation's space program.
    Thank you for holding the confirmation hearing for Representative 
Bridenstine to be the next NASA Administrator. His leadership at NASA 
will mark a renaissance for space activities by the United States and 
be a significant factor in making our space program both more 
affordable and dynamic. Increasing commercial activities, while 
concurrently streamlining the regulatory process, will result in 
expanded job opportunities, increased industry potential, and ensure we 
maintain a viable alternative launch location to bring more polar orbit 
launch activities back to the United States. This will be great for 
America and for Alaska.
    It is with great admiration that I fully endorse Representative 
Bridenstine to be our next NASA Administrator and ask for your 
favorable consideration of his nomination.
            Respectfully submitted,
                                               Jana Turvey,
                                                 President and CEO.
                                 ______
                                 
                                                   October 27, 2017
Hon. John Thune,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    We are writing in our individual capacities as industry experts who 
have all served in leadership positions on the Commercial Space 
Transportation Advisory Committee, to offer our strong support for 
Representative Jim Bridenstine to be the next NASA Administrator. We 
believe that he has the leadership ability, the vision, and the energy 
to enable NASA to reach its full potential.
    During his tenure in Congress, Rep. Bridenstine has consistently 
demonstrated leadership in space policy. He has earned a reputation for 
thoughtful, creative approaches to the challenges facing NASA. His 
signature bill, the American Space Renaissance Act, contains a number 
of innovative proposals that have already been integrated into other 
legislation and signed into law. Rep. Bridenstine is a tireless and 
effective advocate for NASA both within Congress and with the 
Administration. As a combat veteran, he brings a valuable national 
security perspective to his advocacy for the Agency.
    A NASA Administrator must be able to unite the Agency and its 
stakeholders behind a vision for space exploration, and then execute 
the plan that will fulfill that vision. Rep. Bridenstine is well-suited 
for this role; he balances the various interests within NASA in a way 
that plays to their strengths and will make the Agency more capable. We 
believe he will be effective at managing the Agency's programs of 
record while leveraging the innovation and investment of the commercial 
sector to accomplish more per budget dollar.
    The upcoming nomination hearing will give you and your colleagues 
an excellent opportunity to witness firsthand Rep. Bridenstine's 
passion, vision, and commitment to American leadership in space. We 
urge you to confirm his nomination and appreciate your time and 
consideration.
            Sincerely,

Mike Gold (COMSTAC Chair)

Michael Lopez-Alegria (COMSTAC Vice Chair)

Oscar Garcia (Chair, InterFlight Global Corporation; Chair of the 
COMSTAC Standards Working Group)

Christopher Kunstadter (Senior Vice President and Global Underwriting 
Manager--Space/Aerospace Insurance; Chair of the COMSTAC Business/Legal 
Working Group)

Mark Sundahl (Charles R. Emrick Jr.-Calfee, Halter & Griswold Professor 
of Law; Director, Global Space Law Center; Chair of the COMSTAC 
International Space Policy Working Group)
                                 ______
                                 
                                             MLA Space, LLC
                                   Washington, DC, October 27, 2017

Hon. John Thune,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    I am writing to express my enthusiastic and unequivocal support for 
the nomination of Representative Jim Bridenstine to lead the National 
Aeronautics and Space Administration as its next Administrator.
    The Agency is at a critical juncture; the change of Administration 
offers a unique opportunity to chart a meaningful strategic course that 
will remove any doubt surrounding America's position as undisputed 
world leader in civil space, and then to use its unmatched knowledge 
and human resources to sail it. This will require a steady hand at the 
helm--one bold enough to set a visionary and forward-looking direction, 
and someone with experience navigating sometimes challenging political 
waters.
    In my ongoing tenure as Vice-Chair of the Federal Aviation 
Administration's Commercial Space Transportation Advisory Committee, I 
have been very favorably impressed with Congressman Bridenstine' s 
depth and breadth of knowledge on matters important to the commercial 
space industry. His addresses--both to the COMSTAC and on other 
occasions--demonstrate a remarkably high level of interest, preparation 
and consideration. His American Space Renaissance Act introduced 
innovative and thoughtful ideas to help evolve policies in the rapidly 
changing civil space landscape, many of which have since been adopted 
in other legislation and since signed into law.
    From a human spaceflight perspective, the incoming Administrator 
will be faced with the daunting tasks of continuing the exploitation of 
the International Space Station and its National Lab facilities, 
executing the deep space exploration developmental programs of record, 
and leading the world in the commercialization of low Earth orbit. 
Having spent twenty years at NASA and then serving as President of the 
Commercial Spaceflight Federation, I have been on both sides of the 
tension between traditional space industry and the developing ``new 
space'' sector. Likewise, Congressman Bridenstine has been a ``blue-
suiter'' as a Naval Aviator and combat veteran, but also recognizes the 
value of capitalizing on the entrepreneurial forces of competition and 
economic efficiency. With the relatively flat budgets that NASA likely 
faces in spite of its very long task list, it will be increasingly 
important to equitably balance the deep knowledge and expertise of the 
traditional companies with the innovation and agility of their emergent 
counterparts.
    Finally, in my nearly forty years as an aviator, astronaut and 
aerospace consultant, I have had the opportunity to serve--and 
observe--many leaders. The best are informed but open-minded, 
principled but not ideological, and skilled enough to advance their 
organization's agenda in the face of obstacles. Representative 
Bridenstine displays all of these attributes.
    I am grateful for the opportunity to cast my vote in support of the 
confirmation of Congressman Bridenstine as the next NASA Administrator; 
I urge you to do the same.
            Sincerely,
                                     Michael Lopez-Alegria,
                                                         Principal.
                                 ______
                                 
                      International Space Safety Foundation
For Immediate Release
October 27, 2017

 The International Space Safety Foundation Supports President Trump's 
nomination of Representative James Bridenstine to be NASA Administrator

    The Houston, Texas based International Space Safety Foundation 
(ISSF), and the ISSF's sister group, the International Association for 
the Advancement of Space Safety (IAASS), based in the Netherlands, the 
two leading non-profit organizations promoting the safe and sustainable 
long term use of space, today expressed their strong support for 
President Trump's nomination of James Bridenstine to be the NASA 
Administrator. Both organizations see his nomination as a positive step 
forward, and expect Representative Bridenstine to provide the much-
needed leadership for combining NASA's long safety experience and 
outstanding technical resources with the visionary drive and innovation 
spirit of commercial entities.
    Michael Kezirian, PhD, President and CEO of ISSF, stated that ``we 
at the ISSF stand ready to support Jim Bridenstine as the new NASA 
Administrator and look forward to continue the dialog with him on 
promoting the advances in space safety as a necessary condition for the 
development and growth of a vibrant commercial space industry.'' 
Kezirian and the ISSF particularly support Bridenstine's view that the 
safety regulatory environment for the commercial space industry must be 
lean and provide certainty and clarity to business, and are convinced 
that those goals can be achieved by applying proven best practices to 
protect the participant and uninvolved public alike. ``At the ISSF, we 
see space safety as a collective responsibility of the aerospace 
industry,'' explained Kezirian. ``We must bring NASA' s experience of 
more than fifty years of human spaceflight to industry through the 
development and compliance with common safety standards.'' In this 
context, ISSF advocates the creation of a Commercial Space Safety 
Institute, and hope to work with Representative Bridenstine to make 
that a reality once he is confirmed as NASA Administrator.
    Tommaso Sgobba, Executive Director of IAASS added ``At a time when 
space is no longer an exclusive arena of governments and national space 
agencies, with many new, ambitious entrants entering the spaceflight 
business, the effective control of operational risks is the key factor 
for industry growth and expansion. Bridenstine's views as a member of 
the Science, Space and Technology Committee of the U.S. House of 
Representatives on the increased commercial involvement in space 
exploration and the importance of a return to the Moon and the vision 
to ultimately reach Mars as a proving ground for private industry are 
very encouraging for the international community of space. safety 
professionals.'' He also considers Bridenstine's experience as a Navy 
pilot to be a valuable asset, and noted that ``space bound systems and 
aviation traffic will share a more and more crowded airspace, with 
aviation increasingly relying on space-based safety-critical services, 
and air launches perhaps becoming an important segment of the launch 
business.''
    About James Bridenstine:

    Mr. Bridenstine was elected in 2012 to represent Oklahoma's First 
Congressional District. He serves on the House Armed Services Committee 
and the Science, Space and Technology Committee. Mr. Bridenstine began 
his Naval aviation career flying the E-2C Hawkeye off the USS Abraham 
Lincoln aircraft carrier. It was there that he flew combat missions in 
Iraq and Afghanistan. While on active duty, he transitioned to the F-18 
Hornet and flew as an ``aggressor'' at the Naval Strike and Air Warfare 
Center. After leaving active duty, Mr. Bridenstine returned to Tulsa, 
Oklahoma to be the Executive Director of the Tulsa Air and Space Museum 
& Planetarium and flew counter-drug missions in Central and South 
America in the Navy Reserve. He holds a triple major from Rice 
University and an M.B.A. from Cornell University. Mr. Bridenstine is 
currently a member of the 137th Special Operations Wing of the Oklahoma 
Air National Guard.
    About IAASS and ISSF:

    The International Space Safety Foundation (ISSF) and the 
International Association for the Advancement of Space Safety (IAASS) 
are sister non-profit organizations with similar aims. They are 
dedicated to furthering policies of international cooperation and 
scientific progress in the field of space safety through educational 
initiatives, certifications, and funding of research. ISSF and IAASS 
and seek to advance technical, organizational, and socio-political 
cultures to make space missions, vehicles, stations, extraterrestrial 
habitats, equipment, and payloads safer for the general public, ground 
personnel, space travelers, and crews. They also support the 
preservation of the orbital environment to ensure safe use and access 
by present and future generations.
    The ISSF is a non-profit 501c(3) registered in California with its 
senior leadership based in Houston, Texas. The IAASS is a registered 
association under Dutch law, is based in Noordwijk (Netherlands). Both 
organizations work closely together and have a world-wide membership 
which is comprised of space agencies, aerospace corporations, and space 
safety professionals. More information can be found at:

        issf.space-safety.org
        iaass.space-safety.org

Contact:

Michael Listner, USA
Dieter Isakeit, The Netherlands
                                 ______
                                 
                         Aurora Flight Sciences Corporation
                                                   October 27, 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    In preparation for the U.S. Senate Committee on Commerce, Science 
and Transportation to consider the nomination of Rep. Jim Bridenstine 
to serve as the Administrator of the National Aeronautics and Space 
Administration, I request that you include this letter of support in 
your deliberations.
    Aurora Flight Sciences is a small aerospace company with 
significant experience in assisting NASA. Our work has ranged from 
scientific research aboard the International Space Station to the 
development of the DS, a highly efficient new technology for commercial 
aviation. During his term in office, Congressman Bridenstine has 
demonstrated a deep commitment to understanding both civilian and 
defense space programs. In Congress, he quickly assumed considerable 
leadership on major space and aviation issues. He also has amassed 
extensive firsthand experience on a wide range of aviation issues as a 
former Navy pilot. The Congressman is keenly aware of the important 
role of the industrial base that provides critical capabilities to the 
aerospace industry. I am convinced he will be an effective advocate of 
NASA's role in aeronautics research, which plays a direct role in 
America's current and future world aviation leadership.
    Rep. Bridenstine is prepared to lead NASA and the many challenges 
and opportunities facing the agency.
    Thank you for consideration this request.
            Sincerely,
                                    John S. Langford, Ph.D.
                                                   Founder and CEO,
                                    Aurora Flight Sciences Corporation.
                                 ______
                                 
                                     Spaceflight Industries
                                    Seattle, WA, September 21, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Re: Support for Confirmation of Representative Jim Bridenstine for NASA 
            Administrator

Dear Chairman Thune and Ranking Member Nelson,

    On behalf of Spaceflight Industries, a Seattle, WA company, I am 
writing in strong support of the nomination of Representative Jim 
Bridenstine to be the next Administrator of NASA.
    Representative Bridenstine has been a strong supporter and friend 
of industry for years and we see him as a potential agent of change for 
good at NASA and in the Administration in general on all space policy.
    At a time when the United States is witnessing a renaissance in the 
space industry, it is equally facing strong headwinds both domestically 
and internationally that could undermine this rapidly evolving sector 
and therefore the thousands of high-tech jobs and export Dollars that 
it generates. The innovation, resources and energy that the private 
sector is devoting to help build and maintain U.S. strategic dominance 
is threatened in a number of ways that keep a thumb on the growth of 
the industry.
    Chief among these concerns for Spaceflight Industries and its 
customers is the lack of appropriate U.S. launch opportunities for 
companies seeking to orbit spacecraft. The lack of ability to find the 
right domestic launch opportunity is creating a situation where many 
U.S. companies could go out of business before they are able to prove 
their business models. Meanwhile international competitors do not face 
similar domestic restrictions on launch.
    Representative Bridenstine has always made himself available to 
listen to our concerns and to throw his weight behind solutions that 
help address these concerns. As a rapidly growing U.S. company, we are 
deeply invested in the success of our customers and we are confident 
that Representative Bridenstine will be forward leaning, open minded 
and seek solutions that benefit the industry at large. For these 
reasons and those stated above, I wholeheartedly recommend his 
confirmation by the Senate.
            Sincerely,
                                             Jason Andrews,
                                                               CEO,
                                                Spaceflight Industries.
                                 ______
                                 
                                     Eutelsat America Corp.
                                                   October 27, 2017
United States Senate,
Committee on Science, Space and Transportation,
Washington, DC.

Re: Support for the Nomination of Representative James Bridenstine to 
            be NASA Administrator

Dear Chairman Thune:

    As a leading provider of satellite telecommunications to the 
Department of Defense, Eutelsat America Corp. (Eutelsat) fully supports 
the nomination of Representative James Bridenstine (R OK) to become the 
13th Administrator of the National Aeronautics and Space Administration 
(NASA). Rep. Bridenstine understands that a resilient space enterprise 
hinges on the integration of government and commercial capabilities. 
Through his experience as a Member of Congress, we believe Rep. 
Bridenstine has developed the skills and foundational knowledge 
necessary to successfully carry out the role of NASA Administrator.
    Since he was elected in 2012, Rep. Bridenstine has been a leader in 
national security space issues through his service on the House Armed 
Services Committee and the Science, Space and Technology Committee. 
Last year, Rep. Bridenstine introduced the ``American Space Renaissance 
Act,'' which would provide critical updates to national space policy 
and take a holistic approach to the American space enterprise. Many of 
his space reform ideas were adopted as part of the Fiscal Year 2017 
National Defense Authorization Act.
    Rep. Bridenstine understands the challenges facing NASA in its 
quest to better confront changing U.S. space priorities and conduct 
successful missions to Mars. Furthermore, Rep. Bridenstine recognizes 
the need to build resiliency and flexibility into space operations and 
acquisitions as space has become a warfighting domain. For example, he 
has been a vocal proponent of the Air Force's pathfinder programs and 
the Wideband Analysis of Alternatives, which aim to use innovative 
acquisition models to yield increased efficiency and effectiveness. At 
a time when budget constraints and relationships in Congress are so 
important, Rep. Bridenstine's leadership will fill a critical 
capability gap and ensure that NASA's long-term goals are accomplished 
on time and on budget.
    The United States' dominance in space can no longer be taken for 
granted and will require the leadership and vision that we see in Rep. 
Bridenstine. Eutelsat America strongly believes Rep. Bridenstine will 
fulfill the administration's objective of reinvigorating America's role 
as a leader in space as our Nation's NASA Administrator. We ask that 
the Committee on Science, Space and Transportation rapidly vote to 
recommend to the full Senate that Rep. Bridenstine be confirmed 
immediately as NASA Administrator.
            Sincerely,
                                                David Bair,
                                           Chief Executive Officer,
                                                 Eutelsat America Corp.
                                 ______
                                 
                          Chickasaw Nation Industries, Inc.
                                       Norman, OK, October 27, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    On behalf of the Chickasaw Nation and our wholly owned subsidiary, 
Chickasaw Nation Industries, Inc. (``CNI''), we are writing to express 
our support for Congressman Jim Bridenstine s nomination to be the next 
Administrator of the National Aeronautics and Space Administration.
    The Chickasaw Nation is headquartered in Ada, Oklahoma, and 
together with CNI which is located in Norman, Oklahoma has national 
operations in over 40 states and global operations in 6 continents.
    We own a computational physics modeling and simulation entity in 
North Carolina and have received top security clearance as a 
participant in national security for Federal contracting. In these 
scientific, technical and security related issues, Jim Bridenstine 
excels. In Congress, he has been a leader on utilizing space based 
assets to improve weather forecasting and modeling and is a strong 
advocate to ensure we have the capabilities necessary to surpass our 
adversaries in space. His grasp of technical issues is rare among 
members of Congress, and his attention to these important policies has 
been critical to the success of U.S. scientific advances over the past 
5 years
    We are confident Jim Bridenstine's knowledge and passion will serve 
NASA well, and we ask you to support his nomination and advance his 
confirmation.
            Sincerely,
                                            David L. Nimmo,
                                                     President/CEO,
                                      Chickasaw Nation Industries, Inc.
                                 ______
                                 
                              Arlington, Virginia, October 27, 2017

Hon. John Thune,
Chairman,
The United States Senate Committee on Science, Space, and 
            Transportation,
Washington, DC.

Re: Support for the Nomination of Rep. James Bridenstine to be NASA 
            Administrator

Dear Chairman Thune:

    I am honored to support Rep. Jim Bridenstine's nomination to be the 
next NASA Administrator. As a former NASA astronaut, I have a very 
personal understanding of the risks and rewards of space exploration. 
As a former NASA Associate Administrator for Space Operations and Human 
Space Flight, I also understand the agency's missions and challenges, 
and I believe Rep. Bridenstine is the kind of leader the agency needs 
at this critical inflection point for NASA. I urge you and your 
colleagues to approve his nomination.
    From his time flying as a naval aviator aboard aircraft carriers, 
Rep. Bridenstine has a keen appreciation that complex systems and 
missions require leadership and teamwork from 'below decks' to the 
cockpit. As a former naval aviator myself, I have great admiration for 
his courage and skills under intense operational stress. NASA needs 
that kind of administrator.
    As a leading voice on national security space issues while serving 
on prominent committees with jurisdiction over the Department of 
Defense and NASA, Rep. Bridenstine has a keen awareness of the vital 
importance of NASA's missions and the inherent bureaucratic obstacles, 
budget constraints, that he will need to overcome. I believe he will 
transition NASA from its 20th century infrastructure and government-
centric approach to a more modem, blended commercial and government 
21st century space exploration enterprise.
    Furthermore, Rep. Bridenstine recognizes how dependent our Nation 
has become on space for everyday activities ranging from navigation to 
communications to banking. Understanding the importance of those 
missions and with the reestablishment of the National Space Council 
under Vice President Pence's leadership Rep. Bridenstine has the 
background to be a key voice preserving our national leadership in 
space, while paving the way for the future.
    NASA and our space programs are at an inflection point, and we need 
strong leadership and fresh ideas in order to achieve our Nation's 
lofty goals. Though this is an incredibly exciting time for exploration 
and innovation, we must also realize that the United States is no 
longer the sole, dominant power in space. As our adversaries including 
China and Russia develop more advanced satellite technologies.
    We need someone like Rep. Bridenstine to guide NASA into the 2l't 
century of space exploration. I believe Rep. Bridenstine has the 
passion and expertise required to be an exceptional Administrator and I 
ask that the Committee on Science, Space and Transportation approve 
Rep. Bridenstine's nomination to become our Nation's 13th NASA 
Administrator.
            Sincerely,
                                         William F. Readdy,
                                             Former NASA Astronaut,
                                          Captain, U.S. Navy (retired).
                                 ______
                                 
                            Stinger Ghaffarian Technologies
                                    Greenbelt, MD, October 27, 2017

Hon. John Thune, Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Hon. Bill Nelson, Ranking Member,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    As the Committee begins its deliberations on who will lead the 
Nation's civil space program, I am writing to express my strong support 
for the nomination of Rep. Jim Bridenstine (R-OK) for NASA 
Administrator.
    Based upon his military service, his experience as a combat aviator 
and science educator, and his strong knowledge about and passion for 
space science and human space flight, I believe the Congressman is the 
right person for this period in NASA's history. He is well versed in 
NASA and military space programs from his service on the House Science, 
Space and Technology and Armed Services Committees. As a fiscal 
conservative, he is well aware of the need to be a careful steward of 
the Nation's tax dollars when they are invested in things like the 
space program. But it is his passion for NASA and its people and 
programs--something that I have come to appreciate in getting to know 
him--that gives me the most hope about his tenure as Administrator.
    In addition, I think his service in the House makes him far more 
conscientious in working with both Houses of Congress and the members 
of this Committee in particular to forge a future for NASA that 
inspires, promotes exploration beyond low earth orbit and invests in 
scientific discovery. It is these kinds of partnership which NASA 
desperately needs for it to be effective in these fiscally challenging 
times. It's my belief and hope that Jim Bridenstine--Navy pilot, 
science educator and public servant--will use his experience and 
passion for space to deliver on building that collaboration with 
Congress to effectively implement the vision articulated by Vice 
President Pence while preserving NASA's key heritage in space science, 
developing new technologies and advancing aeronautics research.
    Since graduating from college after immigrating to the U.S. more 
than four decades ago, I have spent my entire adult life working in and 
around the Nation's civil space program. As an engineer, entrepreneur 
and business executive, it has been an honor to work with the men and 
women at NASA on some of its most notable flagship missions--including 
the Hubble Telescope, Landsat, the Space Shuttle and the International 
Space Station. Jim Bridenstine appreciates the depth of their service 
and the need to use his time as NASA Administration to build out from 
all that they have accomplished.
    Given the many challenges which NASA faces, I believe NASA and the 
Nation can use Mr. Bridenstine's many talents to take the space program 
to new heights. For this reason, I strongly urge you to expedite his 
nomination and recommend him for confirmation as NASA Administrator by 
the full Senate.
            Sincerely,
                                  Kamal S. Ghaffarian, PhD,
                                 Chief Executive Officer/President.
                                 ______
                                 
                                     Manassas, VA, October 29, 2017
Hon. Jim Bridenstine,
United States House of Representatives,
Washington, DC.

Dear Representative Bridenstine,

    I am writing this letter to personally congratulate you on your 
nomination for NASA administrator and to say why, as a former 
astronaut, I see your nomination as a tremendous opportunity for NASA 
to build its leadership in space and advance safely and boldly into a 
new era of space exploration.
    We briefly met in July of 2015 and you discussed your background, 
interests and involvement in the space industry. From that introduction 
and from what I know of your space policy initiatives and experience as 
a Carrier-based U.S. Navy F-18 pilot, I have an assured enthusiasm that 
you will safely and vigorously discharge your responsibilities as 
Administrator to enhance safety in an era of evolving relationships 
between NASA and commercial providers of space services.
    NASA human spaceflight accidents are national tragedies because of 
the astronauts that were lost. The accidents caused an erosion of 
national confidence. The Columbia accident was unfortunately very much 
like the Challenger Accident seventeen years before. In both of NASA's 
Shuttle accidents, engineers had a clear understanding of the failures 
and the risk to vehicle and crew, but that understanding was lost in 
the bureaucracy supporting those missions. From your experience as a 
Naval Aviator, operating in the complex system of systems that is Navy 
Carrier aviation, you understand the importance of a healthy command 
safety climate, and you know it is the maintainer, the crew, and the 
final checker who are the last line of defense against catastrophe, and 
the Naval Aviation Safety Program that is the first. In the domain of 
human spaceflight, it is the engineer, the technician, and the 
astronaut on the last line, and NASA's safety program on the first. 
Every NASA space mission is a test flight, and I am sure that you will 
fully support the Astronaut Office and NASA's Office of Safety and 
Mission Assurance as essential and integral to NASA Astronaut safety.
    Additionally, and in closing, from your service in the U.S. Navy, 
you know first-hand how to lead a diverse operational organization. 
People of all ranks and backgrounds are treated with respect and 
consideration so that they in turn can contribute fully as members 
vested in the organization's success. As NASA Administrator, you will 
support all NASA personnel so that they will be able to give their best 
to encourage and inspire all Americans.
    My Best Wishes for a successful confirmation and tenure as NASA 
Administrator.
                                              George Zamka.
                                 ______
                                 
                                            Cherokee Nation
                                    Tahlequah, OK, October 30, 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    As the U.S. Senate Committee on Commerce. Science and 
Transportation prepares to take up the nomination of Congressman Jim 
Bridenstine to serve as the Administrator of the National Aeronautics 
and Space Administration. we request that you include this letter of 
support from the Cherokee Nation in your deliberations.
    Congressman Bridenstine has demonstrated a deep commitment to 
understanding both the civilian and defense space programs. In 
Congress. he quickly assumed considerable leadership on major space and 
aviation issues. He also has assumed extensive firsthand experience as 
a former Navy pilot. The Congressman is keenly aware of the important 
role of the industrial base that provides critical capabilities to the 
aerospace industry.
    We believe Congressman Bridenstine is prepared to lead NASA and the 
many challenges and opportunities facing the agency.
    Thank you for consideration of this request. If you have any 
questions or require further information, please contact our Director 
of Government Relations, Kimberly Teehee at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e153733730a3b3b363b3b1e3d363b2c31353b3b70312c39">[email&#160;protected]</a> or 
(202) 615-9505.
            Sincerely,
                                           Bill John Baker,
                                                   Principal Chief,
                                                       Cherokee Nation.
                                 ______
                                 
                                                  Panasonic
                                  Lake Forest, CA, October 30, 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee:

    I am pleased to recommend the nomination of Neil Jacobs for 
Assistant Secretary of Commerce for Environmental Observation and 
Prediction and Deputy Assistant Administrator of NOAA. I believe that 
he possesses the scientific knowledge, business management and 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    Neil is the driving force behind Panasonic Weather Solutions' 
outstanding achievements in numerical weather forecasting over the past 
several years. I began working with Neil when Panasonic acquired our 
weather forecasting division in 2013. His love for meteorology, both 
the science and its practical application, is unmatched. He constantly 
works to find ways to improve the science leading to better forecasts 
that can inform businesses and the public of accurate daily conditions 
as well as significant weather events, improving safety and driving 
efficiencies. Neil has been involved in all aspects of meteorology 
during the time I've known him from lecturing at forums such as the 
American Meteorological Society and the World Meteorological 
Organization, to driving forecast model improvements and new business 
opportunities as senior scientist at Panasonic Weather. He has a solid 
grasp of science, innovation and business, which is a powerful 
combination.
    I know Neil to be an intelligent, honorable person with the 
commitment to serve the public with integrity, bringing vision and 
passion to the role. I strongly urge his confirmation.
    Please don't hesitate to contact me if you have any questions.
            Sincerely,
                                           Chris Lundquist,
                                                    Vice President,
                           Corporate Planning and Business Development.
                                 ______
                                 
                                               Koniag, Inc.
                                       Kodiak, AK, October 30, 2017
Chairman John Thune,
Ranking Member Bill Nelson,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

SUBJECT: Confirmation Hearing for NASA Administrator

Dear Senators Thune and Nelson,

    I am writing today to recommend the confirmation of Representative 
Jim Bridenstine as our Nation's next Administrator for the National 
Aeronautics and Space Administration (NASA).
    Koniag, Inc. is a regional Alaska Native Corporation formed under 
the terms of the Alaska Native Claims Settlement Act of 1971. Koniag, 
Inc. has approximately 3,900 Alutiiq Shareholders. Our region 
encompasses the Kodiak Archipelago in the Gulf of Alaska and a portion 
of the Alaska Peninsula. Koniag supports responsible development of our 
resources while respecting our rich heritage and culture and developing 
sustained employment opportunities for our shareholders. With lands 
located on Kodiak Island, we are neighbors to the Pacific Spaceport 
Complex--Alaska (PSCA), a Federal Aviation Administration (FAA) 
commercially licensed, state-of-the-industry spaceport that provides 
access to planetary orbital space for commercial and government 
interests.
    PSCA has been underutilized since first developed in the late 
1990s, yet it provides an ideal location for both government and 
commercial launches that require access to low earth orbit, sun 
synchronous orbit, polar orbit, and highly elliptical orbits, 
complementing the equatorial capabilities offered by Cape Canaveral in 
Florida and the Mid-Atlantic Regional Spaceport in Virginia. 
Representative Bridenstines strong interest to advance commercial space 
would provide increased opportunities for NASA to further expand 
affordable launches by utilizing PSCA, especially for launches of the 
emerging small launch vehicle market that require access to polar 
orbit.
    Koniag, Inc. and Alaska Aerospace have a long relationship and we 
are pleased that Representative Bridenstine shares our vision for the 
future of expanding commercial launch capabilities of our great nation 
to once again secure leadership in space. We heartily recommend his 
confirmation as the next NASA Administrator.
            Respectfully submitted,
                                      Elizabeth Perry, PhD,
                                                               CEO,
                                                           Koniag, Inc.
Cc: The Honorable Dan Sullivan, United States Senate
                                 ______
                                 
                             Data--Analysis--Solutions, LLC
                                                   October 30, 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee:

    It is with the utmost of pleasure that I send this letter of 
endorsement in support of the nomination of Dr. Neil Jacobs for 
Assistant Secretary of Commerce for Environmental Observation and 
Prediction and Deputy Assistant Administrator of NOAA. I am highly 
confident that Dr. Jacobs possesses the scientific knowledge, business 
management and leadership skills to help strengthen the National 
Oceanic & Atmospheric Administration (NOAA) in working to improve 
NOAA's critical services to the safety and economic well-being of the 
Nation.
    As the former Chair of the NOAA Science Advisory Board (8 years on 
the FACA Board, with 6 as the Chair, during the Bush Administration), I 
can speak, from in-depth knowledge of NOAA, that Dr. Jacobs is an 
absolutely superb choice to help provide NOAA with industry's 
perspectives on the further enhancement of its observational networks 
and its prognostic capabilities. Moreover, as the former Commissioner 
of the American Meteorological Society's (AMS) Weather, Climate and 
Water Enterprise, which brought together Private Industry, Federal 
Agencies and Academia, I again can attest to Neil's involvement in the 
Commission activities and to his commitment to the enterprise of 
engaging the three communities to work together to improve weather and 
water related safety from natural hazards and to improving the delivery 
of NOAA's vital services to the Nation.
    During the period when I served as the Head of the Department of 
Marine, Earth & Atmospheric sciences at North Carolina State 
University, I also served as the Chair of Dr. Jacob's Master's and 
Doctoral graduate research and education committees. Over a several 
year period, I came to know Neil very well and to know that he 
possesses a deep knowledge and understanding of the interactive 
coupling of observations, data and modeling of environmental systems; 
which were the topics of both his M.S. thesis and his PhD dissertation. 
Both studies were related to measuring and modeling atmospheric storms, 
both from the atmospheric and oceanographic perspectives. Neil 
possesses the knowledge base and qualifications to see the value of 
observations and modeling from both sides of the air-sea interfaces and 
has a very probing mind, always pushing for the facts as well as they 
could be revealed via observations and modeling. At that time, Neil 
also became intrigued with the possibility of making weather 
observations from aircraft and of the next possibility of using those 
data to be assimilated into prognostic weather forecast models in real-
time. We discussed this possibility at length. This interest served him 
well in his professional career and endeavors following his graduation 
from NC State.
    In his employment with the Panasonic Avionics Corporation, Dr. 
Jacobs has directed the underlying research and the subsequent 
development of both the airborne meteorological data reporting system 
(known as TAMDAR), as well as the numerical models run by Panasonic. 
Neil introduced that capability to the NOAA National Weather Service 
(NWS) which now includes those data and model outputs as part of the 
NWS portfolio. I worked with Neil on brokering that relationship with 
the Office of the Director of the NWS.
    Presently Neil is the chair of the AMS's Forecast Improvement Group 
(FIG), and also serves on the World Meteorological Organization's (WMO) 
aircraft based observing systems expert team. Prior to joining 
Panasonic Inc., Dr. Jacobs worked on various analyses and modeling 
projects including the National Aeronautics & Space Administration's 
(NASA) Earth Systems Science Program, the NOAA GOES satellite imagery, 
the Department of Energy's (DOE) Ocean Margins Program (in which I was 
the PI), and the NWS's Atlantic Surface Cyclone Intensification Index. 
Obviously Neil has developed cross-cutting multiple Federal agency and 
international experience and interactions as well.
    In closing I can only say that this is a unique opportunity for the 
Department of Commerce, for NOAA and for the Nation to have a scientist 
of Dr. Jacob's caliber in this important position. Neil is collegial, 
thoughtful, and a team player and will be an outstanding leader for 
NOAA. I urge his confirmation.
            Respectfully,
                          Dr. Leonard J. Pietrafesa, Ph.D.,
                                                Professor Emeritus,
                                       North Carolina State University.
                                        Burroughs & Chapin Scholar,
                                           Coastal Carolina University.
2nd Chair, NOAA Science Advisory Board (FACA)
3rd Commissioner, AMS Weather & Climate Enterprise
1st Chair, American Geophysical Union Focus Group on Science & Society
1st Chair, Association of Public & Land-grant University's Board on 
Oceans & Atmosphere
CEO of Data-Analysis-Solutions (DAS) LLC
                                 ______
                                 
                                             GeoOptics, Inc
                                     Pasadena, CA, October 30, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Neil Jacobs 
for Assistant Secretary of Commerce for Environmental Observation and 
Prediction and Deputy Assistant Administrator of NOAA. I believe that 
he possesses the scientific knowledge, business management and 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    Over the past 8 years I have had many conversations with Neil 
within the American Meteorological Society and in regard to mutual 
business interests. He is one of today's most intelligent and 
accomplished scientists. In addition to his keen understanding of 
meteorology, model building and high-performance computing, he is well 
acquainted with Federal Government operations and priorities and will 
be an excellent addition to the Commerce and NOAA leadership team.
    As a former NOAA Administrator from 2001-2008, and now involved in 
leading an environmental data enterprise, I view Neil as a perfect fit 
for this assignment. Neil will be an outstanding leader for NOAA. I 
urge his confirmation.
            Sincerely,
                  Conrad C. Lautenbacher, Jr. VADM, USN ret
                                                               CEO,
                                                        GeoOptics, Inc.
                                 ______
                                 
                                           WeatherFlow Inc.
                                Scotts Valley, CA, October 30, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee:

    It is with great pleasure and conviction that I offer my support, 
and the support of the WeatherFlow team, for the nomination of Dr. Neil 
Jacobs for Assistant Secretary of Commerce for Environmental 
Observation and Prediction and Deputy Assistant Administrator of NOAA. 
Dr. Jacobs is a preeminent leader within the Weather Enterprise, and he 
has both the scientific knowledge and business management skills to 
help NOAA evolve and thrive in the face of pressures on many fronts.
    WeatherFlow is a commercial leader in providing decision tools 
based on a need for an accurate understanding of past, current, and 
forecasted weather conditions. As CEO of WeatherFlow, I have worked 
closely with Dr Jacobs in his position at Panasonic Avionics over the 
last several years and been familiar with his work for the past decade. 
Both Panasonic and WeatherFlow have provided crucial data to NOAA, at a 
fraction of the cost of production of that data, under NOAA's National 
Mesonet Program. I have seen Neil work tirelessly to help shape this 
NOAA program to be both fair to Panasonic and fair to the US taxpayer. 
He has played a large role as this program has evolved to be 
increasingly beneficial to NOAA's mission.
    Our working cooperation has afforded me a first-hand view of Dr. 
Jacobs' work in the academic, government and business spheres. He is 
first and foremost a scientist, but even beyond his tremendous 
knowledge in the field of numerical weather prediction, he possesses a 
deep intellect that further allows him to broadly apply his knowledge, 
that in recent years has become evident in his strategic business 
management. He has consistently shown that he can apply his scientific 
knowledge to both business and government challenges, and to note where 
cooperation between those sectors can further benefit the nation. As a 
member of the private sector, Neil has consistently relied on a strong 
sense of fairness and has provided a consistent moral compass 
throughout Panasonic's cooperation with government, and I know he will 
show that same spirit and fortitude as one of NOAA's senior leaders.
    I have worked with many others in the academic and business worlds 
for the past twenty years, and I can unequivocally state that Dr. 
Jacobs is unique in terms of both his combination of scientific and 
practical capabilities and his natural skill as a leader. When applied 
to the breadth and depth of challenges facing NOAA, this combination is 
likely to pay important dividends to the citizens and economy of our 
nation.
    In view of his skills and accomplishments, it is again with great 
conviction that I endorse Dr. Jacobs' confirmation. Having someone of 
Neil's knowledge, skill, and character in the NOAA leadership is a 
great opportunity for the country.
    Thank you for your consideration.
            Sincerely,
                                                Buck Lyons,
                                           Chief Executive Officer,
                                                       WeatherFlow Inc.
                                 ______
                                 
                                     Surfline/Wavetrak Inc.
                             Huntington Beach, CA, October 30, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    I'm writing to give my support and endorsement for Neil Jacobs to 
become the next Assistant Secretary of Commerce for Environmental 
Observation and Prediction and Deputy Assistant Administrator of NOAA. 
In the years I have known Neil, I've been impressed with his zest for 
science, particularly in the realm of improving the scale and quality 
of weather observations throughout the world as a source of truth and 
as a source of inputs into sophisticated atmospheric modeling. Neil is 
a savvy combination of scientist, computer programmer and business 
manager and his efforts at improving global wind modeling in founding 
Air-Dat, now part of Panasonic Weather, have been extraordinary. 
Entrepreneur, scientist and manager are generally not words used in the 
same sentence to describe an individual, but in Neil's case they're 
apropos.
    Possibly more important from my perspective, is Neil's love for the 
ocean. Like many Floridians who discover surfing, Neil's zeal for 
finding good surf wherever he might be and employing a natural 
curiosity for protecting the ocean color much of his world view. I have 
witnessed that in my interactions with Neil both professionally and 
personally.
    As the Chairman and CEO of Surfline/Wavetrak Inc., I oversee a 
business entity that serves millions of surfers and ocean enthusiasts 
throughout the world and care deeply about the state of weather 
modeling and the organizations and agencies that advance global climate 
models. Our team is always on the look out for the best ways of helping 
ocean enthusiasts ``know before they go'' and science is at the root of 
that. It's this quest that led us to the work Neil was doing at 
Panasonic.
    Neil's connection to science, sophisticated ensemble modeling based 
upon new modes of observation and his zeal for the ocean make him the 
ideal person, in my opinion, to advance the mission of NOAA in the 
coming years. I can't think of a better person to represent the U.S. in 
advancing our interests as the world's leader in weather prediction 
than Neil Jacobs and heartily endorse him. If you have any questions or 
need more information, please feel free to call or write me to discuss 
this endorsement at your convenience.
            Sincerely,
                                                 Jeff Berg,
                                                  Chairman and CEO,
                                                 Surfline/Wavetrak Inc.
                                 ______
                                 
                                   Loeb Holding Corporation
                                     New York, NY, October 31, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Neil Jacobs 
for Assistant Secretary of Commerce for Environmental Observation and 
Prediction and Deputy Assistant Administrator of NOAA. I believe that 
he possesses the scientific knowledge, business management and 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    Neil is a man of extraordinary personal and scientific integrity. I 
would be delighted to have him represent the United States with the 
discharge of his responsibilities as the Assistant Secretary of 
Commerce for Environmental Observation and Prediction and Deputy 
Assistant Administrator of NOAA.
    I am Managing Director of Loeb Holding Corporation. I was also 
Chairman of AirDat LLC, a weather data and forecasting organization for 
which Neil was Chief Scientist.
    This is a unique opportunity for the country for NOAA to have a 
scientist of his caliber. Neil will be an outstanding leader for NOAA. 
I urge his confirmation.
            Sincerely,
                                              Bruce L. Lev,
                                                 Managing Director,
                                              Loeb Holding Corporation.
                                 ______
                                 
                                  Space Frontier Foundation
                                    Arlington, VA, October 30, 2017

Hon. John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. C. William Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    We thank you for this opportunity to weigh in on the issue of 
President Trump's nomination of Congressman James Bridenstine to be 
NASA administrator. The Space Frontier Foundation is a grass roots 
organization, with more than 30 years of history as advocates for the 
emerging commercial space industry. We represent a growing body of 
professionals, researchers, scientists, entrepreneurs, and investors 
who are helping to develop this rapidly growing new business sector, 
and as a 501c3, we are dedicated to educating and informing our 
community, and the world, about this growing economic opportunity. We 
appreciate this opportunity to share our thoughts on Congressman 
Bridenstine's nomination.
    Congressman Bridenstine has a history with space and NASA. In 2007, 
he started the Rocket Racing League team known as Bridenstine Rocket 
Racing. Later, he became the executive director of the Tulsa Air and 
Space Museum. During his Congressional tenure, he has worked 
extensively on space issues, including writing the Space Renaissance 
Act. However, while this history demonstrates significant involvement 
and interest in space, to us the most important question is whether he 
shares the vision that our organization has cultivated after 30 years 
of leading this industry, which is summarized in the three parts of the 
Space Frontier Foundation's Credo.

  1)  The Space Frontier Foundation is an organization of people 
        dedicated to opening the Space Frontier to human settlement as 
        rapidly as possible

    Our nation's citizenry is dealing with many issues--recovery after 
a series of natural disasters, economic uncertainty, and a growing 
political divide. Last year, NASA's budget was almost $20 Billion. If 
we are going to continue to spend that much money on spaceflight, we 
must have a clear vision of what we want from our Federal space 
investment, and how to actually use space to help our citizenry and the 
world.
    This is why the Space Frontier Foundation strongly believes that 
the issue of space settlement MUST be the driving vision and force 
behind our human spaceflight endeavors. In our view, human spaceflight 
must directly serve the needs of every human in a way that allows 
individual humans to easily reach for space. It must not be just a 
political tool to make symbolic gestures. Nor can our activities in 
space be focused only on scientific discovery. Space is awash in 
resources and opportunities. And the surest way to access these 
opportunities is by creating and enabling industrial space development 
that leads directly to space settlement. Indeed, if we are unwilling to 
build towards space settlement, then we should reconsider whether we 
want to continue spending public money to place humans in space at all.
    Within Congressman Bridenstine's Space Renaissance Act, he proposed 
an addition to the organic law that established NASA, which, when 
combined with existing law, would state:

        The Aeronautical and space activities of the United States 
        shall be conducted so as to contribute materially to one or 
        more of the following objectives:

        (1) The expansion of the human sphere of influence throughout 
        the Solar System.

        (2) To be among those who first arrive at a destination in 
        space and to open it for subsequent use and development by 
        others.

    While that language doesn't explicitly use the word ``settlement'', 
it clearly articulates a settlement-aligned vision. Thus, when it comes 
to the first part of our credo, Congressman Bridenstine seems to share 
our vision.

  2)  Our goals include protecting the Earth's fragile biosphere and 
        creating a freer and more prosperous life for each generation 
        by using the unlimited energy and material resources of space.

    The Space Frontier Foundation recognizes the uniqueness of planet 
Earth, and the need to protect and preserve it for future generations. 
However, we also would like to find options that do not limit our 
opportunities and quality of life. This is why we see space as so 
important. If human beings create a society that develops space for the 
betterment of humanity, where Space and Earth are both helping each 
other, (as opposed to space as an escape or backup as some have 
suggested), we'll ensure that humanity's future is bright.
    We do acknowledge that, when it comes to the issue of protecting 
Earth's biosphere, there has been some controversy regarding 
Congressman Bridenstine's record. However, the Space Frontier 
Foundation recognizes that NASA's primary job is not focused on issues 
of climate change, and believe that the checks and balances that are 
part of our government will ensure that when it comes to these issues, 
NASA's Earth Science programs will be protected.
    Finally, as item #2 of our credo states, part of protecting Earth 
means pursuing activities to actively use space resources. Congressman 
Bridenstine co-sponsored the Commercial Space Launch Competitiveness 
Act, which included the Space Resource Exploration and Utilization Act. 
Additionally, Congressman Bridenstine's Space Renaissance Act includes 
as a national objective:

        (3) To create and prepare infrastructure precursors in support 
        of the future use and development of space by others. . ..

    So here too Mr. Bridenstine seems to align with our vision.

  3)  Our purpose is to unleash the power of free enterprise and lead a 
        united humanity permanently into the Solar System.

    Economic growth and commercial expansion have been key to America's 
success. By utilizing technology to create economic opportunities for 
individuals, new jobs, companies, and even industries have been created 
and grown. Thus, if we wish to tap into the new resources of space, we 
must encourage commercial expansion into the solar system.
    To enable space development and space settlement, the government 
must encourage economic growth, through a combination of favorable 
regulations, intelligent investment, and supportive policy. NASA stands 
at a unique position for this, and its activities going forward should 
focus on enabling development and space settlement.
    When it comes to these issues, Congressman Bridenstine has been on 
the forefront by proposing positive new ideas and initiatives, and many 
can be seen in the Space Renaissance Act. Here are two examples where 
the Congressman's efforts have demonstrated such leadership:

  <bullet> The International Space Station has provided a good starting 
        point for enabling the commercial development of Low Earth 
        Orbit. However, the ISS does not have an indefinite life, and 
        the Space Frontier Foundation and other organizations have been 
        concerned about how to utilize its remaining operation to 
        enable the development of commercial space stations as soon as 
        possible. Section 204 of The Space Renaissance Act both 
        supported this in policy and proposed a pilot commercial 
        habitation program at ISS.

  <bullet> Congressman Bridenstine worked with other members of the 
        House Science committee to develop H.R. 2809, the American 
        Space Commerce Free Enterprise Act, which would help grow the 
        commercial remote sensing industry, and also create a 
        supervisory framework for new space activities to ensure that 
        the United States remains in compliance with international 
        treaties.

    Given this, we are quite excited at the prospect of Congressman 
Bridenstine serving as NASA administrator. We believe that if he is 
able to execute on his space vision, the United States would see the 
growth of new industries and new sectors of the economy. Similar 
visions led to the development of the computer industry and the 
internet, and we believe that if NASA becomes focused on space 
development and space settlement, in partnership with the business 
community, we could see similar breakthroughs in the space industry. 
And so we are optimistic that, if confirmed, Jim Bridenstine would 
enable NASA to advance U.S. space activities in a very positive 
direction.
    We thank you for providing us this opportunity to provide our 
thoughts, and we look forward to working with the Congress and the 
Administration on these and other important space issues.
            Sincerely,
                                                Jeff Feige,
                                             Chairman of the Board,
                                             Space Frontier Foundation.
                                            Aaron Oesterle,
                                                   Policy Director,
                                             Space Frontier Foundation.
                                 ______
                                 
                                        Planetary Resources
                                      Redmond, WA, October 31, 2017

Hon. John Thune,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Hon. Ted Cruz,
Chairman,
Space, Science, and Competitiveness Subcommittee,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Hon. Edward J. Markey,
Ranking Member,
Space, Science, and Competitiveness Subcommittee,
Washington, DC.

Dear Chairmen Thune and Cruz, and Ranking Members Nelson and Markey:

    I write to you to express our support for Jim Bridenstine's 
nomination as NASA Administrator.
    Commercial space activities, including our focus on asteroid 
mining, present an opportunity for the U.S. to create high-value jobs, 
develop new technologies and markets, and enhance the standard of 
living for people all over the world. As NASA, other government space 
agencies, and private space exploration endeavor s move forward they 
will need the resources and fuel derived from asteroids.
    Mr. Bridenstine continues a tradition of nonpartisan approaches to 
space activities and has worked with Members across the political 
spectrum on defense, civil/commercial space, and appropriations 
legislation. I believe as NASA Administrator Mr. Bridenstine will 
continue his open and non-partisan approaches.
    Mr. Bridenstine has taken a leadership role in promoting commercial 
activities and coordinating these activities to the mutual benefit of 
government and industry. Mr. Bridenstine has shown that he has a vision 
for where he wants our Nation to go in space and the leadership role 
that the government and U.S. industry can take on Earth and in the 
Solar System.
    Thank you for taking the time to consider our input. I welcome any 
questions you have about Planetary Resources' support for Mr. 
Bridenstine. We look forward to working with you as the confirmation 
process advances.
    Thank you for your leadership on this important issue.
            Sincerely,
                                             Chris Lewicki,
                                                               CEO,
                                                   Planetary Resources.
Majority Leader Mitch McConnell
Majority Whip John Cornyn
                                 ______
                                 
                                                   October 31, 2017
Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune, Ranking Member Nelson:

    As leading American commercial satellite operators, we write today 
to express our support of Representative Jim Bridenstine's nomination 
to be Administrator of the National Aeronautics and Space 
Administration (NASA).
    NASA is at one of the most critical inflection points it in its 
history. Yet, NASA has been without a confirmed administrator for the 
past 284 days. Continued policy uncertainty has the potential to 
undermine the agency's long-term ability to carry out its mission, 
which is ``to pioneer the future in space exploration, scientific 
discovery and aeronautics research.''
    Representative Bridenstine is the leader NASA needs today. He has 
exhibited a passion for furthering our country's pre-eminent status and 
global leadership in space. He is an experienced and competent 
professional who has demonstrated a keen understanding of the complex 
policy and budgetary challenges NASA faces while also recognizing the 
role commercial entities can play in an era of surging technological 
advancements in space-based capabilities.
    As Representative Bridenstine has articulated how ``traditional and 
new space companies are both critical to accelerating America's space 
renaissance.'' We stand ready to work with NASA to further its mission 
and we urge the Senate to confirm Representative Bridenstine's 
nomination to be the agency's next administrator.
            Sincerely,
                                          Michael Rapelyea,
                                                           ViaSat, Inc.
                                             Marcy Steinke,
                                                Maxar Technologies.
                                          Mariah D. Shuman,
                                                                OneWeb.
                                           Jennifer Manner,
                                                              Echostar.
                                 ______
                                 
                                           American Pacific
                                                     Cedar City, UT
Hon. John Thune,
Chairman, Committee on Commerce, Science, and Technology,
United States Senate,
Washington, DC.

Dear Senator Thune,

    I write to you today to support Rep. Jim Bridenstine's candidacy to 
be the next Administrator of the National Aeronautics and Space 
Administration. Rep. Bridenstine is a hardworking and passionate 
individual with a deep and abiding interest in space exploration. 
During his time on Capitol Hill, Rep. Bridenstine has taken the lead on 
multiple legislative priorities involving space, including the American 
Space Renaissance Act. Rep. Bridenstine also serves as a U.S. Naval 
Reserve aviator and previously oversaw the Tulsa Air and Space Museum. 
In the time that I have known him, I have found Rep. Bridenstine to be 
a thoughtful and driven member of Congress with regard to issues 
involving space.
    As we look forward to a new frontier of space exploration, one that 
will involve the rapid development and acquisition of new and 
revolutionary technologies, additional automation and integration of 
artificial intelligence, and the return of human spaceflight to NASA, 
an able administrator with proven relationships on Capitol Hill could 
be a major asset. I believe that Rep. Bridenstine is the sort of 
political leader that NASA will need to withstand the budgetary and 
policy challenges that it is likely to face in the future.
    AMPAC is a proud supporter of NASA programs, including the Space 
Launch System. Though we look forward to working with any Administrator 
nominated by the President and consented to by the Senate, we encourage 
you to approve the current nominee, Rep. Jim Bridenstine, who would be 
an excellent addition to the NASA team.
            Thank you,
                                             Paul Huntsman,
                                                          Chairman,
                                          American Pacific Corporation.
                                 ______
                                 
                                                   February 2, 2018
Hon. Mitch McConnell,
Majority Leader,
United States Senate,
Washington, DC.

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Charles Schumer,
Minority Leader,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators:

    The undersigned organizations congratulate the Senate Committee on 
Commerce, Science and Transportation for again approving the 
nominations of Acting Chairman Ann Marie Buerkle to serve as chairman 
and separately to serve a new term as commissioner on the U.S. Consumer 
Product Safety Commission (CPSC), as well as for approving the 
nomination of Dana Baiocco to serve as a CPSC commissioner. We ask that 
you now move promptly to confirm them in those roles. We believe these 
two nominees are critically important to restoring the CPSC's ability 
to act in a balanced and effective way to support consumer safety.
    We represent manufacturers of consumer products, their suppliers, 
retailers, and other parties regulated by the CPSC. Our members are 
committed to producing and selling safe products, and we support 
effective regulation and oversight by the CPSC as an important 
complement to our shared commitment to safety and excellence. Until 
these nominations are confirmed by the Senate, the Commission will 
remain in a state of transition, which we believe compromises its 
ability to effectively regulate and to advance product safety and 
consumer protection initiatives.
    It is vital that the Senate immediately devote the attention 
necessary to confirm the pending CPSC nominations to ensure the agency 
is fully functional and protecting consumers. On behalf of our members, 
and for the benefit of consumers, we respectfully ask you to confirm 
the nominations of Acting Chairman Buerkle and Dana Baiocco as soon as 
possible.
    Thank you for your consideration.
            Sincerely,

American Apparel & Footwear          American Sportfishing Association
 Association
American Association of Exporters    American Supply Association
 and Importers
American Chemistry Council           Architectural Woodwork Institute
American Cleaning Institute          The Art and Creative Materials
                                      Institute
American Fiber Manufacturers         Associated Industries of Florida
 Association
American Fireworks Standards         Association of Home Appliance
 Laboratory                           Manufacturers
American Home Furnishings Alliance   Baby Carrier Industry Alliance
American Pyrotechnics Association    Bicycle Product Suppliers
                                      Association
Builders Hardware Manufacturers      North Carolina Chamber
 Association
Consumer Healthcare Products         Off-Road Business Association
 Association
Consumer Specialty Products          Outdoor Power Equipment Institute
 Association
Consumer Technology Association      Pennsylvania Manufacturers'
                                      Association
Cookware Manufacturers Association   Plastic Shipping Container
                                      Institute
Fashion Accessories Shippers         Plastics Industry Association
 Association
Fashion Jewelry & Accessories Trade  Polyurethane Foam Association
 Association
Gemini Shippers Association          Portable Fuel Container
                                      Manufacturers Association
Halloween Industry Association       Portable Generator Manufacturers'
                                      Association
Home Furnishings Association         Power Tool Institute
INDA, Association of the Nonwoven    Recreational Off-Highway Vehicle
 Fabrics Industry                     Association
Information Technology Industry      Resilient Floor Covering Institute
 Council
Institute of Scrap Recycling         Retail Industry Leaders Association
 Industries
International Housewares             Security Industry Association
 Association
International Light Transportation   Society of Chemical Manufacturers
 Vehicle Association                  and Affiliates
IPC--Association Connecting          Specialty Equipment Market
 Electronics Industries               Association
Juvenile Products Manufacturers      Specialty Graphic Imaging
 Association                          Association
Kitchen Cabinet Manufacturers        Specialty Vehicle Institute of
 Association                          America
Lighter Association                  Sports & Fitness Industry
                                      Association
Mississippi Manufacturers            State Chamber of Oklahoma
 Association
National Association of Home         Synthetic Turf Council
 Builders
National Association of              The Toy Association
 Manufacturers
National Association of Printing     Travel Goods Association
 Ink Manufacturers
National Candle Association          U.S. Chamber of Commerce
National Confectioners Association   Upholstered Furniture Action
                                      Council
National Council of Textile          The Vinyl Institute
 Organizations
National Fireworks Association       Window Covering Manufacturers
                                      Association
National Retail Federation           Wisconsin Manufacturers & Commerce
                                     Writing Instrument Manufacturers
                                      Association
 

                                 ______
                                 
Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Mr. Chairman:

    I would like to add my voice to the chorus of industry, 
professional, civil, and national security space leaders, affirming my 
strong support for the confirmation of Congressman Jim Bridenstine as 
our Nation's next Administrator for the National Aeronautics and Space 
Administration (NASA). During this tumultuous time, and as the Nation 
aims to once more leap from low earth orbit and inspire the next 
generation of future American space travelers, I can think of no better 
person to guide NASA on that journey than Jim Bridenstine. Let me tell 
you why.
    I first met Jim Bridenstine while I served as the Deputy Assistant 
Secretary of Defense for Space Policy in the Pentagon from 2013 to 
2017. You'll recall this was a tough time for DoD space activities as 
we tried to come to grips with the three new realities of national 
security space--a burgeoning but under utilized U.S. entrepreneurial 
space sector, a rapidly evolving threat from our peer competitors, and 
a time of budget sequester that stymied our actions on both fronts. 
Close cooperation between DoD and our overseers in Congress was clearly 
the only way to make progress in that new and uncertain environment. 
From my knothole in DoD space policy, that meant finding the kind of 
leader on the Hill who had the vision to see beyond both the narrow 
confines of traditional DoD space practices and pure budget numbers, 
and the initiative to take up the fight.
    I found that person in Congressman Jim Bridenstine. What impressed 
me most about Jim was not only his drive and passion for all things 
space--a passion that quite frankly made little apparent political 
sense given its limited impact to his home constituency--but his true 
interest in hearing the arguments on both sides of any issue. Even more 
important was his desire to truly understand levels of detail well 
below the surface so he could judge the issue not only by who yelled 
the loudest, but rather who supported it with facts, analysis, and good 
old common sense. For example, he's the first legislator on either side 
of the aisle to ever (and I've been doing this for over 30 years) ask 
me to explain how military protected communications worked. The 
nation's spent 100s of billions of dollars on that technology and never 
once had any legislator or even staff member ever asked me how it 
worked-but Jim did! He did, because he knew if he was going to push in 
one direction or the other, he'd better know what could break; and that 
required more than inch-deep opinion--it required knowledge.
    He did the same thing when he wrote the American Space Renaissance 
Act. He met with players from across the entire space spectrum, made 
sure he understood the details, and then put it all together in an 
aspirational document that is still viewed by many as a guidebook to 
the problems we must solve, and a way to get there. Again, to my 
knowledge, no single individual has ever even tried to build as bold a 
compendium that straddles the divide between civil, national security, 
and commercial space much less to put it into law--but Jim did.
    These examples show precisely the reason why we need Jim 
Bridenstine at NASA' s helm. NASA is not just a narrow civil space 
player--it is the Nation's leader in space impacting the civil, 
national security, international, and commercial divide. It needs a 
leader who can speak to all sides of space and integrate it together in 
a cohesive fashion. It needs a leader who will take the time to 
understand not just the opposing sides to the argument, but the details 
below from which good decisions spring. It needs a leader who can steer 
the agency not for political expediency, but for the Nation's good. And 
it needs a leader who can create an aspirational vision that will not 
only drive us deeper into space, but deeper into the hearts and minds 
of our children and encourage them in the same way that I was 
encouraged by Mercury, Gemini, and Apollo. To my mind, Jim Bridenstine 
is that man. I strongly urge you to confirm his nomination for NASA 
Administrator, so he can put us on that road.
            Sincerely,
                        Col (Ret) Douglas L. Loverro, USAF,
                               Former Deputy Assistant Secretary of
                                          Defense for Space Policy.
                                 ______
                                 
                                              NanoRacks LLC
                                                        Webster, TX

Hon. John Thune,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    NanoRacks is an entrepreneurial company that was the first to 
market its own hardware and services onboard the International Space 
Station. By providing a commercial pathway to using the Space Station, 
we have helped usher in a new chapter of the space frontier: making 
space just another place to do business. As CEO of NanoRacks, I 
strongly support Congressman Jim Bridenstine's nomination to be the 
Administrator of NASA.
    The United States needs to articulate and execute a clear vision 
for space. Congressman Bridenstine has established himself as a 
visionary who gets results--someone who can identify challenges, 
propose solutions, and build consensus. He takes a balanced approach to 
NASA's priorities, finding places for each of NASA's objectives within 
a cohesive whole. Importantly, he also promotes NASA effectively before 
his congressional colleagues, the Administration, and the public at 
large.
    I am most familiar with Congressman Bridenstine's approach to the 
commercialization and transition of the International Space Station. He 
has approached those issues thoughtfully, with the goal of ensuring 
that our permanent presence in space is not disrupted.
    Having gotten to observe Congressman Bridenstine over the years, I 
can say that I have been impressed with his commitment to inclusion and 
constructive dialogue. I am confident that he will continue to employ 
such an approach if confirmed as NASA Administrator.
    Thank you for your consideration.
            Sincerely,
                                            Jeffrey Manber,
                                           Chief Executive Officer,
                                                         NanoRacks LLC.
                                 ______
                                 
                                                Axiom Space
                                                        Webster, TX
Hon. John Thune,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    I am writing to you today to convey my full and unwavering support 
for the appointment of Congressman Jim Bridenstine as the next NASA 
Administrator.
    In my capacity as the Manager of the International Space Station 
(ISS) Program for ten years, and indeed throughout my 27-year tenure 
with NASA, I had the unique opportunity to understand firsthand both 
the incredible complexity of the ISS implementation, as well as the 
brilliance and passion of the many dedicated scientists and staff on 
our team who worked tirelessly to make the program a reality and a 
success. Perhaps more to the subject, I have worked closely with the 
last four NASA administrators throughout my career and understand the 
impact of their leadership on the Agency' s missions, industry and 
indeed governments around the world. As we approach the end of the 
lifespan of the ISS and its pending retirement, Representative 
Bridenstine is uniquely positioned to provide the nuanced 
administrative support and leadership that will be required in the 
corning years for this key program, and indeed, for so many others 
under the NASA umbrella. Each of these program's must fulfill the 
mandate of the U.S. National Space Policy by completing a successful 
structural transition from the auspices of fully-government-run 
entities, to a new era that embraces commercialization and 
entrepreneurship. This newest stage can and must result in the 
development of a competitive and robust private space sector, one 
capable of continuing the brilliant historical legacy of U.S. 
preeminence at the forefront of global innovation and exploration.
    Throughout the course of his distinguished flight and combat 
experience as a naval pilot, his time as a cultural and educational 
leader as the Director of the Tulsa Air and Space Museum & Planetarium, 
and his dedicated track record as a U.S. Congressman, Representative 
Bridenstine has demonstrated a singular combination of service, 
insight, advocacy, and involvement in the aerospace and aviation 
fields. Now more than ever our industry needs his commitment to 
building bipartisan support, to engaging actively in the work to evolve 
new U.S. legislation to grow the portfolio of opportunities, and to 
bridging the tension sometimes experienced between traditional space 
entities, and the budding entrepreneurial landscape.
    In my newest role as CEO of Axiom Space, LLC, I have more recently 
had the inspiring occasion to view the world via this entrepreneurial 
lens, including many of the commercial challenges now confronting 
America's growing private space sector, both as they directly impact 
our organization, as well as for the many companies we seek to partner 
with in low Earth orbit. From this it has become clear that a key 
driver of the future success of the industry will be the skill, 
experience and insights the next NASA Administrator possesses. This 
understanding must span the business and economic considerations 
driving not only the space industry, but the broader economy, the flow 
of investment dollars, the perspectives of the business owners, and the 
delicate balance between all of these viewpoints and the public 
interest. With his background in economics, MBA from Cornell 
University, experience as an aerospace contractor, and his time 
dedicated to the management and stewardship of a large public entity, 
Representative Bridenstine is uniquely prepared to understand the 
landscape and the hard work that lies ahead for the aerospace field, 
and to meet these challenges head on.
    Congressman Bridenstine's clarity of message and track record in 
support of the growth of the American space sector offers a glimpse 
into his visionary, yet disciplined approach to the subject. 
Representative Bridenstine repeatedly demonstrates his understanding of 
the nuances and complexities of this field, witnessed in his advocacy 
across multiple branches of the sector in order to bolster the full 
space ecosystem. Examples of this are evident as he champions not only 
deep space exploration, but also endeavors nearer to home in support of 
lunar exploration and even earth observation (including severe weather 
prediction). All of these furthermore demonstrate his understanding of 
the incredible value of this critical work and its inherent capacity to 
stimulate the economy, create jobs, contribute to capital markets, and 
to provide new innovations and life-saving technologies, all while 
stimulating the hearts and minds of the public and the next generation 
of Americans.
    For all of these reasons, please accept my gratitude for the 
opportunity to submit these perspectives in support of Congressman 
Bridenstine as the next NASA Administrator, and ultimately, in support 
of the future of American entrepreneurship, innovation and exploration.
            Sincerely,
                                     Michael P. Suffredini,
                                                 CEO and President,
                                                      Axiom Space, LLC.
                                 ______
                                 

                                The Hill

                Jim Bridenstine is the leader NASA needs

             By Sean O'Keefe, Opinion Contributor--09/26/17

    Rep. Jim Bridenstine (R-Okla.), the president's nominee for NASA 
administrator, is facing criticism regarding his qualifications for the 
job. These concerns seem to be rooted in a clear preference instead for 
a nominee possessing skills or experience as a scientist, engineer or 
technologist. Perhaps most critically, some have dismissed 
Bridenstine's experience as inadequate given that he is an elected 
politician.
    But if history is any guide, technical skills are not necessarily 
requisites for success leading this storied agency. While several 
previous NASA leaders were credentialed or experienced in such 
disciplines, this was not a clear determinant for success. And contrary 
to the critical view, Bridenstine arguably has the best qualifications 
for success given the challenges ahead.
    Of the dozen previous NASA administrators, perhaps the most 
extraordinary and historically noteworthy of them served during the 
Apollo era. James Webb possessed a diverse base of experience, but none 
of the technical skills extolled in some of the current dialogue. Webb 
earned an undergraduate degree in Education, served in the Marine 
Corps, earned a law degree and served as a congressional staffer before 
a brief time in industry.
    A registered Democrat and moderately active in politics, Webb 
served in the Truman administration at the Treasury Department, as the 
Director of the Bureau of the Budget at the White House--the precursor 
agency to the modern 0MB--and as an under secretary of State during the 
contentious McCarthy era. Having served in a Democratic administration, 
he resigned when Truman left office and moved to Oklahoma to work for 
the leadership of the Kerr McGhee Oil Company during the Eisenhower 
years.
    He resurfaced in government service after newly elected President 
Kennedy appointed him to serve as the second NASA administrator. His 
tenure lasted through the Kennedy and Johnson administrations. The 
rest, of course, is history. Actually, an incredibly remarkable history 
that yielded perhaps NASA's greatest achievement so far--landing on the 
Moon.
    Webb's contribution was not his scientific or engineering know how. 
But he did have a wide breath of experience in finance, business 
management, the art of negotiating outcomes and making decisions in the 
very emotionally charged public policy arena.
    In short, Webb was, by any standard, a politician and an awfully 
good one. He successfully marshaled an exceptional team of engineers 
and scientists, none of which suffered low self-esteem. Choosing among 
a multitude of diametrically opposite ``right answers'' advanced by 
those with technical expertise, it was up to Webb to achieve consensus 
among them to forge a path forward.
    He also needed to secure the president's support for a strategy, 
devise management plans to achieve the outcomes and somehow convince 
Congress to appropriate funds to finance the endeavor. To do so 
required exceptional leadership, management and political skills drawn 
from an array of experiences and professional training to yield the 
heralded achievements of the Mercury, Gemini and Apollo programs.
    He was a most remarkable public servant. But to listen to the 
critics today, it seems some might consider Webb to be a marginally 
qualified nominee.
    Consider the pending NASA nominee relative to the qualifications 
Webb possessed when he was nominated. In that light, Bridenstine may 
have just the skill set necessary to lead NASA to the next level. He 
received a Rice undergraduate degree and a Cornell MBA, is a former 
naval aviator and National Guard pilot who served in Iraq and 
Afghanistan, managed a non-profit and is a Republican presently serving 
his third term in Congress.
    He's learned the legislative and budgetary processes, exercised 
oversight of Federal management, worked with varied and diverse 
constituencies to forge his legislative agenda and understands the art 
of Washington politics. In short, he's now an elected politician--a 
public servant with an array of skills that could contribute to 
effectively leading this Federal agency.
    NASA has a rich history derived from multiple professional, 
academic and technical disciplines. Its centers are spread across the 
Nation in locations derived from political legacies--many of which 
originated in the Webb era. NASA's diversity of talent, lineage, 
pedigrees and cultures are united by strong egos and great dedication 
to public service. To have any hope of motivating all the talent 
internal to the agency to turn the institution's oars in the same 
direction requires a NASA administrator who knows how to lead people 
and manage things.
    Externally, it would be handy if the next NASA leader had the 
president's confidence, knew the players in the White House, be a 
colleague of other decision makers in the administration, understands 
the workings and levers of Congress, could work with a variety of 
constituencies and just for good measure--possess the patience of Job. 
I'm not sure if Bridenstine has the last attribute, but arguably he 
gets more than a passing grade with the others.
    It is impossible to tell if Jim Bridenstine will have the kind of 
success that Webb achieved. But in pursuit of this parallel prospect, 
it's altogether possible he has exactly the skills and experience to 
position the agency to make that possible. His policy views, voting 
record and insights on how he may choose to use skills honed as a 
politician and elsewhere will surely be revealed in the upcoming 
confirmation hearing. But if past is prologue, he's qualified to clear 
the hurdles for Senate confirmation. And I'm willing to bet he'll prove 
to be a fine choice as the 13th NASA administrator.

Sean O'Keefe served as the 10th NASA administrator in the George W Bush 
administration, 2001-2005, and is presently a professor of public 
administration at the Syracuse University Maxwell School.
                                 ______
                                 

                     Space . . . The Final Frontier

                        U.S. Rep. Ed Perlmutter

    Jim Bridenstine has been nominated to lead the National Aeronautics 
and Space Administration (NASA) as its 13th Administrator. It is my 
honor to support his nomination.
    NASA's mission is to go where no one has gone before, explore the 
unknown, and reveal the secrets of the universe for the benefit of 
America and the world. This iconic agency has been at the forefront of 
scientific discovery for almost 60 years. Jim Bridenstine is well-
equipped to lead NASA as it develops return missions to the moon, sends 
Astronauts to Mars, explores distant planets and their moons, looks 
into deep space from the Hubble and soon-to-be launched James Webb 
Space Telescopes, and assists with understanding the sun and both short 
and long term weather patterns.
    I serve with Jim on the House Science, Space, and Technology 
Committee. My first real interaction with him occurred a number of 
years ago when he visited Colorado to meet with scientists, engineers, 
and technicians from a number of our universities, national 
laboratories, and aerospace companies. I found him to be a good 
listener and well adept at understanding a lot of technical jargon. His 
background as a naval aviator made it easier for him to absorb and 
understand the concepts being discussed by the scientists and 
engineers. He was particularly attentive to the representatives of the 
National Center for Atmospheric Research (NCAR) and their research 
about the climate and long term weather patterns.
    Since that meeting Jim and I have worked on a number of bipartisan 
measures involving space exploration and scientific research and 
discovery. He understands the role commercial space companies will play 
in the ensuing years as well as the national and international effort 
it will take to send our astronauts to Mars by 2033. Jim has proven 
time and time again that he will put in the work necessary to 
understand an issue and reach across the aisle to get things done.
    Over the next decade, NASA will be presented with countless 
opportunities to advance our understanding of Earth and the solar 
system. Our exploration goals require a leader committed to NASA's 
diverse directorates supporting technological and scientific 
development. Jim Bridenstine has a firsthand perspective on the need to 
better understand our Earth and the behavior of the atmosphere. He has 
a keen awareness of the important Earth Science missions NASA is 
undertaking and wants to continue to advance our understanding of the 
planet.
    Despite our different political parties I am convinced Jim will 
lead the brilliant scientists, engineers, technicians and outstanding 
personnel at NASA as it embarks on a new era of space exploration and 
scientific discovery. Jim fought for our country on the battlefield and 
fought for commonsense space policy in Congress. Now is the time for 
Jim Bridenstine to take command and grow NASA's capabilities and 
American leadership in space as NASA Administrator.
                                 ______
                                 

                                SpaceRef

 Coalition for Deep Space Exploration Statement on NASA Administrator 
                               Nomination

   Press Release From: Coalition for Deep Space Exploration (http://
                       www.exploredeepspace.com)

                   Posted: Tuesday, September 5, 2017

    The Coalition for Deep Space Exploration (Coalition) welcomes the 
Trump Administration's continuing commitment to human space 
exploration, space science, and the economic development of space with 
the nomination of U.S. Representative Jim Bridenstine for NASA 
Administrator.
    ``Together with the establishment of the National Space Council 
chaired by Vice President Pence, this step advances the framework for 
U.S. leadership in space,'' said Dr. Mary Lynne Dittmar, President and 
CEO of the Coalition. ''Rep. Bridenstine has been an active and vocal 
advocate for space on Capitol Hill. We look forward to working with 
NASA's new leadership team to support NASA's development of a deep 
space infrastructure for human spaceflight, beginning with the Space 
Launch System, Orion crew vehicle and Exploration Ground Systems. Other 
exciting developments include the launch of the James Webb Space 
Telescope and Mars Insight in 2018, progress on future deep space 
exploration and science platforms such as Mars 2020, Europa Clipper and 
the Wide Field Infrared Space Telescope, and ongoing science, 
exploration, international cooperation and economic development enabled 
by the International Space Station, leading to the eventual extension 
of new ventures and technology into deep space.''
    ``The Coalition-representing thousands of Americans working in the 
space industry, including many small business suppliers and 
manufacturers across the country-stands ready to support the new NASA 
leadership team and looks forward to working together as we embark on 
this exciting new era of deep space science and human exploration.''
About the Coalition for Deep Space Exploration
    The Coalition for Deep Space Exploration is a national organization 
of more than 70 space industry businesses and advocacy groups focused 
on ensuring the United States remains a leader in space, science and 
technology. Based in Washington D.C., the Coalition engages in outreach 
and education reinforcing the value and benefits of human space 
exploration and space science with the public and our Nation's leaders, 
building lasting support for a long-term, sustainable, strategic 
direction for our Nation's space program.
                                 ______
                                 

                               SpaceNews

 Buzz Aldrin and Greg Autry: It doesn't take a rocket scientist to run 
                                  NASA

           by Buzz Aldrin and Greg Autry--September 20, 2017
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    U.S. Rep. James Bridenstine (R-Okla.) discussed his American Space 
Renaissance Act during an industry breakfast at the 32nd Space 
Symposium in April 2016. Credit: Tom Kimmell

    President Trump called for ``unlocking the mysteries of space'' in 
his inaugural address and then envisioned ``American footprints on 
distant worlds'' in his speech before a Joint Session of Congress. 
Addressing a crowd at the Kennedy Space Center this summer, Vice 
President Pence confidently stated that ``our nation will return to the 
Moon, and we will put American boots on the face of Mars.'' Such an 
audacious agenda II require inspired engineering, committed financial 
support and bold leadership of the kind that Administrator James Webb 
supplied to NASA during the glory days of Gemini and Apollo.
    Finding another Webb was no easy task. The president considered 
several excellent candidates, some of whom we personally admire, but in 
the spirit of Webb's leadership, U.S. Rep. Jim Bridenstine is the 
president's nominee for NASA administrator. Rumors of Mr. Bridenstine's 
appointment have been swirling in the space community since the spring 
and during that time, the two of us have come to know him and his 
record. The more we learned, the happier we've become. We have found 
that Rep. Bridenstine possesses a remarkable understanding of the 
science, technology, economics and the policies that surround NASA. He 
is highly qualified to lead the world's finest scientific and 
exploratory organization.
    Anyone who doubts that should look closely at Mr. Bridenstine's web 
page for his American Space Renaissance Act (H.R. 4945) at http://
spacerenaissanceact.com/. The ASRA offers a clear and workable plan to 
ensure that the benefits of space technology and resources continue to 
support exploration, science, American national security and economic 
development. As a space explorer and an academic we both applaud this 
integrated approach. Criticisms of Mr. Bridenstine's nomination have 
centered around three themes, each of which are easily refuted.
He's a leader, not a politician
    Firstly, it has been suggested that a ``politician'' shouldn't run 
NASA. We share a healthy skepticism of politicians and the suggestion 
of a congressman as administrator initially gave us pause. However, his 
record revealed that Jim Bridenstine is far from being a character out 
of House of Cards. He served with distinction as a Naval aviator in 
Afghanistan and Iraq. He continued to serve his country in the Naval 
Reserve and then the Air National Guard. He had no political career 
before launching a surprisingly successful 2012 campaign against an 
incumbent Republican in Oklahoma's first district. Personally, we can 
tell you Mr. Bridenstine is an American patriot and a man of integrity 
who shares our passion for a vibrant NASA.
    We'd remind those insisting that only a scientist or astronaut 
could run a space agency that James Webb was a lawyer by training and 
spent his entire career in the bowels of governmental bureaucracies. 
Apollo succeeded, because Webb understood people and practiced 
effective management.
    Jim Bridenstine has a triple major from Rice University that should 
serve him well in leading NASA: psychology, economics and business. He 
also holds an MBA from Cornell, an educational tool that former NASA 
Administrator Mike Griffin applied well when defining the successful 
Commercial Orbital Transportation Services (COTS) program. Griffin's 
business school approach to plugging the launch gap NASA faced after 
the retirement of the space shuttle lead to two new commercial rockets 
supplying the International Space Station and launched a revived 
American commercial launch sector. Jim Bridenstine's innovative 
thinking promises to extend that record of success.
He's an Earth sciences advocate, not a climate change denier
    Secondly, there has been a great deal of froth over Mr. 
Bridenstine's position on climate change. He has always been a strong 
advocate of Earth sciences, commercial remote imaging, as well as 
robust weather and climate-data collection. He notes that, ``My 
constituents get killed in tornadoes.'' Mr. Bridenstine has clearly 
stated that he believes the climate is changing, that human activities 
are a contributing factor and that we have a national interest in 
understanding its causes and outcomes. He has supported several 
programs to collect additional climate data including championing the 
Weather Forecasting Improvement Act and support for efforts to launch 
satellites aimed at measuring atmospheric gasses via occultation 
(interference) of GPS signals. He also supported the requirement that 
climate trends be investigated as part of the 2018 Defense 
Authorization Act. His interests should be great news for firms like 
California based imaging firm Planet and small launch startups like 
Virgin Orbit.
He's a peacemaker in the space wars
    Finally, some advocates of traditional space programs may be 
concerned about Jim's intentions toward NASA's contracting model. We 
are happy to see that Bridenstine offers a uniquely balanced approach. 
He rejects the either/or battles over policy and funding that have 
plagued our space program for the last generation and kept us from 
going as far as we could. These battles have pitted human spaceflight 
against robotic missions, astrophysics against Earth Science and 
positioned traditional exploration programs against emerging 
entrepreneurial endeavors. The American public celebrates our space 
agency's success in all these realms and deserves a NASA Administrator 
who shares their joy.
    Jim Bridenstine is deeply interested in innovative engineering and 
business techniques that can help NASA do more with the public's money. 
He is committed to continuing the SLS/Orion program and in integrating 
it into longer-term transportation systems. He also understands that 
while we must recapture the glory of Apollo we cannot afford another 
series of disposable missions. He supports public-private partnerships 
to develop economically sustainable solutions that will support 
scientific research and commercial development for generations to come. 
Specifically, we have spoken to Jim Bridenstine about permanent 
transportation systems to both the Moon and Mars. He understands that 
such a service, based on the Aldrin Cycler model, would change the 
economics of space exploration and resource exploitation.
    We heartedly support the president's nomination of Mr. Bridenstine 
as the next NASA administrator wish him Godspeed during the Senate 
confirmation process. We encourage you to join us in uniting the space 
community and our Nation behind this nominee so NASA can return to its 
job of boldly exploring the final frontier.

Buzz Aldrin is an engineer, former U.S. Air Force pilot, former NASA 
Astronaut, lunar explorer and advocate for Mars exploration.

Greg Autry studies space entrepreneurship at the University of Southern 
California and former White House Liaison to NASA.
                                 ______
                                 

                       9/7/2017--The Mars Society

   Robert Zubrin: New NASA Administrator Appointee ``A Good Choice''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mars Society Founder & President Dr. Robert Zubrin has called for 
the approval of Congressman Jim Bridenstine (R-OK) as the new NASA 
administrator.

    Bridenstine has focused heavily on space policy during his tenure 
in Congress, stating ``[o]ur very way of life depends on space, the way 
we communicate, the way we navigate, the way we produce food and 
energy, the way we conduct banking.'' In April 2016 at the 32nd Annual 
Space Symposium, Bridenstine introduced H.R. 4945, the American Space 
Renaissance Act, comprehensive reform legislation with provisions 
affecting national security, civil, and commercial space policy.
    In addition, Bridenstine has proposed legislation related to the 
regulatory process overseeing certain non-traditional space activities, 
and helped secure funding for the Federal Aviation Administration's 
Office of Commercial Space Transportation. Recognizing his efforts, in 
2015 SpaceNews named Bridenstine as one of five game changers in the 
world in space.
    Commenting on the appointment and the controversy it has aroused, 
Dr. Zubrin said: ``The fracas over the Bridenstine nomination for NASA 
administrator is unfortunate and unnecessary. Bridenstine is actually a 
rather good choice for NASA administrator. He is not only a Navy 
reserve pilot, but a long-time strong space advocate who really wants a 
space program that is going somewhere, which is exactly what NASA 
needs. His appointment should be welcomed.''
    The Bridenstine nomination now goes to Congress for approval. If 
you wish to have input into the decision, you can reach out to your 
congressman and Senators through the Capitol Hill switchboard. The 
number to call is 202-224-3121.
                                 ______
                                 
    9/13/2017--Daily Planet--Air & Space Magazine
AirSpaceMag.com
A Pioneering NASA Administrator
The nominee to head NASA has an exciting vision for the agency.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Rep. Jim Bridenstine outlines his proposed American Space 
Renaissance Act at a recent Space Foundation Symposium 
(spacerenaissanceact.com)

                           By Paul D. Spudis

    While celebrated by many segments within the space community, the 
recent nomination by the White House of Congressman James Bridenstine 
(R-OK) to become the twelfth administrator of NASA also drew unexpected 
criticism. Now in his third term in the U.S. House of Representatives, 
Bridenstine has demonstrated an extraordinary interest in American 
space programs, both military and civilian. He is the author and 
sponsor of a bill called the American Space Renaissance Act, an 
ambitious re imagining of America's space program and a re-writing of 
the agency's charter around the ``Pioneering Doctrine.'' This doctrine 
encompasses three principal objectives for the agency: 1) The expansion 
of the human sphere of influence throughout the Solar System; 2) To be 
among those who first arrive at a destination in space and to open it 
for subsequent use and development by others; and 3) To create and 
prepare infrastructure precursors in support of the future use and 
development of space by others. I will examine each objective in turn.
    The expansion of the human sphere of influence throughout the Solar 
System. Expanding human ``reach'' is an activity that I've always 
believed formed the core of NASA's mission. A human ``sphere of 
influence'' encompasses the projection and use of both robotic and 
human assets, and the presence of one does not obviate the other. This 
might seem self-evident, but in the past it generally has not been part 
of the NASA modus. The robotic program, as currently configured, exists 
mostly to address the wants of scientists who produce long wish lists 
of missions and experiments in ``decadal studies''--outlining their 
desires for the coming ten years. On the human side, some attention is 
given to developing ``precursor'' robotic missions that gather 
scientific and engineering data designed to assure the safety and 
success of subsequent human missions. But in broad terms, both streams 
tend to operate separately and independently. What if these two streams 
were integrated into one?
    The question should not be ``Robot or human mission?'' but, ``How 
shall we best utilize the unique capabilities of each to accomplish our 
space goals?'' One approach might be to tightly integrate robots and 
humans into mission plans, whereby they work together to accomplish new 
and previously unreachable objectives. As an example, the architecture 
that Tony Lavoie and I published in 201 l (and revised in 2016) to 
explore the potential of resource utilization establishes an outpost on 
the Moon using both machines and people to create a permanent, 
sustainable space transportation system. In this architecture, robots 
set up and begin the initial work on the Moon; people follow later, 
when the facility is operational and mature. Such a symbiotic 
relationship between robotic and human spaceflight was utilized and 
proven during assembly of the International Space Station and should 
now be applied to missions beyond low Earth orbit.
    To be among those who first arrive at a destination in space and to 
open it for subsequent use and development by others. The second 
objective encapsulates the imperative of keeping NASA a ``cutting 
edge'' entity that pushes the envelope of spaceflight. But more than 
simply ``going where no one has gone before,'' it also charges the 
agency with enabling the subsequent exploration and use of new 
destinations by a variety of users, both public and private. For 
example, an outpost emplaced at one of the poles of the Moon by NASA 
would demonstrate that it is possible for such an enterprise to be 
undertaken and operated, and would serve as the nucleus of a commercial 
operation through proof-of-concept demonstrations of techniques and 
technology. Structured like this, NASA's goal is not to ``mine the 
Moon,'' but to establish that the Moon can be mined, and to open the 
window on what new technology development is needed for such a task. 
This type of activity reflects one of the classic agency missions of 
technology transfer--one of the principal reasons for the existence of 
a civil space program.
    To create and prepare infrastructure precursors in support of the 
future use and development of space by others. The third objective 
helps to enable and incentivize the second objective. A variety of 
assets in near-Earth space must be developed and deployed in order for 
significant commercial activity to occur. As an illustration of this, 
consider that reliable navigation and communication is required for 
assets in space, on Earth and on the lunar surface. Because of the 
highly oblique solar illumination and the extensive local topographic 
relief at the Moon's poles, it is particularly difficult to know 
exactly where you are in the polar regions of the Moon. These 
conditions impede reliable communication between individual surface 
units and with control centers on Earth. The solution to both these 
problems is the deployment of a constellation of communication and 
navigation satellites in lunar orbit. Ideally, these assets would 
become part of a cislunar GPS system, available for use by any entity 
to navigate throughout cislunar space and for use in conducting complex 
surface operations on the lunar surface. The development of this kind 
of permanent, sustainable spacefaring infrastructure serves both 
government and societal interests.
    These three ``Pioneering Doctrines'' embrace a bold statement of 
purpose for NASA: to extend our reach with machines and people beyond 
low Earth orbit, into deep space and to the objects of the Solar 
System. Under such a charter, the mission of the agency becomes nothing 
less than the opening up of the entire space frontier to exploration, 
use and development. This was one of the original purposes behind the 
Vision for Space Exploration in 2004, a goal that got lost in 
bureaucratic make-work minutiae of objectives and roadmaps. By 
maintaining and holding firm to a clear vision of space development 
beyond low Earth orbit, NASA can push the envelope while at the same 
time offering practical value for its cost.
    Of course, these ``doctrines'' are part of Jim Bridenstine's 
proposed legislation, which has not yet been formally adopted as law, 
and thus is not presently a new code for NASA. However, they do shine a 
light on his thinking, and they give us some insight into his 
philosophical preferences for the space program. I contend that the 
Pioneering Doctrine is exactly what NASA has desperately needed for 
over a decade-reachable goals against which progress can be measured, 
while offering value for expenditure. By pursuing these ends, we can 
begin to move humanity off the planet and into deep space, surely a 
worthy goal for any space program.
    I think that a NASA administrator who strives for these ends will 
be an asset to the Nation and just might be able to save a faltering 
program from collapse. We've had a decade of the fraudulent ``Journey 
to Mars''-spending over $26 billion for no real achievement or new 
capability. In fact, by discarding the Space Shuttle in favor of 
``commercial crew transport,'' we lost capability and saved nothing. 
This ongoing chaos stems from strategic confusion over what the NASA 
mission is, where it is going, and how it is executing its programs. An 
administrator with a clear vision oriented toward the creation of new 
capabilities is a good first step toward fixing NASA's problems. Jim 
Bridenstine needs to be rapidly confirmed by the Senate. The sooner he 
gets on the job, the better for America's future in space.
About Paul D. Spudis
    Paul D. Spudis is a senior staff scientist at the Lunar and 
Planetary Institute in Houston, Texas. His website can be found at. The 
opinions expressed here are his own and do not reflect the views of the 
Smithsonian Institution or his employer.
                                 ______
                                 
                                                    25 October 2017
Hon. John Thune,
Chairman,
United States Senate Committee on Commerce, Science, and 
            Transportation.

Hon. Bill Nelson,
Ranking Member,
United States Senate Committee on Commerce, Science, and 
            Transportation.

Subject: Support for Congressman Jim Bridenstine to be next NASA 
            Administrator

Dear Chairman Thune and Ranking Member Nelson:

    I have been in the Space business for 49 years. Over these years I 
have met and worked with many superb leaders in the Air Force, NASA, 
and the NERO. I am proud to have met and had the chance to work with 
Congressmen Jim Bridenstine. During my interface with Congressman 
Bridenstine, I have been impressed with his ability to grasp complex 
problems and issues, calmly assess options, and then have the will and 
courage to make a decision and not let a problem get worse.

  <bullet> He is a passionate advocate for Space, and what Space can do 
        for our Nation and our economy.

  <bullet> He is a realistic and pragmatic decision maker, and 
        strategic thinker who makes decisions based on facts and by 
        soliciting a wide array of advice before formulating an 
        informed decision.

  <bullet> He is a strong manager who understands that resources are 
        the most valuable commodity and matches goals and solutions to 
        available resources.

  <bullet> He is a charismatic leader that is focused on creating more 
        resilient space architecture to support the United States 
        National Security and Economic imperatives.

  <bullet> He is a team player and coalition builder. This is obviously 
        going to be essential as the costs of what we should do in 
        space outpace the resources we have available. He can build and 
        encourage international partnerships.

  <bullet> He is an innovative thinker who introduced the American 
        Space Renaissance Act to jump start our commercial and national 
        security space enterprise. It's one of the most significant 
        pieces of legislation I've seen in my lifetime and will help 
        secure the United States as the preeminent nation for the 
        peaceful use of space.

    Finally, he is simply the right person at the right time for NASA. 
He is a class act, and a true professional. As we face an expanding set 
of goals and objectives, in a shrinking resource environment, he can 
help make quality decisions that are in the best interest of our 
Nation. His knowledge of space is unrivaled in the Washington DC arena. 
This knowledge, coupled with his natural leadership skills and 
abilities, position him well to become the next NASA Administrator.
                                        Thomas D. Taverney,
                                            Major General USAF ret.
                                 ______
                                 

                    Sep 06, 2017--Space Florida News

        Space Florida Statement on NASA Administrator Nomination
    Space Florida is pleased that after many months and consideration 
of a many candidates, the Administration has nominated Congressman Jim 
Bridenstine to lead the National Aeronautics and Space Administration 
(NASA).
    Space Florida CEO Frank DiBello said, ``I have had the great 
pleasure of working with Congressman Bridenstine throughout his tenure 
in the US. Congress. I have found Jim to be a dedicated student of the 
industry and a passionate champion in Congress for the maturation of 
the space economy. He will no doubt apply the same knowledge, 
dedication. and passion to the leadership of NASA, for the benefit of 
all space stakeholders New leadership at NASA, combined with the 
regeneration of the National Space Council and passage of the NASA 
Transition Authorization Act of 2017, will provide the guidance and 
stability necessary for NASA to continue to explore new frontiers. 
advance technology and sustain U.S. leadership in space We look forward 
to his timely confirmation and working with him in the future.''
                                 ______
                                 
                               Alaska Aerospace Corporation
                                   Anchorage, AK, September 5, 2017

Hon. Jim Bridenstine,
United States House of Representatives,
Washington, DC.

Dear Congressman Bridenstine,

    Congratulations on your appointment to serve as the next 
administrator for the National Aeronautics and Space Administration 
(NASA). Outstanding choice! Your strong support for commercial 
development in our Nation's space industry bodes we11 for the United 
States to regain leadership in space exploration and development.
    You may recall that we first met at the 2016 FAA Commercial Space 
Transportation Symposium in DC. I am the retired Alaska Air National 
Guard General Officer, who also served as Alaska's tenth Lieutenant 
Governor, graduated from TU in 1974, and earned a Master Degree at the 
Naval War College in 1999.
    At the time we met, I mentioned my enthusiastic support for your 
efforts with the American Space Renaissance Act. Your new role will 
provide you the opportunity to advance NASA into the twenty-first 
century with this bold vision. So I am writing to offer my services as 
you prepare for your confirmation hearings. Specifically, I would 
appreciate the time to talk with you, or your staff, about the 
importance of non-federal commercial spaceports to our Nation and your 
vision of American leadership in space based, in part, on low cost, 
reliable, and responsive launch capabilities.
    Our Pacific Spaceport Complex--Alaska (PSCA) is the Nation's only 
high latitude full service spaceport. It features all indoor, all 
weather, processing and was designed specifically to provide optimal 
support for space launches to low earth orbit, sun synchronous orbit, 
polar orbit, and highly elliptical orbits. Operating without Federal or 
state sustainment funding, PSCA is a proven example of how commercial 
spaceports can provide tremendous flexibility for U.S. access to space. 
What we are already doing is important to NASA and future efforts to 
increase U.S. space exploration and pursuits.
    I am attaching copies of letters I sent last November to our Alaska 
Senate delegation in support of your nomination. If there is anything I 
may be able to offer to support your confirmation and advancement of 
NASA in the coming years, please do not hesitate to contact me direct.
            Sincerely,
                                         Craig E. Campbell,
                             President and Chief Executive Officer.
                                          Alaska Aerospace Corporation.
                                 ______
                                 
                               Alaska Aerospace Corporation
                                                  November 23, 2016
Hon. Dan Sullivan,
United States Senate,
Washington, DC.

SUBJECT: Letter of Recommendation--Representative Jim Bridenstine

Dear Senator Sullivan:

    The election of Donald Trump as the 45th President of the United 
States presents our nation with a tremendous opportunity to reverse the 
policies and programs of the past decade that have stifled commercial 
space development and caused the U.S. to lose market share in space 
exploration.
    I am writing to strongly endorse the appointment of Representative 
Jim Bridenstine (R-OK) for the position of Administrator of the 
National Aeronautics and Space Administration (NASA). Rep. Bridenstine 
has been a steadfast supporter of increasing opportunities for 
commercial development of the U.S. space industry and is sponsor of the 
American Space Renaissance Act, which includes a specific provision to 
establish within the Office of Commercial Space Transportation, an 
Office of Spaceports. We believe that Rep. Bridenstine's initiative 
presents a positive boost for the U.S. commercial space industry. He is 
exactly the type person this nation needs to reenergize NASA and lead 
America's resurgence into space.
    Your solid support of our business development efforts for the 
Pacific Spaceport Complex--Alaska (PSCA) resulted in our securing the 
multi-year contract with the Missile Defense Agency (DA). I am firmly 
convinced that part of the reason MDA has selected the PSCA for their 
future mission is our ability to operate as a commercial spaceport, 
with the agility to meet their specific price and scheduling 
requirements. Expanding commercial space and regaining leadership in 
space exploration are cornerstone goals of Rep. Bridenstine which will 
be good for both our state and nation.
    I trust you concur with me that Rep. Bridenstine is exactly what 
this nation needs at this time to bring leadership back to NASA, so I 
request you support the appointment of Rep. Bridenstine as the next 
NASA Administrator and advise the Trump transition team of your support 
and my specific endorsement. Please do not hesitate to contact me 
direct should you need any additional information concerning my support 
for this very important appointment.
            Respectfully submitted,
                                         Craig E. Campbell,
                                                 President and CEO.
                                 ______
                                 
                          Commercial Spaceflight Federation
                                  Washington, DC, 19 September 2017

Hon. John Thune,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Hon. Ted Cruz,
Chairman,
Space, Science, and Competitiveness Subcommittee,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Hon. Edward J. Markey,
Ranking Member,
Space, Science, and Competitiveness Subcommittee,
Washington, DC.

Dear Chairmen Thune and Cruz, and Ranking Members Nelson and Markey:

    I write to you on behalf of the Commercial Spaceflight Federation 
(CSF), which represents more than 70 commercial spaceflight companies 
and organizations across the United States, to express our strong 
support for Representative Jim Bridenstine's nomination as NASA 
Administrator. As NASA and American industry continue to work together 
to ensure that the United States remains the leader of space 
exploration and the global space economy, NASA needs the effective 
leadership that Mr. Bridenstine has already shown in so many endeavors.
    CSF appreciates this Committee's longstanding support for America's 
space enterprise and NASA since the Agency was established. As part of 
your confirmation proceedings, we are pleased to share the commercial 
spaceflight industry's views regarding this nomination.
    Mr. Bridenstine's service as naval aviator and decorated combat 
veteran demonstrates his commitment to public service and his 
leadership. Since arriving in Congress, Mr. Bridenstine has taken on 
many of the challenging policy issues facing the U.S. space industry. A 
true champion of American leadership in space, his service on the House 
Committee of Science, Space, and Technology as well as the Committee on 
Armed Services reflects his numerous contributions to space-related 
legislation and oversight, often working across the aisle to achieve 
bipartisan change.
    As the former chairman of the House Science Committee's 
Subcommittee on the Environment, Mr. Bridenstine spent much of his time 
in Congress seeking to dramatically improve U.S. weather research and 
forecasting, ultimately enacting a significant piece of legislation.
    Finally, Mr. Bridenstine has a clear vision of America's future in 
space. Mr. Bridenstine knows that expanding our civilization into space 
requires the innovation and economic engine of American free 
enterprise, as well as the resources and expertise of the U.S. 
Government.
    Thank you for taking the time to consider our input. We look 
forward to working with you as the confirmation process advances.
    Thank you for your leadership on this important issue.
            Sincerely,
                                          Eric W. Stallmer,
                                                         President,
                                     Commercial Spaceflight Federation.
cc: Majority Leader Mitch McConnell
Majority Whip John Cornyn
                                 ______
                                 
                                          Moon Express Inc.
                               Cape Canaveral, FL, October 23, 2017
Senator Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senator Nelson,

    There were many factors that motivated me to move Moon Express to 
the Space Coast from California and Alabama in 20 l 5: a good business 
climate, the opportunity to partner more closely with NASA and the Air 
Force, support from Space Florida, and the chance to come to work every 
day at a historic Cape Canaveral Launch Complex. But another benefit of 
moving to Florida was knowing that our senior Senator would not only be 
one of the strongest advocates in Congress for U.S. economic and 
scientific leadership in space, but arguably the ``conscience of the 
Senate'' on space policy issues. I knew that we would have a champion 
in the Senate, and at the helm of the Commerce Committee, who knows 
that America's future in space requires a strong civil agency in NASA 
and a strong commercial sector to develop the economic opportunities 
NASA has made possible.
    It is with that knowledge of and appreciation for your unique role 
in space policy that I write to you in strong support of Jim 
Bridenstine's nomination as NASA Administrator.
    During his five years in Congress, Rep. Bridenstine has been a 
thoughtful advocate of improvements in America's military, commercial, 
and civil space enterprises. He has championed new ideas without 
bashing traditional institutions. He has helped coalesce a new 
generation of bipartisan space supporters in Congress to promote a 
multi-mission NASA that does everything from improving aviation safety 
to monitoring the environment to leading the world in human and robotic 
space exploration. He has supported Defense Department studies on the 
effects of climate change on military installations and operations. And 
as a museum director and space entrepreneur, he has worked to inspire 
young people in his state and investors in new rocket planes.
    Jim radiates the same youthful passion for space that you have 
shown since your early days on the House Science Committee. Of course, 
his patriotic service as a naval aviator has also given him a 
warfighter's appreciation for the space products and services that have 
been essential to American national security since the first Gulf War.
    I have had the pleasure of working closely with Mr. Bridenstine as 
we seek to return America to the surface of the Moon next year. 
Although he has no constituent interest in Moon Express, he has helped 
us find solutions to our policy challenges and has advocated for our 
Federal authorization to fly the first commercial mission to the Moon, 
which opens new realms of commercial space activity that can support 
NASA's exploration and science programs.
    In short, Jim has indispensable qualities that are rarely found 
together: a personal passion and vision for America's future in space; 
the ability to lead peers as well as team members to achieve a goal; a 
proven track record of policy innovation; and the trust and support of 
a U.S. President.
    You have raised important concerns since the White House announced 
Jim's nomination. As a new Florida business and personal resident, and 
lifelong space advocate, I am glad you want the best for NASA, and for 
our Nation's space enterprise. I sincerely believe Jim Bridenstine 
could be one of the greatest leaders of the U.S. space program. I 
believe that if you give Jim every consideration, you will come to 
appreciate why I and so many long-time leaders in the U.S. space 
community have been inspired by his knowledge, enthusiasm and vision 
for space over the past five years, and the immense contribution he 
could make to our national interests and space leadership as NASA 
Administrator.
            Sincerely,
                                     Robert (Bob) Richards,
                                                   Founder and CEO.
                                 ______
                                 
                                       Rocket Craters, Inc.
                                                     Titusville, FL
TO WHOM IT MAY CONCERN

    As a former astronaut and current CEO, I have had the privilege of 
working in the Space industry for over three decades. During those 
years, I have had the opportunity to meet a number of impressive 
leaders, but none more so than Congressman Jim Bridenstine. In our 
first meeting, we talked extensively about our Country's need for new 
rocket technology to launch satellites more economically and safely to 
space. I found the Congressman's depth of knowledge on this topic to be 
impressive.
    During my tenure with the Air Force, NASA, and our National 
Laboratories, I have had the privilege of meeting some amazing people, 
but Congressman Bridenstine stood out for a number of reasons. His 
depth of understanding of commercial and defense space, rocket 
propulsion, and satellites was remarkable. He has a passion for the 
continuation of America's mission into space and our Country's 
important role globally as its leader. He understands that for the 
United States' to maintain its preeminent role in space research and 
exploration, NASA is critical to this mission.
    As the CEO of a launch services company developing new, advanced 
rocket technology, I have briefed many impressive people on our 
approach and technology, but our meeting with the Congressman was 
different. He understood the science, peppered us with questions and 
offered valuable suggestions. It was a discussion, not a presentation. 
He was a Congressman from Oklahoma and we were a small aerospace 
company from Florida; but he was eager to engage us in his effort to 
move the Country forward in Space.
    Congressman Bridenstine is an exciting and outstanding choice to be 
the next NASA Administrator. His vision and passion for everything 
Space is exactly what this country and NASA needs as we move forward. 
With Congressman Bridenstine as NASA's next Administrator, I am 
convinced the partnership between NASA and the growing U.S. Commercial 
Space industry will accelerate and flourish--collectively bringing the 
benefits that Space offers to America and the world.
            Sincerely,
                                             Sid Gutierrez,
                                                               CEO,
                                                  Rocket Crafters, Inc.

    The Chairman. And then, I also have four letters of support 
for the nomination of Dr. Neil Jacobs, including a letter of 
support from Dr. Elizabeth Weatherhead, a senior scientist at 
the University of Colorado.
    So I will enter those without objection.
    [The information referred to follows:]

                               Data-Analysis-Solutions, LLC
                                                   October 30, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee:

    It is with the utmost of pleasure that I send this letter of 
endorsement in support of the nomination of Dr. Neil Jacobs for 
Assistant Secretary of Commerce for Environmental Observation and 
Prediction and Deputy Assistant Administrator of NOAA. I am highly 
confident that Dr. Jacobs possesses the scientific knowledge, business 
management and leadership skills to help strengthen the National 
Oceanic & Atmospheric Administration (NOAA) in working to improve 
NOAA's critical services to the safety and economic well-being of the 
Nation.
    As the former Chair of the NOAA Science Advisory Board (8 years on 
the FACA Board, with 6 as the Chair, during the Bush Administration), I 
can speak, from in-depth knowledge of NOAA, that Dr. Jacobs is an 
absolutely superb choice to help provide NOAA with industry's 
perspectives on the further enhancement of its observational networks 
and its prognostic capabilities. Moreover, as the former Commissioner 
of the American Meteorological Society's (AMS) Weather, Climate and 
Water Enterprise, which brought together Private Industry, Federal 
Agencies and Academia, I again can attest to Neil's involvement in the 
Commission activities and to his commitment to the enterprise of 
engaging the three communities to work together to improve weather and 
water related safety from natural hazards and to improving the delivery 
of NOAA's vital services to the Nation.
    During the period when I served as the Head of the Department of 
Marine, Earth & Atmospheric sciences at North Carolina State 
University, I also served as the Chair of Dr. Jacob's Master's and 
Doctoral graduate research and education committees. Over a several 
year period, I came to know Neil very well and to know that he 
possesses a deep knowledge and understanding of the interactive 
coupling of observations, data and modeling of environmental systems; 
which were the topics of both his M.S. thesis and his PhD dissertation. 
Both studies were related to measuring and modeling atmospheric storms, 
both from the atmospheric and oceanographic perspectives. Neil 
possesses the knowledge base and qualifications to see the value of 
observations and modeling from both sides of the air-sea interfaces and 
has a very probing mind, always pushing for the facts as well as they 
could be revealed via observations and modeling. At that time, Neil 
also became intrigued with the possibility of making weather 
observations from aircraft and of the next possibility of using those 
data to be assimilated into prognostic weather forecast models in real-
time. We discussed this possibility at length. This interest served him 
well in his professional career and endeavors following his graduation 
from NC State.
    In his employment with the Panasonic Avionics Corporation, Dr. 
Jacobs has directed the underlying research and the subsequent 
development of both the airborne meteorological data reporting system 
(known as TAMDAR), as well as the numerical models run by Panasonic. 
Neil introduced that capability to the NOAA National Weather Service 
(NWS) which now includes those data and model outputs as part of the 
NWS portfolio. I worked with Neil on brokering that relationship with 
the Office of the Director of the NWS.
    Presently Neil is the chair of the AMS's Forecast Improvement Group 
(FIG), and also serves on the World Meteorological Organization's (WMO) 
aircraft based observing systems expert team. Prior to joining 
Panasonic Inc., Dr. Jacobs worked on various analyses and modeling 
projects including the National Aeronautics & Space Administration's 
(NASA) Earth Systems Science Program, the NOAA GOES satellite imagery, 
the Department of Energy's (DOE) Ocean Margins Program (in which I was 
the PI), and the NWS's Atlantic Surface Cyclone Intensification Index. 
Obviously Neil has developed cross-cutting multiple Federal agency and 
international experience and interactions as well.
    In closing I can only say that this is a unique opportunity for the 
Department of Commerce, for NOAA and for the Nation to have a scientist 
of Dr. Jacob's caliber in this important position. Neil is collegial, 
thoughtful, and a team player and will be an outstanding leader for 
NOAA. I urge his confirmation.
            Respectfully,
                            Dr. Leonard J. Pietrafesa, PhD,
                                                Professor Emeritus,
                                       North Carolina State University.
                                        Burroughs & Chapin Scholar,
                                           Coastal Carolina University.

2nd Chair, NOAA Science Advisory Board (FACA)
3rd Commissioner, AMS Weather & Climate Enterprise
1st Chair, American Geophysical Union Focus Group on Science & Society
1st Chair, Association of Public & Land-grant University's Board on 
            Oceans 
            & Atmosphere
CEO of Data-Analysis-Solutions (DAS) LLC
                                 ______
                                 
                                                   October 30, 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Neil Jacobs 
for Assistant Secretary of Commerce for Environmental Observation and 
Prediction and Deputy Assistant Administrator of NOAA.
    I believe that Neil possesses the scientific knowledge, curiosity, 
interpersonal and communication skills, business management, and 
leadership to help strengthen NOAA and improve its critical services to 
the Nation.
    As a former Senior Partner at The Parthenon Group, a strategic 
consulting company in Boston, for six years I worked closely with Neil, 
who was Chief Meteorologist at Airdat. This was a breakthrough weather 
forecasting company with a unique technology in which he was 
instrumental in developing. This work was highly recognized by his 
peers at the National Meteorological Society.
    In my position at Parthenon, I worked with Neil on the 
commercialization of the technology, involving presentations to high-
level executives in a variety of industries: power generation and 
transmission; financial services; logistics companies; insurance 
companies, etc. Neil is not only a true scientist, but is an unusually 
proficient communicator, creating great demand for his verbal 
presentations and discussions.
    It is my opinion that a scientist of his caliber is not only very 
smart, but will contribute at a high level befitting a post such as 
this, serving the United States Government, as well as for NOAA. It is 
for these reasons that I highly recommend Neil for this assignment.
            Sincerely,
                                        Frank J. O'Connell.
                                 ______
                                 
                                      SmartSky Networks LLC
                                    Charlotte, NC, October 30, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Neil Jacobs 
for Assistant Secretary of Commerce for Environmental Observation and 
Prediction and Deputy Assistant Administrator of NOAA. I believe that 
he possesses the scientific knowledge, business management and 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    My relationship with Neil dates to 2004, when acting as CEO of 
AirDat LLC, I hired Neil for the role of Chief Scientist. I have worked 
closely with Neil over the past 13 years, developing advanced weather 
systems to benefit both the public and private sectors of the global 
weather enterprise. While historically interests of public and private 
sectors can diverge, Neil always found solutions that enabled both to 
benefit and progress forward; this ability to merge diverse interests 
into a common goal is a rare skill that would benefit NOAA with its 
current need to advance its capabilities while reducing expenditures.
    I founded and served as CEO of AirDat LLC from 2003-2013, at which 
point AirDat became part of Panasonic and now operates as Panasonic 
Weather Solutions. AirDat developed and deployed sophisticated aircraft 
based atmospheric sensors to help supplement the observational 
deficiencies in our current global data stream. As Chief Scientist at 
AirDat (and now Panasonic Weather Solutions), Neil is responsible for 
creating quality standards and performance verification of this 
important supplemental data stream and all related operating systems.
    This is a unique opportunity for the country for NOAA to have a 
scientist of his caliber. Neil will be an outstanding leader for NOAA. 
I urge his confirmation.
            Sincerely,
                                             James E. Ladd,
                                             Senior Vice President,
                                                 SmartSky Networks LLC.
                                 ______
                                 
                                                   October 30, 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

RE: Dr. Neil Jacob's nomination as Assistant Secretary of Commerce for
Environmental Observation and Prediction

Dear Senators Thune, Nelson and Members of the Committee,

    I have known Dr. Neil Jacobs as a professional colleague for almost 
ten years. He has demonstrated extreme intelligence, innovation, work 
ethic and leader in the extremely difficult fields of weather 
forecasting and environmental monitoring. Dr. Jacobs is respected 
across the community for his ability to work constructively between the 
private and public sector to promote a healthy collaboration.
    Dr. Jacobs has the intelligence, motivation, and skills to work 
with high-level NOAA leadership, including the National Weather 
Service, to lead the U.S. to significant improvements in weather 
forecasting. Dr. Jacobs has demonstrated this ability within his role 
as chief scientist of Panasonic Avionics, creating arguably the best 
weather forecasts in the world, including forecasts for extreme events.
    With a formidable record of success by creating innovative 
approaches to difficult challenges, Dr. Jacobs has demonstrated this 
capability through his work within the academic community including his 
term as a professor at UNC. His business experience has allowed him to 
lead complicated teams of researchers to successful collaborations.
    He can work across a variety of communities to address the most 
important challenges for environmental monitoring and prediction 
services. Dr. Jacobs has demonstrated his outstanding ability to work 
with public, private and academic sectors on a number of individual 
projects with the National Weather Service and Department of Defense. 
He has consistently shown his ability to work with the public, private 
and academic sectors in his leadership as the head of the American 
Meteorological Society's Forecast Improvement Group, working with over 
200 community leaders to identify paths for the U.S. to achieve the 
highest possible prediction capabilities.
    Dr. Jacob's expertise extends far beyond numerical weather 
prediction. As a joint recipient of the 2007 Nobel Peace Prize for 
climate change, I have interacted with Dr. Jacobs on observations that 
are needed to address climate research and climate impacts, including 
coastal flooding and severe weather. He is well respected 
internationally for his intelligence, hard work and foresight on 
important issue related to weather forecasting and environmental 
observations.
    I have great confidence that Dr. Jacobs is prepared for the breadth 
of the responsibilities he will face in his future role as Assistant 
Secretary of Commerce for Environmental Observation and Prediction.
    I fully support his nomination and I urge his confirmation.
                           Elizabeth C. Weatherhead, Ph.D.,
                                                  Senior Scientist,
                                                U. Colorado at Boulder.
Co-recipient of the 2007 Nobel Peace Prize
                                 ______
                                 
                                            GeoOptics, Inc.
                                     Pasadena, CA, October 30, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Neil Jacobs 
for Assistant Secretary of Commerce for Environmental Observation and 
Prediction and Deputy Assistant Administrator of NOAA. I believe that 
he possesses the scientific knowledge, business management and 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    Over the past 8 years I have had many conversations with Neil 
within the American Meteorological Society and in regard to mutual 
business interests. He is one of today's most intelligent and 
accomplished scientists. In addition to his keen understanding of 
meteorology, model building and high-performance computing, he is well 
acquainted with Federal Government operations and priorities and will 
be an excellent addition to the Commerce and NOAA leadership team.
    As a former NOAA Administrator from 2001-2008, and now involved in 
leading an environmental data enterprise, I view Neil as a perfect fit 
for this assignment. Neil will be an outstanding leader for NOAA. I 
urge his confirmation.
            Sincerely,
                                Conrad C. Lautenbacher, Jr.
                                                VADM, USN ret, CEO,
                                                        GeoOptics, Inc.
                                 ______
                                 
                          University of Colorado at Boulder
                                      Boulder, CO, October 31, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

RE: Dr. Neil Jacob's nomination as Assistant Secretary of Commerce for 
            Environmental Observation and Prediction

Dear Senators Thune, Nelson and Members of the Committee,

    I have known Dr. Neil Jacobs as a professional colleague for almost 
ten years. He has demonstrated extreme intelligence, innovation, work 
ethic and leader in the extremely difficult fields of weather 
forecasting and environmental monitoring. Dr. Jacobs is respected 
across the community for his ability to work constructively between the 
private and public sector to promote a healthy collaboration.
    Dr. Jacobs has the intelligence, motivation, and skills to work 
with high-level NOAA leadership, including the National Weather 
Service, to lead the U.S. to significant improvements in weather 
forecasting. Dr. Jacobs has demonstrated this ability within his role 
as chief scientist of Panasonic Avionics, creating arguably the best 
weather forecasts in the world, including forecasts for extreme events.
    With a formidable record of success by creating innovative 
approaches to difficult challenges, Dr. Jacobs has demonstrated this 
capability through his work within the academic community including his 
term as a professor at North Carolina State University. His business 
experience has allowed him to lead complicated teams of researchers to 
successful collaborations.
    He can work across a variety of communities to address the most 
important challenges for environmental monitoring and prediction 
services. Dr. Jacobs has demonstrated his outstanding business acumen 
and ability to work with public, private and academic sectors on a 
number of individual projects with the National Weather Service and 
Department of Defense. He has consistently shown his ability to work 
with the public, private and academic sectors in his leadership as the 
head of the American Meteorological Society's Forecast Improvement 
Group, working with over 200 community leaders to identify paths for 
the U.S. to achieve the highest possible prediction capabilities.
    Dr. Jacob's expertise extends far beyond numerical weather 
prediction. As a joint recipient of the 2007 Nobel Peace Prize for 
climate change, I have interacted with Dr. Jacobs on observations that 
are needed to address climate research and climate impacts, including 
coastal flooding and severe weather. He is well respected 
internationally for his intelligence, hard work and foresight on 
important issue related to weather forecasting and environmental 
observations.
    I have great confidence that Dr. Jacobs is prepared for the breadth 
of the responsibilities he will face in his future role as Assistant 
Secretary of Commerce for Environmental Observation and Prediction.
    I fully support his nomination and I urge his confirmation.

                             Elizabeth C. Weatherhead, PhD,
                                                  Senior Scientist,
                                                U. Colorado at Boulder,
                            Co-recipient of the 2007 Nobel Peace Prize.

    The Chairman. Senator Schatz is up next.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Thank you to all of you for your willingness to serve.
    Congressman Bridenstine, I want to read to you a short 
statement, and you can let me know if you agree or disagree. 
``Climate warming trends over the past century are extremely 
likely due to human activities.''
    Rep. Bridenstine. Yes.
    Senator Schatz. I want to read to you a short statement. I 
want to see whether you agree with it. ``Global warming 
theories should not drive national energy policy without clear 
evidence.''
    Rep. Bridenstine. So I do believe, and I do not know what 
the context of that.
    Senator Schatz. This is you.
    Rep. Bridenstine. OK.
    Senator Schatz. Just so you know.
    Rep. Bridenstine. Sure. So I will tell you what I believe. 
I believe carbon dioxide is a greenhouse gas. I believe that 
humans have contributed to carbon dioxide in the atmosphere.
    Senator Schatz. To what extent?
    Rep. Bridenstine. That is a question I do not have an 
answer to, but I do know that humans have absolutely 
contributed to global warming.
    Senator Schatz. Right. But just because I only have 5 
minutes here, I want to just be clear about what happens now.
    The testifiers have been essentially given permission to 
say, ``Climate change is real. Carbon dioxide is a greenhouse 
gas,'' and then they get into, ``It is really impossible to 
decipher how much of these are natural and cyclical, and how 
much of this is man-caused.'' But only in the halls of Congress 
is this is a live debate.
    And what concerns me the most, in addition to everything 
that Senator Nelson said, is that this is a science agency. And 
I get that you do not have a scientific background, and I do 
not begrudge you that, although it is true that previous 
Administrators had extraordinary scientific backgrounds.
    But I do not begrudge you that because I do not have a 
scientific background. But you know what I do is I defer to 
scientists. I rely on the scientific consensus. And the 
scientific consensus is not that it is really difficult to tell 
how much of climate change is attributable to human activity. 
The scientific consensus is that climate change is primarily 
caused by human activity.
    Do you agree with the scientific consensus?
    Rep. Bridenstine. If that is the scientific consensus that 
it is primarily driven by human activity, what I will tell you 
is that human----
    Senator Schatz. You do not know that that is the scientific 
consensus?
    Rep. Bridenstine. Sir, I would say human activity 
absolutely is a contributor to the climate change that we are 
currently seeing.
    Senator Schatz. What is the scientific consensus about 
climate change?
    Rep. Bridenstine. I think right now, we are just scratching 
the surface as to the entire system of the Earth, and one of 
the great missions of NASA is the Earth Science Division of the 
Science Mission Directorate. And with your help and support, we 
want to make sure that we are getting the absolute best 
science.
    Senator Schatz. Right.
    Rep. Bridenstine. NASA is the only agency in the world that 
can do this kind of science, and really the best agency in the 
world, and we need to make sure that we are understanding it 
better every day.
    Senator Schatz. I just want to get clear. Are you 
disagreeing with the scientific consensus, or are you saying 
that you do not know what the scientific consensus is, or are 
you saying that the scientific consensus does not exist yet? 
Which is it?
    Rep. Bridenstine. I believe that the scientific consensus 
is that humans are contributing and have contributed to the 
climate change that we have seen.
    Senator Schatz. Are they the primary cause?
    Rep. Bridenstine. Well, it is going to depend on a whole 
lot of factors and we are still learning more about that every 
day.
    Senator Schatz. OK.
    Rep. Bridenstine. In some years, you could say absolutely, 
and other years during sun cycles and other things, there are 
other contributing factors that would have maybe more of an 
impact.
    Senator Schatz. OK. I got my answer. Thank you.
    To NASA's main three goals under the statute, earth 
science, space exploration, and aeronautical research, as you 
know, on April 14, 2016 you introduced legislation, your 
American Space Renaissance Act actually had some pretty good 
things in it.
    But one of the things in it is that you eliminated one of 
the three statutory goals earth science.
    Why?
    Rep. Bridenstine. That was not what I did in the bill. Some 
have construed that to be the case, but it is absolutely not 
the case. And, in fact, there are provisions in there to help 
us get even better Earth science.
    That provision, I think, you are talking about is----
    Senator Schatz. Where you struck the goal?
    Rep. Bridenstine. No, in fact I said in there, there is 
another line that specifically says that we absolutely must get 
the best science that NASA can get. And that line is in there 
as well.
    And so, what I would say is at the time when I was drafting 
that bill, the objective was to basically create a pioneering 
doctrine for NASA for Deep Space. And ultimately, that was what 
I was working on in that bill.
    We did not address in that bill aeronautics in any way. We 
did not address Earth science in that bill, although, we did 
talk about the importance of NASA acquiring science.
    So that was not my intent, if that was the way it was read.
    Senator Schatz. Well, it is not just the way it was read. 
It is the way it reads.
    Here is the line, ``The expansion of human knowledge of the 
Earth and the phenomena in the atmosphere and space,'' that is 
the Earth science statutory role for NASA and that line was 
struck.
    The Chairman. Thank you, Senator Schatz.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, very much, Mr. Chairman and the 
Ranking Member for holding this hearing and, I think, a very 
important hearing with important nominees here.
    During our meeting, and this question is to Congressman 
Bridenstine, during our meeting, you discussed the importance 
of scientific research being free from political interference 
and the need for the NASA Administrator to allow scientists to 
pursue research that may run counter to the Administration's 
views on climate change.
    Scientific integrity is embedded in the rules and 
requirements that govern NASA's professional behavior across 
all technical disciplines and should be a high priority for the 
agency.
    While we had constructive dialogues about the need for 
scientists to be unencumbered by politics, I am, nonetheless, 
concerned with some of your previous statements and I think 
they have been examined already; previous statements on climate 
change.
    I am asking you here, I think these can be pretty simple 
yes or no answers.
    Will you commit to ensure that the research and science-
based activities by NASA employees are protected from political 
interference including science related to climate change?
    Rep. Bridenstine. Yes, sir.
    Senator Udall. And will you commit to maintaining a culture 
at the agency that does not compromise the integrity of 
rigorously researched or tested scientific findings?
    Rep. Bridenstine. Yes, sir.
    Senator Udall. Thank you for that commitment.
    How will you ensure that NASA's agency scientists maintain 
the highest standards of scientific integrity?
    Rep. Bridenstine. Thank you, sir, for that question.
    When we think about the various Science Mission Directorate 
divisions, each one of them is guided by a decadal survey that 
comes from the National Academy of Sciences.
    That decadal survey ultimately is what enables us to 
prevent the science from becoming partisan. It prevents it from 
becoming impassioned. It keeps it, in my estimation, it keeps 
it just consensus-driven. That is the objective.
    And when we follow the guidance of those decadal surveys, 
whether it is the Earth Science Division, the Planetary Science 
Division, Heliophysics, or Astrophysics, it is incumbent upon 
us as leaders, you and me both, to follow this guidance of the 
decadal survey.
    When it comes to Earth science, in particular, sir, and 
this is important to me. I am a guy from Oklahoma and I have 
constituents every year that die in tornadoes. The challenge we 
have with----
    It is not a challenge with the decadals. My point is we 
need to follow the decadals.
    The decadal survey from 2007 came up with a number of 
objectives that we needed to accomplish.
    Number one, we needed to understand the composition of the 
atmosphere.
    Number two, and this is important to the guy from Oklahoma, 
we have to better understand weather.
    Number three, we have to understand the climate.
    We also need to follow the carbon cycle and how it affects 
ecosystems.
    We also need to understand the water cycle.
    And finally, the surface and subsurface of the Earth.
    Now, from that decadal survey of 2007, NASA has created an 
architecture of satellites. I am thinking about a system of 
systems that is a constellation of satellites ultimately that 
feed the data so that we, as policymakers, can make good 
decisions. When I say ``we,'' I mean all of us.
    By following those decadal surveys that is how we keep it 
so that the previous administration followed it. The next 
administration follows it, and the next administration. That 
would be my objective.
    Senator Udall. You are going to follow it?
    Rep. Bridenstine. Yes, sir.
    Senator Udall. Now, I am going to just ask the same 
question that Senator Schatz asked in a little different way.
    I have summarized here what I think the scientists are 
saying about climate change, and I want to see if you agree or 
disagree.
    Ninety-seven percent of the scientists with articles in 
peer reviewed journals have concluded that climate change is 
real, is caused by human activity, and is already causing 
devastating problems in our country and around the world.
    Do you agree or disagree?
    Rep. Bridenstine. I agree with that.
    Senator Udall. Yes.
    How would you address the arguments of outside entities, 
and those serving in the current Administration, who refute 
NASA's scientific research on climate change?
    Rep. Bridenstine. So I think, sir, what we have to do is 
make sure as leaders that we keep the debate dispassionate. 
That it is driven by the science.
    And should I be confirmed as the NASA Administrator, it 
would be my highest ambition that science would drive the 
direction of NASA and the Science Mission Directorate.
    Senator Udall. Yes.
    And my question, see, is you are working in an 
Administration. You have a lot of people who disagree with what 
you just agreed climate change is all about.
    And if they come to you to try to influence the scientists 
within your agency, what are you going to do?
    Rep. Bridenstine. I would tell them the same thing that I 
am going to tell you right now. That carbon dioxide is, in 
fact, a greenhouse gas and because of that greenhouse gas, 
there is more water vapor in the atmosphere than we have ever 
seen in the past. And that water vapor ultimately has to 
release its energy and it does so through cloud formation and 
rain, and we are seeing precipitation effects from it. And all 
of that is very real and happening.
    I am happy to say that to you. I am happy to say that to 
anybody else because it is the truth.
    Senator Udall. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Udall.
    Senator Lee.

                  STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Thank you, Congressman Bridenstine. It is good 
to have you here and it is great to have your family here as 
well.
    Rep. Bridenstine. Thank you.
    Senator Lee. I want to begin by noting that there was a 
discussion a moment ago about climate change and whether or not 
you regard climate change as being primarily caused by human 
activity.
    It is my understanding that it is not even the position of 
NASA at this point, that there is a consensus on that point. 
And so, I think it was entirely appropriate for you to defer 
and acknowledge your viewpoint that it is an issue. It is a 
factor, but defer to answer the question as to whether or not 
it is the primary driver of it.
    I would like to address some of the comments that have been 
made with regard to your nomination and your qualifications.
    The Ranking Democrat on the Committee has suggested that 
you are somehow unqualified to serve as the Administrator of 
NASA because you have taken a number of positions that he deems 
controversial.
    If that were the standard, then anyone who has served in 
public life, certainly anyone who has served in the U.S. Senate 
or House of Representatives could, arguably, be disqualified.
    Among those things that the Ranking Democrat on the 
Committee has raised is the fact that you cut a television ad, 
or a series thereof, in a Presidential campaign. One in which 
there were several other Republicans running and one, in which, 
you endorsed one particular Republican.
    One, in which, you criticized positions taken by a sitting 
incumbent Republican Senator who was, at the time himself, 
running for President of the United States.
    I consider wildly inappropriate the suggestion that this 
somehow disqualifies you. And with all due respect to my 
colleague, I cannot, for the life of me, understand why that 
would be something that would disqualify you.
    We have had other Presidential candidates run from the 
United States Senate in the past. We have had other members of 
the Senate criticize them.
    Senator Nelson, himself, was heavily involved in the Hilary 
Clinton for president campaign. And at that same time, Hilary 
Clinton as a presidential candidate was criticizing Bernie 
Sanders, a member of the United States Senate from the same 
party. She criticized him quite aggressively.
    And yet, I do not think Senator Nelson would have suggested 
that Hilary Clinton was unfit to be President as a result of 
the fact that she criticized a Member of the United States 
Senate from her own party.
    Nor do I think it would be appropriate for us--if the 
tables were turned and we were considering Senator Nelson to 
head NASA--for us to raise the fact that he had supported 
Senator Clinton in her bid for the presidency, even though 
Senator Clinton attacked Senator Sanders.
    As to your support for the Senate Conservatives Fund, your 
criticism of other Republican officials on a variety of issues, 
I think it is important to point out here that these are the 
words of a brave person who does not simply follow the flow.
    These are the words of someone who came to Washington to 
make a difference and to not simply do whatever everybody else 
told them to do.
    The fact that he has been willing to stand out is a reason 
I support this nominee. Not a reason anyone should consider 
doubting his qualifications for that office.
    As to your suggestion that there is often bipartisan 
collusion in Congress, I could not agree more. In fact, much of 
what masquerades as compromise in this town is, in fact, 
collusion and there is a difference.
    Compromise occurs when two or more people get together and 
come to a mutually agreeable solution that enters into 
everyone's benefit.
    Collusion is what happens when two or more people get 
together and come up with something that is good for them that 
makes them look good or feel good at the moment, but harms 
many, many others.
    And I applaud you, sir, for willing to call out collusion 
for what it is.
    You have also been criticized for your refusal to vote for 
the so-called Gang of Eight amnesty bill in 2013. And yet, this 
too is an indication of the fact that you are wiling to be a 
free thinker. Not everyone has to share your view.
    And how on earth your position on matters of immigration 
policy would relate to, or have any significant negative 
bearing on, your ability to head NASA is beyond my ability to 
understand.
    Finally, we have the fact your contribution to, and support 
of, a particular United States Senate candidate should somehow 
tie you to anything and everything that that Senate candidate 
had ever previously said or might subsequently say. I simply do 
not know what to do with this accusation. This is wildly 
inappropriate and I respectfully suggest that my colleague 
withdraw that as a criticism because it is not one.
    I want to make very clear to my colleagues, Jim Bridenstine 
is one of the most heroic people I have ever known. He is a 
military leader. He is someone who has bravely fought, and 
worked to defend, and protect our country in a way that very 
few others I have ever known have done.
    He is exactly the kind of person you would want in your 
neighborhood. He is a Scout Master and an Eagle Scout. He is 
trustworthy, loyal, helpful, friendly, courteous, kind, 
obedient, cheerful, thrifty, brave, clean, and reverent.
    I cannot imagine a better person to head this or any other 
agency.
    Thank you. I see my time has expired.
    The Chairman. Thank you, Senator Lee.
    Senator Wicker.
    Senator Wicker. Well, I was going to ask Mr. Bridenstine 
about issues such as the Stennis Space Center. So I guess I 
will ask you to do that on the record, Mr. Bridenstine. And the 
future of rocket propulsion and the in-kind contributions that 
we make there, and also the space launch system, and the Orion 
system. So I guess I will just ask you to comment on the record 
about that.
    I appreciate Senator Lee engaging on this issue. Let me 
just say, this is what I believe about climate change, and I 
will not even ask you if you agree with it, Mr. Bridenstine.
    Climate change has been occurring for millions and millions 
of years. And anyone who disputes that is simply not looking at 
the evidence. And only in the last few decades has it been 
suggested that it is human activity that is causing climate 
change.
    Now, you have acknowledged that human activity may be 
contributing to climate change. But there have been wild swings 
in the climate for millions of years, and only recently have we 
had the audacity to think that we are so important that we are 
causing that climate change, and some other reason has just 
vanished from the universe.
    Let me say this about scientific consensus. It has not 
always been right. So now, scientific consensus is 
unassailable. As a matter of fact, Galileo challenged 
scientific consensus. Copernicus challenged scientific 
consensus at their peril, and it turns out, they were right. 
But they were alone for a while.
    Here is where there is not scientific consensus. If we do 
everything the Left has advocated with regard to climate, 
combating climate change, if we outlaw coal, and if we make 
people cold in their homes, and raise their power bills 300 
percent, what will the effect be? Will sea level be any 
different?
    At the end of 100 years, if we do everything the Left has 
advocated and there is a scientific difference, there is a 
scientific debate about whether that will actually occur.
    I think, and Senator Udall is my good friend, I think your 
answer, Mr. Bridenstine, to Senator Udall's question is the 
operative matter.
    Will you make sure that politics and your own personal 
philosophy is not injected into the scientific work being done 
by NASA? And you have solemnly assured this Committee that you 
will see that politics is not inserted.
    And to me, we can continue to have this debate, and Senator 
Udall and I have had it all over the country and all over the 
world, and we will continue to on a friendly basis.
    But you have said, and I am satisfied with that answer, 
that politics will not be part of the scientific decisions in 
NASA.
    So thank you and I will ask you to reiterate on the record 
your great support for the Stennis Space Center and the fact 
that it is a vital part going forward in the mission of NASA.
    I yield back.
    The Chairman. Thank you, Senator Wicker. I think we all 
assume that is just a given.
    Senator Wicker. I will await his answer.
    The Chairman. OK.
    Next up is Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And thank you to all of you for your willingness to serve 
the public in these positions. We appreciate all of you being 
here today.
    Congressman Bridenstine, you have had a few questions here 
today. You seem to be getting all of the action, and I am going 
to join in, and ask you some questions as well.
    One statement that you made, in fact, a proposal that, I 
think, you put forward was to advocate removing the NASA 
Administrator from the Presidential political cycle. Proposing 
a 5-year term instead of what is currently the case where the 
Administrator comes in with a President and leaves with a 
President. And I believe your motivation was to try to 
depoliticize this position.
    Is that correct?
    Rep. Bridenstine. Yes, sir.
    Senator Peters. So basically we should depoliticize the 
Administrator of NASA. You would agree with that?
    Rep. Bridenstine. I think that the NASA Administrator 
should not be driven by political influence. I would say that--
--
    Senator Peters. I appreciate that. So I guess the question 
is, you would agree that we need to depoliticize it.
    But would you also agree with the statement that actually 
appointing an actual politician who has been actively in the 
political process, who has taken some pretty active political 
positions, reference Senator Lee?
    I do think it is appropriate to be looking at political 
positions when you have said yourself, we should depoliticize 
this office. It is what we have always done with NASA, the 
folks who have been NASA Administrators have been scientists. 
They have been astronauts. They have been folks with incredible 
credentials in the scientific community that have that gravitas 
to do it, so that we do not get into this give and take, and 
back and forth of politics.
    How do you reconcile that with an appointment of a 
politician who has been as active as you have, and you are 
right to have your positions? I take those positions as well. 
We both have our positions. That is fine. But that is different 
than what this position has always had in the past.
    Rep. Bridenstine. Sir, I would say that serving in a 
political capacity does not disqualify somebody from serving as 
the NASA Administrator.
    I would say in some cases, while NASA should not be driven 
by politics, we have seen people from the political arena do 
very well at NASA.
    One of the people that, I think, most recognized as maybe 
the best NASA Administrator ever would be James Webb, who led 
the effort to get to the Moon in the 1960s. Of course, he 
served as a staffer in the Senate, and then at OMB, at the 
time, it was the Bureau of the Budget, and then he spent a time 
at Treasury as well.
    He spent 5 years in my home state of Oklahoma. We are very 
proud of him. But he certainly did great work on behalf of this 
country coming from a political environment. And I think he did 
it honorably without politicizing or making it partisan. And 
that would be my model.
    I want to be clear. I am not comparing myself to James 
Webb. But I will say that I think it can be done and I do not 
think that service in Congress is disqualifying.
    Senator Peters. Well, again, we have been able to avoid 
that kind of debate because of the folks in recent years that 
we have put into this position.
    And I think part of the reason why NASA is, without 
question, and you have mentioned it yourself, one of the 
preeminent scientific organizations in the world.
    And that integrity, that reputation is so important, I 
think, for the future of this country that we want to make sure 
that it is depoliticized, which gives me some pause when we 
appoint a politician to this position.
    But it is also a position where you have to manage a very 
large budget and this is a very complex budget. NASA has a 
$19.5 billion budget with many, many employees. From looking at 
your background, you have not had that kind of management 
experience. I think there are more offices at NASA than there 
are folks in your congressional office, for example.
    I also wanted to just get your reaction in reviewing some 
of the circumstances surrounding your tenure as Executive 
Director of the Tulsa Air and Space Museum.
    At the Museum, you had four employees, which is much 
different than the 18,000 employees and 80,000 contractors that 
you will oversee if confirmed as the NASA Administrator.
    And at the Museum--and this is the information that I have 
and would love to have your comments--at the Museum, you 
started your term as the Executive Director with a $70,000 
annual spending surplus in the bank. You left a short 21 months 
later with more than a $300,000 annual deficit.
    As a guy who spent a lot of time in private business and 
managing budgets, that is a concerning trend from a $70,000 
surplus to a $300,000 deficit.
    What is more, I know we have a quote here from a board 
member of the Museum that has recounted your tenure as a time, 
and I quote the member, ``Member numbers were down. Employee 
and volunteer morale was very low, and the finances, and 
certainly the financial reporting, were arguably the worst that 
they have been in recent years.'' This is a board member that 
served.
    Would you please tell me a little bit about your time at 
the Tulsa Air and Space Museum, and how that prepares you for 
this job?
    Rep. Bridenstine. Well, sir, I enjoyed my time very much at 
the Tulsa Air and Space Museum as its Executive Director.
    The comments that you are referring to were from a very 
hotly contested political campaign in 2012 and those 
accusations were widely refuted by the Board of Directors, 
which was, at the time, not going to get involved in the 
campaign. But when these accusations came out, they did get 
involved. Their attorney got involved and wrote these 
statements. I can provide this for the record, Mr. Chairman, if 
you would like.
    Senator Peters. Well, if those were part of the campaign, I 
will take that for what that is worth. I appreciate that.
    Please explain how you started with a $70,000 annual 
operating surplus and ended with $300,000 in debt.
    Rep. Bridenstine. It is not true.
    Senator Peters. Those are not accurate numbers?
    Rep. Bridenstine. That is not true. What that was from in 
the campaign, there was a, I am trying to remember, there was a 
noncash loss from the depreciation of capital assets. And from 
a document based on that, they tried to accuse me of having 
lost money for the Museum, which is absolutely not the case.
    The Museum is in great shape and, in fact, I had my 40th 
Birthday Party a couple of years ago at the Museum. Senator Ted 
Cruz actually came to it. Senator Inhofe flew in the air show 
that we had at the Museum.
    Those accusations are not accurate.
    The Chairman. Thank you, Senator Peters.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Well, I think some of the things I was going to say have 
been articulated in a more effective way, I think, by my 
friend, Senator Lee, and I agree with all of his comments.
    I also would say, it seems like, and I have served for many 
years as Chairman of the Environment and Public Works 
Committee, you cannot have a hearing anymore without everyone 
bringing up global warming. I mean, that is the issue they like 
to bring up.
    I have to say this because I do not have a better friend on 
the other side of the aisle than Senator Udall, but this 97 
percent stuff has been debunked completely, and everybody knows 
that.
    So I like to listen to when you talked about this 
consensus.
    Richard Lindzen from MIT is one of the most knowledgeable 
people in this area. He is a scientist and in characterizing 
the problem, he said, ``Controlling carbon is a bureaucrat's 
dream. If you control carbon, you control people.''
    So we can have that debate anytime you want to and we have 
had it over and over again. It is interesting, though, the 
people of America have caught on.
    I can remember back when they had the polling. It used to 
be back in about 2002 and 2003, it was the Number 1 or Number 2 
issue on the Gallup Poll, the March Poll that they would have. 
That has dropped down to Number 15 now. And so, the people have 
caught on.
    I think there are some things I would like to get back to 
that, I think, are significant having to do with your pursuit 
of this position.
    When they talk about the Members of Congress, it is easy to 
be an asset to have, I think, someone who has been a Member of 
Congress.
    You have to keep in mind, NASA has to come to Congress to 
get their funding, to get their appropriation, to get their 
authorization. And I would think that all of us here, the 
common thread is, we are all very excited about the future of 
NASA and what we could do.
    I am concerned. I want to be ahead of some of these other 
countries out there that, I believe, have passed us up in many 
areas. That is the passion that I have.
    So I think that--and we have talked about James Webb and, 
of course, what he did--and I think we all understand that.
    But I will just say this. I think it is a positive 
particularly when you are trying to get the attention of 
Congress to support NASA, to have been a Member of Congress.
    What do you think?
    Rep. Bridenstine. Well, I think that is accurate, sir.
    I think one of the benefits that I could bring to the 
agency is the fact that I have worked in these halls with many 
Members of Congress on both sides of the aisle to accomplish 
very important strategic objectives for our country.
    And when you think about what the NASA Administrator's role 
will be in the coming years, working with the National Space 
Council and working with the Office of Management and Budget, 
and working with the White House, and of course, working to 
build a consensus agenda with Members of Congress on both 
sides, the Senate and the House. I think that my experience has 
prepared me well to be able to accomplish those things.
    And certainly, it would be a high honor if I were to be 
confirmed to do that.
    Senator Inhofe. Yes.
    We both served, you served on the House Armed Services 
Committee. I have served on and have been the Ranking Member of 
the Senate Armed Services Committee.
    I really believe, and I have heard in statements even from 
you that looking at the threats that we face today, we are in 
the most threatened position, I believe, in the history of our 
country.
    You look back at the days of the Cold War, two superpowers. 
We knew what they had. They knew what we had. It is not that 
way anymore.
    And so I look at one of the functions of NASA to be 
concerned with and working on the fact that we have a real 
threat out there.
    Do you have any ideas on what you, as an Administrator, 
should you be confirmed, could draw upon your experience as a 
member of the House Armed Services Committee that would be 
helpful in working on our national security?
    Rep. Bridenstine. Yes, sir. And not just from my time on 
the Armed Services Committee, but also as a Navy pilot.
    I can tell you one of the greatest risks we have in the 
world today, from an aircraft carrier perspective, is 
hypersonics. Basically, what we call anti-access/aerial-denial 
weapons that can reach our assets at far distances, and at 
velocities that are very dangerous.
    So where NASA plays, and I want to be really clear, NASA is 
not a military agency. It is an agency that is necessary for 
the peaceful uses of outer space. But the research that NASA 
has done can lead to capabilities that can be used by the 
Department of Defense.
    Hypersonics in my view, sir, is probably the most important 
right now and the Aeronautics Research Mission Directorate at 
NASA is responsible for that. If I could ask you for anything, 
sir, it would be that we need to make sure that that is 
adequately funded.
    Basic research is what NASA does for its own purposes, but 
there are national security implications from hypersonics.
    Senator Inhofe. Good.
    Rep. Bridenstine. I would also say one of the areas I have 
had a lot of focus on in the House of Representatives is the 
challenge we have with space debris.
    There are a lot of threats in space, but it is not just 
hostile threats. It is not just co-orbital anti-satellite 
devices or direct assent anti-satellite missiles. It also 
includes just debris that was launched in the 1960s.
    And so what we have to do is we have to create a 
situational awareness domain to where we can mitigate the 
effects of that debris.
    Right now, and this is a big piece for the Armed Services 
Committee, it is all done by the JSpOC, the Joint Space 
Operations Center and Vandenberg Air Force Base, and it is done 
by them, our Air Force. I should say it is a joint command 
because it's under Strategic Command. So it is joint, but it is 
predominantly Air Force.
    The challenge that we have is that the Air Force is 
providing space situational awareness to the entire world for 
absolutely free. And that includes our foreign partners, but 
also countries that are sometimes not friendly to the United 
States and all of the commercial assets.
    In essence, the Air Force right now is acting as the FAA 
for space. I want to be clear. The Air Force must continue to 
do space situational awareness, but as far as providing 
conjunction analysis and reporting, that should be done by a 
civilian agency that has international support, primarily 
because it is not the job of the American taxpayer to protect 
the assets of countries that are often hostile to the United 
States.
    Senator Inhofe. Yes. I know my time has expired; just one 
comment.
    There has been a lot of talk about Jim Bridenstine from 
people who do not really know him very well. I have the 
distinction of knowing him better than anyone else at this 
table.
    And let me just say to my friends on both sides of the 
aisle, I support him because I believe he is going to be the 
very best Administrator that we will have. I think we will look 
back at this time someday.
    And I would just say to you that if you knew him as I know 
him, you would be very supportive.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Inhofe.
    I know the other three nominees are sitting there today 
going, ``Wow, these confirmation hearings are a breeze.''
    [Laughter.]
    The Chairman. I have Senator Gardner, but Senator Hassan 
has returned and she is up next.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair, and Ranking Member 
Nelson.
    And thank you to the witnesses. Congratulations on your 
nominations, and thank you to your families as well because 
this is a family affair, and we appreciate their willingness to 
help you serve.
    I want to start, Mr. Bridenstine, with you, please.
    From our research, it appears that you are a big fan of 
transparency, and so am I.
    On numerous occasions, you have called on Federal agencies, 
including the EPA, and Health and Human Services to be more 
transparent.
    Yet, in the period leading up to your nomination hearing, 
you went through your public records and scrubbed them clean of 
your most controversial statements--interviews, press releases, 
and other materials--that would show this panel, and the 
American public, who you are. In total, it appears that at 
least 575 items were deleted.
    So please briefly explain for us why these materials were 
deleted.
    Rep. Bridenstine. I am not certain which materials you 
might be referring to, but I will tell you this. We have not 
scrubbed anything. That was an accusation, but it has not 
happened.
    What I will tell you as a Member of Congress, I said that I 
am not going to run again, and I said that many, in fact, I 
said it the day that I announced for my first race that I was 
going to serve three terms and no more.
    All of my campaign material did come down and that was from 
many, many, many months ago. I do not know how many months.
    Senator Hassan. Well, let me then turn to your Committee 
questionnaire, where you left off several op-eds, political 
donations, and memberships that you hold.
    So what happened here, it really does appear to many of us, 
that you were trying to hide information from yourself, about 
yourself from the American public.
    So what happened on your questionnaire?
    Rep. Bridenstine. I do not know what op-eds. We scrubbed 
everything we could to deliver everything that we had 
available. And, of course, we searched the Internet and did 
other things to try to make sure we delivered everything that 
the Senate has asked for. And as far as I know, we have done 
that.
    Senator Hassan. Well, I just want to let you know that it 
does not appear to some of us that you have, and you are asking 
the American people to trust you with the operation of NASA in 
a transparent way that complies with all existing Government 
ethics rules.
    How can we trust you to do that?
    Rep. Bridenstine. If there are any op-eds or public 
statements that I did not deliver, certainly, I would like to 
know what those are so that I can deliver them. But it sounds 
like you might already have them.
    Senator Hassan. It is my understanding we have them, but 
not because you shared them with us.
    Rep. Bridenstine. OK.
    Senator Hassan. So let me move onto another question.
    As you know, there have been troubling reports and 
allegations about widespread sexual assault and sexual 
harassment. This issue particularly plagues the scientific 
community as well.
    In fact, a 2017 study published in the ``Journal of 
Geophysical Research'' found that 54 percent of female 
scientists surveyed were subject to sexual remarks and 
harassment.
    Eighteen percent of women of color and 12 percent of white 
women skipped professional events because they did not feel 
safe attending, identifying a significant loss of career 
opportunities due to a hostile environment.
    Last year, you defended Donald Trump's remarks in the 
leaked Access Hollywood tape about assaulting women.
    You also voted against the Violence Against Women Act in 
the past, while stating that this bill, and its programs, 
misallocate ``scarce Federal resources.'' That really concerns 
me.
    As NASA's leader, you will set an example for the entire 
agency and the larger scientific community. You will manage 
thousands of employees.
    So do you stand by your assessment, and I am quoting from 
the Access Hollywood tapes here, that grabbing women or talking 
about doing so is defensible?
    Rep. Bridenstine. I do not think that is defensible.
    Senator Hassan. And what steps will you take to better 
address sexual harassment issues in the scientific community, 
and ensure that your employees feel safe?
    Rep. Bridenstine. Thank you for that question.
    It is a big deal across the Government at whole. It is a 
big deal in the House of Representatives. I am sure it is a big 
deal in the Senate.
    I currently serve in the Oklahoma Air National Guard. We 
get training on this regularly as well.
    I think the number one thing that a NASA Administrator 
could do in relation to that is make sure that everybody is 
educated and aware as to what is sexual harassment, and to not 
even get close to it, and let everybody know that there will be 
zero tolerance for that.
    Senator Hassan. So because I am just about out of time, I 
just want to, I appreciate that answer.
    But I do have to say to you that when you make statements 
defending somebody who has bragged about harassing and 
assaulting women, that it does not give people, particularly 
women, confidence that you are going to protect them, stand up 
for a fair and equal workplace.
    It is good that you said that you do not defend those 
comments here today, but that is not what you said at the 
height of the campaign. We do need to have leaders who are 
consistent and do not change their positions from time to time.
    So I am concerned about your record in that regard.
    I thank you, Mr. Chair.
    I see I am over. I will submit my questions for Dr. Jacobs 
for the record.
    The Chairman. Thank you, Senator Hassan.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chair.
    Thank you all for your willingness to serve and welcome to 
your family members. I appreciate that.
    Let me just start with you, Congressman Bridenstine. And 
thank you so much for taking the time to visit with me. I 
appreciate that.
    Rep. Bridenstine. Yes, ma'am.
    Senator Cortez Masto. And I think my colleague may have 
touched on this, comments that you have made regarding the 
LGBTQ community. And I just have a question. And can you just 
follow up for me?
    How is it that NASA employees who are LGBTQ or have 
children in gay marriages, how should they feel about your 
leadership when you have taken these positions?
    Rep. Bridenstine. Thank you for that question, ma'am.
    And what I would share with you is that I do believe, from 
my heart, that every human being has dignity and worth, and 
that each person needs to be treated as though they are a 
valued member of the team. And certainly, equal opportunity 
would be my highest objective as the leader of NASA.
    And when it comes to standards, they need to be uniform, 
and people need to know what those standards are, and be held 
to it in a uniform way. And that is how I would conduct myself.
    The Defense of Marriage Act has been overturned by the 
Supreme Court. The law is now different and I will absolutely 
follow the law, should I be confirmed, ma'am.
    Senator Cortez Masto. Thank you.
    And I think we talked a little bit about this when we met.
    I am a lead sponsor on the Safe Drone Act, which among 
other things, requires the FAA to develop an implementation 
plan to achieve full operational capabilities of unmanned 
aircraft systems, traffic management, ensure the safety and 
security of all aircraft.
    The plan must include a timeline, certification criterion, 
establish industry and Government rules, and include an 
assessment of various necessary components.
    NASA is taking a joint lead in UAS traffic management 
systems.
    Can you commit to continued progress and timely pursuit of 
UAS air traffic management technologies, which include 
utilizing the important UAS test site, like the one in Nevada?
    Rep. Bridenstine. Without question and, in fact, I have 
been to Stead Field, the Reno Air Races. I used to be stationed 
at Naval Air Station in Fallon, Nevada. I flew there at the 
Naval Strike and Air Warfare Center.
    I can tell you that the UAS, enabling UAS to integrate into 
the national airspace system is absolutely a critical part of 
America's, not only national security, but economic 
development. We have to be better at that than anybody else in 
the world, and I am absolutely committed to that.
    NASA is a technology provider for that, which a lot of that 
technology is being developed and tested at Stead Field. And 
you have my commitment that I will absolutely, that will be a 
high priority for me, for the interest of our country, not just 
for NASA, but for the economy.
    Senator Cortez Masto. OK. Thank you.
    And then is it Baiocco?
    Ms. Baiocco. Baiocco.
    Senator Cortez Masto. Baiocco. Thank you very much.
    I know the CPSC is focused on many things that create more 
of an immediate physical risk of serious injury or death like 
cribs and power tools. But in your statement, you mentioned 
technology and new products.
    Do you think we are prepared on the consumer protection 
side of the Internet of Things? And what can we do, and what 
can you do in your role to really address that new technology, 
and what it means for consumer safety as well as when we are 
talking about the Internet of Things?
    Ms. Baiocco. Thank you, Senator, for that question.
    I do not know if we are prepared for those things. I think 
that type of, the Internet of Things, and the products that are 
coming onto the market every day--I have a teenage daughter--I 
do not know anything about them.
    And it seems like every time you look at a product on the 
market, it is new. It is faster. It is doing things that we do 
not understand in a day-to-day basis.
    So I think that we are going to have to, as an agency, make 
sure that we are working with staff to make sure that they are 
getting ahead of the curve understanding these products, how 
they work, and how they interact with each other. I think those 
are things that we have not looked at close enough as a 
society.
    But as far as the agency goes and, of course, I am not 
inside yet, so I cannot comment on what they may or may not 
have done, but I think one of the things that, if confirmed, 
once I get there, I think that is something that we need to 
move a little quickly on.
    Senator Cortez Masto. Thank you.
    I appreciate that because we are in the Technological Age 
and, I think, everything we do, when it comes to consumer 
safety, is an important component or guiderail when it comes to 
embracing this new technology as well. So I appreciate your 
comments.
    I know my time is almost up. I will submit the rest of my 
questions for the record.
    Again, thank you all for your willingness to serve. Really 
appreciate it. Thank you.
    The Chairman. Thank you, Senator Cortez Masto.
    Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you very much.
    Let me address my comments or questions to Ms. Baiocco. But 
first, let me thank all of the potential, let me say, the 
nominees for their willingness to serve, if confirmed.
    I appreciate your interest in public service and want to 
see that we have highly qualified, motivated individuals to 
fill the jobs that you are willing to assume. So I wish you 
well.
    Ms. Baiocco, thank you for our conversation recently.
    In your testimony, you mentioned the important issue of 
recall effectiveness. I chair the Subcommittee on Consumer 
Protection of this Committee. We all believe that the 
Commission has an important role in spotting emerging hazards 
and removing dangerous products from the marketplace, and to do 
so as quickly as possible.
    I chaired a hearing on the effectiveness of voluntary 
recalls with panels from both CPSC and industry stakeholders in 
the last Congress. I think the message that we largely received 
during that hearing was that the Commission needed to 
strengthen its efforts to engage and communicate with 
stakeholders to improve the speed and efficacy of recalls.
    I wanted to give you a moment to speak as the importance of 
voluntary recalls, in particular, but voluntary versus 
mandatory. The Commission has the opportunity to do both.
    And how important is it, in your view, for the agency to 
have engagement with stakeholders when it comes to improving 
the value of those recalls?
    Ms. Baiocco. Thank you, Senator, for asking me that. And I 
also enjoyed our conversation yesterday.
    As far as voluntary recalls go, I think that is one of the 
most effective programs that the CPSC has. In my experience in 
private practice, I have come across situations where companies 
have said, ``Look. We have identified something here, and so, 
let us let the consumers know.''
    Reaching the consumers and having a program where they can 
reach the consumers without having to go through a whole series 
of regulations, and hoops, and so forth is very important to 
get that message out there to the people. And it is what the 
goal of the CPSC is to begin with.
    Second, I think that we still do not have a complete handle 
on why consumers, when they learn of a recall or they learn of 
a product flaw, if you will, do not take advantage of it.
    We have so many ways to communicate. I mean, we are all on 
our phones and doing a ton of things. But what is it that we 
are missing, that we are not reaching consumers and getting 
them to respond?
    So I think those are all important things that we have to 
study. There has got to be more information out there that we 
can be more effective.
    As far as working with the CPSC and making it move in a 
quicker manner, not getting bogged down, for example, in the 
details of the written message sometimes could benefit the 
speed of which a voluntary recall gets out on the market. That 
would be something that comes to mind.
    But I think that that program is very valuable. I would 
certainly encourage the continuation of that program. I would 
like to see the CPSC work with stakeholders in that regard and 
make sure that we focus on how to even make it stronger.
    Senator Moran. Do you have the understanding that 
statutorily, it is the initial responsibility of the, I want to 
say, the initial effort at a recall should be voluntary as 
compared to mandatory at the CPSC? Is that the preferred way?
    Ms. Baiocco. Well, I believe that it is the preferred way. 
It is also, there is a complicated statutory framework that 
directs the CPSC to follow. And when, in the very beginning, we 
are supposed to work with stakeholders to make sure that we can 
come to a voluntary consensus to make products safer or to get 
the message out there.
    And it is only when those voluntary situations fail that 
the CPSC should engage in some type of mandatory rulemaking.
    But that brings us full circle back to the effectiveness 
and the speed of things, because that does take time.
    Senator Moran. Let me change the topic just a bit.
    It has often been said, I have heard Commissioners say that 
they are, the CPSC is a data-driven agency.
    In my experience, I have seen instances, at least in my 
view, where that is seemingly avoided or underdeveloped in 
rulemakings with the goal of, at least seeming to me, that in 
the rulemaking process the data did not fit the desired outcome 
and therefore the data became less important.
    Would you speak as to your willingness to let data drive 
your decisions?
    Ms. Baiocco. The data must drive the decision, Senator.
    In any type of, when you are dealing with any type of 
product that has been designed and manufactured, for example, 
there has to be a concern that there is a product hazard. There 
has to be some type of data. There has to be data, science, 
statistics, and a real basis before you engage in some type of 
decisionmaking process.
    You cannot jump to the end simply because it seems like 
this is something that we want to promote or it happens to be 
something that, perhaps, you are getting pressure from outside 
advocacy groups.
    You have to understand what you are dealing with. My 
philosophy always has been to put the product in my hand, touch 
it, tear it apart, bring it together. Find out what it does, 
what it can do, and what it cannot do.
    So I am a big supporter of understanding all of the 
aspects, particularly the supportable aspects.
    Senator Moran. Thank you. I look forward to working with 
you.
    The Chairman. Thank you, Senator Moran, for following 
through on that.
    I have Senator Markey. I have five people left to ask 
questions. We have a vote at noon. It is two votes, a series of 
votes, so we might be able to get everybody in, if we proceed 
in a fairly expeditious way.
    So Senator Markey is up next.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    Congressman Bridenstine, in an interview with the Family 
Research Council in 2013, which has been designated as a hate 
group by the Southern Poverty Law Center, you said that, 
``People should be tolerant of the fact that I believe that sex 
is between one man and one woman, between the institution of 
marriage, and that marriage should be for a lifetime. I think 
that the idea, that concept, our culture, our Nation would be 
better off if we commended organizations that had that 
philosophy.''
    Well, NASA has actually officially stated that diversity 
and inclusion are integral to mission success. And of the 
18,000 people who work at NASA, they identify as gay, as 
lesbian, as transgender, as queer. And they are wondering with 
some fear in their heart, what does it mean that you could be 
confirmed here by the United States Senate?
    What are the assurances that you are going to give to them 
that they do not have to worry for a second?
    Rep. Bridenstine. Sir, I will give the assurance to you 
and, of course, to them as well.
    I absolutely believe that every human being has value and 
every person has worth. And it is my commitment to you, and to 
the Senate, and to those employees that they will be treated 
fairly and equally.
    That standards will be, everybody will know what the 
standards are for the work that they do, and they will be 
judged according to equal standards, and they will be given 
equal opportunity.
    NASA has a history, sir, of attracting the absolute best 
and the brightest. It has a history of being the best place to 
work in the U.S. Government. And it would be my highest 
ambition to make sure that those qualities all remain.
    And so, I would commit that to you, sir.
    Senator Markey. All right.
    Well, I think that is important because, obviously, they 
would see your earlier comments and they would be worrying 
about their own personal life, their own ability to be who God 
created them to be.
    And I think that is absolutely imperative that we ensure 
that they understand that they are going to be fully protected.
    And you guarantee they will be fully protected?
    Rep. Bridenstine. Yes, sir.
    Senator Markey. OK.
    Now, I want to continue with an additional conversation 
that is important, the subject of climate change.
    In 2016, you said, ``I would say that climate is changing. 
It has always changed.'' So that is kind of an explicit casting 
of doubt upon the role of human beings.
    Now, in response to Senator Schatz's question, you 
responded that, in your opinion, that humans play some role in 
the warming of the planet.
    Here is the problem again for the employees at NASA. These 
are our top scientists in doing the climate modeling for our 
country, and preparing us for the future, and preparing the 
planet for the future.
    And I know, because I have been told by scientists that 
fear is rampant amongst our Government's scientists that they 
are going to be punished if they speak publicly about their 
work on climate change science.
    Will you pledge that you will not in any way punish any 
NASA climate scientist for speaking publicly about their own 
views, their own science in terms of how they view climate 
science?
    Rep. Bridenstine. Without question.
    Senator Markey. You will not punish them?
    Rep. Bridenstine. I will not punish them.
    Senator Markey. OK. And will you promise that you will not 
reassign any NASA scientists working on climate change?
    Rep. Bridenstine. Well, they might want to be reassigned.
    Senator Markey. No, I am saying involuntary reassignment.
    Rep. Bridenstine. If that is deemed as punishment for based 
on what they might have said about climate change, I can commit 
to you that I am not going to reassign anybody based on that 
because that would be punishment.
    So yes, sir, I would agree to that.
    Senator Markey. OK. And again, I want to assure you, that 
fear is rampant. That people are worried that they are going to 
be punished.
    Rep. Bridenstine. Sir.
    Senator Markey. That is just a fact of the matter and the 
world depends upon, we are the supreme court of climate 
modeling and these people are the people who we are all relying 
upon to get these scientific facts correct.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    Ms. Baiocco, I understand that you have signed an agreement 
with the ethics authorities and agreed to reserve the right to 
seek a waiver as to companies that you have represented in the 
past after one year.
    Is that correct?
    Ms. Baiocco. I have signed an agreement with the Office of 
Government Ethics that they actually asked me to do. I did not 
affirmatively seek that.
    Senator Blumenthal. Would you agree to recuse yourself for 
as long as you serve in any matters representing Mattel, 
Yamaha, or R.J. Reynolds?
    Ms. Baiocco. Senator, I will follow the agreement that I 
have signed.
    Senator Blumenthal. So you will not agree to recuse 
yourself?
    Ms. Baiocco. I did not say that either. I think that before 
I can make that type of decision, I need to know what it is 
that is before the Commission, whether or not I have any 
conflict on those issues. I will seek the guidance of the 
designated ethics officer, and I will follow that guidance.
    Senator Blumenthal. Let me ask you whether I am correct in 
this statement. You represented Mattel involving lead 
containing toys, Yamaha for deadly all terrain vehicles, and 
R.J. Reynolds.
    Are you not of the view that you should recuse yourself in 
matters involving those companies after representing them in 
these types of matters?
    It is a fairly simple thing to do and one that would remove 
any taint that will follow you for as long as you are a 
Commissioner if you fail to recuse yourself, and if you fail 
now to commit yourself to doing so?
    Ms. Baiocco. Well, thank you for asking me, Senator, 
because I think that the public confidence here on this issue 
is very important.
    First of all, with regard to R.J. Reynolds, I do not see 
that being an issue because cigarettes are not within the 
jurisdiction of the CPSC.
    With regard to Mattel, I was part of a very large team that 
worked on Mattel and it was a very narrow issue that dealt with 
some experts. So I do not have in my head information that is 
necessarily information that was before the CPSC.
    But I do believe the American public is entitled to have 
five Commissioners who actively post and participate. And where 
there is a situation where I need not recuse, and I am told 
that----
    Senator Blumenthal. Well, the American people are entitled 
to Commissioners who avoid any perception, as well as reality, 
of conflict of interest.
    By the way, R.J. Reynolds is among the tobacco industry 
representatives that have been instrumental in encouraging the 
extensive use of flame retardant chemicals in un-upholstered 
furniture to deflect pressure on cigarette makers to make a 
fire-safe cigarette. Smoldering cigarettes, as you well know, 
often cause fires and kill people.
    So R.J. Reynolds is very relevant to the CPSC. R.J. 
Reynolds also owns companies that make e-cigarettes and liquid 
nicotine is very relevant to the CPSC.
    So I strongly suggest that as a threshold matter, you take 
the very simple, straightforward step--assuming that you will 
not be beholden to R.J. Reynolds, or Mattel, or Yamaha--of 
recusing yourself and committing to do so in any matters 
involving it, and thereby removing any potential taint or 
conflict of interest.
    Let me ask you, Mr. Bridenstine, about a statement that was 
made to you in a town hall that you hosted in 2014. You are 
familiar with this statement, I am sure.
    Rep. Bridenstine. I am.
    Senator Blumenthal. A member of the audience loudly 
exclaimed to you that President Obama should be, ``Executed as 
an enemy combatant.'' The video is available online, as you 
know.
    Your response was, ``Look. Everybody knows the lawlessness 
of this President. He picks and chooses which laws he is going 
to enforce,'' and then you went on.
    Do you regret your failure to disagree with that member of 
the audience?
    Rep. Bridenstine. If I had to do it again, I would have 
interrupted immediately. I did not.
    At the time, my best judgment was to just let her vent, and 
she went on for a number of minutes, and then ultimately I 
focused my comments on the last piece, the last part of what 
she said.
    But I would do it differently next time.
    Senator Blumenthal. So you do regret your decision not to 
interrupt?
    Rep. Bridenstine. I should have interrupted.
    Senator Blumenthal. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman. Thank you very 
much for this.
    Thanks to the witnesses for your willingness to serve our 
country today and to participate in this process.
    Dr. Jacobs, I would suggest, whether or not people are 
scientists has been a regular theme this morning. I am not a 
scientist, but I would suggest if you are looking to escape 
hurricanes, Colorado Springs still remains a very good place to 
escape hurricanes.
    [Laughter.]
    Senator Gardner. Thank you for your service and for being 
here today as a Coloradan as well, thank you.
    To Congressman Bridenstine, I would ask you, are you or 
have you ever been a Republican?
    [Laughter.]
    Senator Gardner. Are you, or have you ever had an opinion 
different than other Republicans?
    Rep. Bridenstine. Yes.
    Senator Gardner. Have you ever criticized Marco Rubio for 
his choice in music?
    Look. This, I think, hearing at times has gone into places 
where it is a little bit disgusting throughout this nomination 
hearing this morning, as well as previous nomination hearings 
this Congress has held this year.
    We have had nominees questioned over their Catholic faith. 
We have had nominees questioned over their Christian faith. In 
fact, one Senator said of a Christian nominee that this nominee 
is really not someone who is what this country is supposed to 
be about because they adhered to their Christian faith.
    Now, that did not come up in this hearing this morning. I 
am a little surprised it did not, though, based on some of the 
things that I have heard today.
    Your children are here. Your family is here. Thank you to 
them for their service as well. Thanks to all of you for your 
service.
    What I heard Ms. Baiocco say was that if the law requires 
you to do so, that you will do so. If the agreements you have 
signed require you to do so, you will do so. No doubt about it. 
You are not going to try to wiggle out of that, try to avoid 
the law.
    Is that correct?
    Ms. Baiocco. That is correct, sir.
    Senator Gardner. Thank you.
    Mr. Bridenstine, a couple of questions for you on what I 
had hoped would be the focus of this Committee hearing and that 
is a little bit of work that we are doing in Colorado on things 
like the Orion Project.
    Before I do that, I actually was reminded of an editorial 
op-ed that was put in the record by Chairman Thune earlier 
today, but I will just read the headline of this op-ed. 
``Bridenstine Wins a Democrat's Support for NASA's Top Job.'' 
That is the headline of this.
    Ed Perlmutter, my colleague from Colorado, said, ``I serve 
with Bridenstine on the House Science, Space, and Technology 
Committee. My first real interaction with him occurred a number 
of years ago when he visited Colorado to meet with 
scientists.''
    Did you meet with only Republican scientists?
    Rep. Bridenstine. No, sir.
    Senator Gardner. You probably did not ask that. Right?
    Rep. Bridenstine. I have no idea what their----
    Senator Gardner. Thank you, thank you. ``His background as 
a Naval aviator made it easier for him to absorb and understand 
the concepts being discussed by scientists and engineers. 
Despite our political differences, our parties, different 
parties, I am convinced Bridenstine will lead the brilliant 
scientists, engineers, technicians, and outstanding personnel 
at NASA as it embarks on a new era of space exploration and 
scientific discovery.''
    That was not Senator Lee. That was not Senator Cruz. That 
was not Donald Trump. That was a Democrat Congressman from 
Colorado who said that, who has your support.
    You and I had the pleasure of meeting when you got elected 
to Congress. We served together in the House of Representatives 
for a couple of years, but we also had a chance to meet while 
you were in the House. I was in the Senate.
    You came over to my office. You talked about space policy. 
You did not come over to my office to talk about space policy 
from the standpoint, ``Boy, we can really get rid of Democrat 
scientists if we do this.'' You did not talk about how we can 
pursue this policy or that policy in a partisan purpose.
    What you came to my office to talk about was a plan that 
you had put together for reaching greater distances in space; a 
plan to embolden the mission of NASA. To actually give an 
agency that has probably wandered far too long without a 
mission some substantive mission to get to back to what it is 
supposed to be doing. That is exploration. That is science.
    You did not come at it and try to say, ``This is how we are 
going to extinguish scientific research, values, and 
exploration.'' You came and you talked about how you are going 
to expand it and further that reach.
    Not everybody agreed with your approach, but I commend you 
for having a vision that, unfortunately, far too long this 
administration, the previous administration did not have and 
other administrations did not have either when it comes to 
NASA.
    So I will ask you about Orion, Mr. Bridenstine. Are you 
able to say today whether you support the Orion project moving 
forward?
    Rep. Bridenstine. Yes, sir, one hundred percent.
    Senator Gardner. Thank you, Mr. Bridenstine.
    I have a meeting that is in the lobby. They have waited for 
10 minutes so that I could let this opportunity occur. So I do 
not want to go any further without messing their schedule up.
    So thank you very much, the nominees, for being here, and I 
am sorry if I seemed a little irritated. It is because I am 
just sorry that you have gone through what you have gone 
through today.
    Rep. Bridenstine. Thank you, sir.
    The Chairman. Thank you, Senator Gardner.
    Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much, Mr. Chairman.
    There was some discussion as to the factual nature of 
Senator Peters' questions about the Tulsa Air and Space Museum. 
I was given the records here for the Museum that was the basis 
for Senator Peters' questions. I was asked to see if I could 
enter them into the record.
    I would like to ask that they be entered into the record.
    [The information referred to follows:]

                                      The Colpitts Law Firm
                                           Tulsa, OK, June 20, 2012

Re: Tulsa Air and Space Museum
Subject: Statements and Allegations Made by John Sullivan

TO WHOM IT MAY CONCERN:

    I am a board member and member of the Operating Committee of the 
Tulsa Air and Space Museum. I am also the legal counsel for the Tulsa 
Air and Space Museum, and as such, I have been requested to respond to 
certain recklessly false allegations made by John Sullivan for Congress 
about the Tulsa Air and Space Museum.
    The Official Statement of the Tulsa Air and Space Museum is 
attached, and the Tulsa Air and Space Museum stands by that statement. 
In a mass mailing made by John Sullivan for Congress in support of John 
Sullivan's bid to seek reelection as the Congressman for the 1st 
District of Oklahoma, certain statements were made which the Tulsa Air 
and Space Museum adamantly denies and require correction. Neither John 
Sullivan nor Sullivan for Congress has contacted the Tulsa Air and 
Space Museum Board of Directors or the Board Chair for comment on or 
validation of these allegations, and these allegations are 
categorically false:

  1.  TASM adamantly denies that ``right after [Jim Bridenstine] began 
        managing the museum, things started falling apart''.

  2.  TASM adamantly denies that ``museum attendance declined 44 
        percent'' during Jim Bridenstine's tenure. In fact, attendance 
        at the museum increased.

  3.  TASM adamantly denies that the ``finances [of TASM] were a 
        disaster'' before, during or after Jim Bridenstine's tenure.

  4.  TASM adamantly denies that the museum was ``nearly ruined'' by 
        Jim Bridenstine or anyone else.

    The Tulsa Air and Space Museum always has been under the management 
of a sound and active Board of Directors to which each executive 
director reports. With its feet firmly planted in the present and an 
eye to the future, the Board of Directors of TASM has always taken 
steps to ensure the sound management of the Tulsa Air and Space Museum. 
The Tulsa Air and Space Museum will be here for years to come.
    The allegations made by John Sullivan for Congress regarding the 
Tulsa Air and Space Museum were a reckless denial of the facts, and the 
Tulsa Air and Space Museum demands that Sullivan for Congress publicly 
withdraw the allegations made by it.
            Respectfully,
                                       Gregory J. Colpitts.
                                 ______
                                 
             TULSA AIR AND SPACE MUSEUM OFFICIAL STATEMENT
    The Tulsa Air and Space Museum is neither for nor against any 
candidate in any election. Certain statements have been made by others 
outside of the Tulsa Air and Space Museum and the Tulsa Air and Space 
Museum wishes to clarify certain facts: Jim Bridenstine was employed at 
the Tulsa Air and Space Museum as its Executive Director from December 
2008 through August 20, 2010. While at the Tulsa Air and Space Museum, 
Jim Bridenstine developed the QuikTrip Air and Rocket Racing Show and 
the Land the Shuttle Campaign, both of which garnered tremendous 
visibility for the Tulsa Air and Space Museum. While Mr. Bridenstine 
was executive director attendance increased at the museum. In August 
2010 Mr. Bridenstine voluntarily resigned from bis position as 
Executive Director at the Tulsa Air and Space Museum in order to follow 
bis orders in the Navy Reserves. Mr. Bridenstine was not terminated 
from the Tulsa Air and Space Museum.
                                         Barbara Smallwood,
                                Chairman of the Board of Directors,
                                            Tulsa Air and Space Museum.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    Senator Booker. And perhaps, just a question for the 
record, you do not have to answer it now, but could you address 
these concerns? I did not know about them before the hearing 
and I think that it would be valuable to hear your discussions. 
This is a very large budget.
    As a guy who went from just being a legislator to running a 
billion dollar operation, I could write a book about all the 
mistakes I made in the first year, but learned to be a really 
good manager. And I think that this is a valid question and a 
line of questioning, and you should explain this before folks 
vote.
    Will you do that for us?
    Rep. Bridenstine. I would be happy to.
    Senator Booker. Thank you very much.
    Senator Lee is a friend of mine. He claimed that you were 
clean. I have no evidence to that or not. He said that you were 
thrifty, but he also said that you were brave. And clearly, 
sitting here through all this questioning, you are brave in 
putting yourself up, and I appreciate it.
    And I really want to note to you how much I appreciate your 
visit with me. You came with humility and just a real earnest 
sense and desire to serve your country, which I think is valid 
and very true. Clearly, you are an American that seeks to serve 
and try to make our Nation better.
    I do not have that much in terms of questioning and some of 
it is just repeating because I thought it was interesting, the 
questions from two of my colleagues about LGBT issues. And 
again, I think you were very sincere when you said you are 
going to follow the letter of the law. And obviously, as a 
manager, you know that there are laws regarding the treatment, 
and the honor of folks.
    But I guess what I want to hear from you is coming from a 
family who, stories around the dinner table, about how 
difficult it was to see people in positions of power who did 
not see and believe in their worth, how hurtful that is.
    And you are going to be in a position, not just managing 
people, but you are one of the more, at least in my eyes, one 
of the more inspire, you are up for an office to be one of the 
more inspiring leaders in the United States of America where 
children will look to you.
    I am just wondering to read things saying that 
homosexuality is immoral. Same sex couples are ill-suited for 
raising children. These are comments you have made.
    Correct?
    Rep. Bridenstine. Not that I remember.
    Senator Booker. OK. So I have quotes here that I would like 
to enter for the record that the nominee has made regarding 
gays and lesbians. I think it is important.
    May I enter them for the record?
    The Chairman. In what form?
    Senator Booker. Just quotes from various articles and 
interviews.
    The Chairman. If you submit the whole article, without 
objection.
    Senator Booker. Thank you very much.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 

    Senator Booker. And so, I am wondering if you are a child 
and you have quotes, some of us in America still believe in the 
concept of sexual morality.
    Tell me how you think a child will view a leader who thinks 
that they are immoral or engaging in immoral acts? Can you just 
tell me how you think a child will view your leadership? 
Really, it is in terms of their dreams, and aspirations, and 
perhaps even one day be an astronaut.
    Rep. Bridenstine. Sir, I will tell you this. I believe that 
every person has dignity and worth, and every person has value. 
The personal views I have on sexual morality are my personal 
views.
    As leader, should I be confirmed to be the NASA 
Administrator, certainly I can tell you NASA is unique in its 
ability to inspire and educate young folks. And you and I had 
this conversation in your office.
    Senator Booker. And forgive me for interrupting you, I have 
limited time and there is a vote that has been called.
    So if you are NASA Administrator, let us picture you there, 
and someone asks you questions about sexual morality, you are 
going to stay consistent with your past statements in how you 
view same sex couples raising children, and the hundreds of 
thousands of children in America that are being raised in that 
way. You are going to stick to your past statements?
    Rep. Bridenstine. Sir, I will tell you this. I believe 
every person has value and worth, and I absolutely believe 
that. And I will be committed to making sure that there is 
equal opportunity and standards will be uniform. And that 
absolutely is my position and will continue to be my position.
    I want to see everybody who works at NASA be able to excel 
based on the merits of their work exclusively.
    Senator Booker. Well, my time is running out and I just 
want to say you and I are both Christians. We both believe in 
the radical love of Christ.
    Rep. Bridenstine. Yes, sir.
    Senator Booker. But I just want you to know that I am a big 
believer that before someone tells me about their religion, I 
want to see it in how they treat other people, how they talk 
about other people, how they talk about the despised or the 
hated. Do they visit people in prison? Do they care about those 
people who are put down in society?
    And it is coming from one of the cultures in America where 
you see people sometimes in power and the way they talk about 
groups. It is very hurtful and it is very discouraging.
    And I just want you to know because I am not sure whether 
you will be confirmed or not, but this is a beautiful country, 
and I am glad that you affirmed the dignity and worth of all 
folks. But it is critically important, should you have the 
privilege of serving in this position that it is about 
inspiration. It is about elevating the potential and 
possibility of all human beings.
    It is very, very important that you are not seen as someone 
who stands in judgment of people because of who they are. And 
that, in fact, can speak to the aspirations of all folks 
whether they are gay, straight, black or white, or what have 
you.
    I am grateful for your willingness to put yourself forward 
for this, but I am really hoping, in my opinion, that you can 
give some more assurances to all those people that you will be 
responsible for not just managing, but inspiring.
    Thank you very much.
    The Chairman. Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, and I thank my colleague from 
New Jersey for his very moving remarks.
    Mr. Bridenstine, NASA is a diverse institution of 
scientists, engineers, and mathematicians from all backgrounds 
and walks of life who come together to achieve the agency's 
very unique mission.
    And Americans rightfully take pride in NASA's achievements 
and NASA's scientific progress is indeed intertwined with the 
progress of becoming more inclusive and more diverse within 
NASA itself. Not less.
    It is incumbent on the NASA Administrator to foster an 
environment where our brightest, our very best are valued for 
their innovative ideas no matter their gender, race, or sexual 
orientation.
    Yet, Mr. Bridenstine, you have appeared on Frank Gaffney's 
radio show, not once, not twice, but seven times. This is a man 
who called for one of your House colleagues, Congressman Andre 
Carson, to be removed from the House Intelligence Committee 
because of his religious faith.
    What is your relationship with Mr. Gaffney and were you 
aware that his organization has been identified as extremist by 
the Anti-Defamation League and as a hate group by the Southern 
Poverty Law Center?
    Rep. Bridenstine. Ma'am, I am not aware of that. I have 
seen Frank Gaffney around the House of Representatives. He gets 
involved in national security issues and I have gone on his 
radio program, as you have said.
    Senator Duckworth. OK. So yes or no, do you believe that 
Congressman Carson represents a national security risk to the 
United States because of his religion?
    Rep. Bridenstine. Not at all. I know him and I think he is 
a good man.
    Senator Duckworth. OK. Did you dispute Mr. Gaffney's 
calling for him being removed from the Committee because of his 
religion at any time in the seven interviews you gave or in any 
of the times that you have met him in the halls of Congress?
    Rep. Bridenstine. I did not know that he had ever made 
those comments. If I did know that, I would have refuted it.
    Senator Duckworth. OK. Thank you.
    In November 2014 and December 2016, you spoke at the 
Restoration Weekend Conference at the David Horowitz Freedom 
Center in Palm Beach, Florida where you praised the work of Mr. 
Horowitz and the Center. So that is twice, 2014 and 2016.
    Are you aware that the Southern Poverty Law Center has 
identified David Horowitz's Freedom Center as a hate group, and 
Mr. Horowitz himself as a hate group leader for their anti-
immigrant and anti-Muslim far right rhetoric?
    Rep. Bridenstine. I am not aware of that.
    Senator Duckworth. So, OK.
    It is troubling to me that you would have associations, not 
casual, but multiple meetings and multiple events, and attend 
things like seven radio shows, two major events with people 
that you do not know that they have been identified by multiple 
groups as being hate groups. That is troubling.
    There are dedicated NASA employees who are, or may be, 
deeply concerned about their futures at the agency given your 
history of offensive statements against LGBTQ Americans and 
seeming comfortable with hate groups, or at least willful 
ignorance is what it sounds like to me now, about hate groups.
    To begin addressing these concerns, yes or no, if confirmed 
as NASA Administrator, would you treat discrimination against a 
NASA employee on the basis of sexual orientation, or gender 
identity, or religion as a prohibited personnel practice?
    Rep. Bridenstine. Discrimination based on that, prohibited, 
absolutely. It should be prohibited.
    Senator Duckworth. So gender identity, sexual orientation, 
as well as religious affiliation?
    Rep. Bridenstine. Absolutely, yes, ma'am.
    Senator Duckworth. OK.
    When we met to discuss your nomination, you had not yet 
read the Rogers Commission Report, which was published after 
the Challenger disaster. In my opinion, this would be mandatory 
and basic reading for anyone seeking a management job at NASA, 
let alone becoming the NASA Administrator.
    So I was quite taken aback that not only did you know about 
it, had not read it, you did not even know about it, and I 
suggested that you read it before you came today.
    Have you read the Report since our meeting?
    Rep. Bridenstine. Yes, ma'am, I have read it a number of 
times since our meeting.
    Senator Duckworth. OK.
    Rep. Bridenstine. And I did not identify it as the name, 
the Rogers Commission Report, but when I read it, I recognized 
that when I did my MBA at Cornell, I had read it before.
    Senator Duckworth. But did not remember the lessons from 
it, which is a great concern for someone who is looking to lead 
NASA.
    The Report indicates that not only were there technical 
failures that led to the disaster, but there were also 
contributing management failures because of political 
motivations.
    I hope you will consider, as you said, rereading the report 
multiple times and thank you for your service to this Nation, 
both in uniform and in Congress.
    But I truly do not think you are ready to be Administrator 
for NASA. Thank you.
    I yield back.
    The Chairman. Thank you, Senator Duckworth.
    Senator Klobuchar just wants to say something.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Yes, thank you. I am just going to put 
my questions on the record because we have the vote.
    But I had some questions, Mr. Bridenstine, for you about 
the work that Senators Capito, Scott, and I have done on 
Diversifying Tech and, of course, that relates to NASA and how 
important that is.
    And then we had a good meeting, Ms. Baiocco, yesterday, 
which I appreciated.
    And I will put some more questions on the record about the 
various consumer issues that we discussed including the 
importance of the pool safety law, and the CPSC's continuing 
involvement.
    And then I will put the other questions on the record.
    So I just want to thank you for being before us today.
    Thank you.
    Ms. Baiocco. Thank you, Senator.
    The Chairman. Thank you, Senator Klobuchar.
    And let me just say that if associating with organizations 
like the Family Research Council disqualifies you for serving 
any public position, I think every Republican senator, and some 
Democrat senators, would be disqualified.
    Senator Cruz.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman.
    Congratulations to each of the nominees for your 
nominations. To the three folks on the right, I congratulate 
you for the good judgment of joining Representative Bridenstine 
and letting him play the role of a blocking back.
    [Laughter.]
    Senator Cruz. Let me say, as Chairman of the Space 
Subcommittee, I am proud and deeply gratified that President 
Trump has nominated Representative Bridenstine to lead NASA.
    And I will say, this Committee's sorry performance during 
the confirmation hearing may not be surprising in the current 
environment, but it is disappointing nonetheless.
    Senator Booker said a few minutes ago that the leader of 
NASA should be inspirational. I agree with that. And I can 
think of very few people I have known who are more 
inspirational than Jim Bridenstine.
    We have seen, sadly, Democrats attempting to malign your 
character. And yet, you have spent your entire adult life in 
public service.
    You are a War hero. Now, you are too modest to say that 
yourself, but I am perfectly happy to say that. Your record of 
defending this Nation is remarkable including flying combat 
missions in Iraq and Afghanistan, earning the Air Medal, and 
Navy and Marine Corps Commendation Medal with Combat ``V'' for 
your heroic achievements.
    Your combat missions included Airborne Battlefield Command 
and Control, and tactical air control flights in support of the 
liberation of Iraq, controlling over 180 kill box interdiction 
and close air support missions resulting in the destruction of 
countless tanks, armored vehicles, and time sensitive and fixed 
targets.
    You later transitioned to the F-18 Hornet, while on active 
duty serving at the Naval Strike and Air Warfare Center, Top 
Gun Command, where you flew both the E-2 and F-28. There 
receiving fitness reports from your Commanding Officers which 
rated you as, quote, ``The Number One Hawkeye pilot, and 
weapons and tactic instructors.'' And, quote, ``The most 
tactically skilled pilot in the E-2 community.''
    That is a remarkable record and then you have had an 
honorable service in the U.S. Congress. You are friend, a 
personal friend, and I will tell you, and I want to tell this 
Committee that Jim Bridenstine is a man of deep character and 
integrity.
    I will also note, and I met this morning with an astronaut 
who had spent over 100 days on the Space Station. Quite a 
number of the astronauts at NASA have backgrounds very much 
like yours.
    In terms of someone who can lead NASA, who can look in the 
eyes of an astronaut and understand what they are being asked 
to do, I think you bring exceptional fitness to this job.
    Now, some of my colleagues on this Committee seem to be 
putting forward the notion, essentially, that a Member of 
Congress cannot be expected to lead NASA, especially not a 
Member of Congress who was actually, God forbid, a Republican 
and even a conservative Republican.
    I would like to ask you, Representative Bridenstine, in 
your view, what is the difference between the job of a Member 
of Congress and the job of Administrator of NASA?
    Rep. Bridenstine. Well, thank you for the question, 
Senator.
    I see it as the same as the difference between my job, as 
you mentioned, as a Navy pilot and my job as a Member of 
Congress.
    As a Navy pilot, politics really did not come into it. In 
fact, we were a very diverse group of people trying to 
accomplish a very specific mission at various times. And it was 
apolitical.
    I know what it is to serve as a Member of Congress, and I 
know what it is to serve in the Executive Branch. I understand 
how the two are very different and, should I be confirmed as 
NASA Administrator, I would conduct myself in a very 
nonpartisan way doing what is in the best interest of the 
United States of America exclusively.
    Senator Cruz. I will note the Ranking Member of this 
Committee has a deep and abiding interest in space going back a 
long time, and he and I have worked together very closely.
    This Committee has managed to avoid some of the partisan 
wrangling that other committees get drawn into. And one of the 
reasons why we have been able to pass in the last couple of 
years, two major pieces of space legislation is because of the 
bipartisan cooperation on space, both NASA and commercial 
space.
    I believe you are going to get confirmed, but I would say 
to my Democratic friends on this Committee that if the 
confirmation ends up going down as a party line vote, I think 
that would be deeply unfortunate for NASA and for the space 
community.
    I understand the political pressures Democratic members of 
this Committee feel and Democratic members of the Senate feel, 
but I believe the bipartisan cooperation we have had has been 
integral to space, and I hope it continues.
    And I hope we see Democrats courageous enough to recognize 
your extraordinary record of service and personal integrity, 
and can come together.
    I enthusiastically support your nomination and look forward 
to voting to confirm you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cruz.
    I think, Senator Nelson, you have a couple of follow-up 
questions.
    Senator Nelson. A couple of questions on safety, 
Congressman. The dragon spacecraft and the Starliner commercial 
crew capsules are nearing their first test flight.
    It was originally stated in NASA's authorization of 2010 
and recently affirmed in NASA's transition authorization of 
2017, the NASA bills 2010 and 2017. The NASA Administrator in 
those two bills, now law, is responsible for ensuring the 
safety of NASA's astronauts aboard these vehicles.
    This Senator has lived through the loss of two space 
shuttles in which, in the case of one, the final go was by an 
Acting Administrator who was not technically up to date. It was 
an Acting Administrator. Interestingly, the Administrator, Jim 
Beggs, was in his office having stepped aside because he had 
been indicted for something that he did not do, and later 
proved that.
    And he is on the phone to the Kennedy Space Center begging 
them, when he is seeing on his NASA TV in his office, which he 
had not vacated because he knew he would vindicate himself of 
the charges, but nevertheless, he was out of the decisionmaking 
loop.
    And he is on the phone. He is seeing the icicles and he is 
calling the Cape, and he knows what rubberized gaskets called 
O-rings are, and he is begging the Space Center not to proceed 
with the launch.
    And yet, it went right down to the final decision made by 
the then Acting Administrator. And the launch was made and 10 
miles high in the Florida sky the space shuttle Challenger 
exploded because of the cold weather.
    Now, since you do not have an engineering or scientific 
background, and as NASA Administrator you would make that final 
decision, how do you think that you can fulfill that 
responsibility?
    Rep. Bridenstine. Thank you for that question, sir.
    When we think about the organizational structure of NASA, 
there are independent technical authorities that have 
responsibility over various areas of safety. And I want to be 
clear before I even start, sir.
    I understand that the NASA Administrator is responsible for 
human safety, and I understand that those decisions ultimately 
will be mine and that I will be accountable. I understand that.
    These independent technical authorities, whether it is 
safety or engineering, there is another one that is health and 
medicine, those independent technical authorities provide 
independent guidance to the NASA Administrator, and they are on 
the same level within the organization as the programs.
    It would be my goal, should I be confirmed as the NASA 
Administrator to, of course, have those independent technical 
authorities remain independent. And what I mean by that is that 
they are not funded by the programs themselves, which sometimes 
has been the case. But they need to remain independent.
    And ultimately if there is some kind of technical 
discrepancy, there will absolutely be a decision made on the 
ninth floor of the NASA building, and it would include myself 
as the NASA Administrator, but it would also include the COO of 
the organization, the associate administrator, and the 
associate administrator for human exploration and operations.
    And people, like Robert Lightfoot and Bill Gerstenmaier, 
will continue at the organization. And I know that there is no 
way of knowing how long or what their life ambitions are beyond 
NASA. But people like that will be very involved in informing 
the decisions going forward.
    Senator Nelson. Those independent technical authorities 
that you mention, such as the NASA Chief Engineer and the Chief 
Safety Officer.
    Rep. Bridenstine. Yes, sir.
    Senator Nelson. You may ponder what, if you received 
advice, that was in conflict from both of them, and thus a NASA 
Administrator has to make that judgment.
    Right as we are on the cusp of major decisions of going 
back into space with humans on American rockets and, of course, 
the launching of the Mars program.
    I wanted you to see what Senator Booker had early referred 
to and had entered into the record in response to your previous 
statement.
    If you will look, this is the income tax return of the 
Tulsa Air and Space Museum and what it shows in 2009, the prior 
year, it had a total revenue of $1.2 million and in the current 
year, it had, meaning the current year of 2009, $977,000 
revenue.
    But when you subtract the expenses, the revenue less 
expenses, it was exactly what you were asked earlier that the 
income in the prior year was $73,000 and the income in the year 
2009 was a negative $311,000.
    And so do you want to comment on that?
    Rep. Bridenstine. Sure.
    Senator Nelson. Instead of a statement later, but if you 
want to do it in writing, that is OK.
    Rep. Bridenstine. So just to be clear, this is an income 
tax return from 2009. The last time I would have seen this 
would have been 2010, and I am seeing it right now again for 
the first time in 7 years.
    I am just going to recall, to the best of my ability, what 
the Tulsa Air and Space Museum was up to back then.
    We had a number of big, big projects that we were investing 
in. And yes, we had cash reserves to do that. And working with 
the Tulsa Air and Space Museum Board of Directors, we did big 
projects.
    Now, some of those projects include an effort to acquire a 
retiring space shuttle for the City of Tulsa that would be at 
the Tulsa Air and Space Museum. And in that effort, working 
with the City of Tulsa, and the Tulsa Air and Space Museum, and 
the Board of Directors, we made an intentional investment to 
try to make that happen.
    At the time, we also had an air show that attracted 40,000 
people and that was an investment. The goal here was to 
increase, at the time, the attendance at the Tulsa Air and 
Space Museum.
    But I want to be really clear. I was making these decisions 
with a Board of Directors that was very involved in all of 
these decisions.
    As far as the cash loss, these were intentional at the time 
and I presume all of this is accurate. I trust that it is all 
accurate. We were making those investments.
    I will tell you that when this came up as an attack piece 
in the campaign, which I am not new to this kind of activity. 
The Tulsa Air and Space Museum got involved, and the Board of 
Directors, and they rejected this notion that somehow I did 
something wrong entirely.
    And because they were willing to do that, quite frankly, 
sir, it backfired on my opponent in a way that got me elected 
to the House of Representatives, which is why I am here before 
you today.
    So that is to the best of my recollection what occurred. I 
will tell you this, the Tulsa Air and Space Museum is an 
absolute jewel for the City of Tulsa. It continues to educate 
and inspire young folks.
    The folks there that run the Museum are exceptional, 
exceptional people. Like I said, when I turned 40 years old two 
and a half years ago, I had my birthday party at the Tulsa Air 
and Space Museum. Senator Cruz actually came to it.
    And so I am very proud of my service there. In fact, I had 
lunch with one of the Board Directors just last week. It is an 
exceptional organization.
    And I will tell you this, and I think this is important as 
well. Museums like this are all across the country and they 
serve NASA very well. NASA is an organization that does inspire 
young people and these kinds of institutions that are 
nonprofits.
    Remember, the goal here was not to make a business. This is 
a nonprofit institution. We were investing in the education and 
inspiration of young people. And yes, we had donors that were 
enabling us to do this.
    It is a great organization. NASA should be encouraging this 
kind of activity all across the country because they are among 
NASA's greatest promoters.
    I will also tell you that the Tulsa Air and Space Museum 
just recently invited me to be the Honorary Chairman of their 
big event every year called ``The Aviator Ball.''
    So this is kind of an attack piece from many years ago and 
it does not accurately represent my tenure there at all.
    Senator Nelson. OK. I will submit additional questions for 
the other members of the panel, of which you have not had a lot 
of questions. I will submit those questions for your 
consideration.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    And I want to thank, again, our panelists for being here 
today. We respect your public service.
    Congressman, you are a combat veteran. We respect your 
service to our country and the sacrifices that you, and your 
family, have made in that regard, and your public service 
since.
    And all of you who have had stints in public service, we 
appreciate that and your willingness to continue to serve. 
These are tough jobs and these confirmation hearings probably 
are not real fun but nevertheless, it is a part of the process. 
And so, thank you for your responses to our questions.
    My guess is that the other three of you may get more 
questions for the record, probably, than perhaps you got here.
    But I would ask our members to submit those questions as 
quickly as possible. And, if possible, for you to get those 
responses to us because we are trying to close out the record 
of this hearing by Friday, which will be, I know, a little 
challenging.
    But if Senators get their questions in, get their written 
answers to the Committee, we will try and do that by November 
6, which would be, I guess, Monday next and then we will try 
and move forward with all of your nominations here at the 
Committee level.
    Again, thank you for being here; appreciate you all coming.
    And with that, I'll adjourn the hearing.
    [Whereupon, at 12:40 p.m., the hearing was adjourned.]

                            A P P E N D I X

                                       United States Senate
                                   Washington, DC, October 26, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    I write today to express my deep concern over Representative Jim 
Bridenstine's nomination to be Administrator of the National 
Aeronautics and Space Administration (NASA). Rep. Bridenstine's 
background makes him an extremely concerning choice to lead this 
critical agency and its 19,000 diverse employees. Rep. Bridenstine's 
denial of climate science and consistent opposition to equal rights for 
women, immigrants, and gay, lesbian, bisexual, transgender, and queer 
(LGBTQ) individuals should disqualify him from consideration. Given his 
very public statements and positions, it is clear Rep. Bridenstine 
would move us backwards not forwards, and I urge you to vote against 
his nomination.
    Rep. Bridenstine has repeatedly rejected the overwhelming 
scientific consensus on climate change. In a June 2013 speech delivered 
on the floor of the House of Representatives, Rep. Bridenstine repeated 
the debunked claim \1\ that ``global temperatures stopped rising 10 
years ago.'' \2\ A March 2013 tweet from Rep. Bridenstine failed to 
recognize the difference between local weather conditions and the 
broader planetary climate, a basic scientific concept: ``Today's House 
Science Committee Hearing On Global Warming Was Cancelled Because Of 
Snow!'' \3\
---------------------------------------------------------------------------
    \1\ Mark Fischetti, ``No Pause in Global Warming,'' Scientific 
American, Jan. 4, 2017, https://www.scientificamerican.com/article/no-
pause-in-ocean-warming/.
    \2\ US. House of Representatives Floor Speech, C-SPAN, June 11, 
2013, retrieved from YouTube, https://www.youtube.com/
watch?v=GUcsAFnwC7k.
    \3\ Jim Bridenstine, @RepJBridenstine, ``Today's Science Committee 
hearing on global warming was cancelled because of snow!'' Twitter, 
Mar. 6, 2013, https://twitter.com/RepJBridenstine/status/
309370680489672704.
---------------------------------------------------------------------------
    Given that NASA's Fiscal Year 2018 budget requested $1.8 billion 
for Earth-observing and climate science missions,\4\ Rep. Bridenstine's 
failure to accept fundamental scientific truths about Earth's climate 
make him an ill-suited and dangerous choice to lead the agency.
---------------------------------------------------------------------------
    \4\ NASA FYI 8 Budget Request, https://www.nasa.gov/news/budget/
index.html.
---------------------------------------------------------------------------
    Rep. Bridenstine is an outspoken opponent to the rights of LGBTQ 
individuals, immigrants, and women. In a May 2013 speech, Rep. 
Bridenstine suggested that LGBTQ individuals were sexually immoral, 
stating, ``Some of us in America still believe in the concept of sexual 
morality, that sex is intended for one man and one woman within the 
institution of marriage.'' \5\ In response to the Supreme Court's 
marriage equality ruling in 2013, Rep. Bridenstine stated that ``the 
court's decision was a disappointment'' and that he would ``continue to 
fight for traditional marriage.'' \6\ Bridenstine has also been a guest 
on 16 separate occasions and twice co-hosted Washington Watch with Tony 
Perkins, a daily radio show published by the Family Research Council 
(FRC), which has been designated by the Southern Poverty Law Center 
(SPLC) as a hate group for its anti-LGBTQ remarks. FRC has stated, 
``homosexual conduct is harmful to the persons who engage in it and to 
society at large, and can never be affirmed. It is by definition 
unnatural, and as such is associated with negative physical and 
psychological health effects.'' \7\ Tony Perkins, FRC's President, has 
declared that gay activists are ``intolerant, hateful, vile, spiteful 
pawns of the Devil.'' \8\
---------------------------------------------------------------------------
    \5\ Zack Ford, ``Oklahoma Congressman: The Left is 'Intolerant' for 
Wanting Gay Boy Scouts,'' Think Progress, May 23, 2013, https://
thinkprogress.org/oklahoma-congressman-the-left-is-intolerant-for-
wanting-gay-boy-scouts-3bb9c4931144/.
    \6\ ``In Support of Traditional Marriage,'' JIM'S BLOG, Office of 
Rep. Jim Bridenstine, July 3, 2013, accessed Oct. 25, 2017, https://
bridenstine.house.gov/media-center/blog-posts/in-support-of-
traditional-marriage.
    \7\ ``Homosexuality,'' Family Research Council, accessed Oct. 25, 
2017, http://www.frc.org/homosexuality.
    \8\ Kyle Mantyla, ``Perkins: Gay Activists Are Intolerant, Hateful, 
Vile, Spiteful, Pawns of the Devil,'' Right Wing Watch, May 3, 2011, 
http://www.rightwingwatch.org/post/perkins-gay-activists-are-
intolerant-hateful-vile-spiteful-pawns-of-the-devil/.
---------------------------------------------------------------------------
    Rep. Bridenstine has a history of supporting anti-Muslim groups and 
has consistently defended a number of President Trump's discriminatory 
and unconstitutional policies on immigration, including the thrice-
struck down Muslim Travel Ban.\9\ On seven separate occasions, 
Bridenstine has appeared on Secure Freedom Radio with Frank Gaffney, 
the founder of the Center for Security Policy (CSP), a far-right think 
tank that advocates anti-Muslim views. SPLC considers Gaffney ``one of 
America's most notorious Islamaophobes.'' \10\ CSP has promoted 
conspiracy theories related to Islam, including suggesting that 
Representative Andre Carson and Huma Abedin and her family have ties to 
the Muslim Brotherhood. Bridenstine has also spoken at conferences at 
the David Horowitz Freedom Center (DHFC), a far-right, anti-Islam group 
that, in their own words, ``combats the efforts of the radical left and 
its Islamist allies to destroy American values and disarm this country 
as it attempts to defend itself in a time of terror.'' \11\
---------------------------------------------------------------------------
    \9\ Aaron Blake, ``Whip Count: Here's where Republicans stand on 
Trump's controversial travel ban,'' Washington Post, Jan. 31, 2017, 
https://www.washingtonpost.com/news/the-fix/wp/2017
/01/29/heres-where-republicans-stand-on-president-trumps-controversial-
travel-ban/?utm_term
=.81901b71a504.
    \10\ ``Frank Gaffney Jr.'' Southern Poverty Law Center, accessed 
Oct. 25, 2017, https://www.splcenter.org/fighting-hate/extremist-files/
individual/frank-gaffney-jr.
    \11\ ``About David Horowitz Freedom Center,'' David Horowitz 
Freedom Center, accessed Oct. 25, 2017, http://
www.horowitzfreedomcenter.org/about.
---------------------------------------------------------------------------
    In 2013, Rep. Bridenstine voted against the reauthorization of the 
Violence Against Women Act (VAWA), while claiming that VAWA and its key 
anti-domestic violence programs ``[misallocate] scarce Federal 
resources.'' \12\ Additionally, after then-candidate Donald Trump's 
comments about sexual assault became public in October 2016, Rep. 
Bridenstine actively downplayed the comments and criticized individuals 
who condemned them.\13\ On multiple occasions when provided with the 
opportunity to reject President Trump's comments, Rep. Bridenstine 
instead said they amounted to nothing more than ``locker room talk.'' 
\14\
---------------------------------------------------------------------------
    \12\ Jim Bridenstine, @RepJBridenstine, ``Today's Science Committee 
hearing on global warming was cancelled because of snow!'' Twitter, 
Feb. 28, 2013, https://twitter.com/RepJBridenstine/status/
307212538129567744.
    \13\ Randy Krehbiel, ``Rep. Jim Bridenstine would consider Federal 
appointment if offered by Trump,'' Tulsa World, Nov. 11, 2016, http://
www.tulsaworld.com/news/elections/rep-jim-bridenstine-would-consider-
federal-appointment if-offered-by/article_91615f2f-38da-515e-a97b-c6
14e2822c37.html.
    \14\ The Lead With Jake Tapper, CNN, Oct. 12, 2017.
---------------------------------------------------------------------------
    Since its creation, NASA has played a singular role in American 
life. The agency has inspired countless young people to pursue careers 
in science, technology, engineering, and math, and has stirred 
curiosity in billions of individuals across the world. Rep. 
Bridenstine's denial of fundamental scientific facts and long record of 
bigoted and hateful statements run counter to this legacy. I urge you 
and your colleagues on the Senate Committee on Commerce, Science, and 
Transportation to oppose his nomination.
            Sincerely,
                                              Patty Murray,
                                             United States Senator.
                                 ______
                                 
Climate Hawks Vote, Hip Hop Caucus, League of Conservation 
Voters, Natural Resources Defense Council, NextGen America, 
Public Citizen, Sierra Club, Students for a Just and Stable 
                                                     Future
                                                   October 31, 2017
Dear Senator,

    On behalf of our millions of members, we write to urge you to 
oppose the nomination of Representative Jim Bridenstine (OK-01) to be 
Administrator of the National Aeronautics and Space Administration 
(NASA). Rep. Bridenstine lacks the historical qualifications to lead 
NASA, has spoken against some of its core activities, and has a voting 
record at odds with parts of NASA's scientific mission.
    Due to the scope and importance of the agency's mission, nominees 
to lead NASA historically have come from scientific backgrounds and 
have not previously held elected office. Rep. Bridenstine not only 
lacks a scientific background, but has been worked against sound 
science, denied the human contribution to climate change, consistently 
voted against environmental progress, and sought to cut climate 
research funding. Bridenstine also holds inconsistent views on earth 
science funding, a core part of NASA's mission. Although he recently 
expressed support for continued earth science funding, Bridenstine 
earlier this year expressed an openness to ``rebalance'' NASA by moving 
earth science work to another agency. This is in line with the current 
Trump administration budget proposal that cuts over $100 million from 
earth science missions, including ending the Radiation Budget 
Instrument (RBI), which measures sunlight and emitted radiation; the 
PACE mission, which monitors clouds and interactions between the 
atmosphere and oceans; the OCO-3 program, which monitors atmospheric 
carbon levels; the CLARREO Pathfinder mission, which measures 
atmospheric heat; and earth-viewing instruments on the Deep Space 
Climate Observatory (DSCOVR) satellite.
    Rep. Bridenstine's voting record demonstrates a dangerously skewed 
view of science. Bridenstine has opposed numerous science-based 
environmental and health standards, supported weakening the ability of 
agencies to rely on science to inform decision-making, and supported 
numerous appropriations bills and budget proposals that would 
eviscerate basic science programs.
    NASA's mission is too important to entrust to a nominee who lacks 
the requisite scientific qualifications. The research produced by 
NASA's earth science mission is critical to the continuance of 
scientific progress to understand the planet we live on, particularly 
as we grapple with the consequences of a changing climate. 
Representative Bridenstine's record casts doubt on his ability to lead 
NASA in the fulfillment of the full scope of its mission. We request 
that you vote to oppose his nomination.
            Sincerely,

Climate Hawks Vote
Hip Hop Caucus
League of Conservation Voters
Natural Resources Defense Council
NextGen America
Public Citizen
Sierra Club
Students for a Just and Stable Future
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                         Hon. James Bridenstine
    Question 1. At Stennis Space Center in Mississippi, NASA and its 
industry partners are testing the next generation rocket engines for 
space exploration and national security space. They have already 
completed final test and assembly for the 4 RS-25s that will launch the 
first mission of SLS and Orion, known as Exploration Mission-1. And as 
of October 19, they have already begun final assembly and testing for 
the RS-25s to be flown on the second launch of SLS and Orion.
    Are you committed to continuing these efforts at Stennis to ensure 
we don't once again fall behind other nations when it comes to space 
launch and exploration?
    Answer. Yes. Not only is Stennis Space Center NASA's primary rocket 
testing facility, but it is also in high demand for rocket testing by 
NASA's commercial partners. I am looking forward to the full-scale test 
of the SLS first stage, with the RS-25s integrated, at Stennis, 
expected late next year.

    Question 2. What do you see as the long-term role of SLS and Orion 
within NASA's strategic vision for deep space human exploration?
    Answer. SLS and Orion will serve as the backbone to our country's 
Deep Space exploration architecture. In order to go back into Deep 
Space, we need the ability to throw tens of metric tons of mass to 
trans-lunar injection as well as carry wide pieces of hardware, which 
the SLS will be uniquely suited to do.
    Additionally, in order to travel to Deep Space, we need the Orion 
Multi-Purpose Crew Vehicle. Among other features, the Orion is designed 
with ECLSS to support astronauts for longer missions, is more hardened 
against radiation, and is designed to withstand the heat of re-entry 
from trajectories that accompany missions to Deep Space.

    Question 3. Do you agree that long-term, consistent funding for 
these programs is essential to achieving our Nation's deep space 
exploration goals?
    Answer. Yes, I do. When it comes to NASA's biggest science and 
exploration missions we are discussing timelines of decades. Without 
long-term, consistent funding and support, progress and discovery could 
be prevented, taxpayer dollars wasted, and agency morale eroded. This 
is why it is crucial that NASA maintain its broad bipartisan support, 
and if confirmed I intend to work with Congress, the Administration, 
industry, scientists, academia and non-profits to develop a consensus 
agenda that is sustainable.

    Question 4. Stennis Space Center was a vital element to our deep 
space exploration goals during the Mercury, Gemini, Apollo and Shuttle 
programs. It continues to provide critical rocket propulsion testing 
for the SLS program. Do you agree that Stennis is the premiere Rocket 
Propulsion Test (RPT) center in the country? Do you also agree that 
keeping Stennis at that level of capability is vital to our national 
and long-term space exploration interests?
    Answer. There is no question that Stennis the premier Rocket 
Propulsion Test center in the nation, and if I am confirmed as 
Administrator I will work to make sure that it stays the premier Rocket 
Propulsion Test center in the Nation.

    Question 5. I am concerned of reports that NASA is prioritizing 
funding to the maintenance and upgrades of other space centers while 
the rocket testing facilities at Stennis are in serious need of 
upgrades. What are your plans to fix this disparity and ensure Stennis 
remains at the forefront of our Nation's propulsion testing capability?
    Answer. For NASA to remain an agency on the cutting edge of 
technology and engineering development, it must be constantly 
reinventing itself and finding new efficiencies. To do this, NASA must 
do a careful accounting of its resources to determine what new 
acquisitions are needed, which old facilities can be mothballed or 
converted, and which aging facilities need upgrade investments. Should 
I be confirmed as Administrator, I will be my intention to make sure 
that every NASA center, including Stennis, has the resources it needs 
to accomplish the mission.

    Question 6. With the presence of more than 20 private sector 
entities, the Stennis Space Center is an excellent example of a 
successful public-private venture. Space centers across the country are 
benefiting from co-location with commercial companies. However, NASA 
currently has limited authority to lease its property, and this 
authority will expire at the end of 2018.
    Long-term leasing authority will allow NASA to enter into more 
cost-effective agreements. Expanding NASA's current leasing authority 
to include in-kind contributions will also allow space centers greater 
flexibility to pursue these public-private partnerships.
    Do you see value in granting NASA's space centers this long-term, 
enhanced use leasing authority? Please explain.
    Answer. If confirmed as Administrator, I will seek to utilize 
public-private partnerships that are in the best interests of NASA. 
Tools such as enhanced use leasing have been a valuable for NASA, and I 
look forward to working with Congress to determine how these tools 
might be improved or enhanced.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                         Hon. James Bridenstine
    Question 1. Representative Bridenstine, you have been strong 
proponent of the Commercial Space Launch Competitiveness Act and other 
measures to support commercial space exploration. Commercial space 
exploration will likely be what takes us back to the Moon and 
ultimately to Mars. I am encouraged by measures the House and Senate 
have taken to spur these innovations. Going back to the moon in a 
meaningful way and manned travel to Mars will require the realization 
of innovations currently in their early stages, such as asteroid mining 
to produce fuel in space, with support from both the private sector and 
NASA.
    As such, the use of water and fuel in space, harvested from 
asteroids, has the potential to greatly reduce the cost and complexity 
of lunar and Mars missions. Will the use of commercially provided 
asteroid resources be part of NASA's exploration plans?
    Answer. In order to move sustainably into Deep Space, in-situ 
resource utilization will be required. We must exploit the vast 
resources that are available throughout the Solar System. For instance, 
water ice on the Moon, could be split into oxygen and hydrogen for 
spacecraft fuel and life support. Water ice is available in large 
quantities throughout the Solar System. Should I be confirmed, NASA 
will look to study and characterize the amount and nature of the water 
ice on the Moon, as well as other celestial bodies. The capabilities 
needed to extract and utilize this resource would be a focus of the 
space technology program I plan to lead, if confirmed.
    We must also recognize the private sector entities with stated 
objectives to harvest resources from asteroids and other celestial 
bodies. In the future, they could play a role in NASA's exploration 
plans. If confirmed, NASA will examine and consider opportunities for 
partnership with these commercial entities.

    Question 2. Earlier this year, the President signed into law the 
NASA Transition Authorization Act. This law seeks continuity in NASA's 
core programs, such as the Space Launch System and Orion spacecraft. Do 
you intend to continue NASA's work on SLS and Orion?
    Answer. Yes, I am absolutely committed to continuing NASA's 
valuable work developing SLS and Orion, which will serve as the 
backbone of our architecture to return humans to the Moon, on to Mars, 
and further into Deep Space.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Dean Heller to 
                         Hon. James Bridenstine
    Question. Ensuring continued U.S. access to critical materials used 
to support both NASA and the DOD is important for our national 
security. Among those materials is ammonium perchlorate, which is used 
as a propellant for rockets, missiles, and manned spaceflight. What is 
your view on ensuring ammonium perchlorate is domestically sourced so 
that the U.S. continues to have a steady supply of this chemical?
    Answer. Our contractor for the rocket boosters is Orbital ATK. 
Although the agency does not have a requirement to purchase ammonium 
perchlorate, NASA does have a requirement that our prime contractor ask 
for consent to subcontract in amounts greater than $750,000. NASA only 
consents to the request and does not approve or consent to which 
company the subcontract is issued.
    Ammonium perchlorate is a crucial material for NASA's human 
exploration plans. Each SLS launch will feature two solid rocket 
boosters which use ammonium perchlorate as their oxidizer. Each SLS 
launch will use close to two million pounds of ammonium perchlorate. 
That said, it would be inappropriate for NASA to directly intervene 
between a contractor and a sub-contractor. However, I am committed to 
ensuring our Nation has a robust domestic industrial base, and should I 
be confirmed I look forward to working with Congress to achieve this 
objective.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim Inhofe to 
                         Hon. James Bridenstine
    Question 1. Some have expressed opposition to your nomination 
because Members of Congress are too political. It would be an asset to 
have an Administrator of NASA who can articulate a vision to Members of 
Congress responsible for authorizing and funding that agency. James 
Webb, was political--he was also a military pilot and worked in 
Oklahoma--and he successfully lead NASA during the Gemini and Apollo 
Missions from 1961-1968. How do you believe your service as a Member of 
Congress will help you as the next Administrator of NASA?
    Answer. While in Congress, my committee assignments have allowed me 
to be involved in a wide array of space policy on a bipartisan basis. 
On the House Science, Space and Technology Committee, I served on the 
Space Subcommittee which oversees NASA as well as commercial space 
policy. I also served as the Chairman of the Environment Subcommittee 
during the 114th Congress, where we oversaw NOAA and did a lot of work 
on NOAA's satellite programs. Additionally, I was a member of the House 
Armed Services Committee, subcommittee on Strategic Forces, where we 
focus on the country's national security space enterprise. My time on 
these committees allowed me to develop an expertise and understanding 
of the United States' space program.
    My time as a member has given me firsthand knowledge of the 
legislative and budget processes. The next Administrator will be 
required to work with Congress, the National Space Council, the Office 
of Management and Budget, the White House, and international partners. 
An understanding of these entities, and relationships with those 
leading them, will be critical to maintaining America's preeminence in 
space.

    Question 2. As the Senator for Oklahoma, I serve on the Senate 
Armed Services Committee. I know that we face threats today that we 
have never faced before, something you know as a Member of House Armed 
Services Committee. What do you see as NASA's role in national security 
and how will you work with the Department of Defense as NASA 
Administrator?
    Answer. NASA is an agency dedicated to the peaceful exploration of 
space, technology development, and utilization of science. It is also a 
wonderful tool of foreign policy and diplomacy for the United States. 
When relationships with certain countries become strained, NASA is able 
to maintain partnerships between civil space programs. It is important 
we continue and strengthen those partnerships, and this would be a 
priority of mine should I be confirmed. NASA is uniquely suited to 
enable partnerships in space that can decrease misperceptions and 
prevent catastrophic kinetic warfare in space.
    It is also true that the Department of Defense can benefit from 
technology development that NASA has undertaken for civilian purposes. 
For instance, NASA is currently pursuing the development of hypersonic 
technology. This will be a paradigm shifting proposition for our 
national security. Additionally, a partnership between NASA, the Air 
Force, and industry delivered the Automatic Ground-Collision Avoidance 
System to reduce the incidence of distracted or incapacitated pilots 
colliding with nearby terrain. This technology also has the potential 
to reduce collision threats to vehicles on land, at sea, or in space.

    Question 3. In March, the President signed into law the NASA 
Transition Act. This legislation passed Congress without a single no 
vote. It outlined a roadmap for NASA's core missions: space science, 
space technology, aeronautics, human space flight and exploration, and 
education. Would you agree that these are NASA's core missions? How 
will you work to advance these core missions as Administrator?
    Answer. Yes, I agree. I was involved, with many members of the 
Senate Commerce Committee as well as the House Science Committee, in 
the crafting of the NASA Transition Authorization Act of 2017. I fully 
support the core missions of NASA that it identified.
    In order to advance these core missions, we cannot look at NASA's 
various mission directorates and divisions as siloed or mutually 
exclusive. NASA's programs often serve multiple purposes. Take the 
International Space Station as an example. It is operated under the 
Human Exploration and Operations directorate, and important research on 
long term spaceflight is being done to inform explorations deeper into 
space. Synergistically, the ISS also has science payloads that observe 
both the Earth and the cosmos. And of course, ISS astronauts often do 
downlinks with school children, a unique educational experience that 
excites like no other.
    There are many synergies within NASA's mission directorates. We can 
make resources go farther if we do not view missions and programs as a 
zero sum game. Should I be confirmed, I will seek to maximize those 
synergies in order to advance NASA's core missions.

    Question 4. President Trump reestablished the National Space 
Council, to ensure all aspects of our Nation's space power--national 
security, commerce, foreign relations, exploration, science--are 
coordinated and aligned at the highest levels of government. What role 
do you see for National Space Council in the development of America 
space policy?
    Answer. Multiple agencies are involved in space either as 
policymakers, regulators, or operators. If the United States is to 
remain the preeminent spacefaring nation, we must take a whole of 
government approach to the space enterprise with a formal method of 
interaction. This warrants an entity that can facilitate a discussion 
at the principals' level, which is the most important role the National 
Space Council (NSpC) can play. I am encouraged by what we saw at the 
first meeting of the NSpC in October of 2017. Should I be confirmed, I 
look forward to actively participating as a member of the NSpC.

    Question 5. Our nation's investment in NASA has spurred innovation 
across our industrial base and the wider economy. In fact the 
``Aeronautics'' part of NASA has helped drive research leading to more 
fuel efficient and streamlined airframe and wing designs. Today, NASA 
is working to develop the X-57 Maxwell, an all-electric powered 
airplane. I know you are familiar with the X-57 Maxwell program, do you 
believe it represents how Congressional investment in NASA can pay 
dividends in the private sector and throughout the economy?
    Answer. Yes I do. NASA has a long history of advancing aeronautics. 
These advancements have allowed the United States to become the world 
leader in aircraft and aerospace manufacturing. As technology continues 
to progress, NASA's research in this area will play a key role in 
maintaining our industry's lead. This will be a priority of mine should 
I be confirmed.

    Question 6. December 14, 1972 was the last time someone walked on 
the surface of the Moon, almost 45 years ago. Since then, we have seen 
major investments by NASA to build launch the Hubble Telescope and the 
International Space Station. More recently, the private sector has made 
major investments in research and development in support of low-earth 
orbit launches. As NASA Administrator, will you work as to promote a 
``unity of effort'' across all space stakeholders to leverage public 
and private sector resources to support NASA's core missions?
    Answer. In order to promote a unity of effort, NASA must start with 
guidance from Congress, the Administration, and science decadal 
surveys, then design the architectures to meet our national interests. 
Should I be confirmed NASA will determine how to fill out those 
architectures through a combination of government backbone, commercial 
partnerships, and international partnerships. Flexibility in the 
architectures that allows for the greatest use of resources will be my 
goal, should I be confirmed.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. Mike Lee to 
                         Hon. James Bridenstine
    Question 1. Mr. Bridenstine, in the documents you presented to the 
Committee, you stated that you believe that one of NASA's top 
challenges is ``Bringing together traditional space companies and new 
space entrepreneurs into a comprehensive NASA vision to maximize 
resources and efficiencies.'' What role do you envision the private 
sector playing in helping NASA fulfill its mission? How will continued 
private sector involvement make NASA more efficient and allow it to 
fully maximize resources?
    Answer. We must recognize that NASA currently has more mission than 
it has budget. The days when NASA's budget represented 3 to 4 percent 
of the Federal budget are not likely to return. Nor would we want to 
necessarily replicate that model, as it proved to ultimately be 
unsustainable.
    Fortunately, times have changed and great advancements have been 
made. The American space industry is more capable than ever before. A 
lot of this is due to advancements in research and technology 
development made by NASA decades ago that entrepreneurial Americans 
have taken and advanced further.
    Should I be confirmed, NASA will develop exploration and science 
architectures that leverage everything the United States has to offer. 
This includes the private sector. This way, we will maximize resources 
and ensure NASA can carry out its mission.

    Question 2. As you know, our current strategy for deep space 
exploration includes the development of the Space Launch System (SLS) 
and Orion space capsule. I'm proud to say that many Utahns have worked 
on several of the components for these projects.
    A. What is your view on the SLS and Orion Programs?

    B. How do you anticipate using the SLS and Orion in the National 
Space Council's call for a plan to refocus our human spaceflight 
efforts on a return to the Moon?

    C. What are your thoughts on the establishment of a Deep Space 
Gateway as part of the exploration architecture?
    Answer.
    A. SLS and Orion will serve as the backbone of our country's Deep 
Space exploration architecture.
    B. SLS and Orion have the ability to deliver large payloads and 
humans further out into space than any other operating rocket and 
spacecraft. As such, they will be the backbone of any plan to return 
humans back to the Moon.
    C. The idea of a platform beyond LEO and in cislunar space provides 
a lot of opportunities for the United States. These opportunities 
include: partnerships with both the international community and 
commercial industry, staging area for lunar surface and Martian 
missions, testing life support systems outside of the Van Allen Belt, 
and more. Should I be confirmed, I look forward to working with 
Congress to determine if the Deep Space Gateway or other Deep Space 
architectures enable sustainable deep space exploration.

    Question 3. What criteria would you recommend using in determining 
whether to extend United States support of the ISS beyond 2024 and when 
should that determination be made?
    Answer. I believe continued presence in low Earth orbit (LEO) is in 
our national interest, and should I be confirmed, the decisions NASA 
makes will be influenced by this objective. The International Space 
Station has been a crowning achievement of diplomacy in space, and has 
facilitated great advancements in science and research as well as the 
development of the LEO economy.
    The decision of whether to extend United States support of the ISS 
beyond 2024 is a complicated challenge. We must weigh several key 
factors. For one, we must consider what the LEO research needs are of 
NASA and its partners like CASIS. Second, we must weigh NASA's needs 
for astronaut activities and training in LEO. Third, we must weigh 
whether the market exists for a profitable commercial LEO platform. 
Fourth, we must weigh how we can best maintain the international 
partnerships which are so crucial to our current ISS program. Fifth, we 
must weigh how much money we can afford to continue spending on a human 
platform in LEO, and how we can make sure that we have a sustainable 
budget wedge for Deep Space Exploration.
    If I am confirmed as NASA Administrator, I intend to work with 
Congress to weigh the options and to determine the best path forward 
for the ISS.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Shelley Moore Capito 
                       to Hon. James Bridenstine
    Question 1. Our nation's civil, military, and commercial satellites 
are more vulnerable than ever before to interference from potential 
adversaries around the world. The ability to engage with and refuel our 
satellites adds years to their lives, which means our orbital assets 
are more robust. I am proud that the West Virginia Robotic Technology 
Center (WVRTC) at West Virginia University is leading the effort in 
developing this capability as part of NASA's Restore-L mission. I am 
deeply concerned by efforts to re-scope the mission to a ground 
demonstration, which will likely end the program and deprive us of a 
critical capability. Unfortunately, the Administration wanted to 
eliminate this mission and I am glad that we were able to continue 
funding the mission in CJS FY'18 appropriations bill. NASA and the 
WVRTC can utilize robotics for on-orbit assembly, orbital debris 
removal, planetary resource utilization, and habitat construction for 
Moon or Mars exploration. Do you see robotics and astronaut-robot 
collaboration as critical capabilities for NASA's exploration 
objectives?
    Answer. Yes. Robotics, both for satellite servicing and in-space 
robotic assembly, will be critical to sustain and advance satellite 
architectures, decrease costs, and mitigate space debris. Satellite 
servicing missions have the ability to upgrade existing satellite 
infrastructure and extend crucial science missions for years. If 
confirmed, working with Congress, I plan to continue NASA technology 
development for satellite grappling, rendezvous and proximity 
operations, transferring propellant, and robotic modification and 
replacement of satellite payloads.
    Deep Space exploration also requires robotic technology to conduct 
sample return operations from distant planets. West Virginia University 
recently won NASA's Sample Return Robot Centennial Challenge. This was 
a five-year competition among citizen inventors that will inform NASA 
as it develops a new generation of autonomous rovers.

    Question 2. NASA's Independent Verification and Validation (IV&V) 
Program is a world leader in systems and software engineering. IV&V 
provides the NASA's highest achievable levels of safety and cost-
effectiveness for mission critical software. Other government agencies 
are seeking and purchasing their services because of their quality and 
the value they add. Do you support an appropriate and stable budget for 
NASA's IV&V Program and will you work with me to help save government 
resources by maximizing IV&V's capabilities across other government 
agencies?
    Answer. Yes. As a former Navy pilot and current Air Force pilot, I 
am keenly aware that software is essential to safety and mission 
assurance. Software is also often on the critical path for systems 
development, so delays result in disproportional cost increases. NASA's 
IV&V facility has proven itself capable of improving safety, keeping 
projects on track, enhancing system development, and even providing 
valuable research opportunities and training for young STEM students. 
It serves a critical role within the Office of Safety & Mission 
Assurance, providing independent safety oversight for NASA 
Headquarters. If confirmed as Administrator, I will work with Congress 
to make sure that the IV&V program retains an adequate and stable 
budget, and to exploit its capabilities wherever possible.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Todd Young to 
                         Hon. James Bridenstine
    Question. Representative Bridenstine, though it doesn't receive as 
much public attention as NASA's exploration missions, the agency's 
Earth Science mission provides data critical for both scientific 
research and practical application. In fact, Indiana companies 
contribute to these missions by building sophisticated instruments to 
measure certain properties and conditions in the atmosphere. In turn, 
this data in part feeds into weather forecasting models to help create 
longer term and seasonal forecasts utilized by a variety of industries, 
such as agriculture and energy. I'm focused on making sure we retain 
the capability to perform these science missions that have a 
significant real-world application. Would you explain your view of 
NASA's Earth Science mission and whether you intend to prioritize it in 
future NASA budget submissions?
    Answer. I support NASA's Earth Science mission. As a Representative 
from and resident of the state of Oklahoma, I have a keen appreciation 
for the role space plays in helping us save lives, protect property, 
and produce energy and food. NASA's Earth Science mission is critical 
to facilitating these activities, both through the programs that NASA 
operates itself as well as acting as the procurement agent for NOAA's 
weather satellites.
    If confirmed, NASA will continue to follow the guidance of the 
Earth Science decadal surveys and I will advocate within the 
Administration and with Congress to see that the agency is able to 
carry out the recommendations of those decadal surveys.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         Hon. James Bridenstine
    Contracting. NASA has used a range of traditional and non-
traditional contracting approaches in the past.
    Question 1. To what extent, and under what circumstances, do you 
believe NASA should use Space Act Agreements, fixed price contracts, 
and cost plus contracts for advancing the agency's human exploration 
objectives?
    Answer. For NASA to best utilize its limited resources, it must be 
creative and flexible with regards to acquisition and procurement. If 
confirmed as Administrator, I will be focused on delivering projects on 
time and under budget and will pursue whichever forms of contracting 
work best for each particular acquisition.
    Cost plus contracts are appropriate when significant changes are 
anticipated or there is no government baseline. This type of vehicle is 
often used for research and development contracts with universities or 
labs. It is also appropriate on a project when cost and schedule are 
unknown. NASA will always have a need for cost plus contracts as it 
pushes exploration beyond where it has gone before.
    Fixed price contracts expose the financial risk to the contractor 
and provide the maximum incentive for the contractor to control costs 
and deliver on time. This contracting mechanism is appropriate when 
purchasing supplies, services, or capabilities for which the technology 
is mature and has a low risk on delivery. As the burgeoning commercial 
space industry grows, there will be more opportunities for fixed price 
contracts for human exploration.
    Space Act Agreements provide flexibility for the Agency and can 
advantage both sides of the agreement.
    If confirmed as Administrator, I will work to pursue acquisition 
strategies appropriate to each particular need and will be certain to 
follow all FAR regulations and NASA policy directives, in concert with 
NASA's procurement officers and the Office of General Counsel.

    Question 2. Similarly, under what circumstances should contracts 
and partnership opportunities be competed and under what circumstances 
is it acceptable or preferable to not openly compete a contract or 
partnership opportunity (for example, employ a sole-source contract)?
    Answer. In most cases, it is preferable for partnership 
opportunities to be competed in order to allow NASA to choose the 
partner that best meets its needs for the most appropriate price. 
However, there are some cases where NASA will use sole source 
contracting. These could include but are not limited to: (1) only one 
contractor offers a viable option, (2) immediate urgency, or (3) 
international agreement. If confirmed as Administrator, I will be 
certain to follow all FAR regulations and NASA policy directives in 
concert with NASA's procurement officers and the Office of General 
Counsel.

    Question 3. Describe the causes and contributing factors common to 
both the Challenger and Columbia accidents. If confirmed, what you 
would do as NASA Administrator to make sure these are not repeated?
    Answer. The Challenger and Columbia accidents both resulted from 
accepting known, systemic risks outside the scope of specifications. 
The Challenger accident occurred as NASA continued to fly with known O-
ring erosion problems. Similarly, the Columbia accident occurred as 
NASA continued to fly with known foam debris strike problems. In both 
cases, these technical deviations were accepted despite the concerns of 
engineers.
    From the Columbia Accident Investigation Board, common contributing 
factors to both accidents include: Original design compromises 
necessary to gain Shuttle Program approval, years of constrained 
resources, changing priorities, schedule pressure, lack of a consensus 
national vision, reliance on past successes, organizational barriers 
preventing communication of critical safety information, lack of 
integrated management across program elements, and an informal chain-
of-command and decision-making processes that operated outside the 
Agency's rules.
    If confirmed, I will advocate tirelessly for the necessary 
resources to conduct a human spaceflight program characterized by 
consensus and safety. I will work to ensure that the technical 
authorities responsible for safety, engineering, and health and medical 
remain independent of the program authorities responsible for cost and 
schedule. The Flight Readiness Review process will have clear ``go/no 
go'' communications from the various program elements and be required 
to review technical problems arising during previous missions. 
Independent technical authorities will establish requirements and 
exclusively grant waivers if necessary.

    Independent Technical Authorities. In the wake of the Columbia 
accident, one of the key recommendations was that so-called 
``Independent Technical Authorities''--that is, NASA's Chief Engineer 
and Chief Safety Officer--report directly to you.
    Question 4. What will you do when, in following the post-Columbia 
protocol, these technical authorities raise differing opinions to you 
on safety of flight matters?
    Answer. The NASA Administrator is responsible and accountable for 
safety of flight. The process to resolve such a conflict will include a 
review by the Administrator, the Associate Administrator, the Associate 
Administrator for Human Exploration and Operations, the program 
manager, and the technical authorities. The objective would be to 
resolve the conflict by mitigating the risk through modification, 
procedure, testing, or another process to arrive at a consensus 
decision. The final responsibility rests with the Administrator.

    Question 5. How will you come to resolution when these technical 
experts do not agree on whether it is safe to fly?
    Answer. Should I be confirmed, I will promote a culture where the 
Mission Management Team knows that the only factors they need to 
consider for a ``go/no go'' decision are technical risks. It will be my 
responsibility as Administrator to shield them from schedule and cost 
pressures. Should disagreements arise after the Flight Readiness 
Review, the Mission Management Team will have my full support in 
placing a hold on a launch until disagreements are resolved.

    China. For years NASA has been considerably restricted from 
cooperating with China in space.
    Question 6. Do you believe these restrictions are appropriate and 
should continue?
    Answer. It is time to reexamine if this policy is still benefitting 
the United States. In the past, it was to our benefit to exclude China 
from our spaceflight endeavors, given the Chinese government's history 
of irresponsible behavior in space, flouting of international law, 
theft of intellectual property, and human rights violations.
    Despite this exclusion, China has made advancements in spaceflight 
and expanded partnerships with the international community. Our policy 
is not stopping their progress and in some cases is shifting the 
balance away from our interests on the international stage.
    Whether the restriction remains in place will ultimately be up to 
Congress to determine. Congress places the restriction on NASA in 
annual appropriations legislation. If confirmed as NASA Administrator, 
I will follow the law.

    Question 7. Do you believe there could be advantages of expanded 
cooperation with China in space, particularly in the area of human 
space flight?
    Answer. There could be. The International Space Station has been a 
crowning achievement of diplomacy in space. Even when relationships 
with certain countries become strained, NASA has been able to maintain 
partnerships between civil space programs.
    Were NASA to be given the flexibility by Congress to work more with 
China, larger foreign policy interests would need to be considered at 
levels above the NASA Administrator. But partnership with China in 
human spaceflight could be a piece of a larger policy consideration.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Hon. James Bridenstine
    Climate Change. Just last week, the GAO released a study that found 
that Climate Change will cost American taxpayers more than $1 trillion 
by 2039. The report reviewed Federal costs in response to extreme 
weather, decreased agricultural yields, damage to public utilities and 
infrastructure. Taxpayers will be on the hook for trillions of dollars 
in climate related costs if we do not act.
    Question 1. What is the state of the science on climate change?
    Answer. On November 3, 2017, the U.S. Global Change Research 
Program released its latest Climate Change Special Report. This report 
stated that it is extremely likely that human activities are the 
dominant cause of the global warming of one degree Celsius over the 
last 115 years. If I am confirmed as Administrator of NASA, the world 
class experts in NASA's Earth Science Division will continue 
contributing to important reports such as this.

    Question 2. What are NASA's climate related missions, and how will 
you work to bolster them to reduce the cost of climate on taxpayers?
    Answer. In order to properly study the Earth's climate, we must do 
integrative science. Scientists cannot understand or model the 
atmosphere if they cannot understand and model the oceans, ice sheets, 
cloud formation, precipitation, soil, biological life, the sun, and 
more. As such, every Earth Science mission that NASA operates 
contributes to our understanding of the Earth's climate. Even NASA's 
Heliophysics and Planetary Science missions, by helping us better 
understand the sun and other atmospheres in our Solar System, help us 
to better understand the Earth's climate.
    The growth of the smallsat and cubesat economy has opened up 
tremendous opportunities for NASA to do more Earth Science for less 
money. I look forward to the upcoming National Academies Decadal Survey 
for Earth Science and Applications from Space (ESAS 2017), which will 
help guide NASA's Earth Science Division in this new era.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                         Hon. James Bridenstine
Climate Change.
    Question 1. Do you agree with the scientific community that the 
Earth is warming?
    Answer. Yes.

    Question 2. Do you agree with the scientific community that human 
activity contributes to the warming of the planet?
    Answer. Yes.

    Question 3. Do you agree that the human activity is primarily 
responsible for the warming of the planet?
    Answer. On November 3, 2017, the U.S. Global Change Research 
Program released its latest Climate Change Special Report. This report 
stated that it is extremely likely that human activities are the 
dominant cause of the global warming of one degree Celsius over the 
last 115 years. If I am confirmed as Administrator of NASA, the world 
class experts in NASA's Earth Science Division will continue 
contributing to important reports such as this.

    Question 4. Did you ever state on the House floor that hurricanes 
have ``been on a slow decline''?
    Answer. Yes, in June 2013.

    Question 5.What did you mean by your statement regarding 
hurricanes?
    Answer. In May 2013, 25 Oklahomans died in a tornado in Moore, 
Oklahoma. I was speaking to advocate for increased funding for tornado 
forecasting and research. In the end, we passed the bipartisan Lucas/
Bridenstine/Bonamici Weather Research and Forecasting Innovation Act, 
which increased funding for research for both hurricanes and tornadoes.

    Question 6. In light of recent events--Hurricanes Harvey, Irma and 
Maria--do you stand by your statement on the House floor regarding 
hurricanes?
    Answer. NOAA noted that as of June 2017 there had been 140 straight 
months without a major hurricane (Category 3+) making landfall in the 
United States. This was the longest stretch in recorded history, and my 
speech in 2013 was observing this fact. The previous longest stretch 
was 96 months from 1860-1869.
    NASA contributes directly and importantly to weather research. I 
believe that improved weather research and forecasting will save lives.

    Question 7. In a speech on the House floor in 2013, did you state 
that President Obama ``spends 30 times as much money on global warming 
research as he does on weather forecasting and warning''?
    Answer. Yes.

    Question 8. Did Congress play any role in authorizing and 
appropriating the funds your reference in your 2013 statement on the 
floor regarding global warming research?
    Answer. Congress authorizes and appropriates the funds spent by 
Federal agencies.

    Question 9. Did Politifact review the 2013 statement referenced 
above?
    Answer. Yes.

    Question 10. How did Politifact characterize the statement 
referenced above?
    Answer. Politifact concluded: ``Bridenstine does have a point that 
climate change research exceeds weather forecasting expenditures, but 
he's overstated the discrepancy. We rate his statement Mostly False.''

    Question 11. How much should be spent annually on ``global warming 
research''?
    Answer. The United States should allocate an amount necessary to 
accomplish the objectives of the Earth Science Decadal Survey.

    Question 12. How much should be spent annually on ``weather 
forecasting and warning''?
    Answer. NOAA and the NWS should be allocated the amount needed to 
ensure the mission of protecting lives and property of the public is 
met.

    Question 13. Is there a difference between weather forecasting and 
warning and weather forecasting and warning research?
    Answer. Yes. There is a difference between research and operations 
for weather forecasting and warning. Research involves improving data 
collection and modeling, which then aids the operational organizations 
that put those data and models into action to provide the timely 
weather forecasting and warnings which are crucial not just for the 
safety of humans and infrastructure but also to aid commerce.

    Question 14. Does NASA have a role to play in climate research?
    Answer. Yes. NASA is the premiere agency in the world studying our 
climate.

    Question 15. Do you agree that climate change could lead to more 
tornadoes in your district?
    Answer. It could. NASA's research could help us learn more. 
According to the Climate Science Special Report released on November 3, 
2017, ``[tornadoes] are exhibiting changes that have been linked to 
climate change, although the current state of the science does not yet 
permit detailed understanding.''
Experience.
    Question 16. What is largest number of employees you have ever 
overseen and where, and how does it compare numbers-wise to the number 
of employees at NASA?
    Answer. As a Navy pilot and instructor, I have been responsible for 
training, evaluating, and certifying large force exercises that include 
hundreds of Naval Aviators and Naval Flight Officers. As a Command and 
Control pilot in Iraq and Afghanistan, I have been responsible for 
hundreds of airplanes in theater, constituting billions of dollars of 
airborne hardware, as well as thousands of lives on the ground in 
addition to tanks and armored personnel carriers. Prior to that, I was 
the Division Officer of my squadron's Airframes Division. I had 
approximately 30 aircraft maintenance personnel reporting to me. In the 
same squadron, I was the Naval Air Training and Operations Procedures 
Standardization (NATOPS) Officer. In this capacity, I was responsible 
for the management of training for 25 Naval Aviators and Naval Flight 
Officers. I recognize that this experience is different from overseeing 
the day to day operations of a large Federal agency. If confirmed as 
NASA Administrator, I will be the head of a highly capable leadership 
team.

    Question 17. What is the largest budget you have ever managed and 
how does it compare percentage-wise to the budget at NASA?
    Answer. As a Member of Congress, I have been involved in developing 
and passing budgets for the United States of America. NASA's budget is 
about 0.5 percent of the Federal Budget.

    Question 18. What formal training do you have in safety?
    Answer. Safety is embedded in the culture and training of United 
States Naval Aviation. I have completed the following courses that 
focus on safety: U.S. Navy Primary Flight Training; U.S. Navy 
Intermediate Flight Training; U.S. Navy Advanced Flight Training; E-2C 
Fleet Replacement Squadron (FRS) training; F-18 Fleet Replacement 
Squadron (FRS) training; Crew Resource Management Facilitator (CRM) 
training; Naval Air Training and Operations Procedures Standardization 
(NATOPS) instructor training; Advanced Mission Commander (AMC) Course; 
Weapons and Tactics Instructor (WTI) Course.

    Question 19. What formal training do you have in science?
    Answer. My undergraduate majors at Rice University include 
economics, business, and psychology. While at Rice, I took courses in 
chemistry, calculus, physics, and statistics. I also earned an MBA at 
Cornell University which included economics and statistics. Naval 
Aviation ground school courses I took include aerodynamics, propulsion, 
physiology, weather, and navigation.

    Question 20. What assurance can you give to families of astronauts 
that you are qualified to ensure the safety of their loved one?
    Answer. As a Naval Aviator, I have been personally responsible for 
making life and death decisions in the most challenging and time 
sensitive situations. I have been trained to establish processes that 
manage risk, empower people working at all levels to call out unsafe 
practices and innovate to keep people safe. If confirmed, I intend to 
bring this safety culture to NASA and build on NASA's already 
established processes.
    Astronauts and their families are treasured by the people of the 
United States of America and are heroes to the world. When we lose an 
astronaut, the entire world stops. The President of the United States 
addresses the Nation. International partners do the same. The gravity 
of such an event burdens the entire country unlike anything else and is 
destructive to the NASA family and its mission. I will do everything 
possible to protect NASA astronauts and other Agency personnel.
Judicial oversight.
    Question 21. In March 2013, you stated the following: ``Just 
because the Supreme Court rules on something doesn't necessarily mean 
that that's constitutional.'' What did you mean by this statement?
    Answer. The Supreme Court has often overruled itself throughout our 
country's history. We've also amended the Constitution to counter 
Supreme Court decisions. A court ruling on constitutionality is not 
necessarily permanent. If confirmed, I will always follow the laws 
passed by Congress and upheld by the Supreme Court.

    Question 22. Do you agree that the Supreme Court decides the 
constitutionality of laws?
    Answer. Yes.
Associations.
    Question 23. Are you familiar with the Family Research Council?
    Answer. Yes.

    Question 24. Have you ever spoken before the Family Research 
Council?
    Answer. Yes.

    Question 25. Are you familiar with Tony Perkins?
    Answer. Yes.

    Question 26. What due diligence did you perform into Tony Perkins 
and the Family Research Council before appearing publicly before the 
organization?
    Answer. I am familiar with some of their work. As a Member of 
Congress, I have done hundreds of interviews and spoken at many events. 
I do not speak only to people who agree with me.

    Question 27. Tony Perkins has called gay people ``intolerant, 
hateful, vile, spiteful pawns of the Devil''? Do you condemn this 
statement?
    Answer. I am not aware of nor do I take on responsibility for 
everything said by people who interview me. As NASA Administrator, if 
confirmed, I will treat all people with dignity and respect and fully 
uphold the law. Standards will be uniform and opportunities will be 
equal.

    Question 28. Tony Perkins has equated homosexuality with 
pedophilia. Do you condemn that point of view?
    Answer. I do not believe the two can be equated. I am not aware of 
nor do I take on responsibility for everything said by people who 
interview me.

    Question 29. The Family Research Council claims homosexuality is a 
choice. Do you condemn that point of view?
    Answer. I am not aware of nor do I take on responsibility for 
everything said by people who interview me. As NASA Administrator, if 
confirmed, I will treat all people with dignity and respect and fully 
uphold the law. Standards will be uniform and opportunities will be 
equal.

    Question 30. Is the Southern Poverty Law Center wrong in calling 
the Family Research Council a hate group?
    Answer. I don't believe derogatory labeling contributes positively 
to political discourse. Should I be confirmed as NASA Administrator, I 
intend to promote and maintain a nonpartisan, inclusive work 
environment.

    Question 31. If you're confirmed, what message would that send to 
members of the scientific community--who happen to be members of the 
LGBTQ community--who want to start careers at NASA?
    Answer. As NASA Administrator, should I be confirmed, I intend to 
promote and maintain an inclusive work environment. I commit to follow 
the law, to encourage and empower employee effectiveness, and to 
maintain NASA's reputation of being the best place to work within the 
Federal Government.

    Question 32. Should it be legal for employees of NASA to be fired 
for no other reason than their sexual orientation?
    Answer. No.

    Question 33. Are you familiar with Frank Gaffney?
    Answer. Yes.

    Question 34. Have you ever appeared on a radio show hosted by Frank 
Gaffney?
    Answer. Yes.

    Question 35. Are you aware that the Anti-Defamation League 
considers Frank Gaffney's group, the Center for Security Policy, an 
extremist group?
    Answer. No.

    Question 36. What due diligence on the Center for Security Policy 
did you undertake before working with the group?
    Answer. I did not undertake formal due diligence. As a Member of 
Congress, I have done hundreds of interviews and spoken at many events. 
I do not speak only to people who agree with me. I do not take on 
responsibility for everything said by people who interview me.

    Question 37. Are you aware that the Southern Poverty Law Center 
considers the Center for Security Policy a hate group?
    Answer. No.
Transparency.
    Question 38. Have you or your staff deleted any links to floor 
speeches from your House website since you were nominated?
    Answer. No.

    Question 39. Have you or your staff deleted any of your press 
releases from your House website since you were nominated?
    Answer. No.

    Question 40. Have you or your staff deleted any links to any videos 
from your House website since you were nominated?
    Answer. No.

    Question 41. Have you or your staff deleted any tweets from any of 
your personal or professional Twitter accounts since you were 
nominated?
    Answer. No.

    Question 42. For questions 38 through 41, please provide all 
content that you deleted.
    Answer. Not applicable.
2014 Town Hall.
    Question 43. As I mentioned during your hearing, at a town hall you 
hosted in 2014, a member of the audience loudly exclaimed in a question 
that President Obama should be ``executed as an enemy combatant.'' You 
stated at the hearing you would have handled the situation differently 
and would have interrupted the constituent. If you had interrupted her, 
what would you have said?
    Answer. I would have said: ``Your statement is wholly 
inappropriate. No one should threaten violence against the President of 
the United States.''
NASA priorities.
    Question 44. Employers in my state are working with NASA to develop 
the next-generation space suit that could serve astronauts for decades 
to come. The current design will be obsolete by 2024. There is no 
program in place yet for replacement. How will you prioritize this 
effort?
    Answer. NASA's Enhanced Mobility Units (EMU) are aging and limited, 
and have long outlasted their original design life. While there are 
options to refurbish existing EMUs, there is certainly a need for a 
robust plan to develop the next generation of space suits--for EVA, 
launch, landing, and also for surface exploration of celestial bodies. 
As we develop a roadmap for Deep Space exploration, it is essential 
that our spacesuit development plans line up with exploration 
schedules. If confirmed as Administrator, I will work to see that NASA 
develops a sustainable long-term plan for spacesuit development.

    Question 45. Employers in my state are dependent on work with NASA 
on aeronautics, the science behind making aircraft fly more 
efficiently. Have you ever proposed legislation that would eliminate 
NASA's involvement in aeronautics?
    Answer. No. As a pilot, I am looking forward to leading NASA 
through its next generation of X-Planes if confirmed as Administrator.

    Question 46. What role should NASA play in aeronautics?
    Answer. Aeronautics has always been, and must remain, a key piece 
of NASA's portfolio. NASA's fundamental aeronautics research has led to 
technologies which have made commercial aviation significantly safer, 
quieter, cleaner, and more fuel efficient. Aviation is a rapidly 
growing, multi-trillion dollar per year global industry. NASA 
innovation in aeronautics will help fuel the American economy. If 
confirmed as Administrator, I look forward to helping lead NASA through 
its next era of X-planes, beginning with a low-boom supersonic 
demonstrator and the X-57 Maxwell.

    Question 47. At what level should Congress annually fund 
aeronautics efforts at NASA?
    Answer. It is crucial for NASA's mission that its Aeronautics 
Mission Directorate receive adequate funding to achieve the goals set 
out for it by Congress. If confirmed as NASA Administrator, I pledge to 
work with Congress on finding the right level of funding for each 
directorate. Working with Congress, I would support additional funding 
for aeronautics.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                         Hon. James Bridenstine
    INSPIRE Women Act. I worked with Senator Heller on the Inspiring 
the Next Space Pioneers, Innovators, Researchers, and Explorers 
(INSPIRE) Women Act to authorize the NASA Administrator to encourage 
women to study in STEM fields and the Promoting Women in 
Entrepreneurship Act to support women researchers looking to take their 
ideas into the commercial world. Both bills were signed into law by the 
President in February.
    Question 1. Representative Bridenstine, how would you plan to 
increase the recruitment and retention of women and minorities at NASA?
    Answer. NASA's most valuable resource is its personnel. In order 
for the agency to meet its goals as effectively as possible, it must 
tap into the smartest, most creative, and hardest working Americans. 
This simply is not possible if NASA is struggling to recruit and retain 
women and minorities. If confirmed as Administrator, I will work to 
find new and creative ways to attract women and minority talent, and I 
will do everything in my power to make all NASA employees feel welcome 
and valued. If there are legislative pathways to achieve these goals, 
such as the INSPIRE Act, then I will look forward to working with 
Congress on this very important issue.

    STEM. As a co-chair of the Senate Diversifying Tech Caucus (with 
Senators Capito and Scott) and Women's High-Tech Coalition (with 
Senator Fischer), I have been working to increase traditionally 
underrepresented minorities in STEM careers. Women make up nearly half 
the national workforce, but less than 25 percent of STEM workers. 
NASA's Office of Education is doing important work to inspire students 
to pursue STEM careers.
    Question 2. Representative Bridenstine, are you committed to 
supporting NASA's Office of Education?
    Answer. As the former Executive Director of the Tulsa Air and Space 
Museum, I have seen firsthand the exceptionally unique capability NASA 
has to inspire and educate the next generation of scientists and 
engineers. As such, I am committed to supporting NASA's Office of 
Education if confirmed as Administrator.
    Every single division and directorate of NASA must work together 
with the Office of Education to increase women in STEM as well as 
increase the representation of women within NASA's workforce. If 
confirmed as Administrator, I will support NASA's Office of Education.

    Question 3. What role do you believe the office can play in 
increasing the amount of students going into STEM fields?
    Answer. The most valuable way that NASA can increase the number of 
students in STEM is to have a vibrant and inspiring set of NASA 
missions. The Apollo missions to the Moon inspired millions of 
Americans to enter STEM fields, and most of them ended up working for 
employers other than NASA. In addition to the programs themselves, if 
confirmed as NASA Administrator, I will look to increase outreach to 
Americans, and young Americans in particular.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Hon. James Bridenstine
    Question 1. Many commercial companies are preparing to offer 
spaceflight services not only for tourism, but also for science and 
technology development. As we discussed in our meeting, New Mexico's 
Spaceport America is one of the best places for this kind of activity. 
How do you see these platforms--many of which have already manifested 
payloads--fitting into NASA's overall mission? And could these vehicles 
be a viable opportunity to expand the agency's science and human 
spaceflight opportunities?
    Answer. A vibrant and growing commercial space industry will help 
NASA maximize its own resources. Commercial spaceports have the 
potential to be major commercial hubs of the future. Commercial space 
vehicles can provide flight opportunities for astronauts in the future 
and also fly scientific payloads for NASA. If confirmed as NASA 
Administrator, I will look forward to working with commercial space 
businesses which can help NASA achieve its objectives, including those 
businesses which launch from commercial spaceports.

    Question 2. During our discussion in Committee, I stated the 
following ``97 percent of the scientists with articles in peer-reviewed 
journals have concluded that climate change is real, is caused by human 
activity, and is already causing devastating problems in our country 
and around the world.'' The data I cited is from NASA's own website, 
found here--https://climate.nasa.gov/scientific-consensus/. A copy of 
the landing page is attached as well. As you can tell, the information 
on this site is a robust discussion about the amount of consensus 
around climate change. Will you commit to keeping this section of the 
website up-to-date and reflective of the scientific discussion?
    Answer. Yes.

    Question 3. Congressman, in the summary of your American Space 
Renaissance Act, you state that, ``NASA must not be a jack-of-all-
trades, but committed to a space pioneering doctrine with a purpose to 
retire risk and commercialize programs. Landing humans on Mars in not 
possible with NASA's current priorities, strategies, and missions.'' 
What exactly do you mean by this statement? Were you suggesting that 
landing humans on Mars should be the priority--even at the expense of 
National Academy-endorsed science missions and next generation 
hypersonic research? What of NASA's current programs are you proposing 
to ``commercialize'' in order to refocus NASA on Mars?
    Answer. The NASA Transition Authorization Act of 2017 identified 
space science, space technology, aeronautics, human spaceflight and 
exploration, and education as NASA's core missions. I enthusiastically 
supported this legislation and fully support the core missions of NASA 
that it identified.
    The intention of the civil space title of the American Space 
Renaissance Act was to propose ideas to ensure continuity in NASA's 
priorities and funding when administrations change, particularly when 
it comes to human spaceflight. I drew the inspiration, and in some 
cases direct language, from the Space Foundation's Pioneering Report. 
This report calls for NASA to arrive first at locations in space, 
lowering barriers to access and leaving behind infrastructure that can 
be utilized by other actors. This was what was meant by 
``commercialize.'' This is similar to how NASA's use of low Earth orbit 
has facilitated the growth of markets.
    In the bill, I was seeking to primarily focus on the human 
spaceflight facet of NASA. That said, I did have several references to 
some of NASA's critical science missions in the bill. I did not intend 
to suggest that landing humans on Mars should be the priority at the 
expense of National Academy-endorsed science missions and next 
generation hypersonic research.
    After introducing the bill, I received feedback and constructive 
criticism. Before being nominated for this position, I had planned to 
introduce an updated version of the legislation addressing concerns 
similar to yours.
    Further, the NASA Transition Authorization Act of 2017 addressed 
constancy of purpose for human spaceflight in an appropriate manner. I 
enthusiastically supported this legislation.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                         Hon. James Bridenstine
    Question 1. NASA scientists were among the first to raise awareness 
of global warming as a result of greenhouse gases and NASA Earth 
Science programs have played a major role in bettering our 
understanding of the climate and climate change. Alarmingly, you 
deleted ALL references to science from NASA's founding objectives in 
your 2016 American Space Renaissance Act. You are now publicly 
expressing support for NASA's science mission, but this flip-flop has 
me concerned. How will you handle pressure and criticism from your 
former colleagues in the House, and particularly in the Freedom Caucus, 
as well as pressure from the President, who don't share your current 
view of how important NASA's scientific research is, especially the 
agency's study of the Earth?
    Answer. In authoring and introducing the American Space Renaissance 
Act, I was seeking to primarily focus on the human spaceflight facet of 
NASA. That said, I did have several references to some of NASA's 
critical science missions in the bill. I have crafted and voted for 
other legislation, including the NASA Transition Authorization Act of 
2017, which included NASA's science mission. I have been supportive of 
NASA's science mission during my time in Congress.
    As a Member of Congress, I have stood up to members of my own party 
on many occasions, including members of the Freedom Caucus. Should I be 
confirmed, I will have no issue passionately advocating for NASA's 
mission with policymakers who might disagree with the mission.

    Question 2. As I'm certain you are aware, the NASA Reauthorization 
of 2017 passed with strong bi-partisan support. While there were 
certain similar provisions in the NASA Reauthorization and your 
American Space Renaissance Act, there were also glaring differences 
between the two bills. Of concern for me, is a provision included in 
your bill that was left out of the NASA Reauthorization that directs 
NASA to streamline its programs and efforts so it is focused on one 
thing--getting to Mars. Your bill's website says ``NASA must not be a 
jack-of-all-trades, but committed to a space pioneering doctrine'' and 
says that ``landing humans on Mars is not possible with NASA's current 
priorities, strategies, and missions.'' The role of the NASA 
Administrator is to advocate for all of NASA's missions and directives, 
and indeed many of your statements since your nomination seem to do so. 
Can you tell the Committee what caused you to change your opinion? If 
confirmed as NASA Administrator, will you follow the NASA 
Reauthorization Act of 2017 and advocate with equal voice for all NASA 
missions, or will you pursue reorganization, refocusing, and 
elimination of, as you call them, extraneous activities?
    Answer. The NASA Transition Authorization Act of 2017 identified 
space science, space technology, aeronautics, human spaceflight and 
exploration, and education as NASA's core missions. I enthusiastically 
supported this legislation and fully support the core missions of NASA 
that it identified. Should I be confirmed, I will advocate for them.
    The intention of the civil space title of the American Space 
Renaissance Act was to propose ideas to ensure continuity in NASA's 
priorities and funding when administrations change, particularly when 
it comes to human spaceflight. I drew the inspiration, and in some 
cases direct language, from the Space Foundation's Pioneering Report.
    In the bill, I was seeking to primarily focus on the human 
spaceflight facet of NASA. That said, I did have several references to 
some of NASA's critical science missions in the bill. I did not intend 
to suggest that landing humans on Mars should be the priority at the 
expense of National Academy-endorsed science missions.
    After introducing the bill, I received feedback and constructive 
criticism. Before being nominated for this position, I had planned to 
introduce an updated version of the legislation addressing concerns 
similar to yours.
    Further, the NASA Transition Authorization Act of 2017 addressed 
constancy of purpose for human spaceflight in an appropriate manner. I 
enthusiastically supported this legislation.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                         Hon. James Bridenstine
    Question 1. What is the most important thing that we, in Congress, 
should do right now to start tackling the issue of space debris? 
Outside of Congressional action, what should our Federal agencies be 
prioritizing?
    Answer. I would recommend Congress work with the National Space 
Council, which can bring together FAA, FCC, NOAA, Commerce, DoD, State, 
NASA and others to create a comprehensive legal framework that can 
become the international norm of behavior. The legal and regulatory 
frameworks governing spacecraft delivery, on-orbit management, and 
disposal need to be examined as we prepare for many large 
constellations of Low Earth Orbit satellites. Responsibilities of 
agencies that currently have roles (assumed by default) in regulating 
space objects should be reconsidered.
    Question 2. Do you have any plans to address the issue of space 
debris?
    Answer. The issue of space debris requires three separate areas of 
focus:

  1.  Mitigation--preventing additional space debris from being created

  2.  Remediation--removing space debris that already exists

  3.  Space Situational Awareness and Traffic Management--preventing 
        space debris from interfering in missions

    NASA technology development can support space debris remediation 
efforts. There are already hundreds of thousands of objects in space, 
many dating from eras when responsible end of life and debris 
mitigation practices were not the norm among spacefaring nations. These 
continue to pose a danger to activity in space. The cost and difficulty 
of removing space debris is significant and will require a government-
wide effort.
    While NASA excels at technology development, it is not a regulatory 
agency and should not become the ``FAA for Space.'' If confirmed, I 
would like to leverage the resources of NASA and work with Congress and 
the National Space Council in devising a solution to this problem.

    Question 3. Managing the space environment to limit space debris 
could mean we have to devise ways to limit or control access to space--
we could eventually run out of room. If this turns out to be the case, 
how can we address issues of equitable use of the space environment by 
interested parties--both in the U.S., and internationally?
    Answer. The goal should be to improve technology and space 
situational awareness so that access will not be limited. As a Member 
of Congress, I have suggested we need to change how we conduct space 
situational awareness. Currently, the U.S. Department of Defense, 
through the Joint Space Operations Center (JSpOC), provides space 
situational awareness and conjunction analyses to foreign governments 
and the commercial sector as a byproduct of its mission to monitor 
national security assets in space. Given the unique capabilities of the 
JSpOC, this was the right approach in times past.
    However, as more nations and commercial operators have entered the 
market, providing this data, information, and services to commercial, 
civil, and foreign actors is distracting JSpOC from its core national 
security mission at a time when threats are proliferating. The JSpOC 
needs to use its resources for national security. I have heard time and 
time again from DoD leadership that they do not want to be the ``FAA 
for Space.''
    Instead, a civil agency should provide information and certain 
services to commercial, civil, and foreign space actors. I have 
proposed that the FAA's Office of Commercial Space Transportation 
should be that agency. We should create a conjunction analysis and 
warning center with a single integrated space picture that fuses 
unclassified data from the DoD, international, and commercial sensors, 
as well as data emitted from satellites. This conjunction analysis and 
warning center should heavily utilize commercial sensor networks as 
well as commercial software and programming, and be subject to the FAA/
AST's oversight.
    The United States should lead this effort since it has the 
preponderance of assets in space and the technology to implement such a 
program. In the long run, the effort should be international with 
partners contributing data and financial resources. This paradigm will 
engender greater partnerships between various private companies and 
various governments.
    I believe setting up a regulatory regime is important lest we lose 
our ability to access space, but we have to get it right so that it is 
not overly burdensome for our industry. If confirmed, I intend to work 
closely with the National Space Council, Congress and the wider 
stakeholder community in order to reach consensus.

    Question 4. You have stated that the Federal Government should have 
no role in education. Do you agree with the President's FY18 budget 
request, which would defund NASA education programs like EPSCoR \1\, 
space grant, and the Minority University Research and Education 
program?
---------------------------------------------------------------------------
    \1\ EPSCoR enhances research competitiveness of targeted 
jurisdictions (states, territories, commonwealths) by strengthening 
STEM capacity and capability.
---------------------------------------------------------------------------
    Answer. As the former Executive Director of the Tulsa Air and Space 
Museum, I have seen firsthand the exceptionally unique capabilities of 
NASA to inspire and educate children. I support funding for NASA 
education programs like EPSCoR, Space Grant, and the Minority 
University Research and Education Program.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                         Hon. James Bridenstine
    Question 1. During your confirmation hearing, I asked whether you 
would treat discrimination on the basis of sexual orientation or gender 
identity as a prohibited personnel practice:
    ``To begin addressing these concerns, yes or no, if confirmed as 
NASA administrator, would you treat discrimination against a NASA 
employee on the basis of sexual orientation or gender identity or 
religion as a prohibited personnel practice?''
    You responded to my question by stating:

        ``Discrimination based on that, prohibited, absolutely. It 
        should be prohibited.''

    Please clarify your response on how, if confirmed to be NASA 
Administrator, you would treat discrimination against a NASA employee 
on the basis of sexual orientation or gender identity. Did you mean 
that if confirmed, you would follow existing guidance (``Addressing 
Sexual Orientation and Gender Identity Discrimination in Federal 
Civilian Employment'') that was jointly issued by the U.S. Office of 
Personnel Management, U.S. Equal Employment Opportunity Commission 
(EEOC), U.S. Office of Special Counsel and the U.S. Merit Systems 
Protection Board to provide Federal agencies with guidance on 
employment rights, protections and responsibilities under the law?
    Answer. If confirmed, I will follow the guidance in ``Addressing 
Sexual Orientation and Gender Identity Discrimination in Federal 
Civilian Employment'' and in accordance with that guidance will treat 
discrimination on the basis of sexual orientation or gender identity as 
a prohibited personnel practice.

    Question 2. If confirmed as NASA Administrator, would you follow 
EEOC's legal interpretation that the prohibition on sex discrimination 
included in Title VII of the Civil Rights Act of 1964 provides 
protections for persons who have been discriminated against based on 
sexual orientation and gender identity?
    Answer. If confirmed, I will follow the guidance in ``Addressing 
Sexual Orientation and Gender Identity Discrimination in Federal 
Civilian Employment'' and in accordance with that guidance will treat 
discrimination on the basis of sexual orientation or gender identity as 
a prohibited personnel practice.

    Question 3. If you would not treat discrimination on the basis of 
sexual orientation or gender identity as a prohibited personnel 
practice pursuant to section 2302(b)(1) of title 5 of the United States 
Code, please clarify your response that ``It should be prohibited.''
    Did you mean that if confirmed as NASA Administrator, you would 
publicly support amending section 2302(b)(1) of title 5 of the United 
States Code to explicitly clarify that discrimination on the basis of 
sexual orientation or gender identity is prohibited by the first 
prohibited personnel practice?
    Answer. If confirmed, I will follow the guidance in ``Addressing 
Sexual Orientation and Gender Identity Discrimination in Federal 
Civilian Employment'' and in accordance with that guidance will treat 
discrimination on the basis of sexual orientation or gender identity as 
a prohibited personnel practice.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                         Hon. James Bridenstine
    Question 1. To follow up from our hearing questions, you noted you 
were not aware of materials being deleted or removed from your online 
sources prior to your nomination and confirmation hearing. However, CNN 
has reported on this topic and it appears items were deleted from your 
campaign website and campaign social media accounts (Facebook, Twitter, 
and YouTube), Congressional website blog posts and releases, and 
official Facebook posts, SoundCloud tracks, and YouTube videos.
    Items deleted include floor speeches opposing President Obama and 
denying climate change, radio interviews with conservative media 
personalities, and blog posts from your official House website 
detailing conservative views. It appears at least 575 items were 
deleted. Please describe why these items were removed. Please provide a 
list of any deleted materials for the Committee record.
    Answer. My Digital Director managed my social media accounts. When 
a reporter inquired about the management of my political and official 
digital accounts, my Digital Director let him know that my campaign 
Facebook, Twitter, and YouTube were deleted because our office was 
getting questions about my term limits pledge. Because I was no longer 
a candidate, he took down the accounts. This was prior to and 
unconnected to my eventual nomination.
    My Digital Director also informed the reporter that the videos 
referenced were publicly available in many places including the 
committees I sit on.

    Question 2. As discussed in your confirmation hearing, several 
items were not disclosed on your questionnaire. This includes three op-
eds, ten donations to political campaigns and organizations, and eleven 
organization memberships. Please provide this information to the 
Committee along with an explanation of why it was excluded from your 
questionnaire initially.
    Answer. Some political contributions made by my campaign were 
categorized differently at the time of the contribution by my Campaign 
Treasurer. They were unintentionally left out of the initial report. 
After further review, my Campaign Treasurer identified additional 
contributions and these are provided as an attachment.
    Some additional memberships were listed under my campaign, Friends 
of Jim Bridenstine, Inc., as opposed to me personally. These are 
provided as an attachment. The Wagoner County Disabled American 
Veterans and National Federation of Independent Businesses were simply 
overlooked.
    I am not certain which op-eds might be missing. I have provided all 
I can locate.

    Question 3. Universities are a critical part of NASA's scientific 
ecosystem. By working with NASA through competitively selected, 
Principal-Investigator driven missions in Explorer, Venture, New 
Frontiers, and Discovery programs, universities lead robotic space 
exploration efforts, design and build instruments for satellites and 
probes, analyze the data that these missions yield, and develop the 
scientific workforce that sustains NASA's vitality. Researchers in my 
home state at the University of New Hampshire play a central role in 
this ecosystem by expanding our knowledge of both solar physics and 
Earth systems. With support from NASA's Heliophysics Division, their 
investigations have yielded profound insights into the inner workings 
of our sun. The knowledge gained helps NASA protect astronauts from 
solar radiation, informs the design of more resilient spacecraft, and 
will lead to improvements in our energy infrastructure. University of 
New Hampshire researchers are also helping to advance Earth Science as 
well. By using NASA's Earth-facing remote sensing missions, UNH 
researchers have been studying the evolution of the Arctic. These 
investigations have implications for commerce, navigation, and national 
security.
    If confirmed, what do you see as the role of universities under 
your leadership in these and other important NASA science missions; and 
do you believe there are ways NASA can better leverage the unique 
capabilities of these institutions?
    Answer. It is crucial to the future of NASA that it has a healthy 
supply of universities leading and building science missions. This is 
not just because universities have skilled scientists, engineers, and 
students who can do great work, but also because these missions help 
teach a new generation of students how to design and build spacecraft 
and also how to perform science in space. Without university-led 
missions, the well of STEM talent could run dry. It is certainly 
possible that NASA can leverage universities even more than it already 
is. If confirmed as NASA Administrator, I would like to work with you 
on this issue.

    Question 4. The NASA Transition Authorization Act of 2017 supports 
missions for SLS and Orion over the long term. The Act states that the 
Administrator ``shall manage human space flight programs, including the 
Space Launch System and Orion, to enable humans to explore Mars and 
other Destinations.'' The Act also directs the Administrator to develop 
a sustainable stream of missions, beginning with the Exploration 
Missions for SLS and Orion, in order to extend human exploration from 
the Moon to the surface of Mars. The SLS and Orion program are supplied 
by over 20 different companies in New Hampshire, which support a 
vibrant high-tech manufacturing sector that creates good, high paying 
jobs.
    Do you support a long term program of Orion, SLS, and associated 
efforts for human deep space exploration; and do you support manned 
missions to Mars as required by the NASA Transition Authorization Act 
of 2017?
    Answer. Yes. I supported the NASA Transition Authorization Act of 
2017. I support crewed missions to Mars and using the Moon as a proving 
ground to get there. I believe that Orion and SLS will be the backbone 
of our Deep Space exploration architecture.

    Question 5. What is your view of past attempts to cancel authorized 
programs that enjoyed bipartisan and bicameral support from Congress, 
such as the Constellation Program?
    Answer. It is crucial for NASA to have consistent long-term plans 
for major programs. Inconsistent program funding and support leads to 
budget overruns, schedule slips, and cancellations that are costly and 
erode morale. If confirmed as NASA Administrator, I pledge to work with 
Congress on a bipartisan plan for NASA's budget which will ensure 
continuity and be able to maintain steady bipartisan and bicameral 
support well into the future.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                       to Hon. James Bridenstine
    Foreign-Sourced Propellant. Rep. Bridenstine, I'd like a written 
response from you on the source of our solid rocket propellant. As I'm 
sure you're aware, foreign solid rocket propellant may be used to power 
NASA's Next-Gen Space Launch System; however, the costs to test and 
otherwise qualify the foreign propellant will certainly be costly, 
possibly as much as a billion dollars. Meanwhile, domestic producers 
that supplied the Space Shuttle are available to support not only the 
SLS but also DoD's strategic rockets, but without the costly testing.
    Question 1. As Administrator, would you favor moving to domestic 
sources of fuel and halt this expensive and unnecessary requalification 
for foreign sourced propellant?
    Answer. Ammonium perchlorate is a crucial material for NASA's human 
exploration plans. Each SLS launch will feature two solid rocket 
boosters which use ammonium perchlorate as their oxidizer. Each SLS 
launch will use close to two million pounds of ammonium perchlorate. 
That said, it would be inappropriate for NASA to directly intervene 
between a contractor and a sub-contractor. However, I am committed to 
ensuring our Nation has a robust domestic industrial base, and should I 
be confirmed I look forward to working with Congress to achieve this 
objective.

    Potential Conflict of Interest. Rep. Bridenstine, in pre-hearing 
questions, you admitted to asking numerous organizations in the space 
industry for letters of recommendation or support. Presumably, these 
companies will be competing for NASA contracts under your supervision 
as administrator.
    Question 2. Given this, can you explain how these requests don't 
represent an inherent conflict of interest?
    Answer. During my time in Congress as a member of two committees 
with oversight over our country's space enterprise, I have come to know 
and work with a many space policy experts and a great number of 
industry, academic, tribal, association, and NGO representatives. Many 
expressed support for my nomination and I requested letters from those 
supporters.

    Question 3. Do you believe you should recuse yourself from 
decisions regarding the companies that have lobbied on behalf of your 
nomination?
    Answer. The letters were provided as a matter of courtesy without 
any expectation of future consideration. I will follow the guidance of 
NASA's Office of General Counsel and any applicable laws and 
regulations.

                    Friends of Jim Bridenstine, Inc.
                                DONATIONS
------------------------------------------------------------------------
          Date              Amount                  Entity
------------------------------------------------------------------------
10/13/2012                 1,000.00  Mullin for Congress
4/1/2014                   5,000.00  Oklahoma GOP
4/3/2014                     150.00  Oklahoma GOP
5/12/2014                  1,000.00  Loudermilk for Congress
5/12/2014                  1,000.00  Mooney for Congress
6/16/2014                  2,000.00  Friends of Harvey Sparks
7/22/2014                  2,000.00  Steve Daines for Montana
8/13/2014                  2,000.00  Steve Russell for Congress
8/15/2014                  1,000.00  Oklahoma First Ladies
10/24/2014                   500.00  Tulsa 9.12
4/9/2015                     250.00  Oklahoma GOP
4/23/2015                  1,250.00  Southern Republicans Leadership
                                      Conference
9/29/2015                  2,000.00  Ron Desantis
4/14/2016                    400.00  Oklahoma Young Republicans
2/24/2017                  5,000.00  Oklahoma GOP
6/22/2017                    500.00  Oklahoma Young Republicans
========================================================================
                          25,050.00
------------------------------------------------------------------------


                    Friends of Jim Bridenstine, Inc.
                               MEMBERSHIPS
------------------------------------------------------------------------
                 Entity                                Term
------------------------------------------------------------------------
National Federation of Independent        01/2013 to Present
 Businesses
Tulsa Chamber of Commerce                 02/2012 to Present
Bixby Chamber of Commerce                 12/2011 to Present
Sand Springs Chamber of Commerce          04/2013 to Present
Bartlesville Chamber of Commerce          12/2011 to Present
Broken Arrow Chamber of Commerce          12/2011 to Present
Marine Corps League                       10/2014 to 10/2016
Brookside Business Association            10/2012 to 10/2013
Glenpool Chamber of Commerce              02/2015 to Present
Wagoner County DAV                        10/2014 to Present
------------------------------------------------------------------------

                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                              Dana Baiocco
    Portable Generator Safety. As you know, carbon monoxide poisoning 
from portable generators is a very serious problem. In the wake of 
Hurricane Irma, we saw at least 11 deaths and numerous injuries in 
Florida due to carbon monoxide poisoning from generators.
    For years, I have asked the CPSC to take a tougher stance and adopt 
a mandatory safety standard that will either reduce the carbon monoxide 
output from generators or turn them off when carbon monoxide 
concentrations get too high.
    Last November, the CPSC voted 4 to 1 to adopt a proposed rule that 
would limit carbon monoxide emissions from generators--and save lives.
    Question 1. If confirmed, will you support adoption of this final 
rule?
    Answer. Thank you for your question regarding portable generators. 
Given the recent hurricanes and their impact on Florida, I recognize 
that you are particularly engaged on this matter. As you know, the CPSC 
published a proposed rule to set a safety standard regarding carbon 
monoxide (CO) emissions rates for portable generators in an effort to 
reduce the risk of injury or death from using a generator in an indoor 
or confined space. If confirmed, I will work hard to learn the details 
surrounding this proposed rule as well as the related issues and 
concerns so that I will be as well informed as possible. I look forward 
to working with you, the other CPSC Commissioners, industry 
stakeholders, and consumers on this important issue.

    Ethics. Ms. Baiocco, you have spent part of your career defending 
consumer product companies from lawsuits and investigations. If 
confirmed, you will now be representing the American people--and 
protecting them from unsafe products.
    To do this effectively, I believe you must be free of all ethical 
conflicts and the public should know the identity of all current and 
former clients that manufacture consumer products.

    Question 2. Please provide this committee with a list of all 
consumer product manufacturers you have represented, including in an 
advisory role or in actions before the CPSC, other state or Federal 
agencies, or in any civil or criminal action in any local, state, or 
Federal court.
    Answer. As a lawyer, I am duty-bound to maintain the confidential 
nature of legal advice sought by or provided to any client. The clients 
that my firm represented in litigation are a matter of public record 
and have been provided in accordance with the disclosure requirements 
that govern my nomination. If confirmed, I will effectively and 
zealously execute my duties as a Commissioner on behalf of the American 
people, and consistent with the statutory duties under the CPSA and 
other applicable statutes. Further, and in connection with my 
nomination, I have consulted with the Office of Government Ethics and 
the CPSC's Designated Agency Ethics Officer to identify potential 
conflicts of interest. I have signed an ethics agreement that will 
govern the potential conflicts that have already been identified and I 
will recuse myself in those instances, in accordance with Federal 
ethics laws. If faced with any other potential conflict of interest, I 
will seek the advice and counsel of the CPSC's Designated Agency Ethics 
Officer and follow that advice.

    Recusals. Your profile on the Jones Day website notes that you have 
represented, among other clients, Mattel in activities related to toy 
recalls for high levels of lead paint, Yamaha against product liability 
claims involving its Rhino off-road vehicles (ROVs), and Vibram for 
claims involving its footwear products.

    Question 3. Do you agree to recuse yourself from Commission actions 
involving these former clients, including votes on civil penalties, 
corrective action plans (CAPs), or rulemakings, during your term on the 
Commission? If not, why not?
    Answer. I am not aware of what issues are currently before the CPSC 
or that may be before the CPSC at any point during my term, if 
confirmed. In connection with my nomination, I have consulted with the 
Office of Government Ethics and the CPSC's Designated Agency Ethics 
Officer to identify potential conflicts of interest. I have signed an 
ethics agreement that will govern the potential conflicts that have 
already been identified and I will recuse myself in those instances, in 
accordance with Federal ethics laws. If faced with any other potential 
conflict of interest, I will seek the advice and counsel of the CPSC's 
Designated Agency Ethics Officer and follow that advice.

    Recusals. Various media reports have indicated that your husband, 
Mr. Andrew Susko, has defended Ikea in a product liability lawsuit 
concerning dresser tip-overs. Former Republican Commissioner Ann 
Northup agreed to recuse herself from all Commission matters involving 
all-terrain vehicles (ATVs) and ROVs because of her husband's past work 
in that industry.

    Question 4. If confirmed, do you intend to follow former 
Commissioner Northup's lead by recusing yourself from all Commission 
matters involving furniture tip-overs during the term of your service 
on the Commission? If not, why not?
    Answer. I am not familiar with the facts and circumstances 
regarding former Commission Northup or her spouse. In connection with 
my nomination, however, I have consulted with the Office of Government 
Ethics and the CPSC's Designated Agency Ethics Officer to identify 
potential conflicts of interest. I have signed an ethics agreement that 
will govern the potential conflicts that have already been identified 
and I will recuse myself in those instances, in accordance with Federal 
ethics laws. The agreement also addresses my spouse. If faced with any 
other potential conflict of interest, I will seek the advice and 
counsel of the CPSC's Designated Agency Ethics Officer and follow that 
advice.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              Dana Baiocco
    Phthalates. Phthalates are chemicals used to soften materials such 
as plastic and are used in a wide array of consumer products including 
toys. Phthalates have well documented associations with significant 
adverse health effects. The Consumer Product Safety Improvement Act 
(CPSIA) passed in 2008, banned three specific phthalates and required 
the CPSC to form an expert panel to evaluate additional phthalates. The 
CPSC just finalized a rule, based on the expert panel's recommendation, 
to ban children's toys and child care articles that contain 
concentrations of more than 0.1 percent of 5 additional phthalates 
(diisononyl phthalate, diisobutyl phthalate, di-n-pentyl phthalate, di-
n-hexyl phthalate, and dicyclohexyl phthalate.
    Question 1. Do you support this phthalate rule? How else would you 
address childhood exposure to known toxic chemicals?
    Answer. Thank you for your question regarding phthalates. I am not 
fully aware or privy to the steps taken internally by the CPSC and I 
look forward to getting fully up to speed on all issues. If confirmed, 
I plan to follow the duties and requirements set forth in the Consumer 
Product Safety Improvement Act (CPSIA) and other relevant statutes 
applicable to the Commission. I do know that the Commission voted to 
issue a final rule prohibiting the use of specified phthalates (a class 
of plasticizing chemicals found in virtually all soft plastics) in 
children's toys and child care articles. I look forward to learning 
more about this rule and the consideration that went into the 
Commission's adoption of it. With regard to addressing other exposures, 
I will evaluate the issues that come before the CPSC, consistent with 
the applicable science, data and applicable rules, regulations and 
laws, and work collaboratively with stakeholders and the other 
Commissioners to find best practices to protect America's children. If 
confirmed, I look forward to working with you, the other CPSC 
Commissioners, industry stakeholders, and consumers on this important 
issue.

    Question 2. At Jones Day, you have been involved in high-profile 
cases where you defended major companies against accusations of selling 
faulty or dangerous products, wrongful death suits, and fraud. Given 
this history, how can the public rest assured that you are fit to serve 
at an agency charged with protecting consumers?
    Answer. If confirmed, I will effectively and zealously execute my 
duties as Commissioner on behalf of the American public, and consistent 
with the statutory duties under the CPSA and all other applicable 
statutes. I see my role, if confirmed, as one on behalf of the American 
people and not on behalf of any particular sector or stakeholder.

    Hazardous Substances. As you know, one of the key statues the CPSC 
is charged with implementing is the Federal Hazardous Substances Act or 
FHSA. Under the FHSA, a ``hazardous substance'' must be labeled with a 
warning, but if it is a children's product, or if a warning would not 
be effective, a ``hazardous substance'' must be banned. Toxicity is one 
of the characteristics that can lead a product to be ``hazardous.'' 
Under the FHSA, a product is a hazardous substance based on toxicity if 
it meets two criteria. 1. It must have the capacity to produce illness 
or injury through ingestion, inhalation, or absorption through any body 
surface. And 2. It ``may cause'' substantial illness as a result of 
customary use.
    Question 3. Are you committed to regulating consumer products based 
on their capacity to produce illness or injury as a result of customary 
use?
    Answer. Thank you for your question regarding the regulation of 
hazardous substances in consumer products. I am committed to following 
the mandates of the Federal Hazardous Substances Act, and all relevant 
laws, regulations, and rules that govern the issues over which the CPSC 
has jurisdiction. The issues that come before the CPSC are often 
complicated and require the study and analysis of laws, regulations, 
science, and the application of common sense. If I am confirmed, I look 
forward to working with you, the other CPSC Commissioners, industry 
stakeholders, and consumers on this important issue.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                              Dana Baiocco
    Product Recalls. After Ted McGee, a 22-month old from Apple Valley 
was killed by a falling Malm dresser, I worked with the Consumer 
Product Safety Commission (CPSC) and IKEA to recall these dangerous 
products. A previous repair program had not been effective, and I 
called on Ikea to issue a full recall, stop selling the dressers and 
offer full refunds for consumers. In June 2016, IKEA stopped selling 
the dressers and issued a recall of 29 million chests and dressers 
making it the largest furniture safety recall in history. Despite the 
recall, a two-year-old California boy was recently killed by a falling 
Malm dresser.
    Question 1. Ms. Baiocco, As Commissioner, what tools would you like 
to see used to assure an effective response to recall announcements--
both from the agency and the recalling company? Do you believe that the 
CPSC has been successful at achieving acceptable recall return and 
repair rates on children's products?
    Answer. Thank you for these questions about recalls. I know that 
CPSC experts have been analyzing these issues and I would like to study 
their findings regarding how to more effectively use the tools 
available to the CPSC and to the recalling company to assure the 
highest response to any recall announcement. I will continue to work 
with stakeholders to find ways to reach consumers, not just in terms of 
notice, but in terms of encouraging those who receive notice to take 
steps to participate in the recall. If confirmed, I look forward to 
learning more about CPSC's successes and challenges with regard to 
return and repair rates. This would include working with the 
Commission's enforcement staff to review and evaluate the relevant 
recall effectiveness data. This is certainly an area worthy of 
attention and, if confirmed, I look forward to studying this issue in 
depth.

    Pool Safety. After six-year old Abagail Taylor from Edina, 
Minnesota was killed by a drain in a public pool, I worked with former 
Senators Allen, Pryor and Stevens and former Secretary of State James 
Baker on the Virginia Graeme Baker Pool and Spa Safety Act. In 
committee, I added an amendment to make the safety requirements for 
public pools retroactive, so new, safer drain covers had to be 
installed at all public pools. Not a single child has died from drain 
entrapment in a public pool since the bill went into effect.
    Question 2. Ms. Baiocco, the CPSC has also played an important role 
in the success of pool safety efforts. Are there elements of this 
campaign that could be applied to other areas of the CPSC's work?
    Answer. This has been a successful campaign and I would like the 
opportunity to learn more about it. The successful elements of this 
campaign can be and should be examined so that the CPSC can draw upon 
the lessons learned here and use them and/or variations on them to 
benefit consumers in other safety related circumstances. I will commit 
to discussing this issue with the other Commissioners and CPSC staff, 
if confirmed. Given your leadership on VGBA, and the issue of pool 
safety in general, I would also welcome the opportunity to discuss this 
further with you and to hear your thoughts on how best to apply 
elements of the pool safety campaign to other areas of the CPSC's work.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                              Dana Baiocco
General.
    Question 1. What is your interest in serving as a CPSC 
Commissioner?
    Answer. The mission of the CPSC is a very important one that 
touches every American family. The CPSC has jurisdiction over 15,000+ 
types of products, and many of the issues that come before the CPSC are 
complicated in terms of sciences and the related legal aspects that 
govern them. I have been asked by the President of the United States to 
use my skills as a lawyer on behalf of the American people. I am 
honored to have such an opportunity and accept it with enthusiasm and 
commitment. I am committed to work on behalf of the American public and 
to use my abilities to promote safety and protection for them.

    Question 2. There appears to be some gaps in your resume. Please 
provide information regarding any and all employment between when you 
graduated from college in 1988 and when you began the four-year evening 
program at Duquesne University School of Law (presumably in 1993)? 
Please provide information regarding any and all employment while you 
were in the part-time evening program at Duquesne University School of 
Law.
    Answer. My resume shows my legal experiences and employment over 
the last 20 years, beginning with my Federal clerkship. From late 1988 
through 1993 when I began the four-year evening program at Duquesne 
University School of Law in 1993, I worked in sales and promotions for 
American Modeling, Inc., in Monroeville, Pennsylvania, and also taught 
modeling, make-up, and photography courses at its affiliated modeling 
school. I worked on a part-time basis for a short while after starting 
law school in the same capacity. In approximately 1994, I began working 
as an unpaid intern in Federal district court in Pittsburgh, 
Pennsylvania. I worked as a Summer Associate at the law firm of Eckert, 
Seamans Cherin & Mellott in Pittsburgh during the Summer of 1995. I was 
hired as a law clerk to the Honorable Gustave Diamond in the District 
Court for the Western District of Pennsylvania in 1996 and served in 
that role until I accepted a position as an associate with Jones Day in 
1998.

    Ethics. You have extensive experience working with companies 
seeking to escape liability from allegations of product safety 
violations. They may believe that you will be an advocate for them on 
the Commission, even though your role as a Commissioner will be very 
different from your role as an advocate.
    Question 3. Please list all of your current or former clients who 
have had matters involving the CPSC or in front of the CPSC. In your 
Ethics Agreement, you agree that the interests of your spouse are 
imputed to you. Accordingly, please list all of your husband's current 
or former clients who have had matters involving the CPSC or in front 
of the CPSC. Will you commit to recuse yourself from all matters 
involving any of your and your husband's former or current clients for 
the entire duration of your service as Commissioner? Will you 
voluntarily commit to not seek, or accept, any waivers? If you answered 
``No'' to the previous question, under what circumstances would you 
seek a waiver to participate in matters at the CPSC where you or your 
husband have a previous or current interest? How can you assure Members 
of Congress and the public that you will uphold the mission of the 
agency and not the interests of your previous clients? What will you do 
to go above and beyond your ethics agreement as it relates to contacts 
with your current employer and former clients to ensure that there is 
no conflict or appearance of conflicts well beyond the one year 
prohibition?
    Answer. As a lawyer, I am duty-bound to maintain the confidential 
nature of legal advice sought by or provided to any client. The clients 
that my firm represented in litigation are a matter of public record 
and have been provided in accordance with the disclosure requirements 
that govern my nomination. If confirmed, I will effectively and 
zealously execute my duties as Commissioner on behalf of the American 
people. Further, and in connection with my nomination, I have consulted 
with the Office of Government Ethics and the CPSC's Designated Agency 
Ethics Officer to identify potential conflicts of interest. I have 
signed an ethics agreement that will govern the potential conflicts 
that have already been identified and I will recuse myself in those 
instances, in accordance with Federal ethics laws. The agreement also 
addresses my spouse. If faced with any other potential conflict of 
interest, I will seek the advice and counsel of the CPSC's Designated 
Agency Ethics Officer and follow that advice.
    If confirmed, my job as a Commissioner will not be to represent a 
particular sector or stakeholder. Rather, it will be to hear and work 
on behalf of the entire American public. I have been asked by the 
President of the United States to use my skills as a lawyer on behalf 
of the American people. I am honored to have such an opportunity and 
accept it with enthusiasm and commitment. I am aware of my obligations 
to the American public and intend to carry out those obligations with 
integrity and consistent with the high standards that the American 
people, and this Committee, expect from their public servants.

    Portable Generators. Consumer education and warning labels have not 
proven effective at reducing the 70 deaths per year on average from CO 
poisoning from portable generators.
    Question 4. Shouldn't CPSC require the product to be redesigned? 
The technology necessary to reduce CO emissions and save lives is 
readily available. Do you agree that the CPSC can require portable 
generator manufacturers to lower CO emission rates to prevent death and 
serious injuries from CO poisoning? Do you agree there should be a rule 
to require all companies incorporate this life saving technologies?
    Answer. Thank you for your questions about portable generators. I 
am not familiar with the details of the technologies you reference, or 
the available or proposed options regarding portable generators, but I 
am committed to getting fully up to speed. The CPSC is, of course, an 
independent agency created by Congress in 1972 by the Consumer Product 
Safety Act. Its authority is governed by this Act, and it is bound by a 
complex set of rules and regulations that Congress promulgated and 
Courts have interpreted in some instances. The statutory framework 
provides direction on how to address issues such as those referenced in 
your series of questions relating to portable generators and requires 
the CPSC to employ voluntary standards first and, if unsuccessful, then 
the Agency can call for mandatory standards. The statute requires that 
if voluntary standards can address a hazard and if they are 
substantially complied with, the Agency may not proceed with mandatory 
rule making. If confirmed, I will protect consumers in accordance with 
these directives. I can also commit to being responsive to you and your 
office on this or any other issue that you want to discuss and/or on 
any ideas or new ways to promote the goals of the CPSC or the statute.

    Flame Retardants. The Consumer Product Safety Commission recently 
voted to grant a Petition requesting the CPSC initiate rulemaking to 
ban toxic flame retardants in children's products, upholstered 
furniture, electronic casings, and mattresses. Organohalogen flame 
retardants have well-documented associations with significant adverse 
child health effects. These chemicals are known to leech from those 
products, resulting in widespread human exposure.
    Question 5. Do you or do you not support the CPSC moving forward to 
develop a proposed rule to ban this chemical class in children's 
products, upholstered furniture, mattresses, and electronics casings? 
Given your work for R.J. Reynolds, if you are confirmed, do you commit 
to recusing yourself from matters at the CPSC relating to flame 
retardant chemicals in consumer products for the entire duration of 
your service as CPSC Commissioner?
    Answer. Thank you for your questions regarding flame retardants. I 
am not currently in a position to comment on the petition or any plans 
regarding the initiation of any rulemaking procedure because I am not 
part of the Commission, and I am neither aware of nor privy to the 
steps or analyses taken internally by the CPSC. I do, however, look 
forward to getting fully up to speed on the issues. If confirmed, I 
intend to follow the duties and requirements set forth under the 
Consumer Product Safety Act and all other applicable statutes. I am 
committed to evaluating these issues, if confirmed, based on the 
science, data, and after hearing the relevant information and I will 
work collaboratively with stakeholders and the other Commissioners, in 
accordance with the governing rules, regulations, and applicable laws 
to reach a conclusion.
    In private practice, I have never worked on issues relating to 
flame retardants. However, in connection with my nomination, I have 
consulted with the Office of Government Ethics and the CPSC's 
Designated Agency Ethics Officer to identify potential conflicts of 
interest. I have signed an ethics agreement that will govern the 
potential conflicts that have already been identified and I will recuse 
myself in those instances, in accordance with Federal ethics laws. If 
faced with any other potential conflict of interest, I will seek the 
advice and counsel of the CPSC's Designated Agency Ethics Officer and 
follow that advice.

    Window Coverings. In your questionnaire, you state that one of the 
top three challenges for the CPSC is: ``Protecting the American public 
from unreasonable risks of harm while balancing the American public's 
right to have access to a range of affordable product choices and 
recreational activities.'' In fact, if CPSC were to institute mandatory 
minimum safety standards, simple economies of scale informs us that 
this would bring down the cost of safe products for all consumers--
allowing for their more widespread adoption in all homes. Today, safe 
products--like cordless window coverings--are often only available at a 
premium. For the past two decades and nearly every month, a child has 
died from dangerous window covering cords.
    Question 6. Don't you agree that establishing mandatory minimum 
safety standards for products would help make safe products more 
affordable for the American public--and not keep them out of reach for 
only those who can afford it?
    Answer. Thank you for your question regarding cordless window 
coverings. You correctly note that I believe in protecting the American 
public from unreasonable risks of harm while balancing the American 
public's right to have access to a range of affordable product choices 
and recreational activities. If confirmed, I intend to follow the 
duties and requirements set forth under the Consumer Product Safety Act 
and all other applicable statutes. At this time, it would be 
inappropriate for me to comment on whether mandatory standards would be 
appropriate, as I do not want to prejudge a matter on which I may be 
required to vote, if confirmed. I do, however, look forward to working 
with you, the other CPSC Commissioners, industry stakeholders, and 
consumers on this important issue.

    Views on Standards. One of the most effective tools CPSC has is to 
issue mandatory safety standards.
    Question 7. What is your view of regulation? When are safety 
regulations necessary? Where do you draw the line for the need for 
mandatory safety standards to protect children?
    Answer. Congress set forth a statutory framework that governs when 
a mandatory safety standard should be invoked. This statutory framework 
provides direction on how to address issues such as those referenced in 
your series of questions and requires the CPSC to employ voluntary 
standards first and if unsuccessful, then the Agency can call for 
mandatory rule making. That is what Congress directs and, if confirmed 
to the Commission, I will follow these directives. I also commit to 
being responsive to you and your office on this or any other issue that 
you want to discuss and/or on any ideas or new ways to promote the 
goals of the CPSC or the statute.

    Civil Penalties. The Consumer Product Safety Commission can issue 
civil penalties against companies that violate section 15(b) of the 
Consumer Product Safety Act.
    Question 8. In your view, what is the purpose of civil penalties? 
If civil penalties represent just a drop in the bucket for companies, 
what good are they? Do you believe that it is appropriate for the CPSC 
to assess civil penalties up to the permissible cap? Under what 
circumstances do you believe the Commission should seek the maximum 
penalty? If confirmed, what factors or principles would guide you when 
you are voting on civil penalties? Will you recuse yourself from voting 
on any civil penalty item where you have previously represented the 
company involved?
    Answer. Congress passed the Consumer Product Safety Improvement Act 
(CPSIA) to, among other things, ``provide the CPSC with better 
enforcement tools, including the power to impose higher penalties'' as 
a deterrent. (See H. Rep. 110-501--Consumer Product Safety 
Modernization Act). If confirmed, I will execute my duties as 
Commissioner consistent with the framework provided in this statute and 
as interpreted by courts. I look forward to learning more about the 
Commission's experience in assessing civil penalties, including the 
extent to which such penalties have worked as a deterrent. With respect 
to recusals, in connection with my nomination, I have consulted with 
the Office of Government Ethics and the CPSC's Designated Agency Ethics 
Officer to identify potential conflicts of interest. I have signed an 
ethics agreement that will govern the potential conflicts that have 
already been identified and I will recuse myself in those instances, in 
accordance with Federal ethics laws. If faced with any other potential 
conflict of interest, I will seek the advice and counsel of the CPSC's 
Designated Agency Ethics Officer and follow that advice.

    Crumb Rubber. The CPSC is a part of the multi-agency task force 
known as the Federal Research Action Plan on Recycled Tire Crumb Used 
on Playing Fields and Playgrounds, which is charged with answering 
concerns by the public regarding the safety of crumb rubber used in 
synthetic turf fields and playgrounds.
    Question 9. If confirmed, would you support CPSC's role in this 
task force and seek for CPSC's research on this issue to be fully 
funded and allocated sufficient resources (in terms of both funding and 
personnel)?
    Answer. Thank you for your question regarding crumb rubber in 
consumer products. The Consumer Product Safety Commission plays an 
important role in the safety of our Nation's consumers. This issue, 
like so many others that have come before the agency, is complicated 
and requires the study and analysis of laws, regulations, and the 
science. The issue of crumb rubber is no exception and, if confirmed, I 
look forward to working with you, the other CPSC Commissioners, 
industry stakeholders, and consumers on this important issue to ensure 
it receives the attention it deserves.
Recall Effectiveness.
    Question 10. Do you believe that the CPSC has been successful at 
achieving acceptable recall return and repair rates on children's 
products? What tools would you like to see used to assure a robust 
response to recall announcements--both from the agency and the 
recalling company?
    Answer. Thank you for this important questions regarding recall 
effectiveness. I know that CPSC experts have been analyzing these 
issues and I would like to study their findings regarding how to use 
more effectively the tools available to the CPSC and to the recalling 
company to assure the highest response to a recall announcement. I will 
continue to work with stakeholders to find ways to reach consumers, not 
just in terms of notice, but in terms of encouraging those who receive 
notice to take steps to participate in the recall. If confirmed, I look 
forward to learning more about CPSC's successes and challenges with 
regard to return and repair rates. This would include working with the 
Commission's enforcement staff to review and evaluate the relevant 
recall effectiveness data. This is certainly an area worthy of 
attention and, if confirmed, I look forward to studying this issue in 
depth.

    Section 6(b). Under Section 6(b) of the Consumer Product Safety 
Act, the CPSC is limited in its ability to share product specific 
safety information with consumers without express permission from the 
company in question. It is often felt that this delays consumer getting 
vital information they could use to keep their families safe.
    Question 11. What do you think of Section 6(b) and how will you 
seek to lessen its negative impact on safety?
    Answer. Section 6(b) of the Consumer Product Safety Act (CPSA), 15 
U.S.C. Sec. 2055(b), establishes procedures for and restrictions on the 
Commission's public disclosure of information. Section 6(b) prohibits 
the Commission from disclosing information about a consumer product 
that identifies a manufacturer or private labeler unless the Commission 
has taken ``reasonable steps'' to assure: 1) that the information is 
accurate; 2) that disclosure of the information is fair in the 
circumstances; and 3) that disclosure of the information is reasonably 
related to effectuating the purposes of the CPSA and of the other laws 
administered by the Commission. Before disclosing such information, the 
Commission must provide the manufacturer or private labeler with the 
opportunity to comment on the accuracy of the information. The 
Commission may not disclose the information for at least 15 days after 
sending it to the company for comment. Congress codified these 
procedures and restrictions into the statute, in part, because it 
recognized that ``the Commission has a responsibility to assure that 
the information which it disseminates is truthful and accurate.'' (See 
H.R. Rep. No. 1192, 92 Cong., 2nd Sess. 31, 32 (1972)). That is what 
Congress directs and, if confirmed, I will protect consumers in 
accordance with these directives.

    SaferProducts.gov. Saferproducts.gov is a consumer incident 
database that CPSC implemented in 2011. It has been a useful tool for 
consumers who are researching products and an important mechanism for 
consumers and health care professionals to report incidents of harm.
    Question 12. What do you see as the role of this database and how 
would you make it even more effective?
    Answer. This database is a very important tool for consumers and 
good place for a consumer to start. To make it most effective, the 
agency needs to ensure that it is up to date and contains useful 
information that is easily accessible. I look forward to learning more 
about the database and how it is managed by the agency in order to 
assess its overall effectiveness.

    All-Terrain Vehicles. The issue of All-Terrain Vehicle (ATV) safety 
is currently before the commission. Deaths and injuries have been 
rising and the voluntary standard that requires education and warning 
labels is failing to prevent the deaths and injuries. The CPSC has also 
engaged in a rulemaking to address the stability and safety of ROVs. 
Congress passed a rider to prevent the CPSC from moving forward on that 
rulemaking. You have previously represented Yamaha in several lawsuits 
over its two-person Rhino ATV.
    Question 13. Given your previous representation of Yamaha, would 
you recuse yourself from consideration for these rulemaking 
proceedings? Would you recuse yourself from involvement in recall or 
civil penalty discussions involving Yamaha or any other ROV or ATV 
manufacturers?
    Answer. In connection with my nomination, I have consulted with the 
Office of Government Ethics and the CPSC's Designated Agency Ethics 
Officer to identify potential conflicts of interest. I have signed an 
ethics agreement that will govern the potential conflicts that have 
already been identified and I will recuse myself in those instances, in 
accordance with Federal ethics laws. If faced with any other potential 
conflict of interest, I will seek the advice and counsel of the CPSC's 
Designated Agency Ethics Officer and follow that advice.

    Furniture Tip-Over. As you know, Ikea is facing multiple lawsuits 
against the company based on dressers that topple over and that have 
killed or injured multiple children. Recently, we just learned of an 
eighth death related to these defective dressers. The vast majority of 
recalled IKEA dressers are still in people's homes, posing potential 
risks to consumers. Your husband, Andrew Susko, represents IKEA in 
these cases--raising serious conflict of interest concerns.
    Question 14. Will you recuse yourself from any CPSC work to address 
the tip-over hazard posed by Ikea dressers or unstable dressers in 
general?
    Answer. In connection with my nomination, I have consulted with the 
Office of Government Ethics and the CPSC's Designated Agency Ethics 
Officer to identify potential conflicts of interest. I have signed an 
ethics agreement that will govern the potential conflicts that have 
already been identified and I will recuse myself in those instances, in 
accordance with Federal ethics laws. The agreement also addresses my 
spouse. If faced with any other potential conflict of interest, I will 
seek the advice and counsel of the CPSC's Designated Agency Ethics 
Officer and follow that advice.

    Safe Sleep. While much progress was made on sudden unexplained 
infant death, or SUID, in the 1990s, we have seen very little progress 
in reducing SUID in a decade or more, and in some high-risk groups the 
rates are going in the wrong direction. The CPSC is in a unique 
position to help address the public health problem of SUID through its 
jurisdiction over infant products and opportunities to communicate with 
families, caregivers, and health care providers.
    Question 15. What will you do to push CPSC to use its mandatory 
rulemaking authority to increase safe sleep among high-risk families, 
and to reduce the hazard posed by certain infant sleep products such as 
crib bumpers and other untested products?
    Answer. Thank you for your question regarding the serious issue of 
sudden unexplained infant death. In the CPSA, Congress set forth a 
statutory framework that governs when a mandatory safety standard 
should be invoked. This statutory framework provides direction on when 
the Commission may use its mandatory rulemaking authority. Congress 
directs the CPSC to employ voluntary standards first and if 
unsuccessful, then the Agency can call for mandatory rule making. That 
is what Congress directs and, if confirmed, I will follow this 
framework. I will commit to being responsive to you and your office on 
this issues or any other issue you want to discuss and/or on ideas or 
new ways to promote the goals of the CPSC or the statute.

    Phthalates. Phthalates are chemicals used to soften materials such 
as plastic and are used in a wide array of consumer products including 
toys. Phthalates have well documented associations with significant 
adverse health effects. The Consumer Product Safety Improvement Act 
(CPSIA) passed in 2008, banned three specific phthalates and required 
the CPSC to form an expert panel to evaluate additional phthalates. The 
CPSC just finalized a rule, based on the expert panel's recommendation, 
to ban children's toys and child care articles that contain 
concentrations of more than 0.1 percent of 5 additional phthalates 
(diisononyl phthalate (DINP), diisobutyl phthalate (DIBP), di-n-pentyl 
phthalate (DPENP), di-n-hexyl phthalate (DHEXP), and dicyclohexyl 
phthalate (DCHP).
    Question 16. Do you support this phthalate rule and how else would 
you address childhood exposure to known toxic chemicals?
    Answer. Thank you for your question regarding phthalates. I am not 
fully aware of or privy to the steps taken internally by the CPSC and I 
look forward to getting fully up to speed on all issues. If confirmed, 
I plan to follow the duties and requirements set forth in the Consumer 
Product Safety Improvement Act (CPSIA) and all other relevant statutes 
applicable to the Commission. I know that the Commission voted to issue 
a final rule prohibiting the use of specified phthalates (a class of 
plasticizing chemicals found in virtually all soft plastics) in 
children's toys and child care articles. I look forward to learning 
more about this rule and the considerations that went into the 
Commission's adoption of it. With regard to addressing other exposures, 
I will evaluate the issues that come before the CPSC, consistent with 
the applicable science, data, and applicable rules, regulations, and 
laws and work collaboratively with stakeholders and the other 
Commissioners to find best practices to protect America's children. If 
confirmed, I look forward to working with you, the other CPSC 
Commissioners, industry stakeholders, and consumers on this important 
issue.

    Organohalogen Flame Retardants. On September 20, 2017, the 
Commission voted to grant a Petition regarding the use of additive, 
non-polymeric organohaogen flame retardants (OFRs) in certain consumer 
products that directed staff to convene a Chronic Hazard Advisory Panel 
(CHAP) to assess OFRs and issue a report on the possible risk to 
consumer health and safety from the use of OFRs.
    Question 17. Do you support the Commission's action to convene a 
CHAP to study and assess the possible risk of OFRs to consumer health 
and safety?
    Answer. I am not fully aware of or privy to the steps taken 
internally by the CPSC on this issue and I look forward to getting 
fully up to speed on all issues, if confirmed. I support the study of 
science, data, and viewpoints from as many experts as possible so that 
the agency can be as well informed as possible.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                              Dana Baiocco
    Tobacco Cases. It was the practice at some large law firms that 
represented cigarette companies in tobacco litigation to give 
associates the choice whether or not to work on those cases.
    Question 1. Were you afforded that choice at Jones Day? If no: If 
you had been provided that choice would you have still chosen to 
represent R.J. Reynolds Tobacco? If yes: Why did you choose to 
represent big Tobacco as a defense counsel when you could have declined 
to do so? Did you not have any moral or ethical concerns about 
representing a cigarette company?
    Answer. I have represented all clients and worked on all matters 
with equal commitment and zeal and carried out my obligations to the 
best of my ability. I will continue to carry out my duties to the best 
of my ability on behalf of the American people, if confirmed.

    Product Design v. Consumer Misuse. Scientific research has found 
that the most effective way to reduce product-related injuries is to 
change product design, not to try to change human behavior. In fact, 
CPSC laws are not concerned with ``individual responsibility'' or 
whether consumers have acted responsibly. Instead the key question 
posed to CPSC is whether a ``reasonably foreseeable'' use of a product 
has resulted in death or injury. This is a very different mindset than 
that of a product defense lawyer.
    Question 2. Assuming costs and disruption to consumers is minimal, 
will you personally make a commitment to take action against companies 
that make dangerous products even where consumer misuse is a 
contributing factor?
    Answer. If confirmed, my job as a Commissioner will not be to 
represent a particular sector or stakeholder. Rather, it will be to 
hear from and work on behalf of the entire American public. In 
addition, as a Commissioner, I will be required to follow a particular 
set of rules promulgated by Congress to set safety standards and I will 
follow those rules and statutory directives. If confirmed, I will be 
guided by the rule of law, I will promote transparency between the 
Commission and stakeholders, and I will encourage an open-door policy 
between the Commission and advocacy groups. I am aware of my 
obligations to the American public and intend to carry out those 
obligations with integrity and consistent with the high standards that 
the American people, and this Committee, expect from their public 
servants.

    IKEA Dressers. An ongoing recall that CPSC is in the midst of 
overseeing is the IKEA dresser recall that involved almost 30 million 
dressers that posed risks to children due to their instability. Just 
recently we found out about an 8th death of a child caused by a tip 
over of one of these dressers. Your husband has defended IKEA against 
claims that the company is responsible for those deaths.
    Question 3. How could the CPSC work to make this recall more 
effective to prevent other children from being injured or killed from 
these unstable dressers? Will you recuse yourself from any issues 
before the Commission related to IKEA given your husband's work for 
this company?
    Answer. If confirmed, I look forward to learning more about CPSC's 
successes and challenges with respect to return and repair rates, 
including working with the Commission's enforcement staff to review and 
evaluate the relevant recall effectiveness data. This is certainly an 
area worthy of attention and, if confirmed, I look forward to studying 
this issue in depth. In connection with my nomination, I have consulted 
with the Office of Government Ethics and the CPSC's Designated Agency 
Ethics Officer to identify potential conflicts of interest. I have 
signed an ethics agreement that will govern these potential conflicts 
that have already been identified and I will recuse myself in those 
instances, in accordance with Federal ethics laws. The agreement also 
addresses my spouse. If faced with any other potential conflict of 
interest, I will seek the advice and counsel of the CPSC's Designated 
Agency Ethics Officer and follow that advice.

    Phthalates. After nearly a decade, the CPSC has finally finalized a 
rule on the use of phthalates in certain children's products.
    Question 4. What is your perspective on this rule? Would you 
support CPSC vigorously defending the rule if it is challenged in 
Court? Would you oppose efforts to withdraw or reopen rule or other 
efforts to overturn it?
    Answer. Thank you for your question regarding phthalates. I am not 
in a position to comment on any future actions that may come before the 
Commission. I have no pre-determined thoughts or perspectives on this 
issue and I do not see my role as a Commissioner, if confirmed, as 
promoting a particular viewpoint. I do, however, look forward to 
getting fully up to speed on the issues, if confirmed. Further, the 
Consumer Product Safety Act sets forth a complex set of regulations 
that, if confirmed, I will follow. I will evaluate these issues, if 
confirmed, based on the science, data, and after hearing the relevant 
information, and work collaboratively with stakeholders and the other 
Commissioners, in accordance with the governing rules, regulations, and 
applicable laws to reach a conclusion.

    Government Organization. There have been discussions and 
legislative proposals that would eliminate CPSC's independent nature 
and instead be put under the authority of OMB.
    Question 5. What is your view on this proposed arrangement?
    Answer. Thank you for your question. As we discussed during our 
meeting prior to my confirmation hearing, I believe that independence 
is beneficial. That said, it will be up to Congress to decide how the 
Commission is structured and whether or not there will be a change in 
how the Commission conducts its business. I will commit to you that I 
will review any proposed legislation and work with my fellow 
Commissioners, if confirmed, to find a consensus position on any such 
proposals, if required.

    Flame Retardants. Recently the CPSC issued a new warning on a class 
of flame retardants that have been linked to a list of serious health 
issues including learning deficits and hyperactivity and has taken 
initial steps to ban these flame retardants in certain products. The 
CPSC has voted to convene a CHAP (Chronic Hazard Advisory Panel) to 
advise on a ban.
    Question 6. What are your views on this issue? Do you or do you not 
support the CPSC moving forward to develop a proposed rule to ban this 
chemical class in children's products, upholstered furniture, 
mattresses, and electronics casings? Do you or do you not support the 
establishment of a Chronic Hazard Advisory Panel? If such a panel is 
established, will you follow its recommendations?
    Answer. Thank you for your questions regarding flame retardants. I 
am not fully aware of or privy to the steps taken internally by the 
CPSC and I look forward to getting fully up to speed on the issues, if 
confirmed. The Consumer Product Safety Improvement Act (CPSIA) sets 
forth a complex set of regulations that, if confirmed, I will follow. 
With regard to CHAP, the Commission voted to convene a CHAP to study 
this issue. I support the study of science, data, and viewpoints from 
as many experts as possible so that the agency can be as well-informed 
as possible.

    Portable Generators. Despite the importance and harm caused by 
portable generators, the CPSC has yet to finalize a mandatory standard 
for these products. I appreciate the work that the Commission has done 
to educate consumers and to require warning labels on portable 
generators. However, as the devastating impact of Hurricane Irma in 
Florida, Puerto Rico and the Virgin Islands has shown people are still 
dying from CO poisoning from the use of portable generators that are 
critical to providing a sense of normalcy after wide spread 
devastation. The CPSC can step in and require a mandatory standard for 
a product when the voluntary standard is not sufficient. It is clear 
from the average of about 70 deaths and several thousand injuries 
annually that the voluntary standard is not sufficient.
    Question 7. What are your views on this issue? Why hasn't the CPSC 
acted sooner to promulgate a mandatory safety standard for portable 
generators? How much of a priority do you think this should be for the 
commission? If confirmed as Commissioner, what will you do to ensure 
that people who survive hurricanes and other natural disasters aren't 
killed by the very product they are using the rebuild their homes and 
lives?
    Answer. Thank you for your questions regarding portable generators. 
I am not familiar with the reasoning used by the current Commissioners 
regarding the decisions about portable generators, or the available or 
proposed options regarding portable generators, but I am committed to 
getting fully up to speed on these important issues. The CPSC's 
authority is governed by the Consumer Product Safety Act and it is 
bound by a complex set of rules and regulations that Congress 
promulgated and the courts interpreted in some instances. The statutory 
framework provides direction on how to address issues such as those 
referenced in your series of questions relating to portable generators 
and requires the CPSC to employ voluntary standards first and, if 
unsuccessful, then the Agency can call for mandatory standards. The 
statute requires that if voluntary standards can address a hazard and 
they are substantially complied with, the Agency may not proceed with 
mandatory rule making. That is what Congress directs and I will follow 
these directives. I will also commit to being responsive to you and 
your office on this or any other issue that you want to discuss and/or 
on ideas or new ways to promote the goals of the CPSC or the statute. I 
have some ideas regarding educational initiatives that might help those 
who are suffering through a hurricane or other natural disaster and I 
will discuss with my fellow Commissioners, if confirmed, to determine 
their feasibility.

    Recalls. One important role of the CPSC is to ensure compliance 
with corrective action plans as part of recalls, as well as compliance 
with CPSC rules and laws, including reporting requirements.
    Question 8. What do you see at CPSC's biggest compliance challenges 
and how would you address them? If confirmed as Commissioner, what 
tools would you like to see used by both the Commission and the 
recalling company to assure a more robust consumer response to recall 
announcements?
    Answer. I know that the CPSC's experts have been analyzing these 
issues and I would like to study the CPSC's staff's findings on how to 
use more effectively the tools available to the CPSC and to the 
recalling company to assure the highest response to any recall 
announcement. I will continue to work with stakeholders to find ways to 
reach consumers, not just in terms of notice, but in terms of 
encouraging those who receive notice to take steps to participate in 
the recall. If confirmed, I look forward to learning more about CPSC's 
successes and challenges with regard to return and repair rates. This 
would including working with the Commission's enforcement staff to 
review and evaluate the relevant recall effectiveness data. This is 
certainly an area worthy of attention and, if confirmed, I look forward 
to studying this issue in depth.

    Section 6(b). Section 6(b) of the Consumer Product Safety Act that 
prevents CPSC from sharing product specific safety information with 
consumers without express permission from the company in question. Many 
have argued that this delays consumers getting vital information they 
could use to keep their families safe.
    Question 9. What do you think of Section 6(b)? What can you do as 
commissioner to lessen its impact on safety?
    Answer. Section 6(b) of the Consumer Product Safety Act (CPSA), 15 
U.S.C. Sec. 2055(b), establishes procedures for and restrictions on the 
Commission's public disclosure of information. Section 6(b) prohibits 
the Commission from disclosing information about a consumer product 
that identifies a manufacturer or private labeler unless the Commission 
has taken ``reasonable steps'' to assure: (1) that the information is 
accurate; (2) that disclosure of the information is fair in the 
circumstances; and (3) that disclosure of the information is reasonably 
related to effectuating the purposes of the CPSA and of the other laws 
administered by the Commission. Before disclosing such information, the 
Commission must provide the manufacturer or private labeler with the 
opportunity to comment on the accuracy of the information. The 
Commission may not disclose the information for at least 15 days after 
sending it to the company for comment. Congress codified these 
procedures and restrictions into the statute, in part, because it 
recognized that ``the Commission has a responsibility to assure that 
the information which it disseminates is truthful and accurate.'' (See 
H.R. Rep. No. 1192, 92 Cong., 2nd Sess. 31, 32 (1972)). That is what 
Congress directs and, if confirmed, I will follow these directives.

    SaferProducts.gov. Saferproducts.gov is a consumer incident 
database that CPSC implemented in 2011. It has been a useful tool for 
consumers who are researching products and an important mechanism for 
consumers and health care professionals to report incidents of harm.
    Question 10. If confirmed as Commissioner, what steps would you 
want to take to make this website even more effective?
    Answer. The CPSA directs the Commission to develop a database of 
publicly-available information on incidents involving injury or death. 
This database is an important tool for consumers and a good place for 
consumers to start their research. If confirmed, I commit to following 
the requirements set forth in statute, including those relating to the 
database. I also look forward to learning more about how the database 
is managed by the agency in order to assess its effectiveness and 
learning more about the Commission's experience with saferproducts.gov.

    Question 11. What do you think is the best way to protect 
vulnerable consumers as new products enter the market without 
standards--such as some infant sleep products or connected products?
    Answer. The CPSC plays an important role in the safety of our 
Nation's consumers. A central challenge for the Commission is to remain 
vigilant about emerging hazards from new products, including those you 
note here. I am aware of the ``Emerging Threats and Hazards'' tool that 
the Commission has its disposal and, if confirmed, I will want to see 
if there are ways to strengthen or update the existing program. It is 
important that the Commission work closely with U.S. retailers in this 
regard as they often are the first to identify potential hazards.

    China. At least 2/3 of all product recalls are manufactured in 
China. The CPSC has signed a memorandum of understanding with China.
    Question 12. Do you think that this MOU has been effective? What 
role should American manufacturers play in ensuring that their 
products, no matter where they are made, meet safety standards?
    Answer. I am not privy to the internal agreements that the 
Commission has pursued with China. However, as more products 
manufactured in China enter our market, we must ensure that they are 
meeting U.S. safety standards. If confirmed, I commit to working with 
manufacturers to ensure products are meeting the high expectations of 
the American consumer. Additionally, I commit to reviewing the MOU to 
see how it may be used to put a greater emphasis on safety.

    Conflicts of Interest. Your entire professional career has been 
spent representing companies seeking to escape liability from 
allegations of product safety violations. These same companies may 
believe that you will be an advocate for them on the Commission, even 
though your role as a Commissioner will be very different from your 
role as an advocate. As a Commissioner, your client will be the 
American people and their continued safety.
    Question 13. What will you do to go above and beyond your ethics 
agreement as it relates to contacts with your current employer and 
former clients to ensure that there is no conflict or appearance of 
conflicts well beyond the one year prohibition you have outlined in 
your September 2017 ethics agreement?
    Answer. If confirmed, my job as a Commissioner will not be to 
represent a particular sector or stakeholder. Rather, it will be to 
hear and work on behalf of the entire American public. I have been 
asked by the President of the United States to use my skills as a 
lawyer to work for the American people. I am honored to have such an 
opportunity and accept it with enthusiasm and commitment. If confirmed, 
I will effectively and zealously execute my duties as a Commissioner on 
behalf of the American people. In addition, as a Commissioner, I will 
be required to follow a particular set of rules promulgated by Congress 
to set safety standards and I will follow those rules and statutory 
directives. If confirmed, I will be guided by the rule of law, I will 
promote transparency between the Commission and its stakeholders, and I 
will encourage an open-door policy between the Commission and advocacy 
groups. I am aware of my obligations to the American public and intend 
to carry out those obligations with integrity and consistent with the 
high standards that the American people, and this Committee, expect 
from their public servants.

    Safe Sleep. Much progress was made on sudden unexplained infant 
death (SUID) in the 1990s, however that progress has largely stalled 
over the last decade and for certain high-risk groups the trend is 
increasing. The U.S. Centers for Disease Control and Prevention (CDC) 
estimate that in 2015 there were about 3,700 SUID cases. The FDA has 
warned against sleep positioners and baby nests and the American 
Academy of Pediatrics and other safe sleep advocates warn against the 
use of crib bumper pads. Unbeknownst to many consumers, many of these 
products meet no mandatory or voluntary standard. The CPSC is in a 
unique position to help address the public health problem of SUID 
through its jurisdiction over infant products and opportunities to 
communicate with families, caregivers, and health care providers.
    Question 14. If confirmed as commissioner, what will you do to use 
CPSC authority to increase safe sleep among high-risk families, and to 
reduce the hazard posed by certain infant sleep products such as crib 
bumpers and other untested products?
    Answer. Thank you for your question regarding the serious issue of 
sudden unexplained infant death. SUID is incredibly tragic and impacts 
many families across the United States. If confirmed, I will immerse 
myself fully in this issue and will work collaboratively with 
stakeholders and my fellow Commissioners, in accordance with the 
governing rules, regulations and applicable law, to protect our 
Nation's children. I want to explore how to use most effectively 
technology, social media, and the Commission's public relations 
capabilities to reach families. I look forward to getting fully up to 
speed on these issues and understanding the extent of the current 
safety standards. If confirmed, I am committed to studying the issues 
and concerns expressed by this question and discussing with my fellow 
Commissioners their thoughts and plans in this area.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Dana Baiocco
    Question 1. Your questionnaire and opening statement state that you 
hope to balance protecting the American Public from ``the unreasonable 
risks of harms'' while balancing the American public's right to have 
access to a range of affordable product choices and recreational 
activities. However, are you aware that under the Federal Hazardous 
Substances Act, products are hazardous, and therefore must be 
regulated, based on the POTENTIAL or CAPACITY to cause harm, not based 
on ``unreasonable risks of harm''--as your questionnaire and opening 
statement suggest? Are you committed to regulating consumer products 
based on their capacity to produce illness or injury if they may cause 
substantial illness or injury as a result of customary use? Do you 
believe the current CPSC rulemaking process does not give Americans 
sufficient access to a ``range of affordable product choices and 
recreational activities?
    Answer. Thank you for allowing me to clarify this point. My opening 
statement was not intended to adopt, expand, or exclude any applicable 
legal or statutory language. I am committed to following the Federal 
Hazardous Substances Act, and all relevant laws, regulations and rules 
that govern the issues over which the CPSC has jurisdiction.
    The statutory framework that governs the CPSC provides direction on 
how to address issues that come before the agency. As you know, that 
framework requires the CPSC to employ voluntary standards first and if 
unsuccessful, then the Agency can call for mandatory standards. The 
statute requires that if voluntary standards can address a hazard and 
they are substantially complied with, the Agency may not proceed with 
mandatory rule making. That is what Congress directs and I will follow 
those directives. I am also committed to listening to all points of 
view and working with you and my fellow Commissioners and staff, if 
confirmed, to make sure that the goals of the applicable statutes are 
promoted.

    Question 2. Organohalogen flame retardants have well-documented 
associations with significant adverse child health effects. These 
chemicals are known to leach from products, resulting in widespread 
human exposure. Given the demonstrated hazard of these chemicals to 
children and their prevalence in these product categories, CPSC is 
positioned to act on this public health threat through its FHSA 
authority. However, I am concerned that you may seek to overturn or 
slow down the Commission's recent work on organohalogens. Do you 
support the CPSC moving forward to develop a proposed rule to ban this 
chemical class in children's products, upholstered furniture, 
mattresses, and electronics casings?
    Answer. Thank you for your question regarding flame retardants. At 
this juncture, I am not in a position to comment on the Commission's 
plans regarding its rulemaking procedure because I am not part of the 
Commission, and I am neither aware of nor privy to the steps or 
analyses taken internally by the CPSC. I do, however, look forward to 
getting fully up to speed on the issues. If confirmed, I intend to 
follow the duties and requirements set forth under the Consumer Product 
Safety Improvement Act (CPSIA) and all other applicable statutes. I 
support the study of science, data, and viewpoints from as many experts 
as possible so that the agency can be as well informed as possible. I 
will evaluate the issues that come before the CPSC, consistent with the 
applicable science, data and applicable rules, regulations and laws, 
and work collaboratively with stakeholders and the other Commissioners 
to find best practices to protect the American public.

    Question 3. I have been working for years to bring attention to the 
problem of concussions in youth sports. While we have made progress, I 
am still concerned about the prevalence of equipment falsely labeled to 
prevent concussions. Will you commit to doing everything within your 
authority to clamp down on products that fail to meet the necessary 
standards--including establishing mandatory standards?
    Answer. Thank you for raising the issue of concussions in youth 
sports. Youth concussions are a very serious topic and there needs to 
be more awareness on this issue for families who have children who play 
sports. I played many sports growing up and I have a daughter who plays 
sports. My family and I have had our own experiences with this serious 
issue. If confirmed, I look forward to learning more about the sports 
equipment you mention as well as the existing standards. I am 
interested in these issues and will commit to being responsive to you 
and your office on these matters.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Dana Baiocco
Recalls.
    Question 1. Ms. Baiocco, do you believe that the CPSC has been 
successful at achieving acceptable recall return and repair rates on 
children's products? As Commissioner, what tools would you like to see 
used to assure a robust response to recall announcements--both from the 
agency and the recalling company?
    Answer. Thank you for your questions regarding recalls. I would 
like to answer these two questions together because I believe they are 
related. First, I know that CPSC experts have been analyzing these 
issues and I would like to study their findings regarding how to use 
more effectively the tools available to the CPSC and to the recalling 
company to assure the highest response to any recall announcement. I 
will continue to work with stakeholders to find ways to reach 
consumers, not just in terms of notice, but in terms of encouraging 
those who receive notice to take steps to participate in the recall. 
Second, if confirmed, I look forward to learning more about CPSC's 
successes and challenges with regard to return and repair rates. This 
would include working with the Commission's enforcement staff to review 
and evaluate the relevant recall effectiveness data. This is certainly 
an area worthy of attention and, if confirmed, I look forward to 
studying this issue in depth.

    Question 2. Do you believe it is appropriate to criticize a firm 
conducting a recall as uncooperative?
    Answer. Positive interaction and cooperation are generally more 
effective than criticism for the sake of criticism. It should be the 
goal of the Commission to work cooperatively with and to assist 
stakeholders to ensure the safety of the American public. A firm that 
makes a commitment to the agency should be held to its commitment. I 
would be my duty as a Commissioner to use all tools available to ensure 
that a recall is as productive and effective for the consumers as 
possible.

    Toxic Chemical Flame Retardants. Ms. Baiocco, organohalogen flame 
retardants have well-documented associations with significant adverse 
child health effects. These chemicals are known to leech from those 
products, resulting in widespread human exposure. Given the 
demonstrated hazard of these chemicals to children and their prevalence 
in these product categories, CPSC is well-positioned to act on this 
public health threat through its FHSA authority.
    Question 3. Do you or do you not support the CPSC moving forward to 
develop a proposed rule to ban this chemical class in children's 
products, upholstered furniture, mattresses, and electronics casings?
    Answer. Thank you for your question. I am not in a position to 
comment on the petition or any plans regarding the initiation of any 
rulemaking procedure because I am not part of the Commission, and I am 
neither aware of nor privy to the steps or analyses taken internally by 
the CPSC. I do, however, look forward to getting fully up to speed on 
the issues. There is a complex set of statutory regulations that, if 
confirmed, I will follow. I will evaluate these issues, if confirmed, 
based on the science, data, and after hearing the relevant information, 
and work collaboratively with stakeholders and the other Commissioners, 
in accordance with the governing rules, regulations and applicable laws 
to reach a conclusion.

    Phthalates. Ms. Baiocco, phthalates are chemicals used to soften 
materials such as plastic and are used in a wide array of consumer 
products including toys. Phthalates have well documented associations 
with significant adverse health effects. The Consumer Product Safety 
Improvement Act (CPSIA) passed in 2008, banned three specific 
phthalates and required the CPSC to form an expert panel to evaluate 
additional phthalates. The CPSC just finalized a rule, based on the 
expert panel's recommendation, to ban children's toys and child care 
articles that contain concentrations of more than 0.1 percent of 5 
additional forms of phthalate.
    Question 4. Do you support this phthalate rule and how else would 
you address childhood exposure to known toxic chemicals?
    Answer. Thank you for your question regarding phthalates. I am not 
fully aware or privy to the steps taken internally by the CPSC and I 
look forward to getting fully up to speed on all issues. If confirmed, 
I plan to follow the duties and requirements set forth in the governing 
statute and other relevant statutes applicable to the Commission. I 
know that the Commission voted to issue a final rule prohibiting the 
use of specified phthalates (a class of plasticizing chemicals found in 
virtually all soft plastics) in children's toys and child care 
articles. I look forward to learning more about this rule and the 
considerations that went into the Commission's adoption of it. With 
regard to addressing other exposures, I will evaluate the issues that 
come before the CPSC, consistent with the applicable science, data, and 
applicable rules, regulations and laws and work collaboratively with 
stakeholders and the other Commissioners to find best practices to 
protect America's children. If confirmed, I look forward to working 
with you, the other CPSC Commissioners, industry stakeholders, and 
consumers on this important issue.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Neil Jacobs, Jr.
    Hurricane Hunters. By flying into and above storms, hurricane 
hunter aircraft collect critical data for NOAA's forecasts. Although 
these aircraft are critical to NOAA's forecasting capabilities, they 
are growing old and there is no backup capability. That is why, this 
year, I worked with colleagues in the Senate and the House to pass a 
law to require a backup for the hurricane hunters. There have been 
multiple emergency repairs this season. In September, I learned that 
the main cabin door on the Gulfstream started leaking at forty-five 
thousand feet, and the aircraft had to make an emergency landing during 
reconnaissance for Hurricane Maria. Despite all this, NOAA has still 
not come up with the statutorily required backup plan.
    Question 1. Will you commit to providing this plan by the end of 
the year?
    Answer. Coming from the aviation industry, I can assure you how 
deeply concerning events like cabin depressurization, or any other 
mechanical issue that jeopardizes crew safety, are to me. The Weather 
Research and Forecasting Innovation Act requires this, and I do commit 
to providing this plan as fast as possible if confirmed--certainly well 
in advance of the 2018 hurricane season.

    Climate and Weather Satellites (NOAA). When a hurricane like Irma 
strikes, we need satellite data to accurately predict the hurricane 
track, effects, intensity, and to conduct search and rescue efforts. 
However, several of our satellite systems are aging and must be 
replaced. In the administration's budget, they propose severely 
reducing funding for many of our satellite systems.
    Question 2. What will you do as Assistant Secretary of Commerce for 
Oceans and Atmosphere to ensure that we maintain a fully operational 
weather satellite system for future generations?
    Answer. Satellite data is critical to maintaining and improving 
forecast skill. When it comes to the satellite programs, if confirmed, 
the following would be my plan of action:

  (1)  I would examine NOAA's planning and budget processes to ensure 
        every penny NOAA programs for satellites is effectively and 
        efficiently used. Former NOAA Administrator Dr. Conrad C. 
        Lautenbacher, Jr., VADM USN (ret.) did this with considerable 
        success.

  (2)  Explore public-private partnerships for acquiring satellite data 
        of equal quality for less cost. A cost-benefit analysis that 
        involves all three sectors should be performed.

  (3)  Continue and strengthen partnerships to share satellite data, 
        such as those with DoD, NASA, and EUMETSAT, and identify new 
        partners, including commercial satellite data providers, if 
        possible.

  (4)  Work with the Commerce Department, Congress, and the Office of 
        Management and Budget to follow recommendations from the 
        Government Accountability Office to request sufficient funding 
        for NOAA satellite systems in future budget submissions.

    Polar Follow-on. In 2017, the NESDIS Independent Review Team found 
that without accelerating the launches of JPSS-3/4 (the Polar Follow-On 
program) there is a high probability of a gap in coverage from our 
Polar-orbiting operational environmental satellite constellation. 
However, the administration has proposed reducing funds for the Polar 
Follow-on program.
    Question 3. In light of this, how will you work to ensure we do not 
have a gap in coverage?
    Answer. It is critical that there not be a gap in coverage in data 
from the polar-orbiting satellite constellation, and I intend to manage 
this situation closely to minimize the risk of a gap. I understand from 
the President's FY18 Budget that NOAA is developing PFO/JPSS-3 and 
JPSS-4 instruments and spacecraft buses as copies of JPSS-2. This 
allows NOAA to take advantage of JPSS-2 instrument development to 
reduce cost and risk. In addition, NOAA has exercised simultaneous 
instrument block buys for PFO/JPSS-3 and JPSS-4 instruments on the 
current contracts for the most efficient acquisition strategy. The PFO/
JPSS-3 and JPSS-4 spacecraft buses can be procured as options on the 
JPSS-2 spacecraft contract, thereby reducing risk and cost.

    National Weather Service Workforce. In order to save lives and 
property, we must have good forecasts so that people can take action to 
protect themselves. This is the core function of the National Weather 
Service. As of July, however, the National Weather Service had over six 
hundred vacant positions, out of a workforce of over four thousand.

    Question 4. Will you commit to addressing the employment vacancies 
and exempting weather service public safety employees from any hiring 
delay or freeze?
    Answer. If I am confirmed, I will take into account the recent 
National Weather Service Operations Workforce Analysis (OWA) performed 
by McKinsey & Co. to recruit, hire, train, and retain a robust and 
highly skilled workforce that can most effectively accomplish the NWS 
mission to protect lives and property and enhance the national economy.

    Question 5. What actions will you take to address these vacancies?
    Answer. If confirmed, I would first consult with NWS Director Dr. 
Louis Uccellini and his staff for their feedback on this important 
issue, and would work to develop a plan.

    Climate Change and Scientific Integrity. Two weeks ago the EPA 
prevented three of its scientists from speaking at a conference about a 
report that mentioned climate change's effects on the health of 
Narragansett Bay, and the agency has begun to remove climate change 
language from its websites. We have also heard concerns from NOAA 
employees about feeling censored, especially in regard to climate 
change research.
    Question 6. What will you do to ensure scientific integrity and 
protect NOAA's researchers from being muzzled?
    Answer. I believe that federally funded scientific research should 
be transparent, defendable, and reproducible, as should all research. 
Research that follows scientific standards and uses the classic peer-
review process should be made publicly available. I will support the 
Office of Management and Budget's Guidelines for Ensuring and 
Maximizing the Quality, Objectivity, Utility, and Integrity of 
Information Disseminated by Federal Agencies (2001), Peer Review 
Bulletin (M-05-03), NOAA Administrative Order on Scientific Integrity 
(NAO 202-735D), and related information policies

    Question 7. What should NOAA's role be in researching and 
disseminating climate change data?
    Answer. All climate-related data collected and produced by NOAA 
should be made public. NOAA should maintain a leading role in producing 
and disseminating both the historical observations, as well as the 
predictions. In addition to this, NOAA should quantify and disclose the 
degree of uncertainty associated with these observations and 
predictions.

    Question 8. Do you agree that human activity is the main driver of 
climate change?
    Answer. In the absence of various short-term natural forcings that 
can often dominate the surface and lower-tropospheric temperature 
measurements (e.g., El Nino, volcanic activity, etc.), humans do have a 
significant impact through non-sustainable deforestation, development, 
and increased greenhouse gas emissions.

    Weather Privatization. In your capacity as Chief Atmospheric 
Scientist for Panasonic Weather Solutions, you testified twice in front 
of the House Science Committee. At these hearings, you advocated for a 
larger private sector role in our national weather program.
    Question 9. Please list and describe specific services that the 
National Weather Service currently provides that you believe would 
benefit from a larger private sector role.
    Answer. The primary components are observations and modeling. There 
are many new weather observing systems being deployed by the private 
sector that would add value to the NWS mission. There are also many 
advancements in modeling that would add great value. These relate to 
both model code, as well as high performance computing and 
computational efficiency. Additionally, many of these are not actually 
``private sector'', but are currently being developed within the 
academic sector (with private sector investment). It would be extremely 
beneficial to harness these private-academic innovations.

    Question 10. Please list and describe National Weather Service 
products that you believe should not be provided by commercial 
companies.
    Answer. The NWS has an obligation to the taxpayers to provide 
essential products and services to protect life and property. It would 
be beyond the scope of my position, if confirmed, to determine what 
commercial companies should not provide to their customers.

    Question 11. If NOAA elects to buy a greater percentage of data 
from the private sector to supplement the agency's weather data as you 
have advocated for in the past, how do you suggest balancing private 
companies' propriety concerns with NOAA's ultimate goal of providing 
the American public with the best available information to protect life 
and property?
    Answer. This will need to be addressed during the contracting/
acquisition process on a case by case basis. Each company may have 
different and unique concerns regarding their intellectual property 
(IP). To meet NOAA's goal of providing the American public with the 
best possible forecast information to protect life and property, NOAA 
would need to acquire the most data possible within its budget. If 
addressing the IP concerns of commercial data providers results in NOAA 
being able to obtain more data for less money, thereby advancing its 
mission through improved forecasting, then it would be a win for NOAA, 
the taxpayers, and the private sector.

    Question 12. How would you ensure that Panasonic Weather Solutions 
does not unduly benefit from your position as Assistant Secretary, 
especially in the context of an increased private sector role in the 
national weather program?
    Answer. I have consulted with the Office of Government Ethics and 
Department of Commerce ethics officials to identify conflicts of 
interest. I have signed an ethics agreement and conflicts of interest 
will be avoided in accordance with my ethics agreement. I understand 
that my ethics agreement has been provided to the Committee.

    Question 13. In a House Science Committee hearing in July, you 
discussed how private companies like Panasonic can move more quickly 
than NOAA in improving their models and processes because they do not 
have to go through the years of quality and reliability testing that 
NOAA requires when implementing major model upgrades. Unlike private 
companies, NOAA bares ultimate responsibility and liability for 
protecting U.S. citizens' lives and property. How would you balance 
streamlining the implementation of major weather model upgrades with 
the need for robust quality and reliability testing?
    Answer. Under no circumstances should corners be cut when it comes 
to robust debugging, parallel monitoring, and reliability and stability 
testing. There are many areas that can be improved when it comes to the 
research to operations (R2O) process from initial development work on 
similar compute architecture to unifying the model suite. These are 
upstream of final pre-production testing. Much of this is inherently 
part of the new NOAA Environmental Modeling System (NEMS), which is a 
shared, portable, high performance software superstructure and 
infrastructure underlying a coupled modeling system that supports 
predictions of Earth's environment at a range of time scales. The 
Weather Research and Forecasting Innovation Act requires an R2O plan to 
be defined, and in addition to this, O2R should also be considered. 
Several of the suggested efficiency improvements and community model 
outreach are outlined in the University Corporation for Atmospheric 
Research Community Advisory Committee for NCEP (UCACN) Model Advisory 
Committee (UMAC) report.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                            Neil Jacobs, Jr.
    Question. This year the United States is enduring one of its most 
costly years for extreme weather--a near-record of 16 billion-dollars 
in weather disasters have ravaged the Nation. Reliable, accurate, and 
publically available weather modeling and forecasts are critical in 
saving lives and protecting our country's infrastructure. I am 
concerned that we continue to rely on the European model during extreme 
forecasts. Even the nightly news compares the ``U.S. model'' to the 
European one. What can we do to bring U.S. weather prediction and 
forecasting up to the level it needs to be to protect Americans?
    Answer. Over the years, NWS numerical weather prediction (NWP) has 
made significant improvements; however, it is true that the U.S. lags 
behind the European Centre for Medium-Range Weather Forecasts (ECMWF) 
model in general forecast skill. At a high level, implementation of a 
strategic plan and roadmap to reach the skill goals is already being 
rolled out. This hinges on the community-based unified global modeling 
system, which can be managed similarly to how the Developmental Testbed 
Center (DTC) managed the WRF model code. The point of this is to have a 
fully integrated framework for coupled, ensemble-based modeling and 
data assimilation.
    All NWP begins with observations, which can be divided into 
satellite and conventional. There are many existing feeds that power 
the global modeling system including ATOVS, AQUA/TERRA, Suomi NPP 
(VIIRS), HIMAWARI-8, Megha-Tropiques (SAPHIR), ISSRAPIDSCAT, GCOM-W 
(Advanced Microwave Scanning Radiometer 2), MODIS, etc., which are 
still being refined and optimized. There are also many new feeds that 
will be available soon, such as GOES-R atmospheric motion vectors and 
radiances, JPSS-1 (ATMS, CrIS, VIIRS), COSMIC2 and commercial GPS-RO 
(conventional). In-situ observational data feeds are growing as well, 
such as more aircraft data, land surface, as well as radar.
    How these observations are assimilated is critical, and this has 
largely been where ECMWF has held a lead. ECMWF uses a true 4D-Var 
technique versus our present 4DEnVar and previous 3DEnVar and 3D-Var. 
The next-generation data assimilation (DA) system, which will be 
integrated into the unified modeling package is the Joint Effort for 
Data assimilation Integration (JEDI). This is a more efficient way to 
manage the code, and the modular structure allow for use across 
different models, grids, and can employ different DA solvers.
    Of similar importance is the new dynamic core: Finite-Volume Cubed-
Sphere Dynamical Core (FV3), which is highly scalable and flexible, and 
can be run as non-hydrostatic (the current GFS is hydrostatic). This 
will allow the global modeling system to run at very high spatial 
resolutions that are capable of resolving convective activity. It also 
has the capability of moving nests, which is very useful for tropical 
modeling. In addition to the horizontal resolution, shifting to 128 
vertical levels, which ECMWF runs now, will also be a large leap 
forward. At these resolutions, it is also critical to have improved 
physics, and the new Common Community Physics Package allows for 
stochastic, scale-aware convection and PBL, and double-moment cloud 
microphysics.
    I am barely scratching the surface of these upcoming advancements. 
ECMWF is a moving target, and they are constantly upgrading their 
modeling system too. Much of what needs to happen is already mapped out 
in the Weather Research and Forecasting Innovation Act of 2017. Among 
the various components are the need for streamlined R2O, an O2R plan, 
community outreach to harness the innovations occurring at universities 
and private industry, and a much needed visiting scientist program at 
NCEP. ECMWF has had a long-standing visiting scientist program to bring 
in outside expertise to help develop different aspects of their 
program. Many U.S. scientists have been part of ECMWF's visiting 
scientist program including myself, and the Weather Research and 
Forecasting Innovation Act (section 404) makes this possible for NCEP.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            Neil Jacobs, Jr.
Conflicts of Interest.
    Question 1. As you know, Panasonic Avionics Corporation sells its 
data and model outputs to NOAA. You have been the chief atmospheric 
scientist at Panasonic for the past four years. How will you ensure 
that your connections to the industry will not influence your 
procurement of Panasonic byproducts?
    Answer. I have consulted with the Office of Government Ethics and 
Department of Commerce ethics officials to identify conflicts of 
interest. I have signed an ethics agreement and conflicts of interest 
will be avoided/resolved in accordance with my ethics agreement. I 
understand that my ethics agreement has been provided to the Committee.

    Question 2. In a 2016 House hearing on private sector weather 
forecasting, you testified in support of strengthening relationships 
between the private and government sectors in the field. What did you 
mean by that?
    Answer. There is rapid innovation in private industry in the areas 
of observing systems, modeling, analytics, and high performance 
computing. Some of these advancements are occurring at many 
universities as well, but are funded with private sector investment. If 
NOAA can harness these advancements through public-private 
partnerships, there is potential to greatly advance NOAA's mission of 
protection of life and property, as well as enhancing the national 
economy through incentivizing additional private investment and growth 
of the entire Weather Enterprise. This concept is also stated in the 
Weather Research and Forecasting Innovation Act of 2017.

    Question 3. Do you believe in privatizing our Federal weather 
forecasting programs?
    Answer. Public-private partnerships and ``privatization'' are two 
very different business models. I have always advocated for public-
private partnerships.
Climate Change.
    Question 4. Nighty-seven percent of scientists agree that climate 
change is real. If confirmed, you will have to deal with issues 
directly related to climate change. Do you believe that our Earth is 
warming?
    Answer. Yes.

    Question 5. Do you believe that human activity is responsible for 
climate change?
    Answer. Humans do have a significant impact through non-sustainable 
deforestation, development, and increased greenhouse gas emissions. 
There are other forcings that factor in as well, such as El Nino 
Southern Oscillation, Pacific Decadal Oscillation, volcanic activity, 
and solar irradiation.

    Question 6. Do you commit to ensuring that decisions at NOAA are 
executed based upon scientific evidence and not politics?
    Answer. Yes.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            Neil Jacobs, Jr.
    Question 1. What are your views on climate change and climate 
research?
    Answer. The observational data show steady warming, rising sea 
level, reduced ice coverage, and increasing CO<INF>2</INF> over time. 
Deforestation and greenhouse gas emissions are contributing to the 
increase of CO<INF>2</INF> in the atmosphere. While water vapor, which 
is the most abundant greenhouse gas, is naturally occurring, the 
Clausius-Clapeyron equation shows that CO<INF>2</INF>-driven warming 
can have an indirect role in increasing water vapor. There are also 
many natural sources for these gasses, as well as many other natural 
terrestrial forcing mechanisms influencing the temperature (e.g., 
volcanic activity, El Nino Southern Oscillation, Pacific Decadal 
Oscillation, etc.). In addition to direct forcings, there are also many 
positive and negative feedbacks, most of which are nonlinear in nature.
    Dozens of papers have been published in peer-reviewed journals over 
the last 18 months showing that solar irradiance might have a greater 
influence than originally thought. The continuous emergence of new 
findings related to our knowledge of climate change show that while we 
do have a solid understanding of certain aspects, there are many 
aspects that are still not well understood. Thus, climate research in 
NOAA must be continued to better understand these processes, and to 
isolate anthropogenic influence from natural variability.
    To further advance all aspects of the research, a more climate-
specific observing system should be a focus, as NOAA's role is to 
produce reliable and accurate environmental observations and 
predictions. Additionally, the level of uncertainty associated with the 
historical data and predictions of the future should be quantified and 
shared, so that policy makers will have the best available information, 
and associated confidence in them, on which to base their decisions.

    Question 2. What are your views on the roles of NOAA and the 
private sector in the weather enterprise? In your opinion, what is the 
ideal relationship between them?
    Answer. There is rapid innovation in private industry in the areas 
of observing systems, modeling, analytics, and high performance 
computing. Some of these advancements are occurring at many 
universities as well, and many are funded with private sector 
investment. If NOAA can harness these advancements through public-
private partnerships, there is potential to greatly advance NOAA's 
mission of protection of life and property, as well as to enhance the 
national economy through incentivizing additional private investment 
and growth of the entire Weather Enterprise. This concept is also 
affirmed in the Weather Research and Forecasting Innovation Act of 
2017.

    Question 3. What are your views on the free and public availability 
of NOAA weather data--in particular any data that NOAA purchases.
    Answer. This will need to be addressed during the contracting/
acquisition/licensing process on a case by case basis. Each company may 
have different and unique concerns regarding their intellectual 
property (IP). If addressing the IP concerns of commercial data 
providers results in NOAA being able to obtain more data for less 
money, thereby advancing their mission of protecting life and property 
through improved forecasting, then it would be a win for NOAA, the 
taxpayers, and the private sector. As for free and public 
redistribution of commercial data to taxpayers, if we can do that 
without driving up the cost to the taxpayers, I am in full support. If 
additional costs are involved, then we will need to weigh that expense 
against the reduced potential forecast skill improvement. In either 
case, ``research only'' licenses agreements that would allow for free 
and open access for universities should be encouraged.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                            Neil Jacobs, Jr.
    Question 1. The Assistant Secretary of Commerce, Environmental 
Observation and Prediction has played a major role in driving the 
administration's priorities related to climate science. Will you commit 
to maintaining NOAA's current critical role in climate change research?
    Answer. Yes.

    Question 2. In your questionnaire, you outline the top three 
challenges you see NOAA facing as improving weather forecasting and 
modeling, increasing observational and predictive resource 
capabilities, and managing satellite costs. Do you foresee any 
challenges for maintaining the robust climate science work done at NOAA 
in the current administration?
    Answer. All branches of NOAA will face unique challenges; however, 
climate research in NOAA must be continued to better understand the 
fundamental processes, and to isolate anthropogenic influence from 
natural variability. To further advance all aspects of the research, a 
more climate-specific observing system should be a focus, as NOAA's 
role is to produce reliable and accurate environmental observations and 
predictions. Additionally, the level of uncertainty associated with the 
historical data and predictions of the future should be quantified and 
shared, so that policy makers will have the best available information, 
and associated confidence in them, on which to base their decisions.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Neil Jacobs, Jr.
    Question 1. Dr. Jacobs, in June of this year you testified before 
the House Science Committee that ``the quickest way to advance NOAA's 
mission is to harness the capabilities in the private sector and let 
the private sector probably drive the pace.'' At that hearing you 
testified in your capacity as Chief Atmospheric Scientists for 
Panasonic Weather Solutions, a private weather company. If you are 
confirmed as the Assistant Secretary of Commerce for Environmental 
Observation and Prediction, you will be in a position to increase the 
private industry's participation in NOAA's national weather program. 
How do you plan to ensure that Panasonic Weather Solutions will not 
unduly benefit from the increased influence of the private sector on 
NOAA's weather program?
    Answer. I have consulted with the Office of Government Ethics and 
Department of Commerce ethics officials to identify conflicts of 
interest. I have signed an ethics agreement and conflicts of interest 
will be avoided in accordance with my ethics agreement. I understand 
that my ethics agreement has been provided to the Committee.

    Question 2. Dr. Jacobs, the airline industry collects important 
weather data using instruments called TAMDAR systems. These systems can 
capture vertical atmospheric profiles, critical to weather forecasts. 
Your company, Panasonic Weather Solutions owns the data collected by 
the TAMDAR systems, which you then sell to NOAA. From your experience 
partnering with NOAA, can you discuss balancing private companies' 
concerns with NOAA's ultimate goal of providing the American public 
with the best available information to protect life and property?
    Answer. This will need to be addressed during the contracting/
acquisition/licensing process on a case by case basis. Each company may 
have different and unique concerns regarding their intellectual 
property (IP). To meet NOAA's goal of providing the American public 
with the best possible forecast information to protect life and 
property, NOAA would need to acquire the most data they can within a 
given budget. If addressing the IP concerns of commercial data 
providers results in NOAA being able to obtain more data for less 
money, thereby advancing their mission of protecting life and property 
through improved forecasting, then it would be a win for NOAA, the 
taxpayers, and the private sector.

    Question 3. And, can you list and describe essential National 
Weather Service products that should not be provided by commercial 
companies?
    Answer. The NWS has an obligation to the taxpayers to provide 
essential products and services to protect life and property. It would 
be beyond the scope of my position, if confirmed, to determine what 
commercial companies should not provide to their customers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                            Neil Jacobs, Jr.
    Question 1. Dr. Jacobs: Your most recent employer, Panasonic, is a 
company that generates and sells weather data and forecasts to the 
public. In certain respects, it's a private company that competes with 
NOAA. Congress has fended off corporate interest in moving certain 
roles and responsibilities of NOAA to the private sector--including, 
for example, NOAA's issuing of weather warnings. It is my belief that 
it is in the American taxpayer's best interest for NOAA to continue to 
communicate this information directly to the public.
    Many are fearful that your past experience could influence your 
decision making at NOAA and that you could advocate for restricting 
public access to NOAA weather data and forecasts. What is your response 
to these concerns?
    Answer. All data, both observations and forecast products, that are 
not subject to lawful redistribution restrictions, should be accessible 
to the U.S. taxpayers.

    Question 2. What are you going to do to mitigate these concerns and 
ensure impartiality in your decision making?
    Answer. I intend to work closely with both Congress and U.S. 
weather enterprise stakeholders.

    Question 3. Dr. Jacobs: According to NOAA, for the past four years, 
we have experienced the warmest years on record with each year breaking 
the proceeding year's record. We are on track for 2017 to be just as 
warm. Previous assistant secretaries in this position have played a 
major role in driving the administration's priorities related to 
climate science. What do you believe is NOAA's role in measuring and 
addressing the impacts of climate change?
    Answer. Climate research in NOAA must be continued to better 
understand the fundamental processes, and to isolate anthropogenic 
influence from natural variability. To further advance all aspects of 
the research, a more climate-specific observing system should be a 
focus, as NOAA's role is to produce reliable and accurate environmental 
observations and predictions. Additionally, the level of uncertainty 
associated with the historical data and predictions of the future 
should be quantified and shared, so that policy makers will have the 
best available information, and associated confidence in them, on which 
to base their decisions.

    Question 4. Dr. Jacobs: The President's Fiscal Year 2018 Budget 
Request for NOAA included major cuts to the agency's satellite program, 
including NOAA's new generation of polar orbiting satellites. These 
satellites provide critical data and information to a number of users 
in both the public and private sector. Do you support these cuts? How 
will you ensure that this important program will continue providing the 
data that many people rely on to reduce the potential loss of human 
life and property?
    Answer. It is critical that there not be a gap in coverage in data 
from the polar-orbiting satellite constellation, and I intend to manage 
this situation closely to ensure any risk of a gap is minimized. I 
understand from the President's FY18 Budget that NOAA is developing 
PFO/JPSS-3 and JPSS-4 instruments and spacecraft buses as copies of 
JPSS-2. This allows NOAA to take advantage of JPSS-2 instrument 
development to reduce cost and risk. In addition, NOAA has exercised 
simultaneous instrument block buys for PFO/JPSS-3 and JPSS-4 
instruments on the current contracts for the most efficient acquisition 
strategy. The PFO/JPSS-3 and JPSS-4 spacecraft buses can be procured as 
options on the JPSS-2 spacecraft contract, thereby reducing risk and 
cost.

    Question 5. Dr. Jacobs: The United States weather models have led 
the world for decades, but recently, improvements to European weather 
models have given them an edge in performance over those produced by 
the United States and NOAA. What will you do and how will you work to 
improve NOAA's weather models so that we again lead the world in 
weather modeling capabilities?
    Answer. Over the years, NWS numerical weather prediction (NWP) has 
made significant improvements; however, it is true that the U.S. lags 
the European Centre for Medium-Range Weather Forecasts (ECMWF) model in 
general forecast skill. At a high level, implementation of a strategic 
plan and roadmap to reach the skill goals is already being rolled out. 
This hinges on the community-based unified global modeling system, 
which can be managed similarly to how the Developmental Testbed Center 
(DTC) managed the WRF model code. The point of this is to have a fully 
integrated framework for coupled, ensemble-based modeling and data 
assimilation.
    All NWP begins with observations, which can be divided into 
satellite and conventional. There are many existing feeds that power 
the global modeling system including ATOVS, AQUA/TERRA, Suomi NPP 
(VIIRS), HIMAWARI-8, Megha-Tropiques (SAPHIR), ISSRAPIDSCAT, GCOM-W 
(Advanced Microwave Scanning Radiometer 2), MODIS, etc., which are 
still being refined and optimized. There are also many new feeds that 
will be available soon, such as GOES-R atmospheric motion vectors and 
radiances, JPSS-1 (ATMS, CrIS, VIIRS), COSMIC2 and commercial GPS-RO 
(conventional). In-situ observational data feeds are growing as well, 
such as more aircraft data, land surface, as well as radar.
    How these observations are assimilated is critical, and this has 
largely been where ECMWF has held a lead. ECMWF uses a true 4D-Var 
technique versus our present 4DEnVar and previous 3DEnVar and 3D-Var. 
The next-generation data assimilation (DA) system, which will be 
integrated into the unified modeling package is the Joint Effort for 
Data assimilation Integration (JEDI). This is a more efficient way to 
manage the code, and the modular structure allow for use across 
different models, grids, and can employ different DA solvers.
    Of similar importance is the new dynamic core: Finite-Volume Cubed-
Sphere Dynamical Core (FV3), which is highly scalable and flexible, and 
can be run as non-hydrostatic (the current GFS is hydrostatic). This 
will allow the global modeling system to run at very high spatial 
resolutions that are capable of resolving convective activity. It also 
has the capability of moving nests, which is very useful for tropical 
modeling. In addition to the horizontal resolution, shifting to 128 
vertical levels, which ECMWF runs now, will also be a large leap 
forward. At these resolutions, it is also critical to have improved 
physics, and the new Common Community Physics Package allows for 
stochastic, scale-aware convection and PBL, and double-moment cloud 
microphysics.
    I am barely scratching the surface of these upcoming advancements. 
ECMWF is a moving target, and they are constantly upgrading their 
modeling system too. Much of what needs to happen is already mapped out 
in the Weather Research and Forecasting Innovation Act of 2017. Among 
the various components are the need for streamlined R2O, an O2R plan, 
community outreach to harness the innovations occurring at universities 
and private industry, and also a much-needed visiting scientist program 
at NCEP. ECMWF has had a long-standing visiting scientist program to 
bring in outside expertise to help develop different aspect of their 
program. Many U.S. scientists have been part of ECMWF's visiting 
scientist program including myself, and the Weather Research and 
Forecasting Innovation Act (section 404) makes this possible for NCEP.

    Question 6. Dr. Jacobs: The National Weather Service employs 
thousands of people to process data, run models, and produce weather 
forecasts that are critical to keeping Americans prepared and safe. The 
staff of the National Weather Service are dedicated to providing 
critical information to emergency managers and the public, often 
working around the clock during natural disasters like the recent 
string of hurricanes. Recent reporting by the Government Accountability 
Office shows 11 percent of positions at NOAA are unfilled. According to 
media reports, this thread-bare staffing has lowered morale across the 
agency. What will you do to increase hiring at NOAA and the National 
Weather Service and ensure it is properly staffed?
    Answer. If confirmed, I will take into account the recent National 
Weather Service Operations Workforce Analysis (OWA) performed by 
McKinsey & Co. to recruit, hire, train, and retain a robust and highly 
skilled workforce that can most effectively accomplish the NWS mission 
to protect lives and property and enhance the national economy. I will 
also consult with NWS Director Dr. Louis Uccellini and his staff for 
their feedback on this important issue and work to develop a plan.

    Question 7. How will you improve morale?
    Answer. Having a strategic plan and leading by example are two 
important tools for improving morale. If confirmed, I will make it a 
priority to visit as many facilities as possible to meet and discuss 
the issues of concern with the staff. A byproduct of public-private 
partnerships will be helping unify the U.S. weather enterprise. NOAA 
can tap into these innovations and resources versus competing against 
them. Working together, we can regain the position as the global leader 
in weather modeling. I have found that a little friendly competition is 
always helpful to unite the team and boost morale, and achieving the 
skill of the European Centre is not out of reach.

    Question 8. Dr. Jacobs: Our ability to observe and forecast weather 
continues to improve, but there are still nearly 6,000 people killed 
and over 400,000 injured every year in weather-related incidents. 
Having improved physical science alone will not be a panacea for 
reducing fatalities and injuries when extreme weather strikes. Studies 
have shown a need to integrate social and behavioral sciences into 
weather-related incident response in order to improve communication 
amongst meteorologists, emergency managers and the public. How will you 
build capacity throughout NOAA and the National Weather Service to 
better integrate social and behavioral sciences into response plans, 
improve the communication of scientific information, and increase our 
understanding of the social dynamics and needs of vulnerable 
subpopulations to help prevent weather-related injuries, fatalities, 
and damage?
    Answer. If confirmed, I will support further development of the 
National Weather Service's Impact-Based Decision Support Services 
(IDSS), which is an interpretative service provided to help core 
partners, such as emergency personnel and public safety officials, make 
decisions when weather, water and climate impacts the lives and 
livelihoods of the American people. This is part of the NWS Weather 
Ready Nation (WRN), and has well over 4,000 ambassadors (i.e., weather 
enterprise partners).
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                            Neil Jacobs, Jr.
    Question 1. Do you agree there is a link between climate and 
weather?
    Answer. Yes.

    Question 2. Do you believe that a warmer climate is causing more 
extreme weather events?
    Answer. Many peer-reviewed studies have been published simulating 
present-day ``extreme'' weather events under pre-industrial revolution 
thermodynamic climatological conditions, and the results show weaker, 
but not statistically significant differences. However, those same 
present-day ``extreme'' events were also simulated under future 
projected (yr2100) warming scenarios using the IPCC Fifth Assessment 
Report (AR5) representative concentration pathway 8.5 (RCP8.5; the most 
extreme greenhouse gas scenario), and the resulting storms were notably 
stronger.

    Question 3. Based on its own research and the research of thousands 
of other climate scientists, NOAA states that climate data patterns 
reveal that the planet's global surface temperature is rising. Do you 
agree with this statement?
    Answer. Yes.

    Question 4. NOAA further states that this change is linked to, and 
I quote, ``the dramatic increase in greenhouse gases in the atmosphere 
that has occurred over the past two centuries.'' Do you agree with this 
statement?
    Answer. The warming is linked to greenhouse gas (GHG) 
concentration, yes; however, there are many additional forcings and 
nonlinear feedbacks contributing to an extremely complex system.

    Question 5. Do you believe that humans are primarily responsible 
for this observed recent climate change?
    Answer. In the absence of various short-term natural forcings that 
can often dominate the surface and lower-tropospheric temperature 
measurements (e.g., El Nino, volcanic activity, etc.), humans do have a 
significant impact through non-sustainable deforestation, development, 
and increased GHG emissions.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                            Neil Jacobs, Jr.
    Question 1. NOAA is a very diverse, science-based agency, with many 
professionals aiding the day-to-day operations of the agency and its 
goals. Recently, there seems to be an unfortunate pattern of stifling 
the concerns of professional staff within agencies of the Trump 
Administration. For example, on March 29, 2017, EPA Administrator Scott 
Pruitt announced that his agency would decline to ban chlorpyrifos, 
despite years of scientific study and deliberation indicating that the 
pesticide poses a clear risk to children, farmworkers, and users of 
rural drinking water. This was a 180-degree turn from the science-based 
conclusion reached just a few months earlier by the EPA Office of 
Chemical Safety and Pollution Prevention, which found that chlorpyrifos 
have harmful effects on children's brain development. Both EPA 
scientists and the American Academy of Pediatrics have urged the EPA to 
ban the insecticide.
    Can you please explain how you view the professional staff at NOAA, 
and do you commit to take seriously the recommendations of individuals 
who have dedicated years of work to their specialty?
    Answer. Yes. As I said in my opening statement: ``If confirmed, it 
would be a tremendous honor to help lead such a distinguished 
organization of scientists, engineers, forecasters and uniformed 
officers. I can assure the Committee that I will do my absolute best to 
ensure this team of 12,000 professionals have the resources and 
leadership needed to produce transparent, objective and defendable 
science, so that decisions based on this weather and climate 
information can be made with confidence.

    Question 2. It is well documented that you have continuously 
advocated for the private sector to take the lead in atmospheric 
modeling and similar processes. Should you be confirmed to this 
position, how will you ensure that NOAA utilizes the best available 
science without having to rely on outside information from private 
industry?
    Answer. I have advocated for NOAA to improve its utilization of 
data and modeling produced by the private sector; however, it is 
essential for NOAA to retain a core expertise in atmospheric modeling. 
NOAA should not have to completely depend on outside sources for this 
function.

    Question 3. NOAA's core mission is ``to understand and predict 
changes in climate, weather, oceans, and coasts, to share that 
knowledge and information with others, and to conserve and manage 
coastal and marine ecosystems and resources.'' With this mission in 
mind, do you believe that human activity is the primary cause for 
global climate change? And what is your opinion of how global warming 
has affected severe weather?
    Answer. In the absence of various short-term natural forcings that 
can often dominate the surface and lower-tropospheric temperature 
measurements (e.g., El Nino, volcanic activity, etc.), humans do have a 
significant impact through non-sustainable deforestation, development, 
and increased greenhouse gas emissions. Many peer-reviewed studies have 
been published simulating present day ``extreme'' weather events under 
pre-industrial revolution thermodynamic climatological conditions, and 
the results show weaker, but not statistically significant differences. 
However, those same present-day ``extreme'' events were also simulated 
under future projected (yr2100) warming scenarios using the IPCC Fifth 
Assessment Report (AR5) representative concentration pathway 8.5 
(RCP8.5; the most extreme greenhouse gas scenario), and the resulting 
storms were notably stronger.

    Question 4. How will you ensure that NOAA's office of Oceanic 
Affairs will continue to provide valuable, accurate data when the Trump 
Administration has proposed a significant cut of 32 percent to the 
office?
    Answer. I am not aware of the basis for the cuts in funding to the 
Office of Oceanic Affairs. If confirmed, I hope to learn more about 
this office and then re-evaluate the situation.

    Question 5. This position is responsible for a multitude of issues 
beyond meteorology, issues such as oceanography, ports and navigation, 
and fisheries. Can you please provide examples of how your previous 
industry experience prepared you for the undertaking of such a broad 
portfolio?
    Answer. My tenure at Panasonic included much more than meteorology. 
I oversaw the research and development of many observing systems, from 
aviation-based sensing ranging from wide-body commercial airlines to 
unmanned aerial vehicles to maritime via a company called ITC Global 
that we acquired specializing in satellite-based communications for 
industrial operations in extreme environments, including deep-water 
energy exploration, remote mining and transoceanic shipping. As part of 
this, I am also familiar with satellite operations and deployment, as 
well as radio frequency spectrum allocation and space weather hazards. 
I was involved with three major corporate acquisitions, structured 
multimillion dollar international business relationships with both 
industry and international meteorological agencies, and five separate 
procurement cycles of multimillion dollar high performance computing 
hardware, storage, and data center facilities. I also managed day-to-
day operations, as well as oversaw external research and development 
contracts at both the National Center for Atmospheric Research, as well 
as several major universities, which have supported many researchers, 
scientists, professors, and students over the years. These programs 
ranged from code development to observing system cost-benefit analyses 
to several observing system simulation experiments (OSSEs). I am deeply 
familiar with research to operations (R2O) and production HPC, as our 
global modeling program that supports many industry sectors operates 
24x7x365. Last year, we had a respectable 99.9947 percent uptime. While 
much of the ``wet side'' will fall under RDML Tim Gallaudet, I do have 
experience in the fishery area as well. I have spent time working on 
both charter fishing vessels, and doing satellite imagery processing of 
sea surface temperature data for the commercial tuna fishery. I have 
also been involved in the aquaculture of coral (Acropora species), and 
even worked on NOAA's own Ron Brown.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                          to Neil Jacobs, Jr.
Nevada specific--Western Regional Climate Center & ``Climate Change''.
    Question 1. Inaugurated in 1986, the Western Regional Climate 
Center (WRCC) a partnership with the Desert Research Institute in Reno, 
Nevada, is one of six regional climate centers in the United States 
that delivers high-quality climate data services in conjunction with 
NOAA and national climate and weather partners. The WRCC serves as a 
focal point for coordination of applied climate activities in the West, 
including drought and climate monitoring, and conduct applied research 
on the impacts of climate variability and climate extremes in the 
western United States. As the western U.S. feels the impacts of greater 
extremes in weather and climate and WRCC are tasked to study these 
changes, are NOAA and the staff of WRCC under Administration guidelines 
or edict discouraging the mention of global climate change when 
discussing and conducting climate research?
    Answer. I am not aware of any such edict.

    Question 2. Would you ever condone any such guidance?
    Answer. No.

    Question 3. And can I get your commitment to advocate for the 
efforts at the WRCC against any ill-conceived budget cuts that could 
harm Nevadans, and others in the West?
    Answer. I fully support studying the effects of climate change on 
western states. It is my highest priority to improve the understanding 
of droughts and other forms of severe weather through implementation of 
the Weather Research and Forecasting Innovation Act.
National Weather Service Inquiry.
    Question 4. Dr. Jacobs, as you know, the National Weather Service 
plays an indispensable role in protecting people from both routine and 
severe weather events around the country. Every year, lives are saved 
thanks to timely and accurate forecasts provided by skilled 
forecasters. As the Weather Service continues to evolve it is critical 
that all decisions that may impact its ability to provide reliable 
forecasts be transparent, supported by evidence, and not result in a 
degradation of current services. Recently, my colleagues in the House 
have requested information relating to the NWS Operations and Workforce 
Analysis. I have spoken with these colleagues, and as I understand it, 
many questions still remain.
    Will you commit to a fully transparent process, and completely 
fulfill information requests from Congress, so that we can be assured 
that any and all proposed decisions stemming from the Operations and 
Workforce Analysis are indeed supported by evidence and will not result 
in a degradation of current services and unnecessary impacts on the NWS 
workforce?
    Answer. Yes, I strive for full transparency and complete 
information.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Todd Young to 
                          Nazakhtar Nikakhtar
    Question 1. Ms. Nikakhtar, Indiana is home to a significant number 
of auto manufacturers and their suppliers. U.S. auto industry has 
raised concerns regarding the European Union's effort to promote EU 
auto standards abroad at the expense of U.S. auto standards. If 
confirmed, I believe you would oversee the Automotive Team at the 
International Trade Administration. The Auto Team is charged with 
assisting automakers and their vast network of American suppliers to 
ensure broad acceptance of domestic standards across the globe as the 
European Union pushes their own standards. In recent years, ITA 
Automotive Team have been beneficial in ensuring acceptance of U.S. 
auto standards in regions such as Latin America, the Middle East, and 
Asia, where strides toward full acceptance of U.S. (FMVSS) auto 
standards have recently been made. Will you pledge to continue these 
efforts and ensure broad acceptance of domestic auto standards across 
the globe? Do you believe the ITA currently has the resources to 
effectively promote these standards globally? If not, I would like to 
work with the Administration to ensure they can achieve this mission.
    Answer. I am aware of and fully support the ITA Automotive Team's 
efforts to advocate globally for the acceptance of vehicles and 
automotive parts built to comply with U.S. regulatory requirements. I 
am also well aware of the European Union's strategy to aggressively 
promote its regulations in bilateral and regional trade agreements and 
through its technical assistance programs. Third country adoption of EU 
regulatory requirements acts as a barrier to the importation of U.S.-
made automotive products, and movement toward EU-style third party 
certification requirements reduce the competitiveness of U.S. products. 
Equivalent or greater safety or environmental performance can be 
achieved with comparable U.S. regulations and certification measures.
    As you reference, the ITA Automotive Team, in close coordination 
with the ITA Standards Team, ITA's Standards Attaches in foreign posts, 
and interagency partners, has successfully rolled back movement toward 
the sole acceptance of EU regulations in various countries, including 
Ecuador, Morocco, Israel, and Chile. Additionally, the ITA Teams have 
been able to maintain acceptance of U.S. regulations in major markets 
such as the Gulf Cooperation Council (GCC) and Colombia. The ITA 
Automotive Team is also actively working to preserve or extend market 
access in Malaysia, Vietnam, the Philippines, India, Brazil, Argentina, 
and Costa Rica.
    These efforts involve engaging our trading partners in technical 
outreach on the U.S. regulatory system and advocating for acceptance of 
U.S. compliant products. This work must be sustained and strengthened. 
If confirmed, I will ensure that ITA continues to use every available 
tool to combat the EU's influence on third country markets with respect 
to its auto standards. I will also evaluate how resources are allocated 
to maximize effectiveness of our mission.
    I look forward to working collaboratively with your office and with 
the ITA staff, interagency partners, and industry stakeholders to 
continue to develop and strengthen our international strategy to 
maintain acceptance of U.S. compliant vehicles and parts globally.

    Question 2. The number of countries that accept motor vehicles 
certified to U.S. auto safety standards has been declining in recent 
years. This trend is due in part to successful efforts by the EU to 
persuade other countries to accept vehicles certified to their 
standards. I understand that the U.S. negotiators are making a 
concerted effort to ``lock-in'' acceptance of U.S. vehicles in the 
NAFTA talks and that the acceptance of U.S.-certified vehicles will be 
one of the topics discussed during the KORUS talks. Will you work to 
ensure U.S. auto safety standards are adequately addressed in future 
free trade agreement negotiations?
    Answer. If confirmed, I will work to ensure that acceptance of U.S. 
automotive safety standards is a priority in all ongoing and FTA 
discussions. Better leveraging our FTA negotiations can be an effective 
tool in combatting the EU's efforts to promote its auto safety 
standards (to the detriment of U.S. standards), and to avoid broader 
global automotive regulatory fragmentation.
    I fully support U.S. negotiators' efforts to secure commitments to 
accept automotive products engineered to U.S. safety standards as part 
of the NAFTA renegotiations. Although both Mexico and Canada currently 
accept U.S. automotive products, achieving this commitment as part of a 
renegotiated NAFTA will set a vital precedent and model for future U.S. 
FTAs, mirroring the approach used by the EU in all of its recent FTAs. 
Doing so will also send an important commercial and political message 
of North American solidarity and help facilitate efforts for the NAFTA 
countries to jointly pursue recognition of those safety standards in 
other markets.
    I also recognize that, despite the existence of KORUS, U.S. 
automotive exports continue to face significant regulatory hurdles in 
South Korea. If confirmed I will closely monitor the ongoing KORUS 
discussions and make sure that progress on automotive standards is a 
top priority.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Nazakhtar Nikakhtar
    U.S. Automakers. The U.S. and the EU have different approaches to 
automobile safety. Not only do the safety standards differ themselves, 
but the U.S. largely relies on self-certification, while the EU 
requires prior regulatory approval.
    Question 1. What will you do to help U.S. automakers overcome the 
challenges of having to deal with two different sets of regulations?
    Answer. If confirmed, I will ensure that the ITA Automotive and 
Standards Teams continue to aggressively seek the acceptance of Federal 
Motor Vehicle Safety Standards (FMVSS) worldwide. This includes 
addressing regulations that emerge in individual countries and regions 
that act as technical barriers to U.S. auto exports, both through 
bilateral consultations and through multilateral forums like the World 
Trade Organization's Agreement on Technical Barriers to Trade.
    I will also ensure that ITA's teams are in constant contact with 
U.S. Government embassies to report early indications of any country 
moving toward the acceptance of only EU regulations or other 
regulations that are incompatible with FMVSS. I will also work to 
include acceptance of U.S. and other globally recognized FMVSS-
compatible safety regulations in all U.S. FTAs, as U.S. negotiators are 
currently doing in the context of NAFTA renegotiations and KORUS Joint 
Committee discussions. Additionally, I will ensure that we continue to 
proactively engage our trading partners in technical outreach on the 
U.S. regulatory system to advocate for the acceptance of U.S. compliant 
products.

    Question 2. Do you believe the Commerce Department has sufficient 
resources to do so?
    Answer. If confirmed, I will ensure that ITA continues to use every 
tool available to combat the EU's influence over regulations in third 
country markets. I will also evaluate how resources are allocated to 
maximize the effectiveness of ITA's mission.

    Question 3. How should the EU and other nations treat American-made 
vehicles that are in compliance with Federal motor vehicle safety 
standards (FMVSS)?
    Answer. Motor vehicles built to FMVSS achieve the highest levels of 
safety performance. If a manufacturer builds to FMVSS, it should be 
able to sell that product worldwide. If confirmed, I will advocate for 
the global acceptance of FMVSS, as doing so will be critical to 
eliminating costly and redundant automotive testing and calibration 
requirements that have no added safety benefit. By ensuring that 
vehicles certified to FMVSS are accepted by our trading partners, we 
will be able to ensure that U.S. vehicles are competitive abroad, 
promote U.S. exports, strengthen the U.S. automotive industry, and 
create new jobs.

    Florida Fruit and Vegetable Growers. Florida fruit and vegetable 
growers are being overwhelmed with below-cost fruits and vegetables 
from Mexico--including bell peppers, tomatoes, strawberries, and 
cucumbers. We need to make this right for them--before they are forced 
to close up shop and we to have to depend on Mexico for all of our 
fruits and vegetables during the winter.
    Question 4. What can you do to assist efforts to get the Commerce 
Department to self-initiate a trade case and ensure a fair market for 
winter produce?
    Answer. A critical component of trade remedy cases is the statutory 
component of injury to the domestic industry caused by unfairly traded 
imports. If confirmed, I will ensure that Industry & Analysis provides 
to ITA's self-initiating unit robust data concerning the impact of 
subject imports on U.S. producers' production levels, prices, and 
competitive position in the marketplace, accounting for the seasonal 
nature of harvesting and selling produce in particular regions in the 
United States. These critical data elements will factor into the self-
initiating unit's analysis of whether subject imports have caused 
injury to U.S. industries or threatened U.S. industries with material 
injury. I will additionally commit to working with the U.S. Government 
to address Mexico's exportation of dumped and subsidized produce to the 
United States through the ongoing North American Free Trade Agreement 
negotiations as well as bilateral negotiations.

    Exports to Latin America. Florida acts as a central hub for trade 
with Latin America. In fact, Latin America makes up 3 out of the top 5 
export markets for Florida. However, the value of goods exported to our 
top South American trading partners declined from 2015 to 2016. Given 
all the anxiety and rhetoric about trade that has been coming out, how 
do you intend to ease tensions with our trade partners in Latin America 
and increase opportunities for American exports in that part of the 
world?
    Question 5. Do you see statements by the President and others in 
the Administration as counterproductive to that effort?
    Answer. I appreciate the critical role Latin America plays in the 
strength of Florida's economy and of the U.S. economy overall. It is 
important that we maintain strong trade relations with our trading 
partners in the region. President Trump has met with many of his Latin 
American counterparts to discuss the expansion of our trading 
relationships in ways that benefit both parties.
    The United States maintains trade agreements with 11 Latin American 
countries and is actively engaged in constructive trade dialogue with 
other Latin American trading partners through trade and investment 
framework agreements, unilateral preferential programs, bilateral trade 
councils, and other initiatives. These activities--and most 
particularly the President's priority on renegotiating and modernizing 
NAFTA--demonstrate the Administration's commitment to a closer trading 
relationship with our Latin American trading partners and to expanding 
opportunities in the region for American businesses, farmers, ranchers, 
workers and service providers.
    If confirmed, I look forward to working with your office and 
Florida producers to understand in detail the full range of challenges 
concerning Florida's trade with Latin America--including the impact of 
recessions in parts of South America, weak commodity prices, and price 
suppression caused by unfair trade--and will commit to developing and 
implementing trade policies to improve Florida's competitive trading 
position.

    Imported Consumer Products. One major issue with certain consumer 
products imported from China is the failure of manufacturers to stand 
behind their products in cases of defect or recall. In the case of 
Chinese drywall, for example, Chinese manufacturers (including some 
partially or wholly owned by the Chinese government) refused to provide 
remedies or compensation to impacted homeowners for products that were 
defective and caused substantial property damage and negative health 
impacts. In addition, the Chinese government has generally refused to 
assist in service of process (under the Hague Convention) for lawsuits 
against Chinese manufacturers for defective products.
    Question 6. How can the Commerce Department work to ensure that 
U.S. consumers are made whole by Chinese and other foreign 
manufacturers of defective products?
    Answer. I have audited numerous Chinese companies across many 
industries and have witnessed firsthand the lack of rigorous 
manufacturing protocols that lead to the production of defective 
products, many of which are exported to the United States. If 
confirmed, I will commit to working tirelessly--through bilateral and 
multilateral negotiations and by way of amendments to our trade 
agreements--to ensure that all of our trading partners are held 
accountable for their failures to expeditiously recall defective 
products and for the damages (personal and property) caused by such 
defective products. I also welcome the opportunity to work with your 
office on these objectives.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Nazakhtar Nikakhtar
    Question 1. The trade dispute between the U.S. and China creates 
economic hardship for some high value, high tech American manufacturers 
and exporters. The pressure on U.S. manufacturers of polysilicon 
including one of my constituents REC Silicon has become acute and 
threatens its continued existence if it is not resolved in the near 
term. However, this dispute would also boost U.S. exports by several 
hundred million dollars immediately and create high paying jobs in an 
industry important to both semiconductor & solar industries. As 
Assistant Secretary for Industry and Analysis, how do you intend to 
seek a comprehensive solution to this challenge so that our great 
American manufacturing companies can fairly compete?
    Answer. China's ongoing trade distortive practices, including 
meritless retaliation policies, have caused significant injury and, in 
many cases, irreparable harm to countless American companies. With 
respect to polysilicon manufacturers in particular, China's retaliatory 
tariffs (in response to the U.S.-China solar trade dispute) has 
restricted market access for U.S. polysilicon exporters, which has 
resulted in significant declines in U.S. producers' output and 
workforce. Further, the prospect of the United States imposing measures 
in response to the International Trade Commission's recent safeguards 
decision and recommendations on tariff levels on solar cells and panels 
could result in retaliation by the Chinese. If confirmed, I will ensure 
that bilateral negotiations between the U.S. and China include pressure 
on China to terminate its retaliatory practices and eliminate the 
dumping and subsidization of exports. I will also work to secure 
substantial and meaningful market access for U.S. polysilicon producers 
in China and other countries.

    Question 2. Industry and Analysis is the home of the International 
Trade Administration's digital expertise and has an important role to 
play in supporting ITA's Digital Attaches program. This initiative 
gives America's digital exporters ``boots on the ground'' in some of 
the most important and challenging markets for their products and 
services. Specifically, I&A digital trade experts have helped equip 
Foreign Commercial Service Officers with the knowledge needed to 
advocate for openness to U.S. digital goods and services in a variety 
of overseas markets. I&A's policy expertise is therefore crucial to the 
success of these efforts. How will you ensure that your team continues 
to contribute effectively to the attaches' efforts?
    Answer. I share your assessment of the importance of the Digital 
Attache Program and its role in ensuring that all U.S. companies have 
access to the digital economy and can reach global markets. If 
confirmed, I will ensure that the full complement of digital and 
industry experts in Washington, D.C., and abroad have the support 
needed to enhance their ability to address protectionist policies that 
restrict the free flow of digital information and to advise companies 
engaged in digital trade on how best to enter new markets. I will also 
endeavor to raise the profile of our digital team to ensure that the 
business community is aware of and encouraged to use ITA's Digital 
Attaches.

    Question 3. Ensuring data flows freely across the Atlantic promotes 
economic growth for American Small and Medium Size Enterprises and 
large companies alike, while giving consumers of digital goods and 
services new ways to work, learn, and communicate. $260 billion in 
digital services trade moves between the U.S. and the EU annually. In 
2015, the European Court of Justice invalidated a core agreement that 
governed the transfer of data between the EU and U.S. The successor 
agreement, the EU-U.S. Privacy Shield Framework, recently underwent its 
first annual review, led by the European Commission and U.S. Department 
of Commerce. While this concluded positively, Privacy Shield is under 
its own legal threat in Europe and some implementation concerns remain. 
Over 2,400 participating organizations, mainly in the U.S., would find 
their ability to engage in transatlantic commerce endangered if Privacy 
Shield is discontinued. The Industry and Analysis division houses the 
Privacy Shield program office.
    Can you assure me that you will provide all the resources and 
support needed to ensure the Framework's smooth functioning? Will you 
also commit to continue engaging as appropriate in the European policy 
debates that affect the Privacy Shield's viability?
    Answer. Yes. As you noted, by providing robust and enforceable 
protections for the transfer of personal data between the U.S. and the 
EU, the Privacy Shield Framework plays a critical role in promoting 
digital trade across the Atlantic. If confirmed, I will ensure that the 
smooth functioning of the Framework remains a top priority of Industry 
& Analysis, and will commit to working with U.S. and EU stakeholders to 
ensure that the Framework fosters, promotes, and develops international 
commerce in a manner that complies with EU data protection requirements 
and affords meaningful legal protections to users.
    The Department of Commerce plays a key role in driving 
international digital trade initiatives, whether it is market access 
for U.S. digital products, standards, cybersecurity, emerging 
technologies, cross-border data flows, privacy issues, or the impact of 
digital trade on many other goods and services. Expanding the U.S. 
economy by facilitating digital trade will remain at the top of ITA's 
agenda if I am confirmed.

    Question 4. The Internet sector now employs nearly 3 million 
Americans and makes up 7 percent of U.S. GDP. Industry and Analysis 
plays an important role in coordinating the trade advisory committees 
that inform U.S. trade policy. I understand there are a number of 
pending applicants waiting for Secretary Ross's approval. Given the 
internet's widespread economic impact will you help ensure that 
interested internet-based companies and associations are able to join 
relevant ITACs without undue delay?
    Answer. It is important that U.S. Government officials and trade 
negotiators fully understand the concerns and interests of a broad 
spectrum of U.S. business, including the Internet sector, and other 
interests when formulating trade negotiating positions and trade 
policy. One of the ways we seek input from the Internet sector is 
through the Industry Trade Advisory Committees (``ITACs'') jointly 
administered by the Department of Commerce and the United States Trade 
Representative. The ITACs serve as an important link between industries 
and government. U.S. Government policy makers rely on industry 
representatives, including those from the Internet sector, to identify 
obstacles and provide advice on how business is hindered by trade 
issues. Currently, we do have representation from the Internet sector 
serving on two our ITACs--the Information and Communications, Services, 
and Electronic Commerce (ITAC 8) and on Intellectual Property Rights 
(ITAC 15). I look forward to increasing membership on all of the ITACs 
as our advisors are an important part of our trade policy process.

    Question 5. Previously, I&A spearheaded several innovative digital 
trade-related initiatives. These included the inaugural Innovation and 
Investment Dialogue with the EU in March 2016. Such efforts helped 
advance U.S. digital priority priorities in new and effective ways. Can 
you assure us that you will provide I&A with the instruction, backing, 
and resources to continue developing initiatives like the Dialogue?
    Answer. Yes, if confirmed, I will ensure that initiatives relating 
to the advancement of U.S. digital entrepreneurship, competitiveness, 
and investment are a top priority of the Department of Commerce. I will 
also ensure that Industry & Analysis devotes substantial support and 
resources to initiatives that promote innovation in digital trade.

    Question 6. The Department of Commerce has an important role to 
play in representing economic interests in national security 
policymaking. We have witnessed this role in recent years in the 
Privacy Shield and encryption contexts. Industry and Analysis' sector 
expertise and industry relationships are critical sources of insight 
for such discussions. How will you ensure that I&A remains a strong 
voice when it comes to addressing these often-contentious issues with 
interagency colleagues?
    Answer. Inter-agency collaboration is critical to delivering 
solutions that advance both the objectives of the U.S. Government and 
industry stakeholders. If confirmed, I will ensure that the Department 
of Commerce--through the advice and expertise of the Department's 
industry analysts and ITAC membership--has a leading voice in 
developing and implementing policies that promote trade, advance 
national security objectives, and protect digital transfers of data. I 
will also ensure that such policies receive meaningful input and 
support from other U.S. Government agencies including, inter alia, the 
Federal Trade Commission, the U.S. Intelligence Community, the United 
States Treasury, as well as the Privacy Shield Ombudsperson.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                          Nazakhtar Nikakhtar
    Tourism. The Industry and Analysis unit of the International Trade 
Administration is tasked with creating a positive climate for growth in 
travel and tourism by reducing institutional barriers to tourism. As 
co-chair of the Travel and Tourism Caucus with Senator Heller, I have 
been working on policies to attract international visitors to the 
United States. International tourists spend an average of $4,400 when 
they visit and we need to continue to promote the United States as a 
welcoming destination to international visitors.
    Question 1. Ms. Nikakhtar, what can the Industry and Analysis unit 
do to promote international tourism?
    Answer. International tourism is critically important to the U.S. 
economy. In 2016, total travel and tourism spending supported directly 
and indirectly over 7.6 million jobs in 2016 (5.2 percent of total 
employment), from $1.54 trillion in spending. International travel 
accounted for $244.7 billion in U.S. trade, 33 percent of the overall 
value of U.S. trade in services, supporting 1.2 million U.S. jobs, and 
resulted in a $84 billion trade surplus. Given its sizeable impact, if 
confirmed, I will work to ensure that the Department of Commerce 
continues to promote international tourism to the United States while 
reducing unnecessary barriers. I also welcome the opportunity to work 
with your office to advance these objectives.

    Iron Ore. More than 4,000 jobs in Minnesota are associated with the 
iron ore and steel industries. Our steelworkers and iron ore miners can 
compete with anyone in the world, but when foreign producers dump cheap 
steel in our country, it undercuts our domestic industry and puts 
American jobs at risk. American workers and businesses deserve a level 
playing field and the Department of Commerce is essential to making 
that happen.
    Question 2. Ms. Nikakhtar, how will you help ensure that American 
workers, including Minnesota's iron ore miners and steelworkers, can 
compete on a fair playing field with foreign firms?
    Answer. I have devoted my entire career to leveling the playing 
field for U.S. industries, both within the U.S. Department of Commerce 
and in the private sector. Through my extensive experience, I am 
acutely aware of the fact that the leveling of any playing field 
necessarily involves addressing trade-distorting practices both 
domestically and internationally. China's global oversupply of dumped 
and subsidized steel is a prime example.
    If confirmed, I will advocate relentlessly for fair trade and, in 
doing so, will assist the Department of Commerce and the U.S. 
Government to:

  (1)  develop viable long-term U.S. trade policies that deter unfair 
        trade,

  (2)  engage in meaningful bilateral and multilateral negotiations 
        with our trading partners to discourage unfair trade,

  (3)  utilize all legal and practical trade remedy options to level 
        the playing field for U.S. industries, and

  (4)  provide assistance to U.S. industries injured by unfair trade 
        (including trade adjustment assistance).
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                          Nazakhtar Nikakhtar
    Export-Import Bank. The Export-Import Bank plays a vital role in 
supporting our economy. It is critical to Connecticut's manufacturing 
sector and helps to maintain our trade relationships with other 
countries.
    Question. Do you support the Export-Import Bank? What will you do 
to ensure the success of the Export-Import Bank?
    Answer. International trade is critical to the growth of our 
economy, including the growth of small and medium-size enterprises. 
Yet, many U.S. enterprises find it difficult to access export financing 
through private sector lenders that are unable or unwilling to accept 
risks--political or commercial--associated with a particular deal. In 
this regard, the Export-Import (EXIM) Bank plays a critical role in 
providing financing for transactions that would otherwise not occur.
    I support practical, fair, and transparent initiatives that 
facilitate the expansion of opportunities abroad for American companies 
through export financing. If confirmed as Assistant Secretary of 
Industry & Analysis, I will strive to ensure that our companies 
continue to have access to reliable financing options. As the Secretary 
of Commerce serves as a non-voting member of EXIM Bank's Board of 
Directors, and this function has been delegated internally to Industry 
& Analysis, my staff and I will give full consideration to Board-level 
financing requests and promote continued interagency cooperation.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                          Nazakhtar Nikakhtar
    Question. The Assistant Secretary serves as the primary liaison 
between industry and the Department of Commerce. It is important for 
businesses in my state of New Mexico to have an opportunity weigh in on 
issues--without the expense of traveling to Washington. If confirmed, 
how will you make sure you engage with businesses that do not have 
representation in Washington, D.C.?
    Answer. To be sure, representation in Washington D.C. is at times 
lopsided, and U.S. firms' engagement with the Government sometimes 
leans towards businesses that have the financial ability to have an 
ongoing presence here. Government access for smaller companies needs to 
be improved.
    If confirmed as Assistant Secretary, I will promote outreach 
initiatives to U.S. businesses to ensure that, inter alia, (1) they 
have meaningful access to the agency in order to provide input on key 
issues that are important to them, (2) they are able to benefit from 
the vast trade-related resources and business networks of Industry& 
Analysis, and (3) their collective voices are heard by the Department 
of Commerce when shaping industry and trade policies. If confirmed, I 
will work though my colleagues and partners, including our Commercial 
Service representatives in New Mexico, to understand the issues facing 
your constituents. We need to ensure all doors are open in order for us 
to be successful in our mission to promote and protect U.S. industry in 
a very competitive global marketplace.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                          Nazakhtar Nikhaktar
    Question 1. The U.S. auto industry has raised concerns regarding 
the European Union's effort to promote EU auto standards abroad at the 
expense of U.S. auto standards. If confirmed, you would oversee the 
Automotive Team at the International Trade Administration. The Auto 
Team is charged with assisting automakers and their vast network of 
American suppliers to counteract the EU efforts on auto standards. In 
recent years, ITA's Automotive Team and their colleagues at our 
embassies around the world have led efforts to move toward full 
acceptance of U.S. (FMVSS) auto standards. Will those efforts continue 
under your leadership?
    Answer. I am aware of and fully support the ITA Automotive Team's 
efforts to advocate globally for the acceptance of vehicles and 
automotive parts built to comply with U.S. regulatory requirements. I 
am also well aware of the European Union's strategy to aggressively 
promote its regulations in bilateral and regional trade agreements and 
through its technical assistance programs. Third country adoption of EU 
regulatory requirements acts as a barrier to the importation U.S.-made 
automotive products, and movement toward EU-style third party 
certification requirements reduce the competitiveness of U.S. products. 
Equivalent or greater safety or environmental performance can be 
achieved with comparable U.S. regulations and certification measures.
    The ITA Automotive Team, in close coordination with the ITA 
Standards Team, ITA's Standards Attaches in foreign posts, and 
interagency partners, has successfully rolled back movement toward the 
sole acceptance of EU regulations in various countries, including 
Ecuador, Morocco, Israel, and Chile. Additionally, the teams have been 
able to maintain acceptance of U.S. regulations in major markets such 
as the Gulf Cooperation Council (GCC) and Colombia. The ITA Automotive 
Team is also actively working to preserve or extend market access in 
Malaysia, Vietnam, the Philippines, India, Brazil, Argentina, and Costa 
Rica.
    These efforts involve engaging our trading partners in technical 
outreach on the U.S. regulatory system and advocating for acceptance of 
U.S. compliant products. This work must be sustained and strengthened. 
If confirmed, I will ensure that ITA continues to use every available 
tool to combat the EU's influence on third country markets with respect 
to its auto standards. I will also evaluate how resources are allocated 
to maximize effectiveness of our mission.
    I look forward to working collaboratively with your office and with 
the ITA staff, interagency partners, and industry stakeholders to 
continue to develop and strengthen our international strategy to 
maintain acceptance of U.S. compliant vehicles and parts globally.

    Question 2. The number of countries that accept motor vehicles 
certified to U.S. auto safety standards has been declining in recent 
years. This trend is due in large part to the well-organized and 
successful efforts by the EU to persuade other countries to accept 
vehicles certified to their standards. I understand that the U.S. 
negotiators are making a concerted effort to ``lock-in'' acceptance of 
U.S. vehicles in the NAFTA talks and that the acceptance of U.S.-
certified vehicles will be one of the topics discussed during the KORUS 
(Korean free trade agreement) talks. Will you pledge to support 
including these provisions in all future U.S. FTAs?
    Answer. If confirmed, I will work to ensure that acceptance of U.S. 
automotive safety standards is a priority in all ongoing and future FTA 
discussions. Better leveraging our FTA negotiations can be an effective 
tool to countering the EU's efforts to promote its auto safety 
standards (to the detriment of U.S. standards), and to avoid broader 
global automotive regulatory fragmentation.
    I fully support U.S. negotiators' efforts to secure commitments to 
accept automotive products engineered to U.S. safety standards as part 
of the NAFTA renegotiations. Although both Mexico and Canada currently 
accept U.S. automotive products, achieving this commitment as part of a 
renegotiated NAFTA will set a vital precedent and model for future U.S. 
FTAs, mirroring the approach used by the EU in all of its recent FTAs. 
Doing so will also send an important commercial and political message 
of North American solidarity and help facilitate efforts for the NAFTA 
countries to jointly pursue recognition of those safety standards in 
other markets.
    I also recognize that, despite the existence of KORUS, U.S. 
automotive exports continue to face significant regulatory hurdles in 
South Korea. If confirmed I will closely monitor the ongoing KORUS 
discussions and make sure that progress on automotive standards is a 
top priority.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                         to Nazakhtar Nikaktar
Tourism and Trade Work.
    Question 1. Would you agree that trade and international 
cooperation have a direct impact on tourism? What specifically will you 
do on a regular basis in this role to help expand the interests of 
bringing international visitors to one of America's best destinations 
for both indoor and outdoor activities, namely Nevada--where we saw 
over eight million international visitors in Las Vegas alone in 2016, 
accounting for $11 billion in spending?
    Answer. Yes, trade and international cooperation have a direct and 
important impact on tourism in the United States, and indeed our 
economic ties and alliances with the global community are strengthened 
through international tourism.
    If confirmed as Assistant Secretary, I will ensure that Industry & 
Analysis's National Travel and Tourism Office continues to create a 
positive climate for growth in travel and tourism to all states by, 
inter alia, (1) coordinating efforts across Federal agencies through 
the Tourism Policy Council to reduce international barriers to tourism, 
(2) working with private and public stakeholders to administer joint 
tourism marketing efforts, and (3) making available to our states and 
businesses travel and tourism statistics to enhance targeted tourism 
initiatives. I also welcome the opportunity to work with your office to 
ensure that tourism to Nevada--a critical component of the state's 
economy--continues to flourish, expand, and create jobs.

    Question 2. And can you provide us a sense of how we can continue 
to improve our outreach worldwide?
    Answer. It is important that the Department of Commerce's National 
Travel and Tourism Office continue to promote travel to the United 
States by representing U.S. tourism interests through intergovernmental 
organizations (e.g., OECD, APEC, United Nations). It is also important 
to advance initiatives that facilitate travel to the United States, 
such as aviation liberalization, the streamlining of visa application 
processes, improvements to customer service at ports of entry, and the 
enhancement of passenger screening. All such initiatives must also 
ensure the security of our borders, the safety of the traveling public, 
and the safety of Americans at home.

    Question 3. What are the trends we are currently seeing in 
international tourism, in spite of the rhetoric and policies of this 
administration?
    Answer. The travel and tourism industry is one of the largest 
growing industries in the United States. For example, over 65 million 
tourists visited the United States in 2016 and contributed over 1.5 
trillion U.S. dollars to GDP (directly and indirectly, including the 
wider effects from investment, the supply chain and induced income 
impacts). The industry is forecasted to contribute 1.6 trillion dollars 
to U.S. GDP in 2017, and more than 2.6 trillion dollars by the year 
2027. On average in 2016, each visitor to the United States spent over 
$4,000 per visit, and tourism spending supported directly and 
indirectly over 14.2 million jobs in 2016 (9.4 percent of total 
employment). These trends are projected to increase each year for the 
next decade, making travel and tourism an integral component of the 
U.S. economy.

    Question 4. Also on the subject of tourism, can you please provide 
me your thoughts on Brand USA? Do you support Federal funding of Brand 
USA? If yes, please help me reconcile what your position will be as the 
Trump Administration considers cutting funding for Brand USA again in 
their FY19 budget?
    Answer. Given the importance of travel and tourism to the U.S. 
economy, if confirmed, I will commit to being a strong advocate for 
public-private partnerships that promote the United States as a tourist 
destination, and will do so based on the Administration's and 
Congress's approved budgets and policies.

    Small Businesses and Workers. In your remarks, you've raised U.S. 
corporations, and how your previous experiences have prepared you for 
this role.
    Question 5. Since the President has often touted how badly workers 
have come out from actions taken by our country, in trade, for example, 
can you tell me how you balance preserving the trade interests of these 
corporations, with protecting and staying true to American workers, and 
American small businesses, who may have different needs or priorities?
    Answer. It is critically important that the United States 
Government continue to advocate for both fair trade at home and open 
markets abroad. Those two objectives must coexist in order for the 
United States and its trading partners to benefit from reciprocal, 
mutually beneficial trade relationships.
    For many years, however, U.S. industries' competitive positions 
have been severely compromised by our trading partners' unfair trade 
practices. For example, within the United States, the importation of 
dumped and subsidized goods, market-distorting behavior of state owned 
enterprises (``SOEs''), and the misappropriation of intellectual 
property and technical know-how by foreign competitors have caused 
substantial injury to U.S. firms, both large and small. Abroad, the 
global oversupply of goods at unfairly low prices, barriers to market 
access, and intellectual property and patent infringement have made it 
exceedingly difficult for U.S. firms to export their goods and 
services. These problems have caused countless U.S. industries to 
contract or erode, and they threaten the extinction of many others. 
Solutions are needed.
    If confirmed, I will commit to working proactively with bureaus 
within the Department of Commerce and collaboratively with other U.S. 
Government agencies and industry leaders to assess the full range of 
impediments that each of our industries face in trade, and will work 
with President Trump's Administration, the United States Trade 
Representative's office, and bilaterally and multilaterally with our 
trading partners to ensure that playing fields are level for U.S. 
industries at home and overseas. While short-term solutions may at 
times involve utilizing trade remedy tools that are permitted under 
U.S. and international trade laws (including trade adjustment 
assistance), I will also commit to correcting distortions through trade 
policy negotiations with our trading partners in order to effectuate 
long-term solutions.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
